No. ________
IN THE

Supreme Court of the United States

d

ZAINAB MERCHANT; SUHAIB ALLABABIDI ; SIDD BIKKANNAVAR ;
AARON GACH ; ISMAIL ABDEL -RASOUL aka ISMA’IL KUSHKUSH ;
DIANE MAYE ZORRI; MOHAMMED AKRAM SHIBLY; MATTHEW WRIGHT,
—v.—

Petitioners,

ALEJANDRO MAYORKAS , SECRETARY OF THE U.S. DEPARTMENT OF
HOMELAND SECURITY, in his official capacity; TROY A. MILLER ,
SENIOR OFFICIAL PERFORMING THE DUTIES OF THE COMMISSIONER
OF U.S. CUSTOMS AND BORDER PROTECTION, in his official capacity;
TAE D. JOHNSON , ACTING DIRECTOR OF U.S. IMMIGRATION AND
CUSTOMS ENFORCEMENT, in his official capacity,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Adam Schwartz
Sophia Cope
Saira Hussain
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
Jessie J. Rossman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
MASSACHUSETTS , INC .
211 Congress Street
Boston, MA 02110

Esha Bhandari
Counsel of Record
Hugh Handeyside
Nathan Freed Wessler
Ben Wizner
Hina Shamsi
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
ebhandari@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005

QUESTION PRESENTED
Does the Fourth Amendment require that
searches of electronic devices at the U.S. border be
conducted pursuant to a warrant based on probable
cause, or at least pursuant to an officer’s
determination of reasonable suspicion that the device
contains digital contraband?

i

PARTIES TO THE PROCEEDING
In addition to the parties appearing in the
caption of the case on the cover page, Ghassan
Alasaad, Nadia Alasaad, and Jérémie Dupin were
plaintiffs in the proceedings below.
RELATED PROCEEDINGS
Alasaad v. Mayorkas, U.S. Court of Appeals for the
First Circuit, Nos. 20-1077, 20-1081. Corrected
Opinion issued February 9, 2021;
Alasaad v. Nielsen, U.S. District Court for the District
of Massachusetts, No. 1:17-cv-11730-DJC.
Memorandum and Order on parties’ crossmotions for summary judgment issued
November 12, 2019, and Judgment entered
November 21, 2019. Judgment following
mandate issued by the Court of Appeals
entered on April 21, 2021.
Alasaad v. Nielsen, U.S. District Court for the District
of Massachusetts, No. 1:17-cv-11730-DJC.
Memorandum and Order denying motion to
dismiss issued May 9, 2018.

ii

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
STATEMENT OF JURISDICTION ........................... 1
CONSTITUTIONAL PROVISION INVOLVED ........ 1
STATEMENT OF THE CASE.................................... 2
REASONS FOR GRANTING THE WRIT ............... 11
I.

THE FEDERAL COURTS OF APPEALS
ARE DIVIDED ON THE FOURTH
AMENDMENT’S REQUIREMENTS FOR
BORDER SEARCHES OF ELECTRONIC
DEVICES .......................................................... 11
A.

B.

The Circuits Have Adopted Conflicting
Rules on the Permissible Bounds
of Border Searches of Electronic
Devices ...................................................... 12
1.

The First Circuit ............................... 12

2.

The Ninth Circuit ............................. 13

3.

The Fourth Circuit............................ 13

4.

The Eleventh Circuit ........................ 14

The Circuits Are Divided on Whether
and What Level of Individualized
Suspicion Is Required ............................... 15

iii

C.

II.

The Circuits Are Divided on the
Permissible Scope of Warrantless
Border Device Searches ............................ 16

THIS CASE PRESENTS AN IMPORTANT
AND RECURRING QUESTION ON
CONSTITUTIONAL PRIVACY RIGHTS
IN THE DIGITAL AGE .................................... 17

III. THIS CASE IS AN IDEAL VEHICLE TO
RESOLVE THESE CONFLICTS ..................... 20
IV. THE DECISION BELOW IS INCORRECT .... 23
A.

B.

The First Circuit Erred in Holding
that a Warrant Is Not Required for
Electronic Device Searches at the
Border ........................................................ 24
1.

Riley’s Reasoning Compels a Warrant
Requirement for Border Searches of
Electronic Devices............................. 24

2.

This Court Has Left Open the
Possibility That Certain Border
Searches Require a Warrant ............ 30

3.

The First Circuit Misconstrued
This Court’s Precedent on Warrant
Exceptions ......................................... 30

The First Circuit Erred by Not Holding,
in the Alternative, that all Device
Searches at the Border Require
Reasonable Suspicion that the Device
Contains Digital Contraband ................... 32

CONCLUSION.......................................................... 35

iv

APPENDIX
Appendix A, Court of appeals opinion,
Feb. 9, 2021 ....................................................... 1a
Appendix B, District court judgment,
Nov. 21, 2019................................................... 29a
Appendix C, District court summary judgment
memorandum and order, Nov. 12, 2019......... 32a
Appendix D, District court memorandum and order
denying motion to dismiss, May 9, 2018 ........ 92a
Appendix E, Plaintiffs’ supplemental statement of
undisputed material facts, July 12, 2019 ... 156a
Appendix F, Plaintiffs’ response and reply in
support of statement of undisputed material
facts, July 3, 2019 ......................................... 159a
Appendix G, Homeland Security Investigations
legal update, May 11, 2018........................... 284a
Appendix H, U.S. Customs and Border
Protection policy directive, Jan. 4, 2018 ...... 286a
Appendix I, U.S. Immigration and Customs
Enforcement policy directive,
Aug. 18, 2009 ................................................ 311a
Appendix J, District court final judgment,
April 21, 2021 ................................................ 332a

v

TABLE OF AUTHORITIES
CASES
Arizona v. Gant,
556 U.S. 332 (2009) ............................................... 31
Carpenter v. United States,
138 S. Ct. 2206 (2018) ..................................... 18, 19
Carroll v. United States,
267 U.S. 132 (1925). .............................................. 26
City of Indianapolis v. Edmond,
531 U.S. 32 (2000) ................................................. 27
Collins v. Virginia,
138 S. Ct. 1663 (2018) ........................................... 32
Florida v. Royer,
460 U.S. 491(1983) ................................................ 18
Katz v. United States,
389 U.S. 347 (1967) ............................................... 18
Kyllo v. United States,
533 U.S. 27 (2001) ................................................. 18
Riley v. California,
573 U.S. 373 (2014) ........................................passim
United States v. Caballero,
178 F. Supp. 3d 1008 (S.D. Cal. 2016) .................. 20
United States v. 12 200-Foot Reels of Super 8mm.
Film, 413 U.S. 123 (1973)...................................... 27
United States v. Aigbekaen,
943 F.3d 713 (4th Cir. 2019) ........................... 14, 16
United States v. Cano,
934 F.3d 1002 (9th Cir. 2019) ........................passim

vi

United States v. Cotterman,
709 F.3d 952 (9th Cir. 2013) ....................... 6, 12, 13
United States v. Flores-Montano,
541 U.S. 149 (2004) ............................................... 30
United States v. Jones,
565 U.S. 400 (2012) ............................................... 18
United States v. Kolsuz,
890 F.3d 133 (4th Cir. 2018) ..........................passim
United States v. Molina-Isidoro,
884 F.3d 287 (5th Cir. 2018) ................................. 28
United States v. Molina-Isidoro,
267 F. Supp. 3d 900 (W.D. Tex. 2016) .................. 20
United States v. Montoya de Hernandez,
473 U.S. 531 (1985) ........................................passim
United States v. Thirty-Seven Photographs,
402 U.S. 363 (1971) ............................................... 27
United States v. Touset,
890 F.3d 1227 (11th Cir. 2018) ................. 14, 15, 16
United States v. Vergara,
884 F.3d 1309 (11th Cir. 2018) ......................passim
CONSTITUTION
U.S. Const. amend. IV .......................................passim
OTHER AUTHORITIES
CBP Statement on Border Search of Electronic
Devices (Oct. 30, 2019), https://perma.cc/JX8KBN5B ........................................................................ 7
Pet. for a Writ of Cert., United States v. Cano,
No. 20-1043 (Jan. 29, 2021)................................... 23
vii

PETITION FOR A WRIT OF CERTIORARI
Petitioners
Zainab
Merchant,
Suhaib
Allababidi, Sidd Bikkannavar, Aaron Gach, Ismail
Abdel-Rasoul aka Isma’il Kushush, Diane Maye Zorri,
Mohammed Akram Shibly, and Matthew Wright
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the First Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App.
1a) is reported at Alasaad v. Mayorkas, 988 F.3d 8 (1st
Cir. 2021). The district court memorandum and order
on cross-motions for summary judgment (Pet. App.
32a) is reported at Alasaad v. Nielsen, 419 F. Supp. 3d
142 (D. Mass. 2019). The district court judgment
entering injunctive and declaratory relief (Pet. App.
29a) is not reported. The district court judgment
vacating injunctive and declaratory relief (Pet. App.
332a) is not reported.
STATEMENT OF JURISDICTION
The court of appeals issued its decision on
February 9, 2021 (Pet. App. 1a). This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment
Constitution provides:

to

the

The right of the people to be secure in
their persons, houses, papers, and
effects, against unreasonable searches
and seizures, shall not be violated, and
no Warrants shall issue, but upon
1

U.S.

probable cause, supported by Oath or
affirmation, and particularly describing
the place to be searched, and the persons
or things to be seized.
STATEMENT OF THE CASE
Petitioners filed a civil action against
Respondents the U.S. Department of Homeland
Security (“DHS”), U.S. Customs and Border
Protection (“CBP”), and U.S. Immigration and
Customs Enforcement (“ICE”), after being subjected
to highly invasive searches of their cell phones,
laptops, and other electronic devices at the U.S.
border. As the undisputed summary judgment record
in this case demonstrates, the government’s policies
and practices subject travelers to unfettered searches
of their most private digital communications,
photographs, and files, untethered from the
government’s interest in conducting warrantless
searches at the border—namely, to uncover
contraband. Petitioners contend that CBP’s and ICE’s
policies and practices permitting suspicionless and
warrantless searches of electronic devices at the
border violate the Fourth Amendment, because such
searches must be conducted pursuant to a warrant
based on probable cause, or at least an officer’s
determination of reasonable suspicion that the device
contains digital contraband.
A.

Searches of Petitioners

Like the millions of people who cross the U.S.
border each year, Petitioners in this case come from
all walks of life. They are the editor of a media
organization, the operator of a security technology
business, a NASA engineer, a journalist, an artist, a
filmmaker, a computer programmer, and a university
2

professor who formerly served as a U.S. Air Force
captain. They are U.S. citizens. All were subjected to
warrantless searches of their electronic devices at the
border. Pet. App. 250a–52a, 157a, 254a–63a (SUMF
¶¶ 124–27, 131–49). 1 None of the Petitioners have
been accused of wrongdoing in connection with these
border device searches.
Respondents’ searches of Petitioners’ devices
were highly invasive. For example, Zainab Merchant
had her smartphone searched by CBP officers upon
return to the U.S. She wears a headscarf in public in
accordance with her religious beliefs, and she objected
to male CBP officers searching her device because it
contained private images showing her without her
headscarf. Pet. App. 258a (SUMF ¶ 139). CBP officers
searched Merchant’s phone and asked her questions
about her religious affiliation. Pet. App. 257a (SUMF
¶¶ 137–38). When returning to the U.S. from a trip
abroad after the filing of this lawsuit, Merchant’s
phone was searched again, even though she told the
officer that it contained privileged communications
with one of her attorneys in this case. Pet. App. 259a–
60a (SUMF ¶ 142). Merchant observed a CBP officer
reading her communications with her attorney. Id.
Merchant has been subject to border device searches
on four separate occasions. Pet. App. 256–60a (SUMF
¶¶ 136–42).
Isma’il Kushkush, a freelance journalist, had
multiple electronic devices searched at Washington
All cites in this brief to “SUMF” refer to Pet. App. 156a–283a,
which comprises part of the summary judgment record, namely
Plaintiffs’ Reply in Support of Plaintiffs’ Statement of
Undisputed Material Facts, ECF No. 99-1; and Plaintiffs’
Supplemental Statement of Undisputed Material Facts, ECF No.
103-1.

1

3

Dulles airport. Pet. App. 255a–56a (SUMF ¶¶ 133–
35). On a separate occasion when he entered Vermont
via bus from Canada, officers searched his
smartphone for approximately one hour. Pet. App.
256a (SUMF ¶ 135). Akram Shibly, a filmmaker and
graduate student, had his smartphone searched after
crossing the land border into New York state. Pet.
App. 260a–61a (SUMF ¶¶ 143–44).
Border officers appear to have used special
equipment to search the devices of at least three of the
Petitioners.
Matthew
Wright,
a
computer
programmer, had his laptop, smartphone, and digital
camera confiscated at the Denver airport. An ICE
agent “attempted to image Mr. Wright’s laptop with
MacQuisition software, and a CBP forensic scientist
extracted data from the SIM card in Wright’s phone
and from his camera.” Pet. App. 261a–62a (SUMF
¶¶ 145–47). They also retained the devices, and when
a CBP officer told him it might take a year to return
them, Wright spent $2,419.97 for a new laptop and
phone, which he needed for work. Pet. App. 270a–71a
(SUMF ¶¶ 163–64). His devices were returned after
56 days. Pet. App. 271a (SUMF ¶ 166). When Sidd
Bikkannavar, an optical engineer at NASA’s Jet
Propulsion Laboratory, arrived in Houston after an
international trip, CBP officers searched his
smartphone and one officer told him afterward that
they had used “algorithms” to do so, Pet. App. 251a–
52a (SUMF ¶ 127), which would require using
equipment to conduct the search.
Suhaib Allababidi had two smartphones
confiscated and sent to the “Regional Computer
Forensic Lab” and another location. Pet. App. 268a–
69a (SUMF ¶¶ 156–59). The government kept one
phone more than two months, and the second more
4

than ten months. The latter was returned only after
the filing of this lawsuit. Pet. App. 269a (SUMF
¶¶ 160–61). Allababidi spent more than $1,000 on
replacement phones. Pet. App. 268a (SUMF ¶ 158).
Three Petitioners were searched on multiple
occasions: Merchant, Kushkush, and Allababidi. Pet.
App. 250a–51a, 157a, 255a–57a, 259a–60a (SUMF
¶¶ 125, 125.1, 134–35, 137, 140–42). Two were
searched after filing the instant lawsuit. Pet. App.
157a, 259a–60a (SUMF ¶¶ 125.1, 140–42). Four had
their information retained after border officers
searched their devices. Pet. App. 264a (SUMF ¶ 150).
The information retained includes descriptions of the
contents of Petitioners’ devices. Id.
Petitioners travel internationally on a regular
basis, and are subject to CBP’s and ICE’s device
search policies every time they leave or return to the
U.S. Pet. App. 274a–81a (SUMF ¶¶ 169–89). CBP and
ICE maintain records of Petitioners’ past searches,
and border officers may consult those records when
deciding on future device searches, Pet. App. 192a–
93a, 196a, 199a–207a, 264a (SUMF ¶¶ 5, 14, 24–51,
150), putting Petitioners at higher risk of repeat
searches, as three Petitioners have already
experienced. The four Petitioners whose information
was unlawfully retained also seek expungement of
that information. Pet. App. 264a (SUMF ¶ 150).
B.

CBP and ICE Policies and Practices
Governing Border Device Searches

CBP and ICE issued border device search
policies in 2009 authorizing warrantless and
suspicionless searches of electronic devices at the
border. Pet. App. 35a. CBP updated its policy in
January 2018, Pet. App. 35a–36a, after the filing of
5

this lawsuit, and several years after the Ninth
Circuit’s decision in United States v. Cotterman, 709
F.3d 952, 957 (9th Cir. 2013) (en banc), which held
that border officers must have reasonable suspicion
for what the court termed a “forensic” device search
using computer equipment to analyze data on a
device.
CBP’s currently-operative January 2018 policy
(“CBP Policy”) distinguishes between “basic” and
“advanced” searches.” Pet. App. 35a–36a. In a basic
search, an officer reviews the contents of a device
without using external equipment, Pet. App. 164a
(SUMF ¶ 8), but is otherwise free to search anything
accessible on the device, including by using a device’s
internal search tools, Pet. App. 216a (SUMF ¶ 71). In
an advanced search, an officer connects external
equipment to a traveler’s device to access, review,
copy, and/or analyze the contents of the device. Pet.
App. 164a (SUMF ¶ 8); Pet. App. 294a (CBP Policy
§ 5.1.4).
The CBP Policy permits officers to conduct
basic searches without any suspicion or other
limitation. Pet. App. 195a (SUMF ¶ 10); Pet. App.
293a–94a (CBP Policy § 5.1.3). To conduct an
advanced search, the CBP Policy requires “reasonable
suspicion of activity in violation of the laws enforced
or administered by CBP.” Pet. App. 195a (SUMF ¶ 9);
Pet. App. 294a (CBP Policy § 5.1.4). Where officers
believe there is a “national security concern,” they
may conduct an advanced search without
individualized suspicion. Pet. App. 195a (SUMF ¶ 9);
Pet. App. 294a (CBP Policy § 5.1.4). In conducting both
basic and advanced searches, the CBP Policy prohibits
officers from accessing “information that is solely
stored remotely.” Pet. App. 293a (CBP Policy § 5.1.2).
6

However, officers may view information that
originated on the internet, such as web-based email,
when it has been “cached” on the device, i.e., copied to
and still accessible on a device even when
disconnected from the internet. Pet. App. 217a (SUMF
¶ 75).
ICE’s border search policy (“ICE Policy”) is
governed by a 2009 policy and an ICE Broadcast
issued in 2018. Pet. App. 197a (SUMF ¶ 17). Like the
CBP Policy, the ICE Policy allows basic searches of
electronic devices without any suspicion and advanced
searches with reasonable suspicion. Pet. App. 197a
(SUMF ¶¶ 18–19). 2 Both the ICE and CBP policies
permit the agencies to retain information related to
“immigration, customs, and other enforcement
matters,” Pet. App. 196a, 198a–99a (SUMF ¶¶ 13, 22)
(citing CBP Policy § 5.5.1.2 and 2009 ICE Policy
§ 8.5(1)(b)), and to share this information with
“federal, state, local, and foreign law enforcement
agencies,” Pet. App. 196–99a (SUMF ¶¶ 14, 24).
The frequency of electronic device searches at
the border has increased dramatically in recent years.
CBP reported searching 40,913 devices in fiscal year
2019, 3 an increase of more than 22 percent from fiscal
year 2018 (33,295) and up more than 700 percent from
fiscal year 2012 (5,085). Pet. App. 207a–08a (SUMF
¶ 52). Because of lapses in record-keeping, these CBP
figures are undercounts. See Pet. App. 212a–13a
2 The ICE Policy does not have a “national security concern”
exception to reasonable suspicion for advanced searches.
Compare Pet. App. 197a (SUMF ¶ 18) with Pet. App. 195a
(SUMF ¶ 9). See Pet. App. 36a.

CBP Statement on Border Search of Electronic Devices (Oct. 30,
2019), https://perma.cc/JX8K-BN5B.
3

7

(SUMF ¶¶ 59–62). While ICE conducts hundreds of
advanced searches each year, it does not maintain
records of basic searches it conducts. Pet. App. 210a–
11a (SUMF ¶¶ 56, 58).
The last decade has seen major advances in the
storage capacities of electronic devices, as well as in
the technological capabilities enabling efficient
searches. See Riley v. California, 573 U.S. 373, 385
(2014) (recognizing innovations in cell phone
technology such that a “smart phone of the sort taken
from Riley was unheard of ten years ago”). “Even a
basic search alone may reveal a wealth of personal
information.” Pet. App. 67a (D. Ct. SMJ Op. at 29)
(citing summary judgment record). Electronic devices
“can contain a very large volume of information,
including . . . prescription information, information
about employment, travel history and browsing
history.” Id. This information “can be accessed during
not just the [advanced] searches under the CBP and
ICE policies, but also under a basic search.” Id. “Using
a device’s native operating system, a basic search can
access content from the allocated space physically
present on the device,” which typically will include
personal emails, texts, photographs, health
information, personal contacts, and documents. Id. A
basic search can also “reveal ‘the date/time associated
with the content, usage history, sender and receiver
information or location data.’” Pet App. 67a–68a. An
“agent conducting a basic search may use the device’s
own internal search tools to search for particular
words or images,” such as doing a keyword search.
Pet. App. 68a. Thus, “even a basic search allows for
both a general perusal and a particularized search of
a traveler’s personal data, images, files and even
sensitive information.” Id.
8

Respondents conduct warrantless and often
suspicionless device searches to gather potential
evidence of unlawful conduct with no nexus at all to
the admissibility of people and goods. Pet. App. 221a–
22a, 226a–27a (SUMF ¶¶ 81–83, 87–88). Respondents
assert authority to gather evidence about a wide range
of law enforcement matters, including evidence about
potential violations of financial, tax, environmental,
consumer protection, or other laws—all without a
warrant or individualized suspicion. Pet. App. 224a
(SUMF ¶ 84). Respondents conduct warrantless,
suspicionless searches of electronic devices for
intelligence gathering, Pet. App. 225a (SUMF ¶ 86),
and search the devices of travelers who are not
suspected of any wrongdoing, in order to look for
evidence about other people, Pet. App. 228a (SUMF
¶¶ 89–90). Respondents do not know how many
warrantless or suspicionless searches of devices
uncover digital contraband, or result in arrests,
prosecutions, or convictions. Pet. App. 233a (SUMF
¶ 99); see also Pet. App. 234a–35a (SUMF ¶¶ 101,
102).
C.

Proceedings Below

Petitioners filed suit in September 2017,
seeking declaratory and injunctive relief, including
expungement of their unlawfully searched and
retained information. The district court denied a
motion to dismiss, Pet. App. 92a, and then granted in
part Petitioners’ motion for summary judgment. Pet.
App. 29a. It looked to this Court’s decision in Riley for
guidance in assessing the significant privacy interests
that travelers have in their electronic devices. Pet.
App. 62a–66a. In Riley, this Court considered the
search incident to arrest exception to the Fourth
Amendment’s warrant requirement as it applies to
9

cell phones that can store vast amounts of personal
data. The Court recognized that police are generally
permitted to search non-digital items on a person
incident to arrest without a warrant. But it held that
because of the dramatically greater privacy intrusion
that a search of a cell phone constitutes, the Fourth
Amendment requires a warrant to search a cell phone
incident to arrest. Riley, 573 U.S. at 401, 403.
The district court reasoned that the border
search exception—which, like the search incident to
arrest exception, permits certain warrantless (and
usually suspicionless) searches—should similarly be
modified in light of the greater privacy intrusion that
a search of an electronic device constitutes, and the
reduced likelihood that an electronic device will
contain contraband. The court held that because of the
greater privacy concerns raised by searching
electronic devices and the reduced government
interests given the limited justifications for the border
search exception, the Fourth Amendment requires
reasonable suspicion that a device contains digital
contraband. The court rejected Petitioners’ further
argument that such searches require a warrant based
on probable cause. Pet. App. 72a–78a.
The court of appeals reversed, holding that
Respondents’ policies permitting warrantless and
suspicionless searches do not violate the Constitution.
The court held that neither probable cause nor a
warrant is required for an electronic device search at
the border. Pet. App. 17a–19a. It upheld suspicionless
“basic” searches, which can include an officer’s perusal
of everything on a device. And it also upheld
Respondents’
policies
authorizing
“advanced”
searches on reasonable suspicion (and suspicionless
advanced searches where there is a “national security
10

concern”). Pet. App. 18a–21a. The court of appeals also
rejected the district court’s conclusion that
warrantless device searches at the border must be
limited to searching for digital contraband, holding
that officers can search for any “violation of the laws
enforced or administered by CBP or ICE,” “borderrelated crime,” “cross-border crime,” or any other
“crime at international borders.” Pet. App. 19a–22a.
REASONS FOR GRANTING THE WRIT
I.

THE FEDERAL COURTS OF APPEALS
ARE DIVIDED ON THE FOURTH
AMENDMENT’S REQUIREMENTS FOR
BORDER SEARCHES OF ELECTRONIC
DEVICES.

Ever since this Court’s 2014 decision in Riley,
573 U.S. 373, holding that cell phone searches
incident to arrest require a warrant, courts have
grappled with how the border search exception applies
to searches of electronic devices. The First, Fourth,
Ninth, and Eleventh Circuits have each decided some
aspect of this question—and none of them agree. The
courts of appeals are split on (1) whether and what
level of individualized suspicion is required for border
searches of electronic devices, and (2) whether
warrantless border searches of electronic devices must
be limited to searches for digital contraband, or
otherwise limited in scope.
As a result, travelers returning home from a
trip abroad are subject to different device search rules
depending on whether they pass customs at Boston
Logan International Airport, San Francisco
International
Airport,
Washington
Dulles
International Airport, or Hartsfield-Jackson Atlanta
11

International Airport. People’s Fourth Amendment
rights should not vary by the airport they arrive at in
the United States. Only this Court can provide the
uniform national guidance needed.
A.

The Circuits Have Adopted Conflicting
Rules on the Permissible Bounds of
Border Searches of Electronic Devices.

Four federal courts of appeals have now ruled
on how the Fourth Amendment applies to border
searches of electronic devices. Each has come up with
a different approach.
1.

The First Circuit

In the decision below, the First Circuit held
that neither a warrant nor probable cause is required
for any device search at the border. Pet. App. 16a. It
upheld the challenged CBP and ICE policies, which
permit basic searches without suspicion, and permit
advanced searches “[i]n instances in which there is
reasonable suspicion of activity in violation of the laws
enforced or administered by CBP, or in which there is
a national security concern.” Pet. App. 5a, 7a. 4 And it
held that warrantless border device searches need not
be limited to searches for digital contraband, but can
search for any “violation of the laws enforced or
administered by CBP or ICE,” “border-related crime,”
Petitioners use the terms “basic” and “manual” as well as
“advanced” and “forensic” interchangeably here, with the latter
two terms referring to electronic device searches involving the
connection of external equipment to analyze, review, and/or copy
the contents of the device. Petitioners note, however, that some
courts upholding a suspicionless manual device search were not
examining Respondents’ policies and the meaning and scope of
“basic” searches as defined in the CBP and ICE policies. See, e.g.,
Cotterman, 709 F.3d at 960.
4

12

“cross-border crime,” or any other “crime
international borders.” Pet. App. 19a–22a.
2.

at

The Ninth Circuit

The Ninth Circuit permits officers to conduct
“manual” device searches without individualized
suspicion, but requires reasonable suspicion for
“forensic” border searches of electronic devices, that
is, searches that use separate equipment to search the
device. United States v. Cano, 934 F.3d 1002, 1016
(9th Cir. 2019), petition for certiorari pending (filed
Jan. 29, 2021). The Cano panel recognized it could not
reconsider the rule distinguishing manual and
forensic searches that the Ninth Circuit first
delineated in Cotterman, 709 F.3d 952, an en banc
decision that pre-dated Riley. See Cano, 934 F.3d at
1014–16. The Cano court held that all “cell phone
searches at the border, whether manual or forensic,
must be limited in scope to a search for digital
contraband,” and that forensic searches require
reasonable suspicion “that the cell phone contains
digital contraband.” Cano, 934 F.3d at 1007.
3.

The Fourth Circuit

The Fourth Circuit held that “some measure of
individualized suspicion” is required for forensic
searches of electronic devices at the border. United
States v. Kolsuz, 890 F.3d 133, 137, 144 (4th Cir.
2018).
As to the permissible scope of warrantless
device searches, the Fourth Circuit held that there
must be a “direct link between the predicate for the
search and the rationale for the border exception.” Id.
at 143. It deemed that link satisfied where border
officers sought information about an ongoing
transnational crime, namely, illegal firearms exports.
13

Id. at 143–44. Warrantless searches may be
undertaken, the court explained, not only for “the
direct interception of contraband as it crosses the
border, but also the prevention and disruption of
ongoing efforts to export contraband illegally, through
searches initiated at the border.” Id. The Fourth
Circuit further refined this rule in United States v.
Aigbekaen, holding that forensic border searches of
electronic devices must “bear[] some nexus to the
border search exception’s purposes of protecting
national security, collecting duties, blocking the entry
of unwanted persons, or disrupting efforts to export or
import contraband.” 943 F.3d 713, 721 (4th Cir. 2019).
The Aigbekaen court held that border officers’
search of a device in support of an ongoing domestic
criminal investigation was therefore an impermissible
use of the border search exception. Id. at 721–22.
Thus, in the Fourth Circuit, border officers cannot rely
on the border search exception, but must “secure a
warrant before conducting an intrusive forensic
search of a traveler’s digital device, solely to seek
evidence of crimes with no transnational component.”
Id. at 722. The court reasoned that the “[g]overnment
may not ‘invoke[ ] the border exception [to the Fourth
Amendment’s warrant requirement] on behalf of its
generalized interest in law enforcement and
combatting crime.” Id. at 721 (quoting Kolsuz, 890
F.3d at 143).
4.

The Eleventh Circuit

The Eleventh Circuit has held that “no
suspicion is necessary to search electronic devices at
the border”—whether forensic or manual. United
States v. Touset, 890 F.3d 1227, 1229 (11th Cir. 2018);
see also United States v. Vergara, 884 F.3d 1309,
14

1311–13 (11th Cir. 2018) (holding that border
searches of electronic devices do not require a warrant
or probable cause). Nor does it impose any limit on the
permissible scope of a border search of an electronic
device.
B.

The Circuits Are Divided on Whether and
What Level of Individualized Suspicion Is
Required.

As the summary above illustrates, the courts of
appeals are divided on what level of individualized
suspicion is required for border device searches. Two
circuits, the Fourth and Ninth Circuits, hold that
individualized suspicion is required, at least as to
forensic searches. Kolsuz, 890 F.3d at 137, 140 n.2,
144, 146 n.5; Cano, 934 F.3d at 1007; see also id. at
1015 n.8 (noting the disagreement between the
Eleventh and Ninth Circuit rules). The Eleventh
Circuit holds that no individualized suspicion is
required for any border device search. Touset, 890
F.3d at 1229. And the First Circuit, in the decision
below, held that no individualized suspicion is
required for basic searches. Pet. App. 4a–5a.
Yet the Fourth Amendment recognizes no
distinction between basic and advanced searches.
They are distinct only in their method, and both
expose vast quantities of highly personal information
on an electronic device to the government. Pet. App.
59a–60a (D. Ct. SMJ Op. at 23). This Court in Riley
required a warrant and probable cause for any search
of a cell phone incident to arrest—including the
manual searches conducted in that case—and drew no
distinction based on how the search is done. See Riley,
573 U.S. at 379–80, 403.

15

The courts of appeals are also divided on
whether a warrant is ever required. In Aigbekaen, the
Fourth Circuit held that forensic searches for
domestic criminal law enforcement require a warrant.
See 943 F.3d at 721–22. The Ninth Circuit requires a
warrant where the search seeks anything other than
digital contraband. See Cano, 934 F.3d at 1007. The
First and Eleventh Circuits, by contrast, have rejected
a warrant requirement for any border device search.
See Pet. App. 16a; Touset, 890 F.3d at 1229.
C.

The Circuits Are Divided on the
Permissible Scope of Warrantless Border
Device Searches.

The courts of appeals are also divided on the
permissible scope of warrantless border searches of
electronic devices. The First and Eleventh Circuits
have imposed no meaningful limits on the scope of a
warrantless device search, while the Fourth and
Ninth Circuits have imposed two different scope
restrictions. The Ninth Circuit requires that all
warrantless device searches be limited to a search for
digital contraband. See Cano, 934 F.3d at 1007; see
also Pet. App. 22a (First Circuit acknowledging that
its rejection of a digital contraband limitation is
contrary to the Ninth Circuit). The Fourth Circuit
agrees that some scope restriction applies, but
imposes a different restriction: it requires that
forensic border device searches be limited to searches
“protecting national security, collecting duties,
blocking the entry of unwanted persons, or disrupting
efforts to export or import contraband.” Aigbekaen,
943 F.3d at 721. Thus, for the Fourth Circuit, the
permissible goals of a border search are not limited to
searches for digital contraband itself, but include “the
prevention and disruption of ongoing efforts to export
16

contraband illegally,” Kolsuz, 890 F.3d at 143–44. As
the Cano court acknowledged, “our analysis is in
tension with the Fourth Circuit’s decision in Kolsuz.”
Cano, 934 F.3d at 1017.
In short, the courts of appeals are divided along
the two principal axes regarding border searches of
electronic devices: whether and what level of
individualized suspicion is ever required, and whether
and how warrantless border searches are limited in
their scope. Only this Court can establish a uniform
national rule.
II.

THIS CASE PRESENTS AN IMPORTANT
AND
RECURRING
QUESTION
ON
CONSTITUTIONAL PRIVACY RIGHTS IN
THE DIGITAL AGE.

Resolution of the question presented is a matter
of great importance for the millions of travelers whose
privacy rights are at stake every time they cross the
border, as well as for the border officers who conduct
device searches. At present, four different
constitutional regimes govern federal border officials
in four different circuits. Device searches at the border
are on the rise. And advancing technology
increasingly enables individuals to store more
personal information on their devices, while
empowering
government
agents
to
conduct
increasingly intrusive searches of those devices. The
question presented here is of immediate significance
to everyone who crosses our border with a cell phone
or other electronic device—and these days, that is
virtually every international traveler.
As this Court has explained, pre-digital-age
precedents must not be mechanically applied to
digital-age searches. See, e.g., Riley, 573 U.S. at 386,
17

400; Carpenter v. United States, 138 S. Ct. 2206, 2214
(2018) (cell site location data); United States v. Jones,
565 U.S. 400 (2012) (GPS transmitter placed on
vehicle); cf. Kyllo v. United States, 533 U.S. 27, 34
(2001) (thermal imaging device). “As technology has
enhanced the Government’s capacity to encroach upon
areas normally guarded from inquisitive eyes, this
Court has sought to ‘assure[] preservation of that
degree of privacy against government that existed
when the Fourth Amendment was adopted.’”
Carpenter, 138 S. Ct. at 2214 (quoting Kyllo, 533 U.S.
at 34). Expectations of privacy have traditionally
relied on practical limitations on the government’s
ability to invade personal privacy; where technological
advances have made such invasions “remarkably
easy, cheap, and efficient,” greater Fourth
Amendment protections are required to maintain
privacy. Id. at 2217–18; see also Katz v. United States,
389 U.S. 347, 362 (1967) (recognizing that Fourth
Amendment standards needed to adapt to preserve
privacy in the face of advancing wiretapping
technology).
This Court has long emphasized, moreover,
that any application of exceptions to the Fourth
Amendment’s warrant requirement must be closely
tethered to the underlying justifications for those
exceptions. See Riley, 573 U.S. at 386; Florida v.
Royer, 460 U.S. 491, 500 (1983) (plurality op.)
(warrantless searches “must be limited in scope to
that which is justified by the particular purposes
served by the exception”). Here, as with the exception
for searches incident to arrest, application of the
border search exception must be reconsidered not only
in light of the greatly expanded scale of personal
information accessible to border officers through
18

searches of travelers’ electronic devices, but also in
light of the limited purposes justifying the border
search exception. See, e.g., United States v. Montoya
de Hernandez, 473 U.S. 531, 537 (1985) (regulating
the collection of duties and preventing the importation
of contraband).
Yet lower courts have struggled to assess how
the digital revolution affects the border search
exception. Today, virtually everyone carries an
electronic device that routinely contains more
personal information than could be found in their own
homes. See Riley, 573 U.S. at 396–97. But the analogera rule that ordinary searches at the border are
categorically reasonable without individualized
suspicion, adopted when people did not carry anything
remotely approaching the amount and kinds of
personal information they now carry on electronic
devices, renders every traveler vulnerable to revealing
a vast array of personal details as a condition of
international travel.
Here, as in Riley, “innovation[] in surveillance
tools” necessitates a re-examination of the historical
purposes and protections of the Fourth Amendment.
Carpenter, 138 S. Ct. at 2214. In the absence of direct
guidance from this Court, some lower court judges
have felt constrained by analog-era precedents. The
Eleventh Circuit simply applied analog-era precedent
to border searches of electronic devices, without any
adjustment. Judge Jill Pryor, dissenting, would have
required a warrant for some border searches of
electronic devices, but “[b]ecause Riley did not involve
a border search,” she could only, “at best, attempt to
predict how the Supreme Court would balance the
interests here.” Vergara, 884 F.3d at 1313 (J. Pryor,
J., dissenting). Some district courts would also have
19

required a warrant for a device search at the border,
but felt constrained by pre-Riley circuit precedent.
See, e.g., United States v. Caballero, 178 F. Supp. 3d
1008, 1017–18 (S.D. Cal. 2016) (“If it could, this Court
would apply Riley.”); United States v. Molina-Isidoro,
267 F. Supp. 3d 900, 909 (W.D. Tex. 2016), aff’d, 884
F.3d 287 (5th Cir. 2018) (“Were this Court free to
decide this matter in the first instance, it might prefer
that a warrant be required to search an individual’s
cell phone at the border.”).
Given the recurring problems lower courts face
in determining the proper application of the Fourth
Amendment to electronic device searches at the
border, the increasing frequency and intrusiveness of
such searches, and the division among the courts of
appeals, this Court should resolve the question.
III.

THIS CASE IS AN IDEAL VEHICLE TO
RESOLVE THESE CONFLICTS.

As noted above, the First Circuit’s decision
exacerbates conflicts with respect to both the standard
of suspicion required for device searches and the
permissible scope of those searches—the two key
Fourth Amendment questions that courts have
confronted. The posture and facts of this case, unlike
other cases involving border searches of electronic
devices, would allow this Court to resolve both
conflicts on the basis of a developed record generally
absent in criminal cases, and in so doing provide
guidance for both border officers and the traveling
public.
First, this is a civil case in which both the
requisite standard of suspicion and the purposes
underlying warrantless device searches at the border
have been raised, litigated, and decided. Petitioners
20

have argued for a warrant for all searches of electronic
devices at the border, whether basic or advanced, or,
in the alternative, an officer’s determination of
probable cause, or reasonable suspicion of digital
contraband for all device searches. Respondents have
argued that their policies, which authorize basic
searches without suspicion and advanced searches on
reasonable suspicion (with no suspicion required for a
“national security concern” per the CBP Policy),
comply with the Fourth Amendment. The district
court decided the Fourth Amendment question on the
merits after discovery and cross-motions for summary
judgment, and the court of appeals reversed, again on
the merits. Thus, all aspects of the Fourth
Amendment’s application to border searches of
electronic devices have been raised and litigated in
this case. This includes whether a warrant, probable
cause, reasonable suspicion, or no suspicion is
required, and whether warrantless border searches
must be limited to searching for digital contraband.
Petitioners have standing to raise these
questions
because
they
regularly
travel
internationally with electronic devices and are subject
to Respondents’ border search policies every time they
leave or return to the United States. Indeed, three
Petitioners have been searched multiple times, and
two after filing this lawsuit. Pet. App. 250a–51a, 157a,
255a–57a, 259a–60a (SUMF ¶¶ 125, 125.1, 134–35,
137, 140–42). And four Petitioners seek expungement
of information unlawfully obtained from their
searches. Pet. App. 33a–34a.
Second, this case provides a fully developed
factual record on summary judgment, establishing
critical facts regarding the technological capacities of
electronic devices, the amount and breadth of
21

personal information they contain, and the ease with
which that information can be accessed by border
officers. These considerations proved decisive in Riley,
573 U.S. at 385–86, and here the parties were able to
develop a rich evidentiary record on precisely these
issues. In the district court, the parties conducted
discovery, including document discovery, depositions,
and agreeing to factual stipulations. CBP and ICE
officials testified regarding Respondents’ purported
interests in warrantless and suspicionless border
device searches. This fully developed record, which is
unlikely to exist in a criminal case, will aid the Court
in assessing how the Fourth Amendment should apply
to border searches of electronic devices.
Third, the experiences of the Petitioners in this
case demonstrate the range of travelers’ privacy
interests at stake. Petitioners each have been
subjected to searches of their electronic devices at the
border. Three had their devices searched multiple
times; one traveler was searched four times. Pet. App.
250a–51a, 157a, 255a–57a, 259a–60a (SUMF ¶¶ 125,
125.1, 134–35, 137, 140–42). Two Petitioners were
searched both before and after CBP’s and ICE’s
adoption of their current policies, and after the filing
of this case. Pet. App. 157a, 259a–60a (SUMF
¶¶ 125.1, 140–42). Four Petitioners had their
information retained after border officers searched
their devices. Pet. App. 264a (SUMF ¶ 150).
Petitioners’
devices
contained
examples
of
particularly sensitive materials, including private
photographs without the headscarf one Petitioner
wears in public in accordance with her religious
beliefs, Pet. App. 258a (SUMF ¶ 139), and attorneyclient privileged communications, Pet. App. 259a–60a
(SUMF ¶ 142). Three of the Petitioners whose devices
22

were searched are media professionals: a journalist,
filmmaker, and writer. Pet. App. 255–56a, 260a
(SUMF ¶¶ 133, 136, 143). None of the Petitioners
have been accused of wrongdoing in connection with
their border device searches.
This Court has before it one other petition
addressing a subpart of these issues, seeking review
of the Ninth Circuit’s decision in Cano. See Pet. for a
Writ of Cert., United States v. Cano, No. 20-1043 (Jan.
29, 2021). Cano is a criminal case with a far less
robust factual record, and the search in that case took
place after the traveler was arrested at the border,
which is not the typical fact pattern when border
officers search travelers’ devices. Moreover, the
question presented in the Cano petition addresses
only one of the conflicts between the courts of appeals:
whether a warrantless border search of an electronic
device must be limited to a search for digital
contraband. If this Court is inclined to resolve the
conflict over the permissible scope of a warrantless
border device search, it should also resolve the
inextricably inter-related conflict over what standard
of suspicion is required, and whether or when
warrants are required. Failure to resolve both
questions risks continued confusion and inconsistency
among the lower courts. This case, in which the
district and appellate courts fully considered the
Fourth Amendment question, permits the Court to
resolve both conflicts.
IV.

THE DECISION BELOW IS INCORRECT.

In light of the massive amount of extremely
personal information routinely carried on electronic
devices today, the Fourth Amendment requires that
all searches of electronic devices at the border,
23

whether basic or advanced, be conducted pursuant to
a warrant based on probable cause. At a minimum, it
requires that all border device searches be based on
reasonable suspicion that the device contains digital
contraband. The court of appeals erred in permitting
any warrantless border device searches. It also erred
in permitting any suspicionless device searches,
because all border device searches must be based on
at least reasonable suspicion. Lastly, it erred in failing
to restrict the scope of warrantless device searches to
uncovering digital contraband.
A.

The First Circuit Erred in Holding that a
Warrant Is Not Required for Electronic
Device Searches at the Border.

The First Circuit erroneously held that the
Fourth Amendment requires “neither a warrant nor
probable cause . . . for a border search of electronic
devices.” Pet. App. 16a.
1.

Riley’s
Reasoning
Compels
a
Warrant Requirement for Border
Searches of Electronic Devices.

This Court’s reasoning in Riley leads to the
conclusion that border searches of electronic devices
require a warrant. Cf. Vergara, 884 F.3d at 1313,
1317–19 (J. Pryor, J., dissenting) (applying Riley’s
reasoning and concluding that the forensic border
search of a cell phone at issue in that case “requires a
warrant supported by probable cause”).
As in Riley, a consideration of the relevant
privacy and governmental interests compels a
warrant requirement. Travelers have extraordinary
privacy interests in their electronic devices, as the
record in this case conclusively shows that they
routinely carry devices with vast quantities of highly
24

personal information, including communications,
photographs, browsing history, and contacts that
reveal intellectual and political interests, health and
financial status, and familial and intimate relations,
among other personal details. And the government’s
interests in conducting warrantless device searches at
the border are as a category weaker than for other
warrantless searches because these searches are not
sufficiently tethered to the purposes justifying the
border search exception: preventing the entry of
inadmissible goods and persons. See, e.g., Montoya de
Hernandez, 473 U.S at 537. As with the search
incident to arrest exception, the border search
exception may “strike[] the appropriate balance in the
context of physical objects” such as luggage and
vehicles, but its underlying rationales lack “much
force with respect to digital content on cell phones” or
other electronic devices. Cf. Riley, 573 U.S. at 386.
a.

Privacy Interests in Electronic Devices
Are Substantial.

The privacy interests in cell phones and other
electronic devices are substantial. The information
routinely stored on electronic devices differs
qualitatively and quantitatively from that found in
luggage and other items typically carried across the
border by travelers. See Riley, 573 U.S. at 393–94; Pet.
App. 214a–18a (SUMF ¶¶ 63–76). The data on
electronic devices reveal a detailed account of our
thoughts, associations, and interests, whether
political, religious, sexual, or romantic. They disclose
our financial status, health conditions, and family,
professional, and other relationships. See Riley, 573
U.S. at 395–96. Irrespective of how they are searched,
electronic devices can reveal the “sum of an
individual’s private life.” Id. at 386. Searches of
25

electronic devices thus “bear[] little resemblance” to
searches of luggage or other containers, id., which are
usually “limited by physical realities and tend[] as a
general matter to constitute only a narrow intrusion
on privacy,” id. at 393–94.
b.

The Government’s Interests Are Weak
Because Electronic Devices Are Unlikely
to Contain Contraband.

Border searches of electronic devices also rarely
serve the government’s permissible border search
interests, because they rarely contain the contraband
that the exception was designed to detect. The First
Circuit reasoned erroneously that warrantless border
searches are justified by purposes as broad as
“preventing crime at international borders.” Pet. App.
20a. But this Court’s border search cases have made
clear that the limited purposes of the border search
exception are customs enforcement—that is, to find
and interdict contraband, whether goods smuggled to
avoid duties or goods otherwise prohibited from
entering the country, in the items to be searched—and
preventing the entry of inadmissible persons. As
discussed further below, even when border officers are
searching for digital contraband, Respondents have
no valid reason to seek warrantless access to
electronic devices.
The scope of the border search exception has
always been tied to interdicting contraband and
people not entitled to enter. See Carroll v. United
States, 267 U.S. 132, 154 (1925) (an international
traveler may be stopped at the border and required “to
identify himself as entitled to come in, and his
belongings as effects which may be lawfully brought
in”); Montoya de Hernandez, 473 U.S. at 537
26

(government may “conduct routine searches and
seizures at the border . . . in order to regulate the
collection of duties and to prevent the introduction of
contraband into this country”); United States v. 12
200-Ft. Reels of Super 8mm. Film, 413 U.S. 123, 125
(1973) (discussing the government’s interest in
“prevent[ing] smuggling and . . . prohibited articles
from entry”); United States v. Thirty-seven
Photographs, 402 U.S. 363, 376 (1971) (inspecting
luggage “is an old practice and is intimately associated
with excluding illegal articles from the country”). Yet
there is at best a weak nexus between Respondents’
reasons for seeking warrantless access to devices at
the border and the limited purposes justifying the
border search exception.
First, the record establishes that Respondents
conduct warrantless device searches for wide-ranging
purposes, including for general law enforcement and
intelligence gathering, that are completely untethered
from the narrow purposes justifying the border search
exception. Pet. App. 221a–24a, 225a–30a (SUMF
¶¶ 82–84, 86–91); see also Vergara, 884 F.3d at 1317
(J. Pryor, J., dissenting) (a “general law enforcement
justification” does not support warrantless cell phone
searches at the border); City of Indianapolis v.
Edmond, 531 U.S. 32, 42 (2000) (warrantless and
suspicionless searches are unreasonable when the
“primary purpose . . . is to uncover evidence of
ordinary criminal wrongdoing”).
Second, warrantless digital data searches are
largely untethered from the primary purpose of the
border search exception: interdicting physical
contraband in the item to be searched. In Riley, this
Court concluded that warrantless cell phone searches
were not sufficiently tethered to the underlying
27

purposes of the search incident to arrest exception:
protecting officer safety and preserving evidence. The
Court reasoned, when considering the nexus between
warrantless device searches and the specific purpose
of uncovering physical weapons on an arrestee to
protect officer safety, that “data on the phone can
endanger no one.” See 573 U.S.at 387. Just as a knife
cannot be hidden in digital data, physical contraband
cannot be hidden in digital data. By contrast, luggage
can contain drugs or other prohibited items. Thus,
“the rationales underlying the border search exception
lose force when applied to” electronic device searches
because electronic devices “do not contain the physical
contraband that border searches traditionally have
prevented from crossing the border.” See Vergara, 884
F.3d at 1317 (J. Pryor, J., dissenting); accord United
States v. Molina-Isidoro, 884 F.3d at 295 (5th Cir.
2018) (Costa, J., specially concurring) (stating the
“detection-of-contraband justification would not seem
to apply to an electronic search of a cellphone or
computer”). 5 Respondents argue that they should be
permitted to conduct warrantless device searches in
order to look for text messages, emails, or other digital
evidence related to physical contraband smuggling.
Yet this purpose is too attenuated from the core
purpose of the border search exception: to find
dutiable or prohibited goods themselves in the items
to be searched. See Molina-Isidoro, 884 F.3d at 295–96
(Costa, J., specially concurring).
Third, warrantless device searches are not
justified even when searching for digital contraband,
Petitioners do not challenge warrantless border searches of the
“physical aspects” of a device, such as a battery compartment, to
determine if it contains hidden prohibited items. See Riley, 573
U.S. at 387.
5

28

for two reasons. The record does not demonstrate that
digital contraband is a “prevalent” problem at the
border. Pet. App. 233a–34a (SUMF ¶¶ 98–99); cf.
Riley, 573 U.S. at 389. Digital content that is itself
unlawful is rare, see Cano, 934 F.3d at 1021 n.13, and
child pornography, the most common category of
digital contraband, is primarily transported into the
United States via the internet, not on electronic
devices through ports of entry. Pet. App. 230a (SUMF
¶ 92); see also Pet. App. 57a (D. Ct. SMJ Op. at 158)
(CBP and ICE proffered a “dearth of information of
the prevalence of digital contraband entering the U.S.
at the border”). There is also no basis for concluding
“that the ability to conduct a warrantless search
would make much of a difference” in preventing the
importation of digital contraband into the country
(or exportation out of the country). Cf. Riley, 573 U.S.
at 390. 6 Unlike physical contraband, digital
contraband is easily transported across borders via
the internet, so travelers have no need or incentive to
risk carrying digital contraband on their devices’ hard
drives when they cross the border. Pet. App. 230a,
231a–33a (SUMF ¶¶ 92, 95–97); see also Vergara, 884
F.3d at 1317 (J. Pryor, J., dissenting) (“[E]lectronic
contraband is borderless.”).
Finally, warrantless device searches have
virtually no connection to preventing the entry of
inadmissible persons, particularly when travelers are
U.S. citizens and lawful permanent residents. See Pet.
App. 75a. (D. Ct. SMJ Op. at 167); Pet. App. 191a–92a
Respondents do not know how effective warrantless device
searches are at preventing the entry of digital files not already
present in the United States or uncovering digital contraband in
general. Pet. App. 233a–34a (SUMF ¶¶ 98–99).
6

29

(SUMF ¶ 2).
Therefore, a categorical rule permitting
warrantless border searches of electronic devices is
unjustifiable under the Fourth Amendment.
2.

This Court Has Left Open the
Possibility That Certain Border
Searches Require a Warrant.

This Court has never precluded requiring a
warrant for a search at the border, nor suggested that
reasonable suspicion is a ceiling, rather than a floor,
for highly intrusive border searches. See Montoya de
Hernandez, 473 U.S. at 541 n.4 (declining to decide
“what level of suspicion” is required for highly
intrusive border searches). The Court has
contemplated that some border searches may be so
unreasonable as to violate the Fourth Amendment, for
example, “because of the particularly offensive
manner in which [they are] carried out.” United States
v. Flores-Montano, 541 U.S. 149, 154 n.2 (2004)
(quoting United States v. Ramsey, 431 U.S. 606, 618
n.13 (1977)). The Court has also left open the
possibility that where border searches burden First
Amendment rights, the “full panoply” of Fourth
Amendment protections—i.e., a warrant—may apply.
Ramsey, 431 U.S. at 623–24 & n.18.
3.

The First Circuit Misconstrued
This Court’s Precedent on Warrant
Exceptions.

The First Circuit erred by failing to engage with
the reasoning in Riley. As noted above, the Riley Court
reexamined the search incident to arrest warrant
exception as it applied to the search of cell phones, and
found that the nature of cell phone searches required
police to obtain a warrant. The Court held that while
30

prior precedent permitted searches incident to arrest
of items on a person without individualized suspicion
or a warrant, the dramatically expanded privacy
intrusions of cell phone searches and the reduced
government interests in searching them without a
warrant require a different rule. The same holds true
here.
The court of appeals disregarded Riley because
that case involved warrantless searches incident to
arrest, not border searches. Pet. App. 14a. But, as the
district court correctly recognized, it is Riley’s analysis
of cell phone searches incident to arrest, not its
specific rule, that “is particularly instructive” and
“carries persuasive weight” in the border search
context. Pet. App. 62a–63a, 134a–35a; see also
Ramsey, 431 U.S. at 621 (stating that the border
search and the search incident to arrest warrant
exceptions are “similar”).
The First Circuit also erred in rejecting the rule
that warrantless searches “must be limited in scope to
that which is justified by the particular purposes
served by the exception.” See Pet. App. 19a (citing
Royer, 460 U.S. at 500). The court reasoned that this
rule applies only to “non-border contexts” and that
“Riley did not purport to extend this rule to the border
search context.” Id. But Riley’s predicate was that a
categorical exception to the Fourth Amendment’s
warrant requirement may not be applied to a new
“category of effects” (such as electronic devices) if
doing so would “untether” the exception from its
underlying purposes. Riley, 573 U.S. at 386; see also
Arizona v. Gant, 556 U.S. 332, 335 (2009) (refusing to
extend the search incident to arrest exception to a
warrantless search of a vehicle’s passenger
compartment when an individual was arrested near
31

his car, but without access to it, because there was no
reason to believe searching the car would further the
interests in protecting officer safety or preventing
destruction of evidence); Collins v. Virginia, 138 S. Ct.
1663, 1671–72 (2018) (refusing to extend the
automobile exception to a warrantless search of a
home or its curtilage because doing so would
“‘untether’ the automobile exception ‘from the
justifications underlying it’”) (quoting Riley, 573 U.S.
at 386).
B.

The First Circuit Erred by Not Holding, in
the Alternative, that all Device Searches
at the Border Require Reasonable
Suspicion that the Device Contains
Digital Contraband.

If this Court rejects a warrant requirement, it
should at a minimum require an officer determination
of reasonable suspicion for all searches of electronic
devices at the border, and should limit their
permissible scope to finding digital contraband. While
not as protective as a warrant requirement, such a
rule would partially account for the significant privacy
intrusions that searches of electronic devices present,
and the substantially reduced likelihood that
electronic devices themselves contain contraband. The
court of appeals required no suspicion whatsoever for
basic searches, and did not limit device searches to a
search for digital contraband. Pet. App. 5a.
A requirement that border officers have
reasonable suspicion that a device contains digital
contraband safeguards travelers’ significant privacy
interests in their electronic devices by 1) requiring
reasonable suspicion for all device searches,
irrespective of method, and 2) cabining the scope of
32

warrantless device searches to looking for digital
contraband, consistent with the core purpose of the
border search exception: to find and interdict dutiable
or prohibited goods in the items to be searched. See
supra Part IV.A.1.b. This rule avoids the gross privacy
invasions of international travelers that come with
wholly unfettered governmental search authority—
where border device searches are conducted without a
warrant or any other privacy safeguards.
The rule should apply irrespective of whether
the search is “basic” or “advanced” because, as the
district court correctly held, and as the record
demonstrates, all device searches “implicate the same
privacy concerns.” Pet. App. 67a (D. Ct. SMJ Op. at
163). Basic searches can reveal “prescription
information, information about employment, travel
history and browsing history,” photographs and
contact lists, date/time and other metadata. Pet. App.
214a–16a (SUMF ¶¶ 63–71). The searches of
Petitioners jeopardized the privacy of private
photographs, journalism work product, and attorneyclient privileged communications. Pet. App. 257a–
58a, 259a–60a (SUMF ¶¶ 138–39, 142). This Court in
Riley held that all searches of a cell phone incident to
arrest require a warrant, and did not differentiate
between search methods. See Riley, 573 U.S. at 403.
The searches at issue there were manual. Id. at 379–
80.
Without a warrant, the appropriate predicate is
reasonable suspicion because all border device
searches are “non-routine” searches that implicate
significant privacy interests, given the vast quantities
of highly personal information the government may
access at the tap of a finger. See Pet. App. 34a (D. Ct.
SMJ Op. at 148). Border searches of electronic devices
33

do not fall within the traditional border search
exception, which permits only “routine” searches to be
warrantless and suspicionless, whereas “non-routine”
searches require at least reasonable suspicion. See
Montoya de Hernandez, 473 U.S. at 538; see also
Kolsuz, 890 F.3d at 137, 144, 145.
Additionally, the reasonable suspicion must be
directed to digital contraband. In contrast to the
Ninth Circuit, which properly imposed this scope
limitation, the court of appeals below held that
warrantless device searches need not be so limited. It
permitted border officers to look for evidence of any
“violation of the laws enforced or administered by CBP
or ICE,” “border-related crime,” “cross-border crime,”
or any other “crime at international borders.” Pet.
App. 19a–22a. This wide-ranging approach is contrary
to this Court’s precedent, which narrowly defines the
purpose of the border search exception and requires
that new applications of the exception be sufficiently
tethered to this purpose. See Riley, 573 U.S. at 386;
Royer, 460 U.S. at 500.
Therefore, if the Court declines to require a
warrant, it should require reasonable suspicion that a
device contains digital contraband.

34

CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Adam Schwartz
Sophia Cope
Saira Hussain
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
Jessie J. Rossman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
MASSACHUSETTS, INC.
211 Congress Street
Boston, MA 02110

Date: April 23, 2021

35

Esha Bhandari
Counsel of Record
Hugh Handeyside
Nathan Freed Wessler
Ben Wizner
Hina Shamsi
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street,
New York, NY 10004
(212) 549-2500
ebhandari@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, N.W.
Washington, D.C. 20005

APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
Nos. 20-1077
20-1081
____
GHASSAN ALASAAD; NADIA ALASAAD; SUHAIB
ALLABABIDI; SIDD BIKKANNAVAR; JEREMIE
DUPIN; AARON GACH; ISMAIL ABDEL-RASOUL,
a/k/a Isma’il Kushkush; DIANE MAYE ZORRI;
ZAINAB MERCHANT; MOHAMMED AKRAM
SHIBLY; MATTHEW WRIGHT,
Plaintiffs, Appellees/Cross-Appellants,
v.
ALEJANDRO MAYORKAS, Secretary of the U.S.
Department of Homeland Security, in his official
capacity; TROY MILLER, Senior Official Performing
the Duties of the Commissioner of U.S. Customs and
Border Protection, in his official capacity; TAE D.


Pursuant to Fed. R. App. P. 43(c)(2), Secretary of the
U.S. Department of Homeland Security Alejandro Mayorkas has
been substituted for former Acting Secretary of the U.S.
Department of Homeland Security Chad F. Wolf as
appellant/cross-appellee.


Pursuant to Fed. R. App. P. 43(c)(2), Senior Official
Performing the Duties of the Commissioner of U.S. Customs and
Border Protection Troy Miller has been substituted for former
Chief Operating Officer and Senior Official Performing the
Duties of the Commissioner of U.S. Customs and Border
Protection Mark A. Morgan as appellant/cross-appellee.

1a

JOHNSON, Senior Official Performing the Duties of
the Director of U.S. Immigration and Customs
Enforcement, in his official capacity,
Defendants, Appellants/Cross-Appellees.
_____
APPEALS FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
MASSACHUSETTS
[Hon. Denise J. Casper, U.S. District Judge]
_____
Before
Lynch and Selya, Circuit Judges,
and Laplante,**** District Judge.
_____
Joshua Paul Waldman, Appellate Staff, Civil
Division U.S. Department of Justice, with whom
Joseph H. Hunt, Assistant Attorney General, Scott R.
McIntosh, Appellate Staff, Civil Division U.S.
Department of Justice, and Andrew E. Lelling, United



Pursuant to Fed. R. App. P. 43(c)(2), Senior Official
Performing the Duties of the Director of U.S. Immigration and
Customs Enforcement Tae D. Johnson has been substituted for
former Senior Official Performing the Duties of the Director of
U.S. Immigration and Customs Enforcement Tony H. Pham as
appellant/cross-appellee.
Of the District of New Hampshire, sitting by
designation.
****

2a

States Attorney, were on briefs, for appellants/crossappellees.
Esha Bhandari, with whom Adam Schwartz,
Sophia Cope, Saira Hussain, Electronic Frontier
Foundation, Hugh Handeyside, Nathan Freed
Wessler, American Civil Liberties Union Foundation,
Matthew R. Segal, Jessie J. Rossman, and American
Civil Liberties Union Foundation of Massachusetts,
Inc. were on briefs, for appellees/cross-appellants.
Caroline M. DeCell, Stephanie Krent, Bruce D.
Brown, Katie Townsend, Gabriel Rottman, Caitlin
Vogus, and Linda Moon on brief for the Knight First
Amendment Institute at Columbia University, the
Reporters Committee for Freedom of the Press, and 12
Media Organizations, amici curiae.
Kurt Wimmer, Rafael Reyneri, Calvin Cohen,
Frank Broomell, and Covington & Burling LLP on
brief for the Center for Democracy & Technology, the
Brennan Center for Justice, R Street Institute, and
Techfreedom, amici curiae.
Michael J. Iacopino, Michael Price, and Mukund
Rathi on brief for National Association of Criminal
Defense Lawyers, amicus curiae.
Christopher T. Bavitz and Cyberlaw Clinic,
Harvard Law School, on brief for Harvard
Immigration and Refugee Clinic, amicus curiae.
Meghan Koushik, Mark C. Fleming, Wilmer
Cutler Pickering Hale and Dorr LLP, Glenn Katon,
and Hammad Alam on brief for Asian Americans
Advancing Justice, Asian Law Caucus, et al., amici
curiae.

3a

Elizabeth B. Wydra, Brianne J. Gorod, Brian R.
Frazelle, and Dayna J. Zolle on brief for
Constitutional Accountability Center, amicus curiae.
Jennifer Pinsof, David A. Schulz, Media Freedom
& Information Access Clinic, Yale Law School Abrams
Institute, Elizabeth A. Ritvo, Joshua P. Dunn, and
Brown Rudnick LLP on brief for Floyd Abrams, Jack
M. Balkin, Hannah Bloch-Webah, Kiel BrennanMarquez, Ryan Calo, Danielle Keats Citron, Julie E.
Cohen, Catherine Crump, Mary Anne Franks,
Woodrow Hartzog, Heidi Kitrosser, Gregory
Magarian, Neil M. Richards, Scott SkinnerThompson, Daniel J. Solove, Amie Stepanovich,
Katherine J. Strandburg, and Ari Ezra Waldman,
amici curiae.
February 9, 2021

OPINION
LYNCH, Circuit Judge.
Plaintiffs bring a civil action seeking to enjoin
current policies which govern searches of electronic
devices at this country’s borders. They argue that
these border search policies violate the Fourth and
First Amendments both facially and as applied. The
policies each allow border agents to perform “basic”
searches of electronic devices without reasonable
suspicion and “advanced” searches only with
reasonable suspicion. In these cross-appeals we
conclude that the challenged border search policies,
both on their face and as applied to the two plaintiffs
4a

who were subject to these policies, are within
permissible constitutional grounds. We find no
violations of either the Fourth Amendment or the
First Amendment. While this court apparently is the
first circuit court to address these questions in a civil
action, several of our sister circuits have addressed
similar questions in criminal proceedings prosecuted
by the United States. We join the Eleventh Circuit in
holding that advanced searches of electronic devices
at the border do not require a warrant or probable
cause. United States v. Vergara, 884 F.3d 1309, 131112 (11th Cir. 2018). We also join the Ninth and
Eleventh Circuits in holding that basic border
searches of electronic devices are routine searches
that may be performed without reasonable suspicion.
United States v. Cano, 934 F.3d 1002, 1016 (9th Cir.
2019), petition for cert. filed (Jan. 29, 2021) (No. 201043); United States v. Touset, 890 F.3d 1227, 1233
(11th Cir. 2018). We also hold the district court
erroneously narrowed the scope of permissible
searches of such equipment at the border.1
I.

Facts

The material facts are not in dispute. We
supplement our description of the facts with the
district court’s comprehensive statement of facts.
Alasaad v. Nielsen, 419 F. Supp. 3d 142, 148-50 (D.
Mass. 2019); Alasaad v. Nielsen, No. 17-cv-11730DJC, 2018 WL 2170323 at *1-2 (D. Mass. May 9,
2018).

We acknowledge with appreciation the assistance of
the amici curiae in this case.
1

5a

A.

Agency Policies

Two policies promulgated by U.S. Customs and
Border Protection (“CBP”) and U.S. Immigration and
Customs Enforcement (“ICE”) are at issue in this case.
The first policy is CBP Directive No. 3340-049A,
Border Search of Electronic Devices (2018),
https://cbp.gov/sites/default/files/assets/documents/20
18-Jan/CBP-Directive-3340-049A-Border-Search-ofElectronic-Media-Compliant.pdf (the “CBP Policy”).
The CBP Policy “provide[s] guidance and standard
operating procedures for searching, reviewing,
retaining, and sharing information contained in . . .
mobile phones . . . and any other communication,
electronic, or digital devices . . . to ensure compliance
with customs, immigration, and other laws that CBP
is authorized to enforce and administer.” CBP Policy
at 1.2 The CBP Policy defines an “electronic device” as
“[a]ny device that may contain information in an
electronic or digital form, such as computers, tablets,
disks, drives, tapes, mobile phones and other
communication devices, cameras, music and other
media players.” Id. at 2. The CBP Policy does not
address CBP’s authority to search electronic devices
with a warrant, consent, or in response to exigent
circumstances. Id.
The CBP Policy distinguishes between “basic”
and “advanced” searches.3 It defines an “advanced
search” as “any search in which an Officer connects
The Policy is mandatory. CBP Policy at 1 (“All CBP
Officers . . . shall adhere to the policy.” (emphasis added)).
2

“Advanced” searches are sometimes referred to as
“forensic” searches. Through the terms are not precisely coextensive, any difference is immaterial here.
3

6a

external equipment, through a wired or wireless
connection, to an electronic device not merely to gain
access to the device, but to review, copy, and/or
analyze its contents.” Id. at 5. Advanced searches
require “supervisory approval” and under the CBP
Policy may only be performed “[i]n instances in which
there is reasonable suspicion of activity in violation of
the laws enforced or administered by CBP, or in which
there is a national security concern.” Id. A “basic
search” is any non-advanced search. Id. at 4. The CBP
Policy states that a basic search may be performed
“with or without suspicion.” Id.
For both basic and advanced searches, the CBP
Policy only allows officers to search “information that
is resident upon the device,” and devices must be
disconnected from the internet before a search is
performed. Id.
In addition, the CBP Policy states that “[a]n
Officer may detain electronic devices . . . for a brief,
reasonable period of time to perform a thorough
border search.” Id. at 7.
The second policy is Immigration and Customs
Enforcement Directive No. 7-6.1, Border Searches of
Electronic
Devices
(2009),
https://hdhs.gov/xlibrary/assets/ice_border_search_el
ectronic_devices.pdf, (“ICE Directive”) as superseded
in part by Immigration and Customs Enforcement
Broadcast: Legal Update — Border Search of
Electronic Devices (2018) (“ICE Broadcast”), (together
“ICE Policy” and, together with the CBP Policy, the
“Policies”). The ICE Policy governs ICE’s searches of
electronic devices at the border “to ensure compliance
with customs, immigration, and other laws enforced
by ICE.” ICE Directive at 1. The policy defines an
7a

“electronic device” as “any item that may contain
information, such as computers, disks, drives, tapes,
mobile phones and other communication devices,
cameras, music players, and any other electronic or
digital devices.” ICE Directive at 2. The policy allows
for suspicionless basic searches but states that as of
May 11, 2018, ICE agents “should no longer perform
advanced border searches of electronic devices
without reasonable suspicion.” ICE Broadcast. The
ICE Policy also allows agents to detain electronic
devices for a “reasonable time given the facts and
circumstances of the particular search.” ICE Directive
at 4.
Plaintiffs do not argue there are any meaningful
differences between the two agencies’ policies.
B.

The Searches of Plaintiffs’ Electronic
Devices

Plaintiffs are ten U.S. citizens and one lawful
permanent resident. Each states that CBP or ICE
officers searched his or her electronic devices on one
or more occasions.
Only plaintiffs Zainab Merchant and Suhaib
Allababidi allege that they were searched after CBP
issued its revised 2018 policy and ICE published its
advanced search policy. These searches were basic
searches. These two plaintiffs do not allege that their
devices were retained pursuant to the Policies.
Accordingly, no factual information has been
presented to us as to any detention under these
policies.

8a

II.

Procedural History

Plaintiffs filed suit on September 13, 2017 —
before the effective date of the challenged Policies —
alleging that CBP and ICE violated the Fourth and
First Amendments by performing various types of
searches of electronic devices without warrants and
violated the Fourth Amendment by retaining
plaintiffs’ electronic devices for an extended period
absent probable cause.4 The plaintiffs sought
declaratory
and
injunctive
relief,
including
expungement of “all information gathered from, or
copies made of, the contents of Plaintiffs’ electronic
devices.”
On May 9, 2018, the district court denied the
government’s motion to dismiss. Alasaad, 2018 WL
2170323 at *24.
After discovery, the parties filed cross-motions
for summary judgment. The district court granted in
part and denied in part plaintiffs’ motion for summary
judgment and denied the government’s motion for
summary judgment. Alasaad, 419 F. Supp. 3d at 174.
The district court also held that plaintiffs had
standing to seek declaratory and injunctive relief as

No plaintiff in this case asserts that his or her
electronic device passcodes or passwords were entitled to
additional constitutional protections.
A petition for a writ of certiorari is pending before the
Supreme Court in Andrews v. New Jersey as to whether the Fifth
Amendment protects an individual from being compelled to
disclose the passcodes to his or her electronic devices when doing
so may expose the individual to criminal prosecution. Petition for
Writ of Certiorari, Andrews v. New Jersey, (No. 20-937).
4

9a

well as expungement of their data from CBP and ICE
databases. Id. at 151-54.5
As to the merits of the Fourth Amendment
challenges, the district court first held that basic and
advanced searches are both “non-routine” searches,
and thus that both types of searches required
reasonable suspicion.6 Id. at 163, 165. The court
concluded that the basic search component of the
Policies violated the Fourth Amendment. Id. at 165,
168.
As to the scope of both basic and advanced
searches permitted under the Policies, the court found
two constitutional violations. It reasoned that because
the border search exception is premised on the
government’s paramount interest in “stopping
contraband at the border,” “the reasonable suspicion
that is required . . . is . . . that the electronic devices
contain[] contraband [itself],” rather than (a) evidence
of contraband or (b) evidence or information regarding
other crimes enforced at the border. Id. at 166. Thus,
the Policies were unconstitutional because they did
not restrict agents to searches for contraband
contained in the devices themselves and allowed
border searches as to evidence of all crimes CBP or

The government
standing on appeal.
5

does

not

challenge

plaintiffs’

The district court noted that a “cursory search of an
electronic device — e.g., a brief look reserved to determining
whether a device is owned by the person carrying it across the
border, confirming that it is operational and that it contains data
. . . [would] not require a heightened showing of cause.” Alasaad,
419 F. Supp. 3d at 163.
6

10a

ICE are authorized to enforce.7 CBP Policy at 1, 5; ICE
Directive at 1, 2.
As to the long-term detention of plaintiffs’
electronic devices, the district court held that devices
detained based on reasonable suspicion could be
retained only for a “reasonable period that allows for
an investigatory search for contraband.” Alasaad, 419
F. Supp. 3d at 170.
The district court granted declaratory relief
stating that
the CBP and ICE policies for “basic” and
“advanced” searches . . . violate the Fourth
Amendment to the extent that the policies
do not require reasonable suspicion that the
devices contain contraband for both such
classes of non-cursory searches and/or
seizure of electronic devices; and that the
non-cursory searches and/or seizures of
Plaintiffs’ electronic devices, without such
reasonable suspicion, violated the Fourth
Amendment.
Id. at 173.
ICE and CBP are authorized to enforce a broad
spectrum of laws. See, e.g., 6 U.S.C. § 211(c)(5) (requiring CBP to
“detect, respond to, and interdict terrorists, drug smugglers and
traffickers, human smugglers and traffickers, and other persons
who may undermine the security of the United States”); id. §
211(c)(11) (requiring CBP to “enforce and administer the laws
relating to agricultural import”); 31 U.S.C. §§ 5316-17
(authorizing warrantless border searches to enforce limitations
on transferring $10,000 or more out of the United States); 19
C.F.R. § 12.39 (authorizing CBP to enforce law restricting the
importation of “articles involving unfair methods of
competition”).
7

11a

The district court declined to grant broad
injunctive relief based on its finding of constitutional
violations. Id. at 174. It did enjoin the government
from searching or detaining any of plaintiffs’
electronic devices at the border absent “reasonable
suspicion that the device contains contraband,” and
from detaining plaintiffs’ electronic devices for “longer
than a reasonable period.”
The district court denied plaintiffs’ request for
expungement. Id. at 171-73.
As to the First Amendment claim, the district
court did not analyze that claim independently from
the Fourth Amendment claim. It denied plaintiffs’
claim for relief, saying “to the extent that [the First
Amendment claim] seeks some further ruling or relief
based upon Plaintiffs’ invocation of First Amendment
rights, not otherwise granted as to [plaintiffs’ Fourth
Amendment claim],” it would deny plaintiffs’ motion
for summary judgment. Id. at 170.
The government filed a timely notice of appeal,
and plaintiffs cross-appealed.
III. Analysis
We review a grant of summary judgment de novo.
Henderson v. Mass. Bay Transp. Auth., 977 F.3d 20,
29 (1st Cir. 2020). “Cross-motions for summary
judgement do not alter the basic . . . standard, but
rather simply require us to determine whether either
of the parties deserves judgment as a matter of law on
facts that are not disputed.” Adria Int’l. Grp., Inc. v.
Ferre Dev., Inc., 241 F.3d 103, 107 (1st Cir. 2001).

12a

We begin with plaintiffs’ Fourth Amendment
claims before moving to their First Amendment claim
and request for expungement.
A.

The Level of Suspicion Required for
Border Searches of Electronic Devices

Plaintiffs argue that all electronic device
searches at the border require a warrant, or in the
alternative that such searches require reasonable
suspicion that the device contains contraband.
Plaintiffs do not contest that the Policies require ICE
and CBP to have reasonable suspicion to perform an
advanced border search. We address the arguments in
turn.
1.

Border Searches of Electronic Devices
Do Not Require a Warrant

The Fourth Amendment forbids “unreasonable
searches and seizures.” U.S. Const. amend. IV. “In the
absence of a warrant, a search is reasonable only if it
falls within a specific exception to the warrant
requirement.” Riley v. California, 573 U.S. 373, 382
(2014). Otherwise,
[a]bsent more precise guidance from the
founding era, we generally determine
whether to exempt a given type of search
from the warrant requirement “by
assessing, on the one hand, the degree to
which it intrudes upon an individual’s
privacy and, on the other, the degree to
which it is needed for the promotion of
legitimate governmental interests.”
Id. at 385 (quoting Wyoming v. Houghton, 526 U.S.
295, 300 (1999)).
13a

One such exception to the warrant requirement,
recognized from early in our history, is the border
search exception. See Boyd v. United States, 116 U.S.
616, 623 (1886); Carroll v. United States, 267 U.S. 132,
153-54 (1925). The exception is grounded in the
government’s “inherent authority to protect, and a
paramount interest in protecting, its territorial
integrity.” United States v. Flores-Montano, 541 U.S.
149, 153 (2004). Further, “the expectation of privacy
[is] less at the border than in the interior . . . [and] the
Fourth Amendment balance between the interests of
the Government and the privacy right of the
individual is also struck much more favorably to the
Government at the border.” United States v. Montoya
de Hernandez, 473 U.S. 531, 539-40 (1985).
Plaintiffs rely on Riley v. California to argue that
the border search warrant exception does not
encompass the search of electronic devices because
such searches do little to advance the underlying
purposes of the border search exception — which they
say are limited to interdicting contraband and
preventing the entry of inadmissible persons.8
This argument rests on a misapprehension of the
applicability here of the Supreme Court’s holding in
Riley. In Riley, the Supreme Court held that the
search incident to arrest exception to the warrant
requirement did not extend to searches of cellphones.
573 U.S. at 403. In doing so, it reasoned that
individuals have a heightened privacy interest in
their electronic devices due to the vast quantity of
data that may be stored on such devices, and that the
For reasons articulated later in this opinion, we reject
plaintiffs’ narrow view of the purposes of the border search
exception.
8

14a

government’s interest in searching an arrestee’s
cellphone during an arrest was limited because such
searches do not meaningfully advance the search
incident to arrest exception’s purposes of protecting
officers and preventing the destruction of evidence. Id.
at 386, 388-91. Thus, the balance of interests did not
support extending the search incident to arrest
exception. Id. at 386.
Contrary to plaintiffs’ assertions, Riley does not
command a warrant requirement for border searches
of electronic devices nor does the logic behind Riley
compel us to impose one. As recently explained by this
circuit, Riley “d[id] not either create or suggest a
categorical rule to the effect that the government must
always secure a warrant before accessing the contents
of [an electronic device].” United States v. RiveraMorales, 961 F.3d 1, 14 (1st Cir. 2020). Nor does Riley
by its own terms apply to border searches, which are
entirely separate from the search incident to arrest
searches discussed in Riley. The search incident to
arrest warrant exception is premised on protecting
officers and preventing evidence destruction, rather
than on addressing border crime. Riley, 573 U.S. at
384-86.
Further, given the volume of travelers passing
through our nation’s borders, warrantless electronic
device searches are essential to the border search
exception’s purpose of ensuring that the executive
branch can adequately protect the border. See
Montoya de Hernandez, 473 U.S. at 544 (stating that
border officials are “charged . . . with protecting this
Nation from entrants who may bring anything
harmful into this country”). A warrant requirement —
and the delays it would incur — would hamstring the
15a

agencies’ efforts to prevent border-related crime and
protect this country from national security threats.
Every circuit that has faced this question has
agreed that Riley does not mandate a warrant
requirement for border searches of electronic devices,
whether basic or advanced. The Eleventh Circuit held
that “[b]order searches have long been excepted from
warrant and probable cause requirements, and the
holding of Riley does not change this rule.” Vergara,
884 F.3d at 1312-13. The Fourth Circuit held after
Riley that “law enforcement officers may conduct a
warrantless forensic search of a cell phone under the
border search exception where the officers possess
sufficient individualized suspicion of transnational
criminal activity.” United States v. Aigbekaen, 943
F.3d 713, 719 n.4 (4th Cir. 2019).9 The Ninth Circuit,
noting that even “post-Riley, no court has required
more than reasonable suspicion to justify even an
intrusive border search,” held that both basic and
advanced border searches may be performed without
a warrant or probable cause. Cano, 934 F.3d at 101516.
We too hold that neither a warrant nor probable
cause is required for a border search of electronic
devices.
2.

Basic Searches May Be Performed
Without Reasonable Suspicion

Agents may perform “routine” searches at the
border without reasonable suspicion. Montoya de
Hernandez, 473 U.S. at 538, 541. Under this circuit’s
The Fourth Circuit did not decide whether an
advanced search must be supported by probable cause.
Aigbekaen, 943 F.3d at 720 & n.5.
9

16a

law, certain “non-routine” searches must be grounded
on reasonable suspicion. United States v. MolinaGómez, 781 F.3d 13, 19 (1st Cir. 2015); United States
v. Braks, 842 F.2d 509, 513-14 (1st Cir. 1988).
Whether a border search is routine or non-routine
depends on an assessment of the facts of the case.
Braks, 842 F.2d at 512 (holding that request to female
at border to lift skirt was routine search); MolinaGómez, 781 F.3d at 19 (holding that the search of a
laptop and PlayStation, whether routine or nonroutine, was justified because reasonable suspicion
existed); United States v. Robles, 45 F.3d 1, 5 (1st Cir.
1995) (holding, where the government conceded that
drilling into metal cylinder was non-routine search,
that the search was justified by reasonable suspicion).
Subjecting individuals to strip searches or body-cavity
searches are examples of non-routine searches.
Molina-Gómez, 781 F.3d at 19.
Plaintiffs argue that because electronic devices
may contain a trove of sensitive personal information,
basic border searches of electronic devices are nonroutine searches requiring at least reasonable
suspicion. While, as noted above, Riley’s warrant
requirement in the search incident to arrest context
does not extend to border searches, Riley recognized
that modern electronic devices “implicate privacy
concerns far beyond those implicated by the search of
a cigarette pack, a wallet, or a purse” and “differ in
both a quantitative and qualitative sense from other
objects that might be kept on [a traveler’s] person.”
573 U.S. at 393. These privacy concerns, however
significant or novel, are nevertheless tempered by the
fact that the searches are taking place at the border,
where the “Government’s interest in preventing the
17a

entry of unwanted persons and effects is at its zenith,”
Flores-Montano, 541 U.S. at 152, and the “Fourth
Amendment balance of interests leans heavily to the
Government,” Montoya de Hernandez, 473 U.S. at
544. Electronic device searches do not fit neatly into
other categories of property searches, but the bottom
line is that basic border searches of electronic devices
do not involve an intrusive search of a person, like the
search the Supreme Court held to be non-routine in
Montoya de Hernandez. 473 U.S. at 541 & n.4. Basic
border searches also require an officer to manually
traverse the contents of the traveler’s electronic
device, limiting in practice the quantity of information
available during a basic search. The CBP Policy only
allows searches of data resident on the device. CBP
Policy at 4. And a basic border search does not allow
government officials to view deleted or encrypted
files.10
We thus agree with the holdings of the Ninth and
Eleventh circuits that basic border searches are
routine searches and need not be supported by
reasonable suspicion. Cano, 934 F.3d at 1016; Touset,
890 F.3d at 1233; see also United States v. Kolsuz, 890
F.3d 133, 146 n.5 (4th Cir. 2018) (stating that United
States v. Ickes, 393 F.3d 501 (4th Cir. 2005) “treated a
[basic] search of a computer as a routine border
Plaintiffs argue that because a basic border search
can take place over an extended period, “the policies place no
limit on the scope of a basic search.” This claim is not supported
by the record. As laid out in the complaint, basic searches are
limited to “allocated space physically resident on an electronic
device that is accessible using the native operating system of the
device.” And the agencies must process the entry of over one
million travelers per day, further restricting the practical limits
of a basic search.
10

18a

search, requiring no individualized suspicion for the
search”).
B.

The Scope of Searches Permitted
under the Border Search Exception

Plaintiffs next argue that border searches of
electronic devices “must be limited to searches for
contraband.” This argument is premised on plaintiffs’
assertions that the border search exception (a)
extends only to searches aimed at preventing the
importation of contraband or entry of inadmissible
persons and (b) covers only searches for contraband
itself, rather than for evidence of border-related
crimes or contraband. The argument fails and its
premises are incorrect.
In non-border contexts the Supreme Court has
held that warrantless searches “must be limited in
scope to that which is justified by the particular
purposes served by the exception.” Florida v. Royer,
460 U.S. 491, 500 (1983) (plurality opinion); see also
Riley, 573 U.S. at 386. Riley did not purport to extend
this rule to the border search context. Even assuming
arguendo that the analysis used in Riley applies here,
such an analysis would only require that warrantless
border searches be tethered to “the longstanding right
of the sovereign to protect itself by stopping and
examining persons and property crossing into this
country.”11 Flores-Montano, 541 U.S. at 152 (quoting
United States v. Ramsey, 431 U.S. 606, 616 (1977)).
Further, the Supreme Court has repeatedly said that
routine searches “are reasonable simply by virtue of
Plaintiffs do not challenge any specific law enforced
by CBP or ICE as having no relationship to the border search
exception’s broad purposes.
11

19a

the fact that they occur at the border.” Id. at 152-53
(quoting Ramsey, 431 U.S. at 616). This is so because
the government’s interest in preventing crime at
international borders “is at its zenith,” see id., and it
follows that a search for evidence of either contraband
or a cross-border crime furthers the purposes of the
border search exception to the warrant requirement.
As for advanced searches, we cannot reasonably
conclude that the “substantive limitations imposed by
the Constitution” on the border search exception
prevent Congress from giving border agencies
authority to search for information or items other than
contraband. Ramsey, 431 U.S. at 620; see also Kolsuz,
890 F.3d at 152 (Wilkinson, J., concurring in the
judgment) (“[T]here is a longstanding historical
practice in border searches of deferring to the
legislative and executive branches.”). To the contrary,
Montoya de Hernandez makes clear that the border
search exception’s purpose is not limited to
interdicting contraband; it serves to bar entry to those
“who may bring anything harmful into this country”
and then gives as examples “whether that be
communicable diseases, narcotics, or explosives.” 473
U.S. at 544.
Congress is better situated than the judiciary to
identify the harms that threaten us at the border.12
As explained by Judge Wilkinson, “[w]e have no idea
of the dangers we are courting” at the border. Kolsuz, 890 F.3d
at 152 (Wilkinson, J., concurring in the judgment). He notes the
risk that “[p]orous borders are uniquely tempting to those intent
upon inflicting the vivid horrors of mass casualties” and “the
danger of highly classified technical information being smuggled
out of this country only to go into the hands of foreign nations
who do not wish us well and who seek to build their armaments
to an ever more perilous state.” Id.
12

20a

Kolsuz, 890 F.3d at 152 (Wilkinson, J, concurring in
the judgment) (“[Riley does not] begin to answer the
question of who should strike the balance between
privacy and security at the border of the country.”); see
also Riley, 573 U.S. at 408 (Alito, J., concurring in part
and concurring in the judgment) (stating with respect
to the reasonableness of warrantless searches of
mobile phones that “[l]egislatures . . . are in a better
position than we are to assess and respond to the
changes that have already occurred and those that
almost certainly will take place in the future”). In
weighing the competing policy considerations,
Congress or the Executive may choose to strike a
different balance as to border searches of electronic
devices and may choose to grant greater protection
than required by the Constitution.
As to plaintiffs’ distinction between evidence of
contraband and contraband itself, the border search
exception is not limited to searches for contraband
itself rather than evidence of contraband or a borderrelated crime. Searching for evidence is vital to
achieving the border search exception’s purposes of
controlling “who and what may enter the country.”
Ramsey, 431 U.S. at 620; see also Aigbekaen, 943 F.3d
at 721 (holding that the purposes of the border search
exception are “protecting national security, collecting
duties, blocking the entry of unwanted persons, [and]
disrupting efforts to export or import contraband”
(emphasis added)); United States v. Gurr, 471 F.3d
144, 149 (D.C. Cir. 2006) (holding in the context of the
border search exception that “[t]he distinction that
[plaintiff] would draw between contraband and

21a

documentary evidence of a crime is without legal
basis”).13
We acknowledge that our holdings on both of
these points are contrary to the Ninth Circuit’s
holdings in United States v. Cano. 934 F.3d at 1018
(holding that the border search exception “is restricted
in scope to searches for contraband”). We cannot agree
with its narrow view of the border search exception
because Cano fails to appreciate the full range of
justifications for the border search exception beyond
the prevention of contraband itself entering the
country. Advanced border searches of electronic
devices may be used to search for contraband,
evidence of contraband, or for evidence of activity in
violation of the laws enforced or administered by CBP
or ICE.
C.

Device Detention

Plaintiffs further argue that the CBP and ICE
Policies violate the Fourth Amendment because they
Plaintiffs cite Boyd, 116 U.S. 616, for the proposition
that the border search exception does not extend to searching for
evidence of border-related crimes. But the Supreme Court
rejected in Warden, Md. Penitentiary v. Hayden the distinction
articulated in Boyd between searches for “mere evidence” and
searches for “instrumentalities, fruits of crime, or contraband.”
387 U.S. 294, 301 (1967). Plaintiffs argue that Hayden only
rejected this distinction in relation to searches authorized by a
warrant rather than warrantless searches, but we conclude that
Hayden should be more broadly applied. See United States v.
Molina-Isidoro, 884 F.3d 287, 297 n.7 (5th Cir. 2018) (Costa, J.,
specially concurring) (“Hayden is viewed as a broad rejection of
the ‘mere evidence’/instrumentality distinction” (citing Wayne
LaFave, Search & Seizure, A Treatise on the Fourth Amendment
§ 4.1(c))). But see id. (“[T]here are reasons to believe the [mere
evidence/instrumentality] distinction still matters when it comes
to border searches.”).
13

22a

do not impose an “effective limit on [the] duration” of
electronic device detentions.14 Plaintiffs’ argument is
in the abstract as they have not presented any facts
concerning the actual retention of devices pursuant to
the policies at issue.
The CBP Policy permits an officer to “detain
electronic devices or copies of information contained
therein, for a brief, reasonable period of time to
perform a thorough border search.” CBP Policy at 7.
Supervisory approval is required to detain devices
after the device owners “departure from the port or
other location of detention.” Id. The ICE Policy
permits the detention of “electronic devices, or copies
of information therefrom [for] a reasonable time given
the facts and circumstances of the particular search.”
ICE Directive at 4. Both Policies require supervisory
approval to extend a device detention beyond an
initial span of time — five days under the CBP Policy
and thirty days under the ICE policy. CBP Policy at 7;
ICE Directive at 5.
The nature of plaintiffs’ challenge is unclear. The
Policies permit detention for only a reasonable period,
which is the constitutional test. See Montoya de
Hernandez, 473 U.S. at 544. If the argument is that
“reasonable” must be replaced with hard time limits,
the Supreme Court has rejected that proposition. Id.
at 543. If the argument is that the judgment as to
reasonableness should not be left in the first instance
to the agent who conducts the search, that misreads
Because we conclude that no reasonable suspicion is
required for a basic border search of an electronic device, we need
not reach plaintiffs’ contention that the Policies are deficient in
allowing the agencies to detain devices without reasonable
suspicion.
14

23a

the Policies. The CBP Policy requires a supervisor’s
permission to detain a device after its owner leaves
the border, a higher level of supervisory approval to
extend a detention for longer than five days, and a
third level of approval to extend a detention beyond
fifteen days. CBP Policy at 7. What is reasonable is
surely fact specific and future as applied attacks are
not foreclosed should there be abuses.15
D.

First Amendment

Plaintiffs next argue that under the First
Amendment, government searches of electronic
devices at the border require a warrant, or at least
reasonable suspicion. They contend that because
electronic devices may contain sensitive personal
data, the threat of warrantless or suspicionless border
searches will impermissibly chill speech.16 They
Plaintiffs do not develop the argument that any
individual detention of any plaintiff’s electronic device was
unreasonable, but instead say that several particularly long
detentions demonstrate that the Policies are facially deficient.
15

Plaintiffs purport to rely on United States v. Ramsey,
431 U.S. 606 (1977), but misunderstand the case. In Ramsey,
plaintiffs argued that the search of international mail was a
violation of the First Amendment. The applicable law allowed the
search of international mail only where there was “‘reasonable
cause to believe’ that customs laws [were] being violated prior to
the opening of envelopes” and a regulation forbade the “reading
of correspondence absent a search warrant.” Id. at 623 (emphasis
added). The Supreme Court held that under those circumstances,
the opening of international mail did not “impermissibly chill[]
the exercise of free speech.” Id. at 624.
The court explicitly reserved and did not decide the
question of whether the search of international mail, “in the
absence of the regulatory restrictions” would chill speech and, if
it did, “whether the appropriate response would be to apply the
full panoply of Fourth Amendment requirements.” Id. at 624 n.18.
16

24a

further argue that such searches unduly interfere
with the First Amendment freedoms to “‘engage in
association’ . . . without government scrutiny, . . .
speak anonymously, . . . receive unpopular ideas,
confidentially and without government scrutiny, . . .
read books and watch movies privately . . . [and]
gather and publish newsworthy information absent
government scrutiny.”
Because plaintiffs seek relief “beyond [their]
particular circumstances,” “they must ‘satisfy [the]
standards for a facial challenge to the extent of that
reach.’” Proj. Veritas Action Fund v. Rollins, 982 F.3d
813, 826 (1st Cir. 2020) (emphasis omitted) (quoting
John Doe No. 1 v. Reed, 561 U.S. 186, 194 (2010)).
Thus, plaintiffs must show that “a substantial number
of [the ICE and CBP Policies’] applications are
unconstitutional, judged in relation to the statute’s
plainly legitimate sweep.” United States v. Stevens,
559 U.S. 460, 473 (2010) (quoting Wash. State Grange
v. Wash. State Republican Party, 552 U.S. 442, 449 n.6
(2008)).
The First Amendment provides protections —
independent of the Fourth Amendment — against the
compelled disclosure of expressive information. See
Buckley v. Valeo, 424 U.S. 1, 64 (1976); Tabbaa v.
Chertoff, 509 F.3d 89, 102 n.4 (2d Cir. 2007) (analyzing
First Amendment challenge to targeted border
searches independently of Fourth Amendment);
Ramsey, 431 U.S. at 623-24. Neither this circuit nor
the Supreme Court has specified the appropriate
standard to assess alleged government intrusions on
First Amendment rights at the border. See Ramsey,
431 U.S. at 623-24 (refusing to “consider the
constitutional reach of the First Amendment in this
25a

area”); see also Tabbaa, 509 F.3d at 102 n.5 (“It may
also be true that the First Amendment’s balance of
interests is qualitatively different where, as here, the
action being challenged is the government’s attempt
to exercise its broad authority to control who and what
enters the country.”).
Under any standard plaintiffs have not shown
that the content-neutral border search Policies
facially violate the First Amendment. See Ramsey, 431
U.S. at 623 (“More fundamentally, however, the
existing system of border searches has not been shown
to invade protected First Amendment rights, and
hence there is no reason to think that the potential
presence of correspondence makes the otherwise
constitutionally reasonable search ‘unreasonable.’”
(footnote omitted)). The Policies have a plainly
legitimate sweep and serve the government’s
paramount interests in protecting the border.17
Nor, as plaintiffs contend, does the presence of
expressive material on electronic devices “trigger[] a
warrant requirement.” A higher level of suspicion is
not generally required to search potentially expressive
materials. See New York v. P.J. Video, Inc., 475 U.S.
868, 875 (1986); United States v. Brunette, 256 F.3d
14, 16 (1st Cir. 2001) (holding the probable cause
Plaintiffs do not present the issue of whether the First
Amendment would require a different outcome if CBP and ICE
were targeting journalists or using border searches to pierce
attorney-client privilege. Two plaintiffs are journalists, but they
do not contend that they were searched by CBP for this reason.
See Alasaad, 419 F. Supp. 3d at 169. This decision does not
foreclose a future as applied First Amendment challenge in such
circumstances. See Ortiz-Graulau v. United States, 756 F.3d 12,
21 (1st Cir. 2014) (noting that this court may leave open “the
possibility of a future as-applied challenge”).
17

26a

standard “is no different where First Amendment
concerns may be at issue”); see also Ickes, 393 F.3d at
507 (refusing to apply a different standard to border
searches of expressive material); United States v.
Arnold, 533 F.3d 1003, 1010 (9th Cir. 2008) (same).
As explained by the Ninth Circuit in Arnold,
providing a different standard for “expressive
material” at the border would
(1) protect terrorist communications “which
are inherently ‘expressive’”; (2) create an
unworkable standard for government
agents who “would have to decide — on their
feet — which expressive material is covered
by the First Amendment”; and (3)
contravene the weight of Supreme Court
precedent refusing to subject government
action to greater scrutiny with respect to the
Fourth Amendment when an alleged First
Amendment interest is also at stake.
533 F.3d at 1010 (quoting Ickes, 393 F.3d at 506).
Plaintiffs’ First Amendment challenge fails.
E.

Expungement

Plaintiffs argue they are entitled to expungement
of any data obtained in violation of the Constitution.
The district court’s refusal to grant the equitable
remedy of expungement is reviewed only for abuse of
discretion. Reyes v. DEA, 834 F.2d 1093, 1098-99 (1st
Cir. 1987).
There was no abuse of discretion here. The
district court adequately justified its conclusions that
expungement was not warranted. And contrary to
plaintiffs’ assertions, it was not error for the district
27a

court to analogize to
suppression of evidence.

caselaw

regarding

the

IV. Conclusion
We affirm in part, reverse in part, vacate in part,
and remand for the entry of a revised judgment
consistent with this opinion. No costs imposed.

28a

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD, NADIA ALASAAD, SUHAIB
ALLABABIDI, SIDD BIKKANNAVAR, JÉRÉMIE
DUPIN, AARON GACH, ISMAIL ABDEL-RASOUL
a/k/a ISMA’IL KUSHKUSH, DIANE MAYE ZORRI,
ZAINAB MERCHANT, MOHAMMED AKRAM
SHIBLY and MATTHEW WRIGHT,
Plaintiffs,
v.
KIRSTJEN NIELSEN, Secretary of the U.S.
Department of Homeland Security, in her official
capacity; KEVIN McALEENAN, Acting
Commissioner of U.S. Customs and Border
Protection, in his official capacity; and THOMAS
HOMAN, Acting Director of U.S. Immigration and
Customs Enforcement, in his official capacity,
Defendants.
November 21, 2019

JUDGMENT

29a

CASPER, J.
Having considered the parties’ Joint Statement
Regarding Relief, D. 111, and in light of the Court’s
Memorandum and Order regarding the parties’
motions for summary judgment, D. 109, the Court
enters judgment as follows:
1.

Having allowed in part and denied in part
Plaintiffs’ motion for summary judgment, D.
90, and denied Defendants’ motion for
summary judgment, D. 96, the Court enters
judgment for Plaintiffs to that extent as
explained in the Court’s Memorandum and
Order, D. 109;

2.

As to the declaratory relief Plaintiffs seek,
D. 111 at 1, and consistent with the Court’s
Memorandum and Order, D. 109 at 46-47,
the Court grants declaratory judgment as
follows:
the Court declares that the CBP and
ICE policies for ‘basic’ and ‘advanced’
searches, as presently defined, violate
the Fourth Amendment to the extent
that the policies do not require
reasonable suspicion that the devices
contain contraband for both such
classes of non-cursory searches
and/or seizure of electronic devices;
and that the non-cursory searches
and/or
seizures
of
Plaintiffs’
electronic devices, without such
reasonable suspicion, violated the
Fourth Amendment;

3.

As to the injunctive relief Plaintiffs seek, D.
30a

111 at 1-4, the Court concludes that
Plaintiffs, on this record, have satisfied the
legal standard for the injunctive relief they
seek, id. at 2, where Plaintiffs have
prevailed on the merits, Plaintiffs would
suffer irreparable harm in the absence of the
injunctive relief they seek, the balance of
harms between the parties weighs in favor
of granting the injunctive relief sought and
the public interest weighs in favor of such
relief as well, id. at 2-4, and, accordingly, the
Court:
enjoins Defendants from searching or
seizing
any
electronic
device
belonging to a Plaintiff during any
encounter with a Plaintiff at the
border or functional equivalent of the
border, unless Defendants have
reasonable suspicion that the device
contains
contraband.
Should
Defendants conduct any search or
seizure of a Plaintiff’s electronic
device at the border based on
reasonable suspicion that the device
contains contraband, the Court
further enjoins Defendants from
detaining the device longer than a
reasonable period that allows for an
investigatory
search
for
that
contraband.
So Ordered.
/s/ Denise J. Casper
United States District Judge

31a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD, NADIA ALASAAD, SUHAIB
ALLABABIDI, SIDD BIKKANNAVAR, JÉRÉMIE
DUPIN, AARON GACH, ISMAIL ABDEL-RASOUL
a/k/a ISMA’IL KUSHKUSH, DIANE MAYE ZORRI,
ZAINAB MERCHANT, MOHAMMED AKRAM
SHIBLY and MATTHEW WRIGHT,
Plaintiffs,
v.
KIRSTJEN NIELSEN, Secretary of the U.S.
Department of Homeland Security, in her official
capacity; KEVIN McALEENAN, Acting
Commissioner of U.S. Customs and Border
Protection, in his official capacity; and THOMAS
HOMAN, Acting Director of U.S. Immigration and
Customs Enforcement, in his official capacity,
Defendants.
November 12, 2019

MEMORANDUM AND ORDER

32a

CASPER, J.
I.

Introduction

Plaintiffs Ghassan Alasaad, Nadia Alasaad,
Suhaib Allababidi, Sidd Bikkannavar, Jérémie Dupin,
Aaron Gach, Ismail Abdel-Rasoul a/k/a Isma’il
Kushkush,
Diane
Maye,
Zainab
Merchant,
Mohammed Akram Shibly and Matthew Wright
(individually, by last name and collectively,
“Plaintiffs”) bring this suit against the following
persons in their official capacities: Kirstjen Nielsen,
Secretary of the U.S. Department of Homeland
Security (“DHS”),1 Kevin McAleenan, Acting
Commissioner of U.S. Customs and Border Protection
(“CBP”), and Thomas Homan, Acting Director of U.S.
Immigration and Customs Enforcement (“ICE”)
(collectively, “Defendants”). D. 7 at ¶¶ 14-26.
Plaintiffs, ten U.S. citizens and one lawful permanent
resident, allege that Defendants’ conduct—searching
Plaintiffs’ electronic devices at ports of entry to the
United States and, in some instances, confiscating the
electronic devices being searched, pursuant to CBP
and ICE policies—violates the Fourth Amendment
(Counts I and III) and First Amendment (Count II) of
the U.S. Constitution. D. 7 at ¶¶ 1-10, 168-73. They
seek declaratory and injunctive relief related to
Defendants’ ongoing policies and practices as well as
the searches of Plaintiffs’ electronic devices including
expungement of “all information gathered from, or
copies made of, the contents of Plaintiffs’ electronic
The initial suit was filed against Elaine Duke, then
Acting Secretary of DHS, but Defendants substituted Nielsen as
Secretary of Homeland Security pursuant to Fed. R. Civ. P. 25(d).
D. 15 at 9 n.1. Defendants have not made any further
substitutions since then.
1

33a

devices, and all of Plaintiffs’ social media information
and device passwords.” D. 7 at 40-42; D. 99 at 7-8, 1213. Plaintiffs have now moved for summary judgment,
D. 90, and Defendants have cross moved for summary
judgment, D. 96. Although governmental interests are
paramount at the border, where such non-cursory
searches—even “basic” searches as broadly defined
under CBP and ICE policies as well as the “advanced”
searches of Plaintiffs’ electronic devices—amount to
non-routine searches, they require reasonable
suspicion that the devices contain contraband. For the
reasons stated below, the Court ALLOWS IN PART
and DENIES IN PART Plaintiffs’ motion, D. 90, and
DENIES Defendants’ motion, D. 96.
II.

Standard of Review

The Court grants summary judgment where
there is no genuine dispute as to any material fact and
the undisputed facts demonstrate that the moving
party is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(a). “A fact is material if it carries with it
the potential to affect the outcome of the suit under
the applicable law.” Santiago-Ramos v. Centennial
P.R. Wireless Corp., 217 F.3d 46, 52 (1st Cir. 2000)
(quoting Sánchez v. Alvarado, 101 F.3d 223, 227 (1st
Cir. 1996)). The movant “bears the burden of
demonstrating the absence of a genuine issue of
material fact.” Carmona v. Toledo, 215 F.3d 124, 132
(1st Cir. 2000); see Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986). If the movant meets its burden, the
non-moving party may not rest on the allegations or
denials in her pleadings, Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 256 (1986), but “must, with respect
to each issue on which she would bear the burden of
proof at trial, demonstrate that a trier of fact could
34a

reasonably resolve that issue in her favor,” Borges ex
rel. S.M.B.W. v. Serrano-Isern, 605 F.3d 1, 5 (1st Cir.
2010). “As a general rule, that requires the production
of evidence that is ‘significant[ly] probative.’” Id.
(alteration in original) (quoting Anderson, 477 U.S. at
249). The Court “view[s] the record in the light most
favorable to the nonmovant, drawing reasonable
inferences in his favor.” Noonan v. Staples, Inc., 556
F.3d 20, 25 (1st Cir. 2009). On cross-motions for
summary judgment, the standards of Rule 56 remain
the same, and require the courts “to determine
whether either of the parties deserves judgment as a
matter of law on facts that are not disputed.” Adria
Int’l Grp., Inc. v. Ferré Dev., Inc., 241 F.3d 103, 107
(1st Cir. 2001).
III. Factual Summary
As perhaps evidenced by the parties’ cross
motions for summary judgment, the material facts
concerning the searches of Plaintiffs’ electronic
devices and the policies pursuant to which CBP and
ICE agents conduct border searches are undisputed.
The Court gives this brief summary as background for
the Plaintiffs’ claims, but otherwise addresses the
material facts in the analysis of the parties’ respective
legal positions below. This summary is drawn from
the parties’ statements of material facts, D. 90-2, D.
98, and D. 103-1, as well as the parties’ responses to
those statements, D. 99-1 and D. 105.
The two agencies with primary responsibility for
border searches are CBP and ICE. D. 90-2 at ¶¶ 1, 17;
D. 98 at ¶ 1. Both agencies issued written policies on
border searches of electronic devices in August 2009.
D. 98 at ¶ 6; D. 99-1 at ¶ 6. In January 2018, CBP
updated its policy to distinguish between two different
35a

types of searches, “basic” and “advanced,” and to
require reasonable suspicion or a national security
concern for any advanced search, but no showing of
cause for a basic search. D. 98 at ¶ 7; D. 99-1 at ¶ 7.
Under this policy, an advanced search is defined as
“any search in which an officer connects external
equipment, through a wired or wireless connection, to
an electronic device, not merely to gain access to the
device, but to review, copy and/or analyze its
contents.” D. 98 at ¶ 8; D. 99-1 at ¶ 8. The parameters
of an advanced search are clearer given this definition
than that adopted for a basic search, which is merely
defined as “any border search that is not an advanced
search.” D. 98 at ¶ 8; D. 99-1 at ¶ 8. Both CBP and
ICE use the same definitions of basic and advanced
searches and ICE policy also requires reasonable
suspicion to perform an advanced search. D. 98 at ¶ 9;
D. 99-1 at ¶ 9.2
The evidence as to the border searches of
Plaintiffs’ electronic devices is largely the same as
alleged in the amended complaint and as relied upon
by this Court in its Memorandum & Order regarding
Defendants’ motion to dismiss. Compare D. 34 at 1016 with D. 99-1 at ¶¶ 120-149. Accordingly, the Court
will not repeat all of the details of those searches
again here but summarizes them and discusses some
of them further below. Plaintiffs are U.S. citizens
(except Dupin, who is a lawful permanent resident)
who reside across the country and in Canada. D. 98 at
¶¶ 120, 124, 126, 128, 131, 133, 136, 143, 145, 148; D.
99-1 at ¶¶ 120, 124, 126, 128, 131, 133, 136, 143, 145,
The record appears silent on whether ICE policy also
includes a national security concern exception for an advanced
search. See D. 91-19; D. 99-1 at ¶ 18.
2

36a

148. Each of the eleven Plaintiffs has had their
electronic devices searched at the border at least once.
D. 98 at ¶¶ 51-52; D. 99-1 at ¶¶ 51-52. Some of the
searches were at border crossings, id. at ¶¶ 121, 130,
135, 144, although most were at U.S. airports after a
Plaintiff’s return to the United States on an
international flight. Id. at ¶¶ 123, 125, 127, 129, 132,
134, 137, 140, 141-42, 146, 149; D. 105 at ¶ 125.1;
United States v. Molina-Gomez, 781 F.3d 13, 19 (1st
Cir. 2015) (noting that “[i]nternational airports . . . are
the ‘functional equivalent’ of an international border
and thus subject to this [border search] exception”).
These searches included searches of smartphones,
either locked or unlocked, D. 99-1 at ¶¶ 121, 123, 125,
127, 129, 130, 132, 134, 135, 137, 140-42, 144, 147,
149, and at least as to Kushkush, Wright, and
Allababidi, the search of other electronic media
including, in some cases, laptop computers, id. at ¶¶
134, 146-47; D. 105 at ¶ 125.1. Five of the Plaintiffs
(Merchant, Nadia Alasaad, Dupin, Kushkush and
Allababidi) have had their electronic devices searched
more than once. D. 98 at ¶ 52; D. 99-1 at ¶ 52; D. 1031 at ¶ 125.1; D. 105 at ¶ 125.1; D. 107 at 120-21. Two
of the Plaintiffs, Merchant and Allababidi, have had
their devices searched subsequent to the filing of the
initial complaint in this case in September 2017:
Merchant in September 2018, D. 98 at ¶¶ 53-54; D. 991 at ¶ 53, and Allababidi in July 2019, D. 103-1 at ¶
125.1; D. 105 at ¶ 125.1. Each of the eleven Plaintiffs
plans to continue to travel internationally with their
electronic devices and many had or have international
travel plans for later this year and into 2020. D. 99-1
at ¶¶ 170, 172, 174, 176, 178, 180, 182, 184, 186-87,
189.

37a

Without
recounting
the
nature
and
circumstances of all of the Plaintiffs’ searches, a
sample of them is illustrative. Nadia Alasaad has
twice had her iPhones searched at the border over her
religious objections to having CBP officers, especially
male officers, view photos of her and her daughters
without their headscarves as required in public by
their religious beliefs. D. 99-1 at ¶¶ 122-123. During
the second search, which was of her daughter’s phone,
Alasaad alleges, and Defendants have not disputed,
that a CBP officer mentioned a photograph that had
been on Alasaad’s phone during her earlier search but
was not present in the second search. D. 91-1 at ¶ 24.
Merchant is the founder and editor of a media website
and has had her phones searched multiple times
despite her concerns about officers seeing pictures of
her without her headscarf on the phones and, on one
occasion, her declining to give consent to search her
phone
since
it
contained
attorney-client
communications. D. 99-1 at ¶¶ 139, 142. Merchant
observed a CBP officer viewing communications
between her and her lawyer. D. 99-1 at ¶ 142. Dupin’s
phone contained information from his work as a
journalist, D. 91-4 at ¶¶ 1, 4, while Bikkannavar’s
phone was a work phone officially owned by NASA’s
Jet Propulsion Laboratory, D. 99-1 at ¶ 7, and
containing information from his work there, see id. at
¶¶ 7, 15.
It is also undisputed that information gleaned by
CBP or ICE agents during certain of these border
searches of Plaintiffs’ electronic devices has been
retained. Specifically, information observed by agents
during the searches of the phones of Ghassan Alasaad,
Nadia Alasaad, Bikkannavar, Dupin, Merchant,
38a

Shibly and Zorri has been retained. D. 99-1 at ¶ 150;
D. 94. Reports containing such information note not
just the fact that agents conducted a search of an
electronic device, but in some instances, observations
or characterizations of the information contained
therein. See, e.g., D. 94 at 3 (noting absence of
contraband from visual search of digital camera’s
contents), 94 (noting “no derogatory items [redacted]
found”), 114 (noting “[n]o derogatory observed” during
media examination), 127-28 (noting the contents of a
social media post). A number of Plaintiffs had their
electronic devices seized during the border searches,
even if CBP later returned the devices to them. D. 991 at ¶¶ 152, 154, 156, 160-61, 162, 166. As to one such
Plaintiff, Wright, a computer programmer, CBP also
extracted and retained data, including attempting to
image his laptop with MacQuisition software and
extracting data from the SIM cards in his phone and
camera, D. 91-9 at ¶ 12, from his electronic devices, D.
99-1 at ¶ 151, and retained it for a period of fifty-six
days, even if the parties agree that this data has now
been returned to him. D. 98 at ¶ 166.
IV. Procedural History
Plaintiffs instituted this action on September 13,
2017. D. 1; D. 7. On May 9, 2018, after briefing and
argument, the Court denied Defendants’ motion to
dismiss, D. 14, concluding that Plaintiffs had stated
plausible Fourth Amendment and First Amendment
claims and had standing to assert these claims and
the requests for relief that they seek. D. 34. The
parties each now move for summary judgment, D. 90;
D. 96. The court heard the parties on the pending
motions and took the matter under advisement. D.
106.
39a

V.

Discussion
A.

Standing

As they did in their motion to dismiss,
Defendants press their arguments challenging
Plaintiffs’ standing in their motion for summary
judgment. Defendants primarily contend that the risk
of future injury is too speculative to support standing
with respect to border searches and certain
deficiencies with respect to Plaintiffs’ claim for
expungement of data from previous border searches of
their electronic devices retained by the government.
On summary judgment, Plaintiffs “can no longer rest
on . . . mere allegations” and must instead “set forth
by affidavit or other evidence specific facts,” to
establish standing, “which for purposes of the
summary judgment motion will be taken to be true.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 561 (1992)
(internal citations and quotation marks omitted).
To establish Article III standing, Plaintiffs must
demonstrate that they “(1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by
a favorable judicial decision.” Spokeo, Inc. v. Robins,
__ U.S. __, 136 S. Ct. 1540, 1547 (2016), as revised
(May 24, 2016).
1.

Standing to Seek Injunctive or
Declaratory Relief

In its ruling on Defendants’ motion to dismiss,
the Court ruled that Plaintiffs had demonstrated
standing by plausibly alleging an injury in fact,
traceable to the Defendants’ alleged conduct that was
likely to be redressed by a favorable decision by the
Court. D. 34 at 17-24. Since Plaintiffs were seeking
40a

injunctive and declaratory relief, the Court also held
that they had met their burden of showing that there
was a substantial risk that the harm will occur in the
future. Id. at 24. Concluding that the risk of a future
search subject to ICE and CBP policies was higher for
Plaintiffs than for the general population and
rejecting Defendants’ arguments that the allegations
of such future harm were vague and speculative, id.
at 20-24, the Court concluded that “Plaintiffs have
plausibly alleged that they face a substantial risk of
future harm from Defendants’ ongoing enforcement of
their border electronics search policies.” Id. at 24.
On a more developed record, Defendants’
challenge to Plaintiffs’ standing now at the summary
judgment stage fares no better. The nature of
Plaintiffs’ claimed injury remains the same (violation
of constitutional rights as a result of electronic device
searches conducted pursuant to official ICE and CBP
border policies). Moreover, the record regarding the
substantial risk of future harm has been borne out by
discovery. The current record shows that agents have
the potential to access information on a traveler’s past
searches and that such information may be used to
inform decisions on future searches. D. 90-2 at ¶¶ 2535; D. 98 at ¶¶ 25-35. At the border, both CBP and
ICE have access to CBP’s main database, TECS. D.
90-2 at ¶¶ 25-35; D. 98 at ¶¶ 25-35. TECS includes
information about prior encounters between CBP and
travelers at the border, including but not limited to
“lookouts” (alerts about a traveler or vehicle that have
been entered in the database by either agency or other
law enforcement agencies) and the reasons for, or
information discovered in, prior broad searches of
electronic devices. D. 90-2 at ¶¶ 27-28, 32; D. 98 at ¶¶
41a

27-28, 32. Agents and officers of both agencies may
access and consider the information in TECS,
including information about prior border searches, in
deciding whether to conduct a border search of
electronic devices. D. 90-2 at ¶¶ 34-35; D. 98 at ¶¶ 3435. ICE also has its own database, Investigative Case
Management (“ICM”). D. 90-2 at ¶ 45; D. 98 at ¶ 45.
ICM contains information that ICE agents may access
at the border including, but not limited to, prior
encounters with travelers including whether they
were subject to a device search. D. 90-2 at ¶ 49; D. 98
at ¶ 49. ICM can contain “an agent’s description of
data in a traveler’s device, but not the data itself,” but
Defendants acknowledge that “ICM information about
the contents of travelers’ devices can be relevant to
whether to conduct a future border search of an
electronic device.” D. 90-2 at ¶¶ 50-51; D. 98 at ¶¶ 5051. Both CBP and ICE have access to CBP’s
Automated Targeting System (“ATS”) that flags
travelers for “additional inspection.” D. 90-2 at ¶¶ 36,
44; D. 98 at ¶¶ 36, 44. Although ATS permits the
officers to access dozens of other government
databases, it also contains copies of data obtained
from advanced searches of electronic devices obtained
during prior border encounters. D. 90-2 at ¶¶ 40-41;
D. 98 at ¶¶ 40-41. “ATS may use the information
copied from a traveler’s device to flag the traveler for
heightened screening in the future.” D. 90-2 at ¶ 43;
D. 98 at ¶ 43.
This possibility, in light of the prior searches
Plaintiffs have been subjected to and their future,
anticipated international travel (as discussed below),
translates into a sufficient likelihood that the

42a

challenged harm (i.e., search of electronic devices
without cause) may occur for Plaintiffs in the future.
The recent additional search of Allababidi’s
devices on July 6, 2019 furthers Plaintiffs’ argument
as to the risk of future harm. Allababidi had
previously been subject to a border search on January
24, 2017. D. 90-2 at ¶ 125. When he declined to provide
the password to his locked phone, CBP seized it to
conduct an examination. Id. at ¶ 125. On July 6, 2019,
Allababidi arrived at the Toronto airport for a flight to
Dallas, traveling with a smartphone and a laptop. D.
105 at ¶ 125.1. CBP officers searched both devices. Id.
That such search of electronic devices continues for
Plaintiffs, even in the midst of their ongoing legal
challenges to same, serves as further, undisputed
indication of the sufficient likelihood that,
unremedied, such alleged harm will continue in the
future, particularly given the Plaintiffs’ future plans
for international travel.
Defendants do not press the argument on
summary judgment that Plaintiffs lack concrete plans
for future international travel, but the Court notes
that there is more than sufficient, undisputed
evidence in the record as to both the frequency of
Plaintiffs’ international travel and the specific plans
by many of the Plaintiffs to do so in the future, see D.
90-2 at ¶¶ 170, 172, 174, 176, 178, 182, 187, 189; D. 98
at ¶¶ 170, 172, 174, 176, 178, 182, 187, 189. For some
examples, Bikkannavar has at least eight
international trips planned by September 2020 to
participate in solar car races and other related
activities. D. 90-2 at ¶ 174; D. 98 at ¶ 174. Further,
several of Plaintiffs have work or family commitments
that require regular international travel, see, e.g., D.
43a

99-1 at ¶¶ 176, 180, and Merchant lives in Canada but
studies at university in Boston and will continue to do
so until her graduation in May 2020, D. 99-1 at ¶ 182.
This likelihood of the future harm of Plaintiffs
being subjected to searches of their electronic devices
is not undermined, as argued by Defendants, by the
fact that the overall percentage of such searches is
low. Specifically, Defendants point to the stipulated
facts here that of the hundreds of millions of
international travelers processed by CBP in FY2017,
for one example, approximately .007% had their
electronic devices searched. D. 98-7 at ¶ 13. Such
evidence does not reduce the likelihood of future
searches of these Plaintiffs for a number of reasons.
First, the number of reported electronic devices likely
is underestimated. Since the CBP calculated the total
number of border searches of devices based upon
closed or completed Electronic Media Reports
(“EMRS”), D. 99-1 at ¶ 59, if the number of EMRs did
not include all such searches, then this number may
be underinclusive. The fact that there was no EMR as
to the search of one of Plaintiff’s smartphones (that of
Nadia Alasaad on August 28, 2017, D. 99-1 at ¶ 61),
suggests that this may be the case. Moreover,
although CBP and ICE conduct such searches at the
border, the number of searches cited above in FY2017
refers only to CBP searches and not ICE searches as
ICE does not maintain records of the number of basic
searches that it conducts. D. 98-7 at ¶ 14. ICE’s
recording of its advanced searches of electronic
devices in FY2017—681—likely would be less than
any number of basic searches of devices given that
such basic searches do not involve the connection of
external equipment to review, copy and analyze the
44a

device’s contents in the way that advanced searches
do. Accordingly, the total number of searches of
electronic devices by both agencies is underinclusive
and does not permit the Court to conclude that the
total percentage of all electronic device searches is as
low as .007%.
Second, even if this percentage were higher, but
not a significant percentage of the total number of
travelers admitted to the U.S. each year, the
likelihood of Plaintiffs having their electronic devices
searched without cause is not a remote risk or
“exceedingly low probability” of harm. D. 97 at 38
(citing Kerin v. Titeflex Corp., 770 F.3d 978, 983 (1st
Cir. 2014)). Although Defendants suggest the record
only reveals that CBP and ICE officers may have
access to the various agency databases, TECS, ATS
and ICM, when conducting border searches, but not
that they are accessed regularly in border encounters,
D. 97 at 27 n.13, the record reasonably suggests that
a traveler who has previously had an electronic device
searched in the past has some greater chance of
having same done in the future. Even at primary
inspection, CBP officers query TECS for “lookouts”
and “recent border crossings,” D. 99-1 at ¶ 29 and the
TECS database includes information about prior
border screenings. Id. at ¶ 34. The same is true as to
secondary inspections as to the TECS database and its
ATS database, which may contain copies of data from
travelers’ devices, id. at ¶ 41, ICE’s ICM which
contains information about prior border encounters
“including whether travelers were subjected to device
searches.” Id. at ¶ 49. Given these practices and the
fact that, as discussed above, several of the Plaintiffs

45a

have been searched multiple times,
Defendants’ arguments defeat standing.

none

of

For all of these reasons, the Court concludes that
Plaintiffs have made sufficient showing of standing
for the injunctive and declaratory relief that they
seek.
2.

Standing to Seek Expungement

Defendants also challenge Plaintiffs’ standing to
seek expungement. As Plaintiffs frame it now, they
“seek to expunge information Defendants concede
they retain.” D. 99 at 12. Here, Plaintiffs seek to
expunge information gathered from their electronic
devices (and now memorialized in officers’ reports, D.
94) and any copies made of their electronic devices,
social media information and device passwords. D. 7
at 42. As previously noted in the Memorandum &
Order regarding the motion to dismiss, D. 34 at 24,
retention of data illegally obtained by law
enforcement may constitute continuing harm
sufficient to establish standing to seek expungement.
See Tabbaa v. Chertoff, 509 F.3d 89, 96 n.2 (2d Cir.
2007) (stating that defendants there “properly do not
contest that plaintiffs possess Article III standing
based upon their demand for expungement” of data
collected during border searches); Hedgepath v. Wash.
Metro. Area Transit Auth., 386 F.3d 1148, 1152 (D.C.
Cir. 2004) (holding plaintiff had standing to seek
expungement of arrest record).
Where, as here, Plaintiffs allege that such
information and data was gathered as a result of the
allegedly unconstitutional border searches and such
harm could be addressed by expungement, contrary to
Defendants’ argument, D. 97 at 29-30, Plaintiffs have
46a

shown standing to seek expungement. While the ATS
database appears to be the only database that may
contain a copy of the data from an electronic device
subject to an “advanced search,” D. 90-2 at ¶¶ 40-41;
D. 98 at ¶¶ 40-41, CBP and ICE retain the substance
of data seized from both basic and advanced searches
of electronic devices as an agent’s description of same
in the ICM database and TECS database could have
been the result of either type of search. D. 90-2 at ¶¶
26, 33, 50; D. 98 at ¶¶ 26, 33, 50. ICE policy permits
retention of information from electronic devices that
is “relevant to immigration, customs, and other law
enforcement matters” and allows sharing of retained
information with other law enforcement agencies. D.
99-1 at ¶¶ 22-23. CBP policy also permits retention of
information on the same bases. D. 99-1 at ¶ 77.
Specifically, the record indicates information retained
from the device searches of the Alasaads,
Bikkannavar, Dupin, Merchant, Shibly and Zorri. D.
99-1 at ¶ 150. Finally, Defendants retained
information copied from Wright’s devices but have
since deleted all copies of Wright’s data.3 D. 99-1 at ¶
55, 151. Accordingly, at least these Plaintiffs,
therefore, had information gleaned from the search of
their electronic devices that Defendants have
retained. Here, such retention constitutes the alleged
ongoing and future harm as such information can be
accessed by border agents and may be relevant as to
whether agents otherwise might conduct a future
border search of an electronic device. D. 99-1 at ¶¶ 2551. Accordingly, such Plaintiffs have standing to seek
expungement, even as the Court reserves for
3

Wright has withdrawn his request for expungement.

D. 98-12.

47a

discussion below whether this remedy is warranted
here.
Having found standing as to Plaintiffs’ claims,
the Court now turns to the merits of their claims.
B.

Plaintiffs’ Fourth Amendment Claim
(Count I)

The parties have cross-moved for summary
judgment.
Plaintiffs
challenge
both
the
constitutionality of their searches and they claim that
CBP and ICE policies that allow for border searches of
electronic devices without a warrant—even as these
policies still require no showing (for “basic” searches)
and now reasonable suspicion (for “advanced”
searches, subject to a national security exception
which would allow for an advanced search without
reasonable suspicion)—are facially violative of the
Fourth Amendment’s protection against unreasonable
searches and seizures.4 D. 7 at 40-42; see D. 99 at 7
(noting that Plaintiffs argue that “every warrantless,
suspicionless search of the digital data on an
electronic device at the border violates the Fourth
Amendment,” with the exception of searches to verify
that a laptop is operational and contains data).
“[T]he distinction between facial and as-applied
challenges is not so well defined that it has some automatic effect
or that it must always control the pleadings and disposition in
every case involving a constitutional challenge." Citizens United
v. Fed. Election Comm'n, 558 U.S. 310, 331 (2010); see City of Los
Angeles, CA v. Patel, __ U.S. __, 135 S. Ct. 2443, 2449 (2015)
(observing that while a facial challenge to a statute or
governmental policy is “‘the most difficult . . . to mount
successfully,’ the Court has never held that these claims cannot
be brought under any otherwise enforceable provision of the
Constitution” (internal citations omitted) (quoting United States
v. Salerno, 481 U.S. 739, 745 (1987))).
4

48a

Defendants, in support of their own motion for
summary judgment, argue that the border search
exception to the Fourth Amendment’s warrant
requirement applies to both types of searches and no
further showing is constitutionally required. D. 97 at
11-12.
The Fourth Amendment protects “[t]he right of
the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures” and provides that “no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.”
U.S. Const. amend. IV. “[A] warrantless search is per
se unreasonable under the Fourth Amendment,
unless one of ‘a few specifically established and welldelineated exceptions’ applies.” United States v.
Wurie, 728 F.3d 1, 3 (1st Cir. 2013) (quoting Arizona
v. Gant, 556 U.S. 332, 338 (2009)). These few
exceptions all arise from the exigent situations that
“make the needs of law enforcement so compelling
that the warrantless search is objectively reasonable
under the Fourth Amendment.” Mincey v. Arizona,
437 U.S. 385, 393-94 (1978). These exceptions to the
warrant requirement include exigent circumstances,
searches incident to arrest, vehicle searches and, as
relevant here, border searches. United States v. Cano,
934 F.3d 1002, 1011 (9th Cir. 2019) (citing Supreme
Court precedent as to each exception).
1.

Border Search Exception to the
Warrant Requirement

The border search exception, “grounded in the
recognized right of the sovereign to control, subject to
substantive limitations imposed by the Constitution,
49a

who and what may enter the country,” is one such
exception. United States v. Ramsey, 431 U.S. 606, 620
(1977). As previously observed by this Court:
[t]he border search serves the nation’s
“paramount interest in protecting[] its
territorial integrity.” Flores-Montano, 541
U.S. at 153. The rationales supporting the
border search exception are the sovereign’s
interest in protecting the “integrity of the
border,” by “[r]egulat[ing] the collection of
duties” and “prevent[ing] the introduction of
contraband into this country.” Montoya de
Hernandez, 473 U.S. at 538, 537; see Carroll,
267 U.S. at 154 (explaining that “[t]ravellers
may be so stopped . . . because of national
self protection reasonably requiring one
entering the country to identify himself as
entitled to come in, and his belongings as
effects which may be lawfully brought in”).
The Supreme Court has characterized
customs officials’ role at the border as
greater than that of “investigative law
enforcement,” explaining that customs
officers “are also charged . . . with protecting
this Nation from entrants who may bring
anything harmful into this country, whether
that be communicable diseases, narcotics, or
explosives.” Montoya de Hernandez, 473
U.S. at 544.
D. 34 at 39. The Court has further described such
searches as extending to examinations of “persons and
property crossing into this country,” Ramsey, 431 U.S.
at 616, to “prevent[] the entry of unwanted persons
and effects” across the border, United States v. Flores50a

Montano, 541 U.S. 149, 152 (2004). “Absent more
precise guidance from the founding era, we generally
determine whether to exempt a given type of search
exception from the warrant requirement ‘by
assessing, on the one hand, the degree to which it
intrudes upon an individual’s privacy and, on the
other, the degree to which it is needed for the
promotion of legitimate governmental interests.’”
Riley v. California, 573 U.S. 373, 385 (2014) (citing
Wyoming v. Houghton, 526 U.S. 295, 300 (1999)). That
is, the border search exception is not limitless and
must still be reasonable and subject to the same
balancing of the level of intrusion upon an individual's
privacy and its necessity for the promotion of
legitimate governmental interests. D. 34 at 28-29
(citing United States v. Montoya de Hernandez, 473
U.S. 531, 539 (1985)).
What the border search exception recognizes,
rather than a limitless ability to conduct searches in
connection with international travel, is that
individuals have a reduced expectation of privacy at
the international border, while the government’s
“interest in preventing the entry of unwanted persons
and effects is at its zenith” there. Flores-Montano, 541
U.S. at 152, 154. The balancing inquiry thus begins
with the scales tipped heavily in favor of
governmental interests.
2.

Governmental Interests at the Border
Are Paramount

Defendants have a paramount interest in
maintaining “territorial integrity” at the border. They
define such interest to include the responsibility to
“ensure the interdiction of persons and goods illegally
entering or exiting the United States;” “facilitate and
51a

expedite the flow of legitimate travelers and trade;”
“administer the . . . enforcement of the customs and
trade laws of the United States;” “detect, respond to,
and interdict terrorists, drug smugglers and
traffickers, human smugglers and traffickers, and
other persons who may undermine the security of the
United States;” and “enforce and administer all
immigration laws.” See D. 97 at 12 n.5 (citing 6 U.S.C.
§ 211); see 19 U.S.C. §§ 1461, 1496, 1582; 19 C.F.R. §
162.6. Defendants further cite the interests served by
the border search exception as helping “to ensure
national security; prevent the entry of criminals,
inadmissible aliens, and contraband;” and to
“facilitate[] lawful trade and travel.” Id. To the extent
that the government attempts to invoke “general law
enforcement” purposes, that is not what gives rise to
the border search exception, Cano, 934 F.3d at 1013,
even as “the interdiction of contraband can serve both
customs and law enforcement purposes.” United
States v. Smasal, No. Crim. 15-85 JRT/BRT, 2015 WL
4622246, at *10 (D. Minn. June 19, 2015) (Report and
Recommendation). “No doubt a text message or email
may reveal evidence of crimes, but that is true both at
and inside the border. But it is uncertain whether the
evidence-gathering justification is so much stronger at
the border that it supports warrantless and
suspicionless searches of the phones of the millions
crossing it.” United States v. Molina-Isidoro, 884 F.3d
287, 295 (5th Cir. 2018) (Costa, J., specially
concurring). That is, as to contraband, it is the
interdiction of contraband, not the mere evidence of
contraband, that is a paramount concern at the
border, not evidence of contraband that might be
helpful in the investigations of past or future crimes.
Cano, 934 F.3d at 1016-18 (recognizing “a difference
52a

between a search for contraband and a search for
evidence of border-related crime,” citing among other
cases, Boyd v. United States, 116 U.S. 616, 622-23
(1886)); United States v. Vergara, 884 F.3d 1309, 1317
(11th Cir. 2018) (Pryor, J., dissenting) (noting that
although “searching a cell phone may lead to the
discovery of physical contraband,” such a “general law
enforcement justification is quite far removed from
the purpose originally underlying the border search
exception: ‘protecting this Nation from entrants who
may bring anything harmful into this country’”)
(quoting Montoya de Hernandez, 473 U.S. at 544); D.
34 at 40 (citing Boyd, 116 U.S. at 623).
Otherwise, the Defendants’ characterization of
the government interests aligns with the Supreme
Court’s and Circuit courts’ articulation of the
rationale for the exception. Montoya de Hernandez,
473 U.S. at 544; see United States v. Soto-Soto, 598
F.2d 545, 549 (9th Cir. 1979) (noting that “Congress
and the courts have specifically narrowed the border
searches to searches conducted by customs officials in
enforcement of customs laws”); United States v.
Touset, 890 F.3d 1227, 1232 (11th Cir. 2018) (noting
that “Congress has ‘broad powers . . . to prevent
smuggling and to prevent prohibited articles from
entry’ under its plenary authority ‘[t]o lay and collect
Taxes, Duties, Imposts and Excises, [t]o regulate
Commerce with foreign Nations,’ and ‘[t]o establish a[
] uniform Rule of Naturalization’”) (internal citations
omitted). That is, the “principal purposes” animating
the border search exception are the government’s
interest in identifying “travellers . . . entitled to come
in” and verifying their “belongings as effects which
may be lawfully brought in.” Cano, 934 F.3d at 1013
53a

(quoting Carroll v. United States, 267 U.S. 132, 154
(1925)); D. 91-21 (CBP border search policy
identifying the purpose of travelers’ inspection “to
ensure they are legally eligible to enter and that their
belongings are not being introduced contrary to law”).
Even as the governmental interests may be broader at
the border, there still must be a showing of “the degree
to which [the search exception] is needed for the
promotion of legitimate governmental interests,’”
Riley, 573 U.S. at 385, before weighing it against the
degree of intrusion on an individual’s privacy. United
States v. Kim, 103 F. Supp. 3d 32, 57 (D.D.C. 2015)
(noting that “[a]pplying the Riley framework, the
national security concerns that underlie the
enforcement of export control regulations at the
border must be balanced against the degree to which
[the defendant’s] privacy was invaded in this
instance”).
3.

Even Border
Boundless

Searches

Are

Not

When applying exceptions to the warrant
requirement, courts must determine whether the
search at issue is within the scope of the exception,
i.e., whether the search furthers the underlying
purpose of the exception, and whether the search,
even if within the scope of the exception, intrudes
upon a competing privacy interest to such an extent
that a warrant or other heightened level of suspicion
should still be required. Riley, 573 U.S. at 386-401.
Undisputedly, interdiction of inadmissible
persons and goods are legitimate governmental
interests at the border. Plaintiffs do not dispute that
CBP and ICE officers have the unenviable task of
screening “[o]ver one million travelers per day [who]
54a

go through U.S. ports of entry,” D. 99-1 at ¶ 14, and
although they have some information about travelers
(particularly those traveling by air and otherwise
through agency databases), id. at ¶¶ 14, 20, they have
little time to process it. See id. at ¶¶ 14, 22. Even so,
the record that recites “searches of electronic devices
at the border have successfully uncovered threats to
national security, information pertaining to terrorism,
illegal activities, contraband, and the inadmissibility
of people and things,” id. at ¶¶ 37, 50, without
explanation of the frequency, nature of same or the
manner of the discovery of same, is not a strong
counterweight to the intrusion on personal privacy
evidenced by such searches. Even assuming, as
Defendants assert, that some such threats (or, for
other examples, evidence of criminal conduct or
contradictory information regarding a traveler’s
purpose for travel to the U.S., id. at ¶¶ 39-40) were
uncovered in searches “without advance information
or suspicion,” id. at ¶ 38-40, on this record it is not
clear that such would not be uncovered even when
some cause, such as reasonable suspicion, could be
developed (or has been developed in other cases as
discussed below) in these border encounters.5 Further,
Moreover, the Court notes that the CBP policy as to
the reasonable standard for advanced searches includes a
“national security concern” exception. To the extent that such
exception is akin to the well-recognized “exigent circumstances”
exception to the warrant requirement, see D. 107 at 25-26, such
exception would remain available regardless of the Court’s ruling
here. See Kentucky v. King, 563 U.S. 452, 460 (2011) (noting that
this exception applies when “‘the exigencies of the situation’
make the needs of law enforcement so compelling that [a]
warrantless search is objectively reasonable under the Fourth
Amendment”) (citing Mincey, 437 U.S. at 394); see also Riley, 573
U.S. at 402 (noting that exigent circumstances exception would
5

55a

the CBP and ICE policies contemplate relying on some
cause for certain searches and actions at the border:
i.e., reasonable suspicion for advanced searches of
electronic devices; and as the CBP policy
contemplates, probable cause for the “retention” of “an
electronic device, or copies of information from the
device” when “they determine that there is probable
cause to believe that the device, or copy of the contents
from the device, contains evidence of a violation of a
law that CBP is authorized to enforce or administer,”
D. 91-18 at 9-10, even as this policy does not require
such showing for “detention” of such devices “for a
brief, reasonable period” or the retention of
information relating to immigration, customs and
other enforcement matters. Id.
As to the inadmissibility of travelers to the
United States, the record is not clear as to what
evidence of same would be revealed by a search of a
traveler’s electronic device. Although Defendants
suggest that an electronic device may contain
contradictory information about a traveler’s stated
purpose for visiting the United States, D. 99-1 at ¶ 39;
D. 98-1 at ¶ 29, there is no suggestion that a search
for same on the devices of the Plaintiffs would bear
upon admission where ten of them are U.S. citizens
and one is a lawful permanent resident of this
country. D. 99-1 at ¶ 2 (acknowledging that U.S.
citizens and lawful permanent residents are by
definition admissible once identity and citizenship are
established); cf. 8 U.S.C. § 1225 (providing that an

still be available even as it ruled that a warrantless search of cell
phone was not permissible as a search incident to arrest).

56a

alien who presents at the border “shall be deemed . . .
an applicant for admission”).
As to contraband, there are limits to the
contraband that may be stored on digital devices. The
forms of such contraband, as identified by Defendants,
can include child pornography, classified information
and counterfeit media, D. 98-1 at ¶¶ 23, 39; D. 99-1 at
¶¶ 35, 36, even as such devices may also contain
evidence of contraband or other criminal or illegal
conduct. D. 99-1 at ¶ 36. The record of the prevalence
of such digital contraband encountered at the border
remains unclear, even as to child pornography. D. 901 at 16 (noting that “[c]hild pornography, for instance,
can be considered digital ‘contraband’ that may be
interdicted at the border”); D. 97 at 23-24 n.6
(identifying cases involving searches that have
uncovered contraband or evidence of illegality). Given
the dearth of information of the prevalence of digital
contraband entering the U.S. at the border, the Court
cannot conclude that requiring a showing of some
cause to search digital devices would obviate the
deterrent effect of the border search exception. D. 991 at ¶ 47. “Notwithstanding the broad scope of the
government’s authority at the border, the Supreme
Court has suggested that even this power to search
may be bounded by limits derived from the Fourth
Amendment, particularly when the search cannot be
characterized as ‘routine.’” Kim, 103 F. Supp. 3d at 49.
4.

Border Search Exception Applies to
Routine, Not Non-Routine Searches

The Supreme Court has described the border
search exception as applying to “routine inspections
and searches of individuals or conveyances seeking to
cross our borders.” Almeida-Sanchez v. United States,
57a

413 U.S. 266, 272 (1973). “Routine searches of persons
and effects of entrants are not subject to any
requirement of reasonable suspicion, probable cause,
or warrant.” Montoya de Hernandez, 473 U.S. at 538.
“Non-routine searches, by contrast, require
reasonable suspicion.” Molina-Gomez, 781 F.3d at 19
(citing Montoya de Hernandez, 473 U.S. at 541-42).
The distinction between routine and non-routine does
not turn upon the frequency of such searches, or the
label the government may ascribe to it, see Kim, 103
F. Supp. 3d at 55, but the degree of invasiveness or
intrusiveness of the search. Molina-Gomez, 781 F.3d
at 19 (citing United States v. Braks, 842 F.2d 509, 51112 (1st Cir. 1988)). Although many of the factors for
determining whether the degree of same makes a
search routine or non-routine concern physical
exposure or contact with the person being searched
(e.g., whether search involved exposure of intimate
body parts, physical contact between agents and
person subject to search, whether search exposes
person to pain or danger, Braks, 842 F.2d at 512),
others do not necessarily (e.g., the overall manner in
which search is conducted, even whether force was
used and certainly “whether the suspect’s reasonable
expectations of privacy, if any, are abrogated by the
search,” id.). Even where the First Circuit in Braks
concluded in 1988, long before the digital devices at
issue here were available or commonplace, that the
search of a defendant who lifted up her skirt to reveal
a bulge in girdle that contained heroin was routine, id.
at 513, it was careful to note that “[w]e do not suggest
that the categorization of a border search as routine
or non-routine can be accomplished merely by
stacking up and comparing the several factors
favoring each of the two classifications.” Id. The court
58a

added that the factors above are not an “exhaustive
list of equally-weighted concerns,” but instead
“[u]ltimately each case must turn upon its own
particularized facts.” Id.
That is, although as the court in Touset, 890 F.3d
at 1234, noted, those border searches deemed nonroutine have involved intrusive searches of a person,
e.g., strip searches and body cavity searches, id. at
1235-38 (declining to conclude that any level of
suspicion is constitutionally required for a search of
electronic devices at the border, but, alternatively,
finding that the agents had reasonable suspicion to
search defendant’s electronic devices); Molina-Gomez,
781 F.3d at 19 and cases cited; see Montoya de
Hernandez, 473 U.S. at 541 (applying reasonable
suspicion standard where traveler suspected of
smuggling drugs ingested was subject to a physician’s
examination), does not mean that there are no
searches of property that could constitute non-routine
searches, particularly where they fall on the higher
end of a continuum of invasiveness and intrusiveness
than those routine searches that do not implicate such
privacy concerns, like a pat-down, searching checked
luggage, opening and testing bottles of liquor or
removing and disassembling a gas tank. MolinaGomez, 781 F.3d at 19 and cases cited.
There are a number of reasons and “a convincing
case for categorizing forensic searches of digital
devices as nonroutine”: the “scale” and “sheer
quantity” of personal information they contain, the
“uniquely sensitive nature of that information,” and
the portable nature of same such that it is neither
“‘realistic nor reasonable to expect the average
traveler to leave his digital devices at home when
59a

traveling.’” United States v. Kolsuz, 890 F.3d 133, 14445 (4th Cir. 2018) (quoting United States v. Saboonchi,
990 F. Supp. 2d 536, 556 (D. Md. 2014)).
It is correct, as Defendants note, that no court
has yet required a warrant for a search of an electronic
device at the border. See, e.g., Kolsuz, 890 F.3d at 147
(noting that “there are no cases requiring more than
reasonable suspicion for forensic cell phone searches
at the border”); Vergara, 884 F.3d at 1311 (rejecting
argument that border search of cell phones required a
warrant or probable cause, but noting that “[a]t most,
border searches require reasonable suspicion,” which
had not been argued by defendant); Molina-Isidoro,
884 F.3d at 292 (noting that “not a single court
addressing border searches of computers since Riley
has read it to require a warrant”); United States v.
Wanjiku, 919 F.3d 472, 485 (7th Cir. 2019) (noting
that “no circuit court, before or after Riley, has
required more than reasonable suspicion for a border
search of cell phones or electronically-stored data”).
There is, however, growing precedent in the weighing
of governmental interests against privacy interests at
the border of requiring a showing of reasonable
suspicion at least for forensic searches of digital
devices. For instance, in Molina-Gomez, the First
Circuit declined to differentiate the search of the
defendant’s laptop and cell phones (X-rays of which
were negative for contraband, inspection confirmed
that they were operational, but on which agents
reviewed inculpatory text messages), instead
concluding that “even assuming the search was nonroutine, reasonable suspicion existed to justify the
search.” Molina-Gomez, 781 F.3d at 20. The same was
true, for another example, in Kolsuz, where the court
60a

ruled that “at least reasonable suspicion” was
required, reasoning that “it is clear that a forensic
search of a digital phone must be treated as a
nonroutine border search, requiring some form of
individualized suspicion.” Kolsuz, 890 F.3d at 146.
5.

Plaintiff’s Privacy Interests in the
Contents of their Electronic Devices

The privacy interest against which the Court
must balance the justifications for the border search
exception is an individual’s interest in the contents of
his or her electronic devices. The Court recognizes
that while the “[g]overnment’s interest in preventing
the entry of unwanted persons and effects is at its
zenith at the international border,” an individual’s
“expectation of privacy is less at the border than it is
in the interior.” Flores-Montano, 541 U.S. at 152, 154.
Still, courts have recognized the “substantial personal
privacy interests” implicated by the searches of
electronic devices now “capable of storing warehouses
full of information.” United States v. Cotterman, 709
F.3d 952, 964 (9th Cir. 2013); see Riley, 573 U.S. at
393 (describing cell phones as “minicomputers that
also happen to have the capacity to be used as a
telephone”); Wurie, 728 F.3d at 9 (noting that
“individuals today store much more personal
information on their cell phones than could ever fit in
a wallet, address book, briefcase, or any of the other
traditional containers that the government has
invoked”). This is true at the border as well. See
Cotterman, 709 F.3d at 964; Kim, 103 F. Supp. 3d at
50 (noting that, given their “vast storage capacity” and
capacity “to retain metadata and even deleted
material, one cannot treat an electronic storage device
like a handbag simply because you can put things in
61a

it and then carry it onto a plane”). The ICE and CBP
policies cover the gamut of these electronic devices:
the ICE policy defines electronic device as “[a]ny item
that may contain information, such as computers,
disks, drives, tapes, mobile phones and other
communication devices, cameras, music players, and
any other electronic or digital devices,” D. 98-4 at 3,
and the CBP policy defines it as “[a]ny device that may
contain information in an electronic or digital form,
such as computers, tablets, disks, drives, tapes,
mobile phones and other communication devices,
cameras, music and other media players,” D. 98-5 at
3. Smart phones and laptops, devices that Plaintiffs
were carrying, can contain information such as
photographs, contact information, emails and text
messages, as well as information such as
prescriptions, employment information, travel history
and internet browsing history. D. 99-1 at ¶ 64. Here,
information on Plaintiffs’ devices when the devices
were
searched
includes
attorney-client
communications, D. 99-1 at ¶142, pictures of some
Plaintiffs without their required religious attire, D.
99-1 at ¶¶ 122, 139, information related to Plaintiffs’
journalism work, D. 99-1 at ¶ 129, and social media
postings, D. 94 at 127-128. Even under the border
search exception, it is the privacy interests implicated
by unfettered access to such a trove of personal
information that must be balanced against the
promotion of paramount governmental interests at
the border. Kim, 103 F. Supp. 3d at 55 (applying
Riley).
It is in this balancing that the Supreme Court’s
ruling in Riley is particularly instructive. As
explained at length in the earlier Memorandum &
62a

Order, the Court rejects Defendants’ argument that
Riley’s reasoning should be limited to the search
incident to arrest exception, not the matter at issue
there. D. 34 at 28-46. The analysis in Riley carries
persuasive weight in this context, particularly where
the Supreme Court has previously acknowledged that
the search incident to arrest exception and the border
search exceptions are “similar” as both are
“longstanding, historically recognized exception[s] to
the Fourth Amendment’s general principle that a
warrant be obtained.” Ramsey, 431 U.S. at 621.
Certainly, this Court is not alone in considering the
analysis in Riley in resolution of a challenge to the
application of the border search exception. See, e.g.,
Wanjiku, 919 F.3d at 484-85; Kolsuz, 890 F.3d at 140;
Kim, 103 F. Supp. 3d at 54-58. In Riley, the Court
analyzed the applicability of the search incident to
arrest exception to searches of an arrestee’s cell phone
and held that officers must secure a warrant before
conducting such a search. Riley, 573 U.S. at 386. The
case was the consolidation of two cases below, both of
which involved police examining an arrestee’s phone
subsequent to arrest, in one instance finding evidence
of potential gang activity and in the other identifying
the arrestee’s home address and seeking a search
warrant for the premises. Id. at 378-381. The Court
examined the justifications for the search incident to
arrest exception, namely, the risk of harm to officers
from concealed material on an arrestee’s person and
the risk of destruction of evidence, and concluded that
the justifications were untethered from searches of
arrestees’ cell phones. Id. at 388-391. Even taking into
account the reduced privacy interest of an arrestee,
the Court noted that “diminished privacy interests
do[] not mean that the Fourth Amendment falls out of
63a

the picture entirely.” Id. at 392. Riley further rejected
the notion that searches of electronic devices are
comparable to searches of physical items or persons,
noting that such a comparison “is like saying a ride on
horseback is materially indistinguishable from a
flight to the moon. Both are ways of getting from point
A to point B, but little else justifies lumping them
together. Modern cell phones, as a category, implicate
privacy concerns far beyond those implicated by the
search of a cigarette pack, a wallet, or a purse.” Riley,
573 U.S. at 393. The Supreme Court further noted
later in the opinion that “a cell phone search would
typically expose to the government far more than the
most exhaustive search of a house: [a] phone not only
contains in digital form many sensitive records
previously found in the home; it also contains a broad
array of private information never found in a home in
any form—unless the phone is.” Id. at 396-397
(emphasis in original). Riley, thus shows the challenge
of applying and extending precedent concerning
searches to new technology that presents a new
privacy paradigm. See Carpenter v. United States, __
U.S.__, 138 S. Ct. 2206, 2222 (2018) (citing Riley, 573
U.S. at 386, ruling that the government must
generally obtain a warrant to access cell phone
location information and noting “[w]hen confronting
new concerns wrought by digital technology, this
Court has been careful not to uncritically extend
existing precedents”); United States v. Davis, 785 F.3d
498, 520 (11th Cir. 2015) (noting that “[j]udges cannot
readily understand how . . . technologies may develop,
cannot easily appreciate context, and often cannot
even recognize whether the facts of the case before
them raise privacy implications that happen to be
typical or atypical”) (citing Orin S. Kerr, The Fourth
64a

Amendment and New Technologies: Constitutional
Myths and the Case for Caution, 102 Mich. L.Rev. 801,
858–59 (2004)); Morgan v. Fairfield Cty., Ohio, 903
F.3d 553, 575 n. 3 (6th Cir. 2018) (noting “how everchanging technology fits within the contours of these
zones may continue to challenge courts”). Riley also
shows the vast privacy interests against which the
promotion of governmental interests must be
weighed.
It is the promotion of these governmental
interests by the device searches under the border
search exception where the record is sparser in
support of Defendants’ position. At the motion to
dismiss stage, the Court noted that “the prevalence of
physical transfers of illicit digital contraband across
the U.S. borders (as opposed to through the internet)
is unclear.” D. 34 at 41. Defendants now cite thirtyfour published cases involving seizure at the border of
digital contraband or evidence. D. 97 at 23 n.6. Even
assuming that the thirty-four cases are not an
exhaustive list of prosecutions resulting from border
searches of electronic devices, as a percentage of all
searches, this does not suggest a robust rate. CBP
conducted approximately 108,000 searches of
electronic devices at the border from fiscal year 2012
through fiscal year 2018. D. 90-2 at ¶ 52; D. 98 at ¶
52. ICE does not track how many basic searches of
electronic devices it conducts. D. 97 at 5. Comparing
the thirty-four published cases cited by Defendants to
the number of electronic devices searches performed
by the CBP and over a shorter time frame than those
published cases span, the number of searches that
have led to seizures appears to be quite small.

65a

Defendants also point to the broad latitude
border officials have to search physical items, D. 104
at 7, but comparisons between searches for digital
evidence or contraband and searches of other physical
items or travelers themselves are inapposite. Riley
recognized as much in responding to the government’s
argument that officers could search a cell phone if
there were a sufficiently similar non-digital analogue
that officers could have searched by noting that “the
fact that a search in the pre-digital era could have
turned up a photograph or two in a wallet does not
justify a search of thousands of photos in a digital
gallery. The fact that someone could have tucked a
paper bank statement in a pocket does not justify a
search of every bank statement from the last five
years. And to make matters worse, such a test would
allow law enforcement to search a range of items
contained on a phone, even though people would be
unlikely to carry such a variety of information in
physical form.” Riley, 573 U.S. at 400.
The Court’s reasoning in Riley holds the same
force when applied to border searches. Unlike a
vehicle, vessel or even a home at the border, see 19
U.S.C. §§ 482, 1582, 1595(a)(2) (regarding inspections
of vessels and homes), “the data stored on a cell phone
is distinguished from physical records by quantity
alone, [but] certain types of data are also qualitatively
different.” Id. at 395-96. It can “reveal an individual's
private interests or concerns” as evidenced by internet
search and browsing history, “reveal where a person
has been” through historic location information, and
reveal which files a person created, accessed and when
he or she did so through metadata. Id. The potential
level of intrusion from a search of a person’s electronic
66a

devices simply has no easy comparison to non-digital
searches. See Cotterman, 709 F.3d at 966 (describing
forensic search of digital device as “essentially a
computer strip search”).
6.

The Broadly Defined Basic Search and
Advanced Searches of Electronic
Devices are Both Non-Routine
Searches

Under the CBP and ICE policies, a basic search
and an advanced search differ only in the equipment
used to perform the search and certain types of data
that may be accessed with that equipment, but
otherwise both implicate the same privacy concerns.
Basic searches, defined only as any search of an
electronic device that is not an advanced search, can
access content from space physically resident on a
device using the devices’ native operating system. D.
99-1 at ¶ 67. That is, even a basic search alone may
reveal a wealth of personal information. Electronic
devices carried by travelers, including smartphones
and laptops, can contain a very large volume of
information, including “sensitive information.” D. 991 at ¶¶ 63, 65-66. Such devices can contain, for some
examples, prescription information, information
about employment, travel history and browsing
history. D. 99-1 at ¶ 64. Such information can be
accessed during not just the forensic searches under
the CBP and ICE policies, but also under a basic
search. D. 99-1 at ¶¶ 67-71. Using a device’s native
operating system, a basic search can access content
from the allocated space physically present on the
device, it can extend to any allocated file or
information on the devices and, for devices that
contain metadata, it can reveal “the date/time
67a

associated with the content, usage history, sender and
receiver information or location data.” D. 99-1 at ¶¶
67-69. Even in a basic search, agents can peruse and
search the contents of the device, using the native
search functions on the device, including, if available,
a keyword search. D. 99-1 at ¶ 70. An agent
conducting a basic search may use the device’s own
internal search tools to search for particular words or
images. D. 99-1 at ¶ 71. Accordingly, even a basic
search allows for both a general perusal and a
particularized search of a traveler’s personal data,
images, files and even sensitive information.
This Court does not dispute that a cursory search
of an electronic device—e.g., a brief look reserved to
determining whether a device is owned by the person
carrying it across the border, confirming that it is
operational and that it contains data, D. 99 at 12—
would fall within the border search exception and not
require a heightened showing of cause. See, e.g.,
Cotterman, 709 F.3d at 960-61 (concluding that “a
quick look and unintrusive search” of files on a laptop
was a routine search, but a forensic search,
“essentially a computer strip search” was nonroutine
search requiring reasonable suspicion); Kim, 103 F.
Supp. 3d at 57 (concluding that however the
distinctions between a routine and forensic search are
made by higher courts, the search at issue there was
“qualitatively and quantitatively different from a
routine border examination”). However, the range of
searches that the Plaintiffs were subject to by CBP
and ICE and the breadth of searches that continue to
be permitted even as basic searches under the
agencies’ current policies, are not such routine

68a

searches given the breadth of intrusion into personal
information.
The range of searches that Plaintiffs were subject
to here illustrates this breadth. Although most were
conducted before the current CBP and ICE policies
were adopted on January 4, 2018 (CBP), D. 99-1 at ¶
6, and May 11, 2018 (ICE), id. at ¶ 17, the record
indicates that only a few of the searches of Plaintiffs’
cellphones or laptops may have involved connection to
external devices and would have been characterized
as advanced searches under the current policies,6
while the others would have been considered basic
searches (i.e., any search that is not an advanced
search). These searches provided access to the
photographs, contacts and data of both a personally
and professionally sensitive nature. For one example,
during one search of Dupin, a journalist, agents asked
him about his phone’s contents including photos,
emails and contacts. D. 99-1 at ¶ 130; D. 91-4 at ¶ 8.
CBP agents searched the phone of Shibly, a filmmaker
and graduate student, D. 99-1 at ¶ 143, on two
occasions, one for approximately thirty-seven
minutes, D. 99-1 at ¶ 144; D. 91-8, and officers made
notes of the contents. D. 94 at 128. Agents searched
As to one such search, on April 21, 2016, Wright had
his phone, laptop and camera confiscated. D. 99-1 at ¶146. CBP
“extracted and obtained information” from the devices, including
attempting to image the laptop. D. 99-1 at ¶ 147. As to another,
Allababidi, the owner and operator of a security technology
business, had his phones, containing both personal and business
information, searched for at least twenty minutes and then the
agents detained the devices for a number of months for further
examination, including having the phones sent to the “Regional
Computer Forensic Lab.” D. 99-1 at ¶¶ 124-25, 159; D. 91-2 at ¶
4.
6

69a

the cell phone of Bikkannavar, an optical engineer at
NASA’s Jet Propulsion Laboratory, D. 99-1 at ¶ 126,
using what the CBP told him were “algorithms” to
search his phone. D. 99-1 at ¶ 127; D. 91-3 at ¶ 12.
Having had his phone searched by agents on several
prior occasions, D. 99-1 at ¶ 134; D. 91-6, Kushkush,
a freelance journalist, D. 99-1 at ¶ 133, had his phone
taken by agents at the border and searched for an
hour, D. 91-6 at ¶¶ 14-17, and then was questioned
about his work as a journalist. His phone contained
journalistic work product, work-related photos and
lists of contacts. D. 91-6 at ¶ 8. These searches
provided access to expressive content and personal
contacts. For other examples, CBP agents searched
the phone and laptop of Merchant, a writer, graduate
student and founder and editor of a media website, D.
99-1 at ¶ 136. According to the uncontradicted
attestation of Merchant, CBP officers asked her about
one of her blog posts while searching her phone and
laptop. D. 91-7 at ¶ 11. Her laptop and phone were
taken out of her sight for one and a half hours and
when returned her phone was open to the Facebook
friends page, which it had not been when she gave
officers her phone. Id. at ¶ 13. The phone of Nadia
Alasaad, a nursing student, D. 99-1 at ¶ 120, was
searched despite her objections that it contained
photographs of her and her daughters without the
headscarf that they are required to wear in public in
accordance with her religious beliefs. D. 91 at ¶ 10; D.
91-1 at ¶ 10. Both her phone and the phone of her
husband, Ghassan Alasaad, a limousine driver, D. 991 at ¶ 120, were seized and not returned to them until
fifteen days later. D. 91 at ¶ 18. Upon return, media
files in one application, including videos of her
daughter’s graduation, indicated that they no longer
70a

existed on the phone and were not accessible. Id. at ¶
19. Zorri, a university professor and former United
States Air Force captain, D. 99-1 at ¶ 148, had her
electronic devices, including her cell phone, searched
for forty-five minutes, id. at ¶ 149.
Since the CBP and/or ICE adopted their search
policies in 2018, the electronic devices of some
Plaintiffs have also been searched in what were
described as basic searches. For one example, on April
5, 2018, Merchant’s phones were searched out of her
sight for approximately forty-five minutes, D. 91-7 at
¶¶ 14-21, again on July 7, 2018, D. 91-7 at ¶¶ 22-24;
D. 99-1 at ¶ 141; D. 91-7, and again on September 9,
2018. D. 91-7 at ¶¶ 26-32. On this last occasion,
Merchant observed a CBP officer viewing emails and
text messages between herself and her lawyer. Id. at
¶ 31; D. 99-1 at ¶ 142.
An advanced search can generally reveal
anything that would be discovered during a basic
search. D. 99-1 at ¶ 72. In addition to data revealed
during a basic search, an advanced search also may be
able to uncover deleted or encrypted data and copy all
of the information physically present on the device
depending on the equipment, procedures and
techniques used. D. 99-1 at ¶¶ 73-74. Even if a device
is not connected to the internet, if information from
the internet is cached on the device, agents can see
and search the cached information. D. 99-1 at ¶ 75.
That is, to the extent that the range of searches
permissible as basic searches implicate privacy rights,
so too as to the broader range of advanced searches.
On this record, and as Plaintiffs contend, D. 90-1
at 28; D. 107 at 11-12, the Court is unable to discern
a meaningful difference between the two classes of
71a

searches in terms of the privacy interests implicated.
The concerns laid out in Riley of unfettered access to
thousands of pictures, location data and browsing
history (which, applying the definition under the CBP
and ICE policies would have qualified as a “basic
search,” Riley, 573 U.S. at 379-80), apply with equal
force to basic and advanced searches, particularly as
a device’s native operating systems become more
sophisticated and more closely mirror the capabilities
of an advanced search. In light of this record, case law,
and in conjunction with the lack of meaningful
difference between basic and advanced searches, the
Court concludes that agents and officials must have
reasonable suspicion to conduct any search of
entrants’ electronic devices under the “basic” searches
and “advanced” searches as now defined by the CBP
and ICE policies. This requirement reflects both the
important privacy interests involved in searching
electronic devices and the Defendant’s governmental
interests at the border.
7.

Reasonable Suspicion, not Probable
Cause, Applies to Both Such Searches

Having not discerned a meaningful distinction
between the currently defined basic search and
advanced search in terms of privacy interests,
reasonable suspicion should apply to both such
searches at the border. Reasonable suspicion is a
“common-sense conclusion[n] about human behavior
upon which practical people,-including government
officials, are entitled to rely.” Montoya de Hernandez,
473 U.S. at 541-42 (quoting New Jersey v. T.L.O., 469
U.S. 325, 346 (1985)). Moreover, with a reasonable
suspicion standard, “officials are afforded deference
due to their training and experience,” Abidor v.
72a

Napolitano, 990 F. Supp. 2d 260, 282 (E.D.N.Y. 2013),
and it allows authorities “‘to graduate their response
to the demands of any particular situation.’” Montoya
de Hernandez, 473 U.S. at 542 (quoting United States
v. Place, 462 U.S. 696, 709 n.10 (1983)). This standard
is met when agents “can point to ‘specific and
articulable facts’ . . . considered together with the
rational inferences that can be drawn from those
facts.” Kim, 103 F. Supp. 3d at 43 (quoting Terry v.
Ohio, 392 U.S. 1, 21, 30 (1968)).
The seeds of applying reasonable suspicion7 in
the border context have already been laid by several
Defendants argue that Plaintiffs have effectively
waived any claim that reasonable suspicion should apply here,
having not raised it as a separate claim in their complaint. D. 97
at 21; see D. 104 at 13. The Court rejects this argument. First,
the Court has broad discretion to fashion appropriate remedies
for constitutional violations. See Fed. R. Civ. P. 54(c), (providing
that judgment “should grant the relief to which each party is
entitled, even if the party has not demanded that relief in its
pleadings“); see Town of Portsmouth, R.I. v. Lewis, 813 F.3d 54,
61 (1st Cir. 2016) (noting that a “plaintiff’s failure to seek a
remedy in its complaint does not necessarily forego that
remedy”). Second, Plaintiffs have sought broad relief, including
“such other and further relief as the Court deems proper” and
have consistently argued, since at least the motion to dismiss
stage, that reasonable suspicion would be an alternative remedy
to a probable cause standard and thus Defendants have been on
notice of the possible relief, D. 99 at 8-9. Third, courts analyzing
the issue of warrantless searches of electronic devices at the
border have noted that review “necessarily encompasses a
determination as to the applicable standard: no suspicion,
reasonable suspicion of probable cause” and found no prejudice
in analyzing the reasonable suspicion standard even when not
fully briefed on appeal. See Cotterman, 709 F. 3d at 960. There
is also no prejudice to Defendants in considering this issue as the
reasonable suspicion standard, in addition to being a part of
Defendants’ present policies with respect to advanced searches of
7

73a

Circuits, post-Riley,8 to the more intrusive searches of
digital devices. See Kolsuz, 890 F.3d at 137; Cano, 934
F.3d at 1017; but see Touset, 890 F.3d at 1236
(concluding that “[w]e see no reason why we would
permit traditional, invasive searches of all other kinds
of property but create a special rule that will benefit
offenders who now conceal contraband in a new kind
of property”) (internal citation omitted).
Moreover, the reasonable suspicion that is
required for the currently defined basic search and
advanced search is a showing of specific and
articulable facts, considered with reasonable
inferences drawn from those facts, that the electronic
devices contains contraband. Although this may be “a
close question” on which at least two Circuits
disagree, Cano, 934 F.3d at 1017-18 (noting its
disagreement with the Fourth Circuit in Kolsuz, 890
F.3d at 143, on this point), the Court agrees that this
formulation is consistent with the government’s
interest in stopping contraband at the border and the
long-standing distinction that the Supreme Court has
made between the search for contraband, a
electronic devices, has been repeatedly discussed in the parties’
briefing, see, e.g., D. 15 at 24; D. 19 at 24, as well as in the Court’s
Memorandum & Order on the motion to dismiss, D. 34 at 44.
Some such seeds came pre-Riley. See Cotterman, 709
F.3d at 968 (concluding that “the forensic examination of
Cotterman's computer required a showing of reasonable
suspicion, a modest requirement in light of the Fourth
Amendment”); Abidor, 990 F. Supp. 2d at 280-82 (noting that "[a]
comprehensive forensic search of a computer, whether a desktop
or a laptop, involves a significant invasion of privacy" and that
"if suspicionless forensic computer searches at the border
threaten to become the norm, then some threshold showing of
reasonable suspicion should be required").
8

74a

paramount interest at the border, and the search of
evidence of past or future crimes at the border, which
is a general law enforcement interest not unique to the
border. See Cano, 934 F.3d at 1018-20 (citing Boyd,
116 U.S. 616, 622-23 and concluding that border
search exception authorizes warrantless searches of a
cell phone only for contraband and that “border
officials may conduct a forensic cell phone search only
when they reasonably suspect that the cell phone
contains contraband”). Although Defendants have the
twin interests of protecting territorial integrity by
preventing the entry of both contraband and
inadmissible persons, this record does not reveal
what, if any, evidence would be contained on the
electronic devices, particularly of Plaintiffs, all U.S.
citizens and one lawful resident alien, that would
prevent their admission. Even as to an alien, where
CBP posits that an electronic device might contain
contradictory information about his/her intentions to
work in the U.S. contrary to the limitations of a visa,
D. 98-1 at ¶ 29, there is no indication as to the
frequency of same or the necessity of unfettered access
to the trove of personal information on electronic
devices for this purpose. See Riley, 573 U.S. at 398-99
(rejecting extension of the Gant standard for
warrantless vehicle searches to cell phones given the
breadth of data, unrelated to any present crime, that
a cell phone could provide such that application of the
standard to cell phones “would in effect give “‘police
officers unbridled discretion to rummage at will
among a person’s private effects’”) (internal citation
omitted). Moreover, this standard focused on
discovery of contraband reflects the judicial
preference “to provide clear guidance to law

75a

enforcement through categorical rules.” Riley, 573
U.S. at 399.
Even if the CBP’s and ICE’s adoption of a
reasonable suspicion standard for advanced searches
is not a concession that such standard is
constitutionally required, it is at least an
acknowledgment that the legal tide is turning in this
direction and, more importantly, that even border
searches may lend themselves to such showing. In
January 2018, CBP revised its directive concerning
border searches of electronic devices to make a
distinction between basic and advanced searches and
to require reasonable suspicion or a national security
concern for an advanced search. D. 99-1 at ¶ 7. CBP
officers have procedures for conducting advanced
searches of electronic devices based on reasonable
suspicion. D. 90-2 at ¶ 116. ICE agents use the same
definitions of basic and advanced searches as CBP and
ICE policy is to only conduct advanced searches when
there is reasonable suspicion, D. 99-1 at ¶ 9; see also
D. 98-2 at ¶ 12. Both agencies provide training on the
reasonable suspicion standard, D. 90-2 at ¶ 118, and
border agents have experience with applying this
standard. D. 91-12 at 79-80.
The same is true where courts have not
necessarily required reasonable suspicion for searches
of electronic devices at the border but concluded this
standard had been met by the agents in a particular
case. Wanjiku, 919 F.3d at 488-489 (holding that
customs agents had good faith belief that warrantless
border search of electronic devices did not violate the
Fourth Amendment and that search was supported by
reasonable suspicion); Touset, 890 F.3d at 1237
(concluding, alternatively, that agents had reasonable
76a

suspicion to search the defendant’s electronic devices);
Molina-Isidoro, 884 F.3d at 289 (declining to
announce general rules with respect to border
searches and electronic devices because search was
supported by probable cause); Molina-Gomez, 781
F.3d at 19-20 (declining to determine whether search
was non-routine or routine, but noting that reasonable
suspicion standard for non-routine search had been
met); Abidor, 990 F. Supp. 2d at 283 (concluding that
“agents certainly had reasonable suspicion supporting
further inspection of Abidor’s electronic devices”);
United States v. Hampe, No. 07-3-B-W, 2007 WL
1192365, at *4 (D. Me. Apr. 18, 2007) (concluding that
“even if the Court were to entertain the proposition
that reasonable suspicion is required to search a
computer at the border, the peculiar facts presented
to the officers in this case gave rise to a reasonable
suspicion”). Most of these cases, although not all,
involved electronic devices that contained contraband
(as opposed to evidence of contraband). Wanjiku, 919
F.3d at 477-78 (child pornography); Touset, 890 F.3d
at 1237 (same); Molina-Gomez, 781 F.3d at 17 (laptop
and Playstation contained hides of heroin); Hampe,
2007 WL 1192365, at *4 (child pornography). The
same is true of more than half of the broader array of
published cases cited by Defendants, some of which
were issued prior to Riley, D. 97 at 23 n.6. Although
the Court understands Defendants’ contention that it
might be impracticable to require a warrant for all
searches of electronic devices at the border, D. 99-1 at
¶¶ 43, 45, 48, impracticability is not the touchstone for
the legal analysis here, rather the touchstone is
reasonableness. Riley, 573 U.S. at 381 (quoting
Brigham City v. Stuart, 547 U.S. 398, 403 (2006)).
Moreover, impracticality lessens where the cause
77a

required here is that of an investigatory stop, that
need not be known in advance, but where CBP and
ICE agents have the “emerging tableau” of primary
and secondary inspections to determine if reasonable
suspicion exists for the search of electronic devices for
contraband. United States v. Chhien, 266 F.3d 1, 6 (1st
Cir. 2001) (addressing reasonable suspicion for an
investigative stop which, justified at the inception,
must also reveal that “the officer’s subsequent actions
were fairly responsive to the emerging tableau—the
circumstances originally warranting the stop,
informed by what occurred, and what the officer
learned, as the stop progressed”). It is this emerging
tableau that the agents will be responding to (and for
which they are already implementing and preparing
to implement as to advanced searches), and which
agents have already done as reflected in the border
search cases referenced above.
Although the border search exception and the
search incident to arrest exception are similar, narrow
exceptions to the search warrant requirement, the
Court recognizes the governmental interests are
different at the border and holds that reasonable
suspicion and not the heightened warrant
requirement supported by probable cause that
Plaintiffs seek here and as applied to the search in
Riley is warranted here. Accordingly, the Court
ALLOWS IN PART Plaintiffs’ motion for summary
judgment as to Count I and DENIES Defendants’
motion for summary judgment as to this Count.
C.

Plaintiffs’ First Amendment Claim
(Count II)

Plaintiffs, in addition
Amendment claims, argue
78a

to their Fourth
that the First

Amendment’s protections require border agents to
seek a warrant before searching travelers’ electronic
devices. Plaintiffs’ argument relies on the uncontested
fact that the contents of electronic devices include
“highly sensitive information concerning Plaintiffs’
personal, privileged, confidential, and anonymous
communications and associations.” D. 90-1 at 23. The
parties also agree that such information and
materials constitute or include expressive materials
that implicate First Amendment issues. D. 90-1 at 23;
D. 97 at 23-24.
The First Amendment provides that “Congress
shall make no law . . . abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble.” U.S. Const. amend. I. As the Court noted
in ruling on the motion to dismiss, these rights “are
protected not only against heavy-handed frontal
attack, but also from being stifled by more subtle
governmental interference.” D. 34 at 47 (citing Bates
v. City of Little Rock, 361 U.S. 516, 523 (1960)). For
instance, “associational rights . . . can be abridged
even by government actions that do not directly
restrict individuals’ ability to associate freely.” Lyng
v. Int’l Union, UAW, 485 U.S. 360, 367 n.5 (1988); see
AFL-CIO v. FEC, 333 F.3d 168, 175 (D.C. Cir. 2003)
(explaining that compulsory “disclosure of political
affiliations and activities can impose just as
substantial a burden on First Amendment rights as
can direct regulation”); Baird v. State Bar of Ariz., 401
U.S. 1, 6-7 (1971) (explaining that “[w]hen a State
seeks to inquire about an individual’s beliefs and
associations a heavy burden lies upon it to show that
the inquiry is necessary to protect a legitimate state
interest”).
79a

The parties disagree on the appropriate standard
for balancing governmental interest in the border
searches of electronic devices against travelers’ First
Amendment freedoms. D. 90-1 at 23; D. 97 at 25. The
first question for such analysis is whether the border
searches of electronic devices of Plaintiffs and under
the CBP and ICE policies burden those freedoms at
all. See, e.g., McIntyre v. Ohio Elections Comm’n, 514
U.S. 334, 342-45 (1995); Boy Scouts of Am. v. Dale, 530
U.S. 640, 657–59 (2000). As the Court noted at the
motion to dismiss stage, the policies at issue here are
content-neutral. D. 34 at 48. Compelled disclosure of
First Amendment protected activity, however, can
itself be a burden. See Buckley v. Valeo, 424 U.S. 1, 64
(1976). Where such burden is present, as an
“inevitable result of the government’s conduct in
requiring disclosure,” there must be a “substantial
relation between the governmental interest and the
information required to be disclosed.” Id. at 64-65.
Stated otherwise, “an infringement on [First
Amendment] rights is not unconstitutional so long as
it ‘serve[s] compelling state interests, unrelated to the
suppression of ideas, that cannot be achieved through
means significantly less restrictive of associational
freedoms.’” Tabbaa, 509 F.3d at 102 (quoting Roberts
v. United States Jaycees, 468 U.S. 609, 623 (1984)); cf.
House v. Napolitano, 2012 WL 1038816, at *2, *13
(declining to dismiss First Amendment claim
particularly given the allegations in the complaint
that plaintiff was targeted and investigated because
of his associations and the search of his laptop
resulted in disclosure of same). Although it remains
correct that an encounter at the border “does not strip
[a citizen] of his First Amendment rights,” House,
2012 WL 1038816, at *13, here, where the paramount
80a

government interests are the interdiction of persons
and goods at the border, and there is no suggestion on
this developed record that Plaintiffs were targeted
and investigated for their speech or associations as
the plaintiff in House alleged, it is not clear what less
restrictive means could be employed here. This is
particularly true where the Court adopts a standard
requiring that any such searches be conducted with
reasonable suspicion that the electronic devices
contain contraband, which is not protected speech. See
New York v. Ferber, 458 U.S. 747, 763 (1982)
(concluding that child pornography is not protected by
the First Amendment). That is, any burden on First
Amendment rights from the border agents’ viewing of
any expressive materials is inextricably tied to, and
therefore substantially related to, when supported by
reasonable suspicion, a non-cursory searching of a
traveler’s electronic devices at the border.
Although Ramsey, 431 U.S. at 624, involved
Fourth Amendment and First Amendment issues, the
Court’s ruling resolved the Fourth Amendment issue,
holding that customs and border officers could search
international mail where suspicion of contraband was
present but “hav[ing] no occasion to decide whether,
in the absence of the regulatory restrictions
[prohibiting the reading of expressive material within
the mail], speech would be ‘chilled,’ or, if it were,
whether the appropriate response would be to apply
the full panoply of Fourth Amendment requirements.”
Id. at n.18. Although Ramsay did not squarely resolve
the issue, a different standard for First Amendment
issues from the Fourth Amendment issues is not
necessarily required. United States v. Brunette, 256
F.3d 14, 16 (1st Cir. 2001) (analyzing probable cause
81a

for a search warrant for child pornography, i.e.,
whether there was a ‘fair probability that contraband
or evidence of a crime would be found in a particular
place,’ and concluding that “assessments [are] no
different where First Amendment concerns may be at
issue”) (internal citation omitted); see New York v. P.J.
Video, Inc., 475 U.S. 868, 875 (1986) (noting “that an
application for a warrant authorizing the seizure of
materials presumptively protected by the First
Amendment should be evaluated under the same
standard of probable cause used to review warrant
applications generally”). This is even true as the Court
considers searches at the border.
Accordingly, to the extent that Count II seeks
some further ruling or relief based upon Plaintiffs’
invocation of First Amendment rights, not otherwise
granted as to Count I, the Court DENIES Plaintiffs’
motion for summary judgment and DENIES
Defendants’ motion for summary judgment as to
Count II.
D.

Plaintiffs’ Seizure of Electronic
Devices Claim (Count III)

Certain of Plaintiffs claim that the government’s
seizure of their electronic devices with the intent to
search the devices after they left the border violated
the Fourth Amendment due to a lack of probable cause
(the same level of suspicion Plaintiffs contend should
be required for a search of the devices) for the seizure
at the time it was made. See Kolsuz, 890 F.3d at 141
(noting that, with respect to confiscation of an
electronic device, “a seizure reasonable at its inception
must remain reasonable in scope and duration to
satisfy the Fourth Amendment”); Molina-Gomez, 781
F.3d at 21 (applying same analysis to both search of
82a

defendant’s electronic devices and seizure of same). As
the Court has previously noted, this claim is not
coterminous with Count I since prolonged detention of
electronic devices that may have been reasonable at
their inception can become unreasonable. D. 34 at 46
and cases cited. The touchstone for any such detention
remains reasonableness. Place, 462 U.S. at 709
(declining to adopt any outside time limitation for a
Terry stop but concluding that the 90-minute
detention of respondent’s luggage was sufficient to
render the seizure unreasonable under the Fourth
Amendment). Although the seizure in Place was not
at the border, some inquiry into the reasonableness of
the duration of a seizure at the border remains
appropriate. Given the border context, the Supreme
Court has been reluctant to adopt “hard-and-fast time
limits” for the reasonableness of detention. Montoya
de Hernandez, 473 U.S. at 543 (citing Place, 462 at 709
n.10 and other cases). The Court is reluctant to do so
here on this record, given the current CBP and ICE
policies regarding same and in light of its ruling as to
the reasonable suspicion requirement for non-cursory
border searches of electronic devices except as follows.
Where border agents seize an electronic device for
non-cursory search supported by reasonable
suspicion, such detention must be for a reasonable
period that allows for an investigatory search for
contraband. See D. 91-18 (CBP policy making a
distinction between “detention” of electronic devices
for “a brief, reasonable period of time” not requiring
cause and “retention” of such devices or information
from such devices requiring probable cause to believe
they contain “evidence of a violation of law that CBP
is authorized to enforce or administer” unless the

83a

information retained relates to immigration, customs
and “other enforcement matters”).
Accordingly, the Court ALLOWS IN PART
Plaintiffs’ motion for summary judgment as to Count
III to the extent that it seeks the ruling above and
DENIES Defendants’ motion for summary judgment
as to same.
E.
1.

Relief Sought
Expungement Not Warranted Here

As part of the relief sought, Plaintiffs seek
expungement of all information gathered from, or
copies made of, the contents of Plaintiffs’ electronic
devices including social media information and device
passwords. As addressed in the discussion of
Plaintiffs’ standing, the Court understands that
Plaintiffs seek such relief, at least in part, since
previous border searches may lead to future border
searches under the agencies’ policies. See Section
V(A), supra. That is, as this Court previously held,
Plaintiffs have plausibly alleged that expungement
would afford them some redress as to their claims. D.
34 at 26. Still, expungement is an extraordinary
measure committed to the discretion of the Court.
Sealed Appellant v. Sealed Appellee, 130 F.3d 695, 701
(5th Cir. 1997) (reversing an order commanding
executive branch agencies to expunge the records of a
defendant’s now overturned convictions); Chastain v.
Kelley, 510 F.2d 1232, 1236 (D.C. Cir. 1975) (noting
that “[e]xpungement, no less than any other equitable
remedy, is one over which the trial court exercises
considerable discretion,” but vacating order of
expungement).

84a

Although this is not a criminal case, considering
the remedy for the unconstitutional search in the
criminal context is illustrative of the extraordinary
nature of the remedy sought here. Even where law
enforcement officers have conducted a search in
violation of the Constitution, the “fruits of [the] search
need not be suppressed if the agents acted with the
objectively reasonable belief that their actions did not
violate the Fourth Amendment.” Molina-Isidoro, 884
F.3d at 290 (applying the good faith exception under
United States v. Leon, 468 U.S. 897 (1984) to the
exclusionary rule to agents’ warrantless search of the
defendant’s phone at the border). “In such
circumstances, the cost of suppression—excluding the
evidence from the truth-finding process—outweighs
the deterrent effect suppression may have on police
conduct.” Molina-Isidoro, 884 F.3d at 290; see
Pennsylvania Bd. of Probation and Parole v. Scott, 524
U.S. 357, 363 (1998) (noting that because the
exclusionary rule “is prudential rather than
constitutionally mandated, we have held it to be
applicable only where its deterrence benefits outweigh
its ‘substantial social costs’”). Even where suppression
is warranted, the remedial measure is that the fruits
of the search cannot be used against the subject of the
search in a criminal trial, not some further form of
exclusion of these fruits. Scott, 524 U.S. at 363-64
(noting that it has “repeatedly declined to extend the
exclusionary rule to proceedings other than criminal
trials” and holding that the exclusionary rule “does
not bar the introduction at parole revocation hearings
of evidence seized in violation of parolees’ Fourth
Amendment
rights”);
Immigration
and
Naturalization Serv. v. Lopez-Mendoza, 468 U.S.
1032, 1050 (1984) (weighing the deterrent value
85a

against the social costs and declining to apply the
exclusionary rule in civil deportation hearings). If the
costs of exclusion are too high in criminal trials where
agents have a good faith basis for believing a search
did not violate the Fourth Amendment, at least the
same must be true at the border given the paramount
governmental
interests
previously
discussed,
particularly where the law regarding the legality of
electronic device searches has been in flux and has
been the subject matter of ongoing litigation in several
courts.
The same is also true of the analogous, but
broader, remedy of expungement of the information
obtained during searches of Plaintiffs’ electronic
devices. Even where evidence obtained in an
unconstitutional manner has been suppressed, a
further remedy of expungement does not follow. See
United States v. Fields, 756 F.3d 911, 917 (6th Cir.
2014) (declining to expunge arrest record where
evidence was suppressed and such remedy was not
necessary “to vindicate” the trial court’s rulings or the
suppression remedy). That is, even where criminal
proceedings followed a border search that exceeded
the bounds of the Fourth Amendment and the fruits
of same were suppressed, expungement of the border
agents’ files would not necessarily follow. Nor should
it where other deterrents to border agents’
unconstitutional searches remain in place. Such
measures include, but are not limited to, the
possibility of declaratory relief against the agency,
training of border agents regarding constitutional
requirements for searches, see Lopez-Mendoza, 468
U.S. at 1046 (citing, among other things, the
instruction and examination in Fourth Amendment
86a

law that officers receive in concluding that deterrent
effect of exclusionary rule would be met by other
measures); see D. 99-1 at ¶¶ 105 (noting that CBP
officers receive written guidance and training on what
constitutes probable cause and how to obtain
warrants), 111-112 (same regarding ICE agents), 118
(undisputed that both CBP and ICE officers receive
training on reasonable suspicion); D. 91-26 at 3 (CBP
accepting recommendations of Office of Inspector
General audit of agency’s border searches of electronic
devices), disciplinary action or other consequences
against agents who violate agency policies complying
with the law, see 91-28 at 6, and “because application
of the [exclusionary] rule in the criminal trial context
already
provides
significant
deterrence
of
unconstitutional searches.” Scott, 524 U.S. at 364.
Putting aside the balancing of the deterrent
effect on border agents that expungement of this
information may have, Plaintiffs seek expungement
also to protect them from the future harm of more
likely being subject to border searches. In the civil
context, a court in its discretion may order
expungement for the purposes of remedying ongoing
or future harm where such “is an equitable remedy
designed to correct, not compensate for, the violation,
and may be essential to prevent future harm as a
result of the original violation.” Carter v. Orleans
Parish Pub. Schs., 725 F.2d 261, 263 (5th Cir. 1984)
(dismissing claim for expungement in the absence of
an allegation that defendant school continues to
maintain records falsely characterizing the children
as “mentally retarded”); see Bruso v. United Airlines,
Inc., 239 F.3d 848, 863 (7th Cir. 2001) (noting that “[a]
court may use expungement as a means of removing
87a

the stain of the employer’s discriminatory actions
from the plaintiff’s permanent work history). Still, the
Court, in its discretion, must determine if such
remedy is necessary, particularly where the Court is
granting other forms of relief, namely, the measures
noted above that may have a deterrent effect and the
ruling that reasonable suspicion is required for basic
and advanced searches. That is, in the future, whether
information has been retained from prior searches or
not, agents must be able to point to specific and
articulable facts for reasonable suspicion to believe
that Plaintiffs’ electronic devices contain contraband,
which also addresses the concern about any
likelihood, greater than the general public of U.S.
citizens returning to the U.S. borders, of being subject
to a non-cursory search. In light of this other relief,
including declaratory relief, the Court DENIES the
request for expungement of information9 taken from
their digital devices given the declaratory relief
provided below and ruling that reasonable suspicion
is required for the basic and advanced searches.
2.

Extent of Declaratory and Injunctive
Relief

As to declaratory relief, Plaintiffs seek: a)
declaration that Defendants’ policies violate the First
and Fourth Amendment facially and have violated
Plaintiffs’ First and Fourth Amendment rights by
authorizing and conducting searches of electronic
devices absent a warrant supported by probable
To the extent that Plaintiffs were also seeking
expungement of passcodes or other means of access, the CBP
policy provides for destruction of same, D. 91-18 at 7, and there
is no indication in the record that such information has been
retained.
9

88a

cause, D. 7 at 40-41 ¶¶ A-B; and b) declarations that
Defendants’ policies violate the Fourth Amendment
facially and have violated Plaintiffs’ Fourth
Amendment rights by authorizing and conducting the
confiscation of electronic devices absent probable
cause, id. at 41 ¶¶ D-F. The Court grants this relief,
but only to the extent consistent with its ruling here.
Accordingly, the Court ALLOWS the request for
declaratory relief to the following extent: the Court
declares that the CBP and ICE policies for “basic” and
“advanced” searches, as presently defined, violate the
Fourth Amendment to the extent that the policies do
not require reasonable suspicion that the devices
contain contraband for both such classes of noncursory searches and/or seizure of electronic devices;
and that the non-cursory searches and/or seizures of
Plaintiffs’ electronic devices, without such reasonable
suspicion, violated the Fourth Amendment.
As to injunctive relief, Plaintiffs seek: a) an
injunction preventing Defendants from “searching
electronic devices absent a warrant supported by
probable cause that the devices contain contraband or
evidence of a violation of immigration or customs
laws,” id. at 41 ¶ C; and b) an injunction preventing
Defendants from confiscating electronic devices, with
the intent to search the devices after the travelers
leave the border, without probable cause and without
promptly seeking a warrant for the search, id. at 41 ¶
G. Although there has been extensive briefing by both
sides in this case, the bulk of that briefing focused on
Plaintiffs’ standing to bring their claims and the
merits of those claims and not the scope of the relief,
particularly the scope of injunctive relief, sought by
Plaintiffs. D. 90-1, 97, 99, 104. Given that Plaintiffs
89a

reside across the United States and Canada, were
searched at different border entries and that the
Plaintiffs sought a facial challenge to the
constitutionality of such searches, it may be that
Plaintiffs seek injunctive relief on a nationwide basis.
Even if the Court had applied the warrant supported
by probable cause standard reflected in Plaintiffs’
request for injunctive relief, the Court would not have
imposed nationwide or universal injunction without
further briefing from the parties. See Trump v.
Hawaii, __ U.S. __, 138 S. Ct. 2392, 2424 (2018)
(Thomas, J., concurring); Washington v. Trump, 847
F.3d 1151, 1169 (9th Cir. 2017) (per curiam)
(affirming nationwide injunction of the Trump
Administration’s travel ban); City of Chicago v.
Sessions, 888 F.3d 272, 288 (7th Cir. 2018) (affirming
nationwide injunction of the Trump Administration's
withholding of federal funds from “sanctuary cities”);
Texas v. United States, 787 F.3d 733, 768-69 (5th Cir.
2015) (affirming nationwide injunction of Deferred
Action for Parents of Americans); Texas v. United
States, No. 1:18-CV-00068, 2018 WL4178970, at *6162 (Aug. 31, 2018) (declining to issue nationwide
preliminary injunction halting Deferred Action for
Childhood Arrivals program); Compare Samuel L.
Bray, Multiple Chancellors: Reforming the National
Injunction, 131 Harv. L. Rev. 417, 418 (2017)
(concluding nationwide injunctions encourage forum
shopping, hurt judicial decisionmaking and create
risk of conflicting injunctions) with Amanda Frost, In
Defense of Nationwide Injunctions, 93 N.Y.U. L. Rev.
1065 (2018) (concluding nationwide injunctions are
not barred by statute nor the Constitution and “enable
federal courts to play their essential role as a check on
the political branches”). Accordingly, the Court
90a

DENIES the request for injunctive relief without
prejudice.
VI. Conclusion
For the foregoing reasons, the Court ALLOWS IN
PART and DENIES IN PART Plaintiffs’ motion for
summary judgment, D. 90 and DENIES Defendants’
motion for summary judgment, D. 96.
So Ordered.
/s/ Denise J. Casper
United States District Judge

91a

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD, NADIA ALASAAD, SUHAIB
ALLABABIDI, SIDD BIKKANNAVAR, JÉRÉMIE
DUPIN, AARON GACH, ISMAIL ABDEL-RASOUL
a/k/a ISMA’IL KUSHKUSH, DIANE MAYE, ZAINAB
MERCHANT, MOHAMMED AKRAM SHIBLY and
MATTHEW WRIGHT,
Plaintiffs,
v.
KIRSTJEN NIELSEN, Secretary of the U.S.
Department of Homeland Security, in her official
capacity; KEVIN McALEENAN, Acting
Commissioner of U.S. Customs and Border
Protection, in his official capacity; and THOMAS
HOMAN, Acting Director of U.S. Immigration and
Customs Enforcement, in his official capacity,
Defendants.

May 9, 2018

MEMORANDUM AND ORDER

92a

CASPER, J.
I.

Introduction

Plaintiffs Ghassan Alasaad, Nadia Alasaad,
Suhaib Allababidi (“Allababidi”), Sidd Bikkannavar
(“Bikkannavar”), Jérémie Dupin (“Dupin”), Aaron
Gach (“Gach”), Ismail Abdel-Rasoul a/k/a Isma’il
Kushkush (“Kushkush”), Diane Maye (“Maye”),
Zainab Merchant (“Merchant”), Mohammed Akram
Shibly (“Shibly”) and Matthew Wright (“Wright”)
(collectively, “Plaintiffs”) bring this suit against the
following persons in their official capacities: Kirstjen
Nielsen (“Nielsen”), Secretary of the U.S. Department
of Homeland Security (“DHS”),1 Kevin McAleenan
(“McAleenan”), Acting Commissioner of U.S. Customs
and Border Protection (“CBP”), and Thomas Homan
(“Homan”), Acting Director of U.S. Immigration and
Customs
Enforcement
(“ICE”)
(collectively,
“Defendants”). D. 7 ¶¶ 14-26. Plaintiffs, ten U.S.
citizens and one lawful permanent resident, allege
that Defendants’ conduct—searching Plaintiffs’
electronic devices at ports of entry to the United
States and, in some instances, confiscating the
electronic devices being searched, pursuant to CBP
and ICE policies—violates the Fourth Amendment
(Counts I and III) and First Amendment (Count II) of
the U.S. Constitution. D. 7 ¶¶ 1-10, 168-73. They seek
declaratory and injunctive relief. D. 7 at 40-42.
Defendants have now moved to dismiss. D. 14. For the
reasons stated below, the Court DENIES Defendants’
motion to dismiss.
The initial suit was filed against Elaine Duke, then
Acting Secretary of DHS, but Nielsen has been substituted as
Secretary of Homeland Security pursuant to Fed. R. Civ. P.25(d)
1

93a

II.

Standard of Review

To survive a motion to dismiss under Fed. R. Civ.
P.12(b)(6), a complaint must include “enough facts to
state a claim to relief that is plausible on its face.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007);
García-Catalán v. United States, 734 F.3d 100, 103
(1st Cir. 2013). The Court “must assume the truth of
all well-plead[ed] facts and give the plaintiff the
benefit of all reasonable inferences therefrom.” Ruiz v.
Bally Total Fitness Holding Corp., 496 F.3d 1, 5 (1st
Cir. 2007). Plaintiffs “need not demonstrate that [they
are] likely to prevail” at this stage, García-Catalán,
734 F.3d at 102, but they must show that the
combined allegations state “a plausible, not a merely
conceivable, case for relief.” Sepúlveda-Villarini v.
Dep’t of Educ. of P.R., 628 F.3d 25, 29 (1st Cir. 2010).
III. Factual Background
Unless otherwise noted, the following facts are
drawn from Plaintiffs’ amended complaint and
accepted as true for the purposes of considering the
motion to dismiss. Plaintiffs are individuals whose
electronic devices have been searched by federal
officers at U.S. ports of entry on at least one occasion,
and who “regularly travel outside the country with
their electronic devices and intend to continue doing
so.” D. 7 ¶ 2. Defendants are the heads of DHS and
two of its units, CBP and ICE. D. 7 ¶ 3.
In the United States, ninety-five percent of
adults own a cell phone, seventy-seven percent own a
smart phone and over fifty percent own a tablet
computer. D. 7 ¶ 27. “Electronic devices are often
essential to people’s work,” as well as “communication
. . . navigation, shopping, banking, entertainment,
94a

news, and photography, among other functions.” D. 7
¶¶ 36, 27. “Laptops sold in 2017 can store up to two
terabytes” of data, tablet computers can hold up to a
terabyte and “smartphones can store hundreds of
gigabytes of data.” D. 7 ¶ 30. This storage capacity
“can be the equivalent of hours of video files,
thousands of pictures, or millions of pages of text.” Id.
Electronic devices like these may also be used to
access cloud storage—“data located on remote
servers”—as well as email and social media
applications. D. 7 ¶¶ 30, 32. Data stored on electronic
devices
includes
“personal,
expressive,
and
associational information” like communications,
location history, contact lists, internet browsing
history, photos, calendars and notes. D. 7 ¶ 31.
Additionally, electronic devices store “historical
location information, so-called ‘deleted’ items that
actually remain in digital storage,” “metadata about
digital files” and “time stamps or GPS coordinates
created automatically by software on the device.” D. 7
¶ 33.
According to public CBP data, “CBP conducted
14,993 electronic device searches in the first half of
fiscal year 2017,” putting CBP “on track to conduct
approximately 30,000 searches this fiscal year,
compared to just 8,503 searches in fiscal year 2015.”
D. 7 ¶ 38.2 Searches generally come in two forms: (1)
See CBP Releases Statistics on Electronic Device
Searches, U.S. Customs and Border Protection (Apr. 11, 2017),
http://www.cbp.gov/newsroom/national-media-release/cbpreleases-statistics-electronic-device-searches-0.
Indeed,
according to CBP’s reported statistics postdating Plaintiffs’
amended complaint, CBP’s electronic device search rate
remained consistent in the second half of fiscal year 2017, which
ran until September 30, 2017, and the number of travelers whose
2

95a

“manual” searches, during which “officers review the
contents of the device by interacting with it as an
ordinary user would, through its keyboard, mouse, or
touchscreen interfaces”; and (2) “forensic” searches,
during which officers “use sophisticated tools, such as
software programs or specialized equipment, to
evaluate information contained on a device,” typically
starting by making a copy of the device’s data. D. 7 ¶¶
39, 40, 43. Forensic searches “can capture all active
files, deleted files, files in allocated and unallocated
storage space, metadata . . . password-protected or
encrypted data, and log-in credentials and keys for
cloud accounts.” D. 7 ¶ 43. On occasion, officers
confiscate travelers’ devices for prolonged periods. D.
7 ¶¶ 50-56.
CBP and ICE have policies that authorize and
guide agents’ search of travelers’ electronic devices at
border locations. D. 7 ¶¶ 8, 57-61. Both units’ policies
permit searches of electronic devices without a
showing of probable cause or issuance of a search
warrant. D. 7 ¶¶ 9, 57.
A.

The Search Policies

The CBP and ICE electronic device search
policies detailed below are matters of public record,
published by DHS and available to the public and,
accordingly, may be considered by the Court for the
purposes of this motion. See Alt. Energy, Inc. v. St.
Paul Fire & Marine Ins. Co, 267 F.3d 30, 33 (1st Cir.
electronic devices were searched totaled 30,200. D. 18-2 at 5 n.7;
CBP Releases Updated Border Search of Electronic Device
Directive and FY17 Statistics, U.S. Customs and Border
Protection
(Jan.
5,
2018),
http://www.cbp.gov/newsroom/national-media-release/cbpreleases-updated-border-search-electronic-device-directive

96a

2001). Moreover, neither party challenges that the
Court may take judicial notice of these policies, but
rather, request that the Court does so. See D. 18; D.
19 at 13 n.1. The Court, therefore, takes judicial notice
of the following policies: ICE’s directive number 7-6.1,
issued August 18, 2009, titled “Border Searches of
Electronic Devices” (“ICE Policy”); CBP directive
number 3340-049, issued August 20, 2009, titled
“Border Searches of Electronic Devices Containing
Information” (“2009 CBP Policy”);3 and CBP’s
directive number 3340-049A, issued January 4, 2018,
superseding the 2009 CBP Policy, titled “Border
Search of Electronic Devices” (“2018 CBP Policy”), D.
18-1.
1.

The ICE Policy

The ICE Policy establishes procedures “to search,
detain, seize, retain, and share information contained
in electronic devices possessed by individuals at the
border” and “applies to . . . all persons arriving in,
departing from, or transitioning through the United
States.” ICE Pol. ¶ 1.1. It states that “[a]ll electronic
devices crossing U.S. borders are subject to border
search,” defining “electronic devices” as “[a]ny item
that may contain information, such as computers,
disks, drives, tapes, mobile phones and other
communication devices, cameras, music players, and
any other electronic or digital devices.” ICE Pol. ¶¶
8.6.1, 5.2.
As of this opinion’s publication, the 2009 ICE Policy is
available
at
the
following
online
address:
https://www.dhs.gov/xlibrary/assets/ice_border_search_electroni
c_devices.pdf (“ICE Pol.”). The 2009 CBP Policy is available at
https://www.dhs.gov/xlibrary/assets/cbp_directive_3340-049.pdf
(“2009 CBP Pol.”).
3

97a

Under the ICE Policy, agents are authorized to
search electronic devices “with or without
individualized suspicion.” D. 7 ¶ 58(b); ICE Pol. ¶ 6.1.
“To the extent practicable, border searches should be
conducted in the presence of, or with the knowledge of,
the traveler.” ICE Pol. ¶ 8.1.2. The traveler’s consent,
however, is not needed for search. ICE Pol. ¶ 8.1.3.
No individualized suspicion is required for
officers to confiscate devices or “copies of information
therefrom” for “further review” on- or off-site. ICE Pol.
¶¶ 6.1, 8.1.4; see D.7 ¶ 61(b). Additionally,
“[a]ssistance to complete a border search may be
sought from other Federal agencies and non-Federal
entities, on a case by case basis, as appropriate,” for
technical or subject matter assistance. ICE Pol. ¶¶ 6.1,
8.1.4, 8.4. ICE agents “may create and transmit copies
of information” when seeking assistance. ICE Pol. ¶
8.4.4. Such assistance “is to be accomplished within a
reasonable period of time.” ICE Pol. ¶ 8.4.5.a. In
general, once ICE confiscates a device, ICE may retain
it for “a reasonable time given the facts and
circumstances of the particular search,” generally
thirty days, and supervisors may extend this period
under “circumstances . . . that warrant more time.”
ICE Pol. ¶ 8.3.1; D. 7 ¶ 61(c).
Regarding written records of searches, “[n]othing
in this policy limits the authority of Special Agents to
make written notes or reports or to document
impressions relating to a border encounter in ICE’s
paper or electronic recordkeeping systems.” ICE Pol.
¶ 6.3. If ICE confiscates a device, agents must “provide
the traveler with a copy of the applicable chain of
custody form or other appropriate documentation.”
ICE Pol. ¶ 8.2.4. ICE agents may seize and retain
98a

devices or copies of information contained therein if
they determine there is probable cause of unlawful
activity or, to “the extent authorized by law,”
information “relevant to immigration, customs, and
other law enforcement matters.” ICE Pol. ¶¶ 8.5.1.ab. Copies may be shared with federal, state, local and
foreign law enforcement agencies. ICE Pol. ¶ 8.5.1.c.
The ICE Policy states that copies of information
“determined to be of no relevance to ICE will be
destroyed . . . . within seven business days after
conclusion of the border search unless circumstances
require additional time” and “no later than 21
calendar days after conclusion of the border search.”
ICE Pol. ¶ 8.5.1.e. Assisting agencies must return
devices and data to ICE or “certify to ICE that any
copies in its possession have been destroyed” unless
they have the independent legal authority to retain
copies. ICE Pol. ¶ 8.5.2. Non-federal entities must
return all copies of information “as expeditiously as
possible.” ICE Pol. ¶ 8.5.3.
2.

The CBP Policies

Given that Plaintiffs seek injunctive, prospective
relief, the Court relies primarily upon the 2018 CBP
Policy, as it supersedes the 2009 CBP Policy. See D.
18-1 at 2. For the purposes of any relief sought to
address past harms, however, the Court briefly
outlines the 2009 CBP Policy below to the extent it
differs from the 2018 CBP Policy.
a)

The 2018 CBP Policy

The 2018 CBP Policy applies to searches
performed by CBP officers, not ICE or Homeland
Security Investigations (“HSI”) agents. D. 18-1 ¶ 2.7.
It defines “electronic device” as “[a]ny device that may
99a

contain information in an electronic or digital form,
such as computers, tablets, disks, drives, tapes, mobile
phones and other communication devices, cameras,
music and other media players.” D. 18-1 ¶ 3.2.
The 2018 CBP Policy divides electronic device
searches into two categories: the basic search and the
advanced search. D. 18-1 ¶ 5.1. An “advanced search”
is defined as “any search in which an Officer connects
external equipment . . . to an electronic device not
merely to gain access to the device, but to review, copy,
and/or analyze its contents.” D. 18-1 ¶ 5.1.4. It
requires “reasonable suspicion of activity in violation
of the laws enforced or administered by CBP” or a
“national security concern,” as well as “supervisory
approval,” to justify the search. Id. A supervisor must
also be present during the search. D. 18-1 ¶ 5.1.5. A
“basic search,” by contrast, is “[a]ny border search of
an electronic device that is not an advanced search.”
D. 18-1 ¶ 5.1.3. An officer may conduct such a search
“with or without suspicion.” Id.
All electronic device searches are documented. D.
18-1 ¶ 5.1.5. Additionally, all searches “should be
conducted in the presence of the individual whose
information is being examined unless there are
national security, law enforcement, officer safety, or
other operational considerations that make it
inappropriate to permit the individual to remain
present.” D. 18-1 ¶ 5.1.6. Permission to remain
present, however, “does not necessarily mean that the
individual shall observe the search itself.” Id.
The 2018 CBP Policy authorizes “examination of
only the information that is resident upon the device
and accessible through the device’s operating system
or through other software, tools, or applications.” D.
100a

18-1 ¶ 5.1.2. The policy prohibits an officer’s
intentional search of information stored remotely,
directing officers to request that travelers “disable
connectivity to any network” prior to search. Id.
According to the policy, “[t]ravelers are obligated to
present electronic devices and the information
contained therein in a condition that allows inspection
of the device and its contents,” and “[p]asscodes or
other means of access may be requested and retained
as needed to facilitate” the search. D. 18-1 ¶ 5.3.1. If
an officer cannot complete an inspection because of
passcode or encryption protection, the officer may
“detain the device pending a determination as to its
admissibility, exclusion, or other disposition” or “seek
technical assistance” or “use external equipment” to
access the device. D. 18-1 ¶¶ 5.3.3-4.
The 2018 CBP Policy permits officers to “detain
electronic devices, or copies of information contained
therein, for a brief, reasonable period of time,” which
“ordinarily should not exceed five (5) days,” on- or offsite, but may be extended with supervisor approval.
D. 18-1 ¶ 5.4.1. If a device is detained, the officer must
issue a custody receipt to the traveler prior to the
traveler’s departure, D. 18-1 ¶ 5.4.1.4, and all
transfers of custody must be recorded, D. 18-1 ¶¶
5.4.2.3, 5.6.2. CBP officers may make copies of
electronic
devices
when
seeking
technical
assistance—e.g., device access or translation
assistance—or subject matter assistance “with
reasonable suspicion or national security concern.” D.
18-1 ¶¶ 5.4.2.1-2. Unless assistance is sought within
CBP or from ICE, requests for assistance require
supervisory approval and must be documented. D. 181 ¶ 5.4.2.3.
101a

If after a review of the electronic device an officer
determines there is probable cause to believe it
contains evidence of illegal activity, officers “may seize
and retain” the device. D. 18-1 ¶ 5.5.1.1. “Without
probable cause . . . CBP may retain only information
relating to immigration, customs, and other
enforcement matters if such retention is consistent
with the applicable system of records notice.” D. 18-1
¶ 5.5.1.2. The 2018 CBP Policy does not limit CBP’s
authority to share information from these devices,
“retained in accordance with this Directive, with
federal, state, local, and foreign law enforcement
agencies.” D. 18-1 ¶ 5.5.1.3.
If the review does not give rise to “probable cause
to seize the device or the information contained
therein, any copies of the information held by CBP
must be destroyed, and any electronic device must be
returned” within seven days of such determination,
barring special circumstances. D. 18-1 ¶ 5.4.1.2.
Additionally, “[p]asscodes and other means of access
obtained during the course of a border inspection . . .
will be deleted or destroyed when no longer needed to
facilitate the search.” D. 18-1 ¶ 5.3.2. To the extent
any assistance was provided outside of CBP or ICE,
the assisting agency or entity “should destroy all
copies of the information conveyed.” D. 18-1 ¶ 5.5.2.2.
“The destruction shall be noted in appropriate CBP
systems.” D. 18-1 ¶ 5.4.1.2.
b)

The 2009 CBP Policy

Under the 2009 CBP Policy, which was in force
at the time of Plaintiffs’ alleged border device
searches, certain policies differed. The 2009 CBP
Policy did not distinguish between a basic and
advanced search and no level of suspicion was
102a

required for either. D. 7 ¶ 61(a); 2009 CBP Pol. ¶ 5.1.2.
Likewise, the earlier policy permitted confiscation of
electronic devices for on- or off-site search without any
level of suspicion. D. 7 ¶ 61(a); 2009 CBP Pol. ¶ 5.3.1.
B.

The Plaintiffs
1.

The Alasaads

Ghassan and Nadia Alasaad are U.S. citizens
and Massachusetts residents whose two smartphones
were searched and retained when they were crossing
the border in July 2017 from Canada to Vermont. D. 7
¶¶ 14, 62, 70. They were traveling with their elevenyear-old daughter, who was “ill and had a high fever.”
D. 7 ¶ 63. When asked, a CBP supervisor told them
they were being detained and searched because he
“simply felt like ordering a secondary inspection.” D. 7
¶ 66. In a secondary inspection room, a CBP officer
manually searched Ghassan’s smartphone. D. 7 ¶ 65.
Several hours later, a CBP officer ordered Nadia to
provide the password to her locked phone. D. 7 ¶ 67.
After the officer told them that if Nadia did not
disclose her password, the “phone would be
confiscated,” she wrote down the password. D. 7 ¶ 68.
Nadia “wears a headscarf in public in accordance with
her religious beliefs” and told the officer that a male
officer could not search her phone because it contained
photos of her without a headscarf and the officer
responded “that it would take two hours for a female
officer to arrive, and then more time to search the
phone.” D. 7 ¶¶ 67, 70. After approximately six hours
of detention, the Alasaads departed without their two
phones. D. 7 ¶¶ 70-71. The phones were returned
fifteen days later. D. 7 ¶ 72. CBP’s search and seizure
of Ghassan’s phone “damaged its functionality.” Id.

103a

One month later, the Alasaads’ daughter’s locked
smartphone was searched when Nadia and her
daughter arrived in New York from Morocco “where
they had been visiting family.” D. 7 ¶¶ 73, 75. CBP
officers directed the two to a secondary inspection
area. D. 7 ¶ 74. There, Nadia informed the officers
that she had lost her phone, but when officers
searched Nadia’s purse, they found her daughter’s
smartphone. Id. The officers directed the Alasaads’
daughter to write down her password, and after she
did, an officer “took the phone to another room for
approximately 15 minutes.” D. 7 ¶ 75.
2.

Allababidi

In January 2017, Allababidi had his devices
searched and confiscated by CBP officers when
returning from a business trip on a flight from Dubai
to Dallas. D. 7 ¶¶ 77-80. A U.S. citizen who lives in
Texas and owns and operates a business that sells
security technology, Allababidi carried a locked
smartphone “that he used regularly for both personal
and business matters” in the U.S. and an unlocked
smartphone that “enabled him to communicate easily
while overseas.” D. 7 ¶¶ 15, 77. A CBP officer directed
Allababidi to a secondary inspection area, where he
observed an officer “seize and manually search his
unlocked phone for at least 20 minutes.” D. 7 ¶ 78. The
officer ordered Allababidi to unlock his other phone,
and when he declined, officers confiscated both
smartphones. D. 7 ¶ 79. One phone was returned two
months later, and the other had not been returned at
the time the amended complaint was filed. D. 7 ¶ 80.

104a

3.

Bikkannavar

Bikkannavar, a U.S. citizen residing in
California, returned from a vacation in Chile with a
locked smartphone owned by his employer, NASA’s
Jet Propulsion Laboratory, which he used for work
and personal matters. D. 7 ¶¶ 16, 81. CBP officers
escorted Bikkannavar to a secondary inspection area,
where an officer gave him a CBP form that
Bikkannavar understood to “mean that CBP was
asserting a legal prerogative to search the contents of
his phone.” D. 7 ¶ 82. After initially declining to do so,
Bikkannavar disclosed his password, which an officer
wrote down and took, with Bikkannavar’s phone, to
another room. D. 7 ¶¶ 82-83. The officer returned
about thirty minutes later, informed Bikkannavar
that officers had used “algorithms” to search its
contents, and returned the phone. D. 7 ¶ 84.
4.

Dupin

Dupin, a journalist, citizen of Haiti and legal
permanent resident of the U.S. living in
Massachusetts, was subject to two device searches in
December 2016. D. 7 ¶¶ 17, 86-97. In the first, Dupin
connected in Miami, Florida, en route from Port-auPrince, Haiti to Montreal, Quebec, where he was
visiting his daughter to take her by bus to New York
City. D. 7 ¶ 86. A CBP officer escorted Dupin to a
secondary inspection area in Miami, where he waited
for over two hours before being escorted to a smaller
room for questioning “about his work as a journalist,
including the names of the organizations and specific
individuals within those organizations for whom he
had worked” by three CBP officers. D. 7 ¶ 87. During
questioning,
officers
seized
Dupin’s
locked
smartphone and ordered him to provide a password,
105a

which he did. D. 7 ¶ 88. An officer searched Dupin’s
phone for “about two hours” during which, at certain
points, the officer took Dupin’s phone “into another
room,” returning “periodically to ask Mr. Dupin
questions about the contents of the phone.” D. 7 ¶ 90.
The officers then returned the phone and permitted
him to leave. D. 7 ¶ 91.
The next day, December 23, 2016, Dupin and his
seven-year-old daughter traveled by bus from
Montreal to New York. D. 7 ¶ 92. At the customs
checkpoint “near midnight,” a CBP officer directed
them to a secondary inspection area, where officers
asked “some of the same questions officers had asked
in Miami” as his daughter was “[a]sleep in his lap.” D.
7 ¶¶ 93, 95(d). The officers seized his phone, obtained
his password, and took the “phone into another room
for about four hours,” again returning periodically
with specific questions about the phone’s contents. D.
7 ¶¶ 94, 96. “After approximately seven hours of
detention,” on the morning of December 24, 2016,
officers returned the phone to Dupin and told him that
he and his daughter could leave. D. 7 ¶ 97.
5.

Gach

Gach, an artist and U.S. citizen who lives in
California, had his locked smartphone searched on
arrival in San Francisco from Belgium, “where he had
participated in an art exhibition displaying works that
could be considered critical of the government.” D. 7 ¶
18, 98-104. He was questioned “about his work as an
artist and the exhibition in Belgium” in a secondary
inspection area, and, when asked for his phone, told
the officers that he did not want the officers to search
it. D. 7 ¶ 99. After “[t]he officers told [him]that his
phone would be held for an indeterminate amount of
106a

time if he did not disclose his password,” Gach entered
his password and handed the officers his unlocked
phone. D. 7 ¶ 100. The officers searched Gach’s phone
“behind a dividing wall for approximately 10 minutes”
and then returned the phone to him and permitted
him to leave. D. 7 ¶¶ 102-04.
6.

Kushkush

Kushkush—a U.S. citizen and freelance
journalist from Virginia—had his devices searched on
three occasions between January 2016 and July 2017.
D. 7 ¶¶ 19, 105-19. First, in New York, Kushkush,
while returning from conducting research for a
master’s thesis in Stockholm, Sweden, was questioned
by CBP officers, who also seized his locked laptop and
two unlocked cell phones. D. 7 ¶¶ 105-07. They
searched the devices out of his sight for around twenty
minutes before returning them to him. D. 7 ¶ 107.
In January 2017, Kushkush flew to Washington,
D.C. from Israel, where he had completed an
internship with the Associated Press, carrying a
“locked smartphone that he used for both professional
and personal matters,” the same locked laptop and
unlocked devices including a digital camera, voice
recorder and flash drives. D. 7 ¶ 108. In a secondary
inspection area, CBP officers questioned him “about
his reporting activities,” asked for his social media
identifiers and email address, and instructed
Kushkush to unlock his phone. D. 7 ¶¶ 109-10.
Kushkush “reluctantly complied” and observed the
officer manually search the phone. D. 7 ¶¶ 110-12.
Officers took the other devices “into another room for
approximately 20 minutes.” D. 7 ¶ 112. The officers
returned the devices and he was permitted to leave.
D. 7 ¶ 113.
107a

In July 2017, Kushkush returned to the U.S. on
a bus from Montreal with fellow students in a
language program, and at the border, he was directed
to secondary inspection. D. 7 ¶¶ 114-15. Kushkush
unlocked his phone for the CBP officer, “stat[ing] that
he was doing so against his will,” and the officer wrote
down Kushkush’s password and took the phone out of
Kushkush’s sight “for at least one hour.” D. 7 ¶¶ 11517. Officers also questioned Kushkush “about his work
as a journalist.” D. 7 ¶ 118. After “approximately three
and a half hours,” CBP officers returned the phone
and permitted Kushkush to leave. D. 7 ¶ 119.
7.

Maye

Maye, a U.S. citizen from Florida, assistant
professor of homeland security at Embry-Riddle
Aeronautical University and former U.S. Air Force
captain, flew from vacation in Oslo, Norway, to Miami
with a locked laptop and smartphone. D. 7 ¶¶ 20, 120.
In a secondary inspection area with two CBP officers,
Maye unlocked her devices after being ordered to do
so. D. 7 ¶¶ 121-22. Maye observed an officer manually
search her unlocked laptop. D. 7 ¶ 123. An officer also
“seized” her “unlocked phone for approximately two
hours.” D. 7 ¶ 124.
8.

Merchant

Merchant is a U.S. citizen, founder and editor of
a media organization that publishes online news
content and a graduate student in international
security and journalism at Harvard University. D. 7
¶¶ 21, 125. In March 2017, after visiting her uncle in
Toronto, Ontario, Merchant was directed to a
secondary inspection area at a U.S. customs
preclearance station in the Toronto airport prior to her
108a

flight home to Orlando. D. 7 ¶¶ 126-27. After CBP
officers
asked
for
Merchant’s
smartphone,
Merchant—who “wears a headscarf in public in
accordance with her religious beliefs” and whose
phone contains photos of her without her headscarf—
told CBP officers she would give them the phone but
not unlock it. D. 7 ¶ 129. CBP officers repeatedly told
her she “could choose to unlock the phone, or have it
seized indefinitely.” D. 7 ¶ 129-30. Merchant told the
officers she was traveling alone and needed the phone
to communicate and for her work. D. 7 ¶ 130. “In tears,
Ms. Merchant unlocked her phone” and “provided the
password to unlock her laptop.” D. 7 ¶ 131. CBP
officers searched Merchant’s laptop and phone out of
her sight for approximately one and a half hours. D. 7
¶ 135. Officers questioned her about her religious
affiliation and certain of her blog posts. D. 7 ¶ 133.
“When the CBP officers returned the phone to Ms.
Merchant and she unlocked it, the Facebook
application was open to the ‘friends’ page. It had not
been open to that page when she had given up the
phone.” D. 7 ¶ 135.
9.

Shibly

Shibly, a U.S. citizen and filmmaker from
Buffalo, New York, had his devices searched on two
occasions in January 2017. D. 7 ¶¶ 22, 136-46. First,
returning home by car from Canada, Shibly was
directed to a secondary inspection area at the border
in New York, and told to “fill out a form with
information that included . . . his phone’s password.”
D. 7 ¶¶ 136-37. An officer then “ordered” him to
provide the password, saying that “if he had nothing
to hide, then he should unlock his phone,” and Shibly
“disengaged” the lock on the phone. D. 7 ¶¶ 137-38.
109a

Shibly also provided CBP officers with his social
media identifiers. D. 7 ¶ 141. Shibly’s phone was
taken out of his sight for an hour before it was
returned and he was permitted to leave. D. 7 ¶¶ 140,
142. Three days later, Shibly was stopped on the same
bridge and directed to a secondary inspection area. D.
7 ¶¶ 143-44. When he declined to hand over his phone,
“[t]hree CBP officers . . . used physical force to seize
his phone.” D. 7 ¶ 145. An officer took the phone—
which was still unlocked from the first search—to a
different room. D. 7 ¶¶ 143, 146.
10. Wright
Wright, a computer programmer from Colorado,
was brought to an inspection area in the Denver
airport after returning home from a trip in Southeast
Asia. D. 7 ¶¶ 23, 147-48. A CBP officer ordered Wright
to unlock his laptop and when Wright declined, CBP
officers confiscated the laptop as well as his locked
phone and his camera. D. 7 ¶ 148. According to CBP
documents disclosed to Wright in a Freedom of
Information Act and Privacy Act (“FOIA”) request,
CBP confiscated Wright’s devices pursuant to
instructions from ICE’s Homeland Security
Investigations (“HSI”) division, which sought “further
forensic review.” D. 7 ¶ 149. These records
demonstrate that HSI “attempted to image” Wright’s
laptop and a CBP forensic scientist extracted data
from Wright’s phone and camera, which he stored on
three thumb drives he sent to other CBP officers. D. 7
¶ 152. Wright received his devices fifty-six days later.
D. 7 ¶ 154. CBP documentation from Wright’s FOIA
request does not reflect destruction of the information
extracted from Wright’s devices. D. 7 ¶ 155c.

110a

IV. Procedural History
Plaintiffs instituted this action on September 13,
2017. D. 1; D. 7. Defendants now move to dismiss. D.
14. On April 23, 2018, the Court heard the parties on
the pending motion and took the matter under
advisement. D. 33.
V.

Discussion

Defendants argue that Plaintiffs do not have
standing to bring this suit, and that even if they do,
they have failed to state a claim on the merits. D. 14.
The Court addresses standing as a threshold inquiry
because “[i]f a party lacks standing to bring a matter
before the court, the court lacks jurisdiction to decide
the merits of the underlying case.” United States v.
AVX Corp., 962 F.2d 108, 113 (1st Cir. 1992).
A.

Standing

“Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy”
within Article III of the U.S. Constitution, Spokeo, Inc.
v. Robins, ___ U.S. ___, 136 S. Ct. 1540, 1547 (2016),
and serves to “identify those disputes which are
appropriately resolved through the judicial process,”
Whitmore v. Arkansas, 495 U.S. 149, 155 (1990). “The
law of Article III standing, which is built on
separation of powers principles, serves to prevent the
judicial process from being used to usurp the powers
of the political branches.” Clapper v. Amnesty Int’l
USA, 568 U.S. 398, 408 (2013). To establish Article III
standing, Plaintiffs must demonstrate that they “(1)
suffered an injury in fact, (2) that is fairly traceable to
the challenged conduct of the defendant, and (3) that
is likely to be redressed by a favorable judicial
decision.” Spokeo, 136 S. Ct. at 1547; see Lujan v. Defs.
111a

of Wildlife, 504 U.S. 555, 560-61 (1992). Plaintiffs bear
the burden of establishing standing, but “the same
pleading standards apply both to standing
determinations and Rule 12(b)(6) determinations.”
Hochendoner v. Genzyme Corp., 823 F.3d 724, 734 (1st
Cir. 2016); see Lujan, 504 U.S. at 561; Reddy v. Foster,
845 F.3d 493, 497 (1st Cir. 2017).
“The ‘[f]irst and foremost’ concern in standing
analysis is the requirement that the plaintiff establish
an injury in fact . . . .” Reddy, 845 F.3d at 500 (quoting
Spokeo, 136 S. Ct. at 1547) (alteration in original). To
do so, “a plaintiff must show that he or she suffered
‘an invasion of a legally protected interest’ that is
‘concrete and particularized’ and ‘actual or imminent,
not conjectural or hypothetical.’” Spokeo, 136 S. Ct. at
1548 (quoting Lujan, 504 U.S. at 560). “[T]he
imminence concept, while admittedly far reaching, is
bounded by its Article III purpose: ‘to ensure that the
alleged injury is not too speculative.’” Berner v.
Delahanty, 129 F.3d 20, 24 (1st Cir. 1997) (quoting
Lujan, 504 U.S. at 564 n.2). Where, as here, Plaintiffs
seek injunctive relief, they must plausibly allege that
“the threatened injury is ‘certainly impending’ or
there is a ‘substantial risk that the harm will occur.’”
Susan B. Anthony List v. Driehaus (“SBA List”), ___
U.S. ___, 134 S. Ct. 2334, 2341 (2014) (quoting
Clapper, 568 U.S. at 414, 414 n.5); see Reddy, 845 F.3d
at 500. Because we are “[a]t the pleading stage,
general factual allegations of injury resulting from the
defendant[s’] conduct may suffice.” Lujan, 504 U.S. at
561; see Hochendoner, 823 F.3d at 731.
“[S]tanding is not dispensed in gross . . . .” Lewis
v. Casey, 518 U.S. 343, 358 n.6 (1996). Rather, the
standing inquiry is a “plaintiff-by-plaintiff and claim112a

by-claim analysis.” Hochendoner, 823 F.3d at 733. The
Court must, therefore, determine “whether each
particular plaintiff is entitled to have a federal court
adjudicate each particular claim that he asserts.” Id.
(quoting Pagán v. Calderón, 448 F.3d 16, 26 (1st Cir.
2006)). Defendants argue that Plaintiffs do not have
standing to seek declaratory or injunctive relief for
any alleged Fourth or First Amendment violations
and that they also lack standing to seek
expungement.4 D. 15 at 15-22. The Court addresses
each claim in turn.
1.

Standing to Seek
Declaratory Relief

Injunctive

or

Plaintiffs allege that they “face a likelihood of
future injury caused by the challenged policies and
practices . . . related to searching and seizing
electronic devices at the border.” D. 7 ¶ 156. Although
each Plaintiff has individual reasons for doing so,
“[a]ll Plaintiffs have traveled across the U.S. border
with their electronic devices multiple times” and “will
continue to do so in the future.” Id. At the border, “they
will be subject to CBP’s and ICE’s policies and
practices . . . . namely, search or seizure of their
devices absent a warrant, probable cause or
reasonable suspicion,” and Plaintiffs cannot avoid this
harm without “forego[ing] international travel or []
travel[ing] without any electronic devices, which
would cause great hardship.” Id. On this basis,
Defendants also argue that allegations of potentially
chilled speech fail to establish standing, D. 15 at 21-22, but
Plaintiffs respond that they do not rely upon “the chill of their
First Amendment rights” as they alleged injury to support
standing here, D. 19 at 16 n.3. The Court will not, therefore,
address that theory further.
4

113a

Plaintiffs seek to enjoin Defendants from “searching
electronic devices absent a warrant supported by
probable cause that the devices contain” evidence of
illegal activity and from “confiscating travelers’
electronic devices, to effectuate searches of those
devices after travelers leave the border, absent
probable cause.” D. 7 at 41-42.
Defendants argue that Plaintiffs’ allegations fail
to allege plausibly any “certainly impending” injury,
Clapper, 568 U.S. at 414. D. 15 at 17. As the First
Circuit explained recently, however, the Supreme
Court in SBA List—which “both postdated and cited
Clapper”—established a “disjunctive framing of the
test: injury is imminent if it is certainly impending or
if there is a substantial risk that harm will occur.”
Reddy, 845 F.3d at 500 (emphasis in original). Thus,
even if Plaintiffs do not allege an injury that is
“certainly impending,” they may still establish
standing by plausibly alleging a substantial risk that
harm will occur. See id.; SBA List, 134 S. Ct. at 2341.
Defendants contend that Plaintiffs have also
failed to satisfy the “substantial risk” inquiry. D. 15 at
17-19. Plaintiffs allege that CBP data demonstrates
that it is on track to conduct approximately 30,000
searches this fiscal year. D. 7 ¶ 38. Defendants point
out, however, that those searches only amounted to
0.008% of the approximately 189.6 million travelers
who arrived at U.S. borders during this period. D. 15
at 17-18. Defendants argue that this future search
probability—which they characterize as a “slight
chance” of search—is not sufficient to establish
standing here. D. 15 at 18.
There is no numerical threshold, however, at
which likelihood of harm becomes a “substantial risk”
114a

of harm. See Kerin v. Titeflex Corp., 770 F.3d 978, 983
(1st Cir. 2014) (noting that “a small probability of a
great harm may be sufficient”). Although 0.008% may
be a small percentage of total travelers, the searches
still occur at an average of approximately 2500
searches per month. D. 7 ¶ 38. In SBA List, the
Supreme Court supported its conclusion that there
was a substantial likelihood of future harm with the
explanation that proceedings enforcing the statute in
question were “not a rare occurrence,” with twenty to
eighty such cases occurring per year. SBA List, 134 S.
Ct. at 2345. Against this backdrop, 30,000 searches
per year is not a “rare occurrence,” even if it makes up
a small percentage of total travelers. Moreover,
“[e]ven a small probability of injury is sufficient to
create a case or controversy—to take a suit out of the
category of hypothetical—provided of course that the
relief sought would, if granted, reduce the
probability.” Massachusetts v. EPA, 549 U.S. 497, 525
n.23 (2007) (quoting Village of Elk Grove Village v.
Evans, 997 F.2d 328, 329 (7th Cir. 1993)); see NRDC
v. EPA, 464 F.3d 1, 7 (D.C. Cir. 2006) (holding 1 in
200,000 odds of developing skin cancer sufficient to
support standing). Additionally, as the Court explains
below, that four Plaintiffs here have been subjected to
multiple searches, D. 7 ¶¶ 62-76, 86-97, 105-19, 13646, suggests that the risk of future search is higher for
these plaintiffs than the general population.
Defendants also argue that Plaintiffs’ allegations
of future harm are impermissibly “vague” and
speculative. D. 15 at 17-18. They point to Reddy for
the proposition that in the First Circuit,
“‘[s]peculation’ that a government actor ‘might in the
future take some other and additional action
115a

detrimental to’ Plaintiffs, is ‘not an adequate
substitute for a claim of specific present objective
harm or a threat of specific future harm.’” D. 15 at 18
(quoting Reddy, 845 F.3d at 503). In Reddy, however,
the First Circuit held that the plaintiffs’ assertions of
standing were speculative as to a New Hampshire
buffer zone statute, emphasizing that the statute had
not yet been enforced. Reddy, 845 F.3d at 496, 503.
Here, by contrast, Plaintiffs challenge policies that are
in place and are being actively enforced. D. 7 ¶¶ 3738; see SBA List, 134 S. Ct. at 2346 (finding standing
to enjoin enforcement of state statute that had been
enforced for decades); Dudley v. Hannaford Bros. Co.,
333 F.3d 299, 306 (1st Cir. 2003) (explaining that a
“real and immediate threat” of injury may be
demonstrated through an “offending policy [that]
remains firmly in place”). Plaintiffs’ alleged future
injury does not depend upon defendants’ future illegal
conduct untethered to a pattern of past practice, cf.
Los Angeles v. Lyons, 461 U.S. 95, 102 (1983)
(concluding that plaintiff subject to illegal arrest
procedure made no showing that he was likely to be
arrested and subjected to illegal procedure again), but
rather upon recurring conduct authorized by official
policies.
That is, Plaintiffs’ subjection to prior searches
further bolsters their allegations of likely future
searches. Although “[p]ast exposure to illegal conduct
does not in itself show a present case or controversy
regarding injunctive relief,” Lujan, 504 U.S. at 564
(quoting Lyons, 461 U.S. at 102), “[p]ast wrongs [a]re
evidence bearing on ‘whether there is a real and
immediate threat of repeated injury,” Lyons, 461 U.S.
at 102 (quoting O’Shea v. Littleton, 414 U.S. 488, 496
116a

(1974)). See, e.g., Morales v. Chadbourne, 996 F. Supp.
2d 19, 37-38 (D.R.I. 2014) (finding standing for
American citizen who had been inappropriately
detained by ICE twice and warned that it could
happen again); Thomas v. Cty. of L.A., 978 F.2d 504,
507 (9th Cir. 1992) (explaining that the “possibility of
recurring injury ceases to be speculative when actual
repeated incidents are documented” (quoting Nicacio
v. U.S. INS, 797 F.2d 700, 702 (9th Cir. 1985))); cf.
Penobscot Nation v. Mills, 861 F.3d 324, 336-37 (1st
Cir. 2017) (denying standing at summary judgment
where there was no evidence of prior enforcement of
the policy in question against the plaintiffs). Here, all
Plaintiffs have been subjected to electronics searches
at the border and four Plaintiffs have been subjected
to multiple device searches. D. 7 ¶¶ 2, 62-155.
Plaintiffs’ theory of standing, therefore, is sufficiently
concrete to plausibly allege injury-in-fact.
Plaintiffs’ allegations of future harm are no less
concrete because they omit specific plans or dates of
future travel. Defendants argue that without such
details, Plaintiffs have merely expressed “some day”
intentions to travel, which are not enough to establish
actual or imminent injury. D. 15 at 19 (quoting Lujan,
504 U.S. at 564). In Lujan, the two individuals in
question stated in affidavits that they intended to
return to the habitats in question sometime “in the
future,” which was insufficient to establish “at the
summary judgment stage, a factual showing of
perceptible harm.” Lujan, 504 U.S. at 563-64, 566. As
a result, with plaintiffs “alleg[ing] only an injury at
some indefinite future time,” the Court held that the
“imminence” requirement for future injury had “been
stretched beyond the breaking point.” Id. at 564 n.2.
117a

As Justice Kennedy explained in his concurring
opinion, the requirement for travel specifics was
warranted in that case because it was “not a case
where it [wa]s reasonable to assume that the affiants
will be using the sites on a regular basis . . . nor d[id]
the affiants claim to have visited the sites since the
projects commenced.” Id. at 579 (Kennedy, J.,
concurring) (citation omitted). Plaintiffs argue that
their allegations sufficiently demonstrate a “realistic
risk of future exposure to [the] challenged policy,”
Berner, 129 F.3d at 24, through their allegations that
they regularly travel outside the U.S. for work,
visiting friends and family, vacation and tourism, D.
19 at 19-20; e.g., D. 7 ¶¶ 2, 62, 73, 77, 81, 86, 105, 114,
126, 143, and will continue to do so in the future, D. 7
¶ 156.
This case is distinct from Lujan on several bases.
First, this case is only at the motion to dismiss phase,
unlike the summary judgment stage in Lujan, 504
U.S. at 561, 566. Second, exposure to CBP and ICE
policy does not require travel to a specific destination,
but rather only requires some international travel and
return to the U.S.; it is reasonable to infer from the
allegations in the complaint that these Plaintiffs will
engage in international travel again in the future, cf.
id. at 579 (Kennedy, J., concurring), particularly as
Plaintiffs allege prior travel abroad and professional
backgrounds that might warrant future travel. See
Lyons, 461 U.S. at 102 (looking to plaintiffs’ prior
actions to determine likelihood of future injury);
Lujan, 504 U.S. at 592 (Blackmun, J., dissenting).
Given this case’s posture, the breadth of activity that
would compel exposure to the policies at issue and
Plaintiffs’ allegations of prior travel and professional
118a

activity, Plaintiffs’ allegations in this context are
sufficient to allege actual or imminent injury.
Finally, Defendants argue that Plaintiffs have
failed to establish standing because their risk of injury
is no greater than that of the general public, rendering
their alleged harm a generalized grievance
inappropriate for adjudication. D. 15 at 19. “[A]
plaintiff raising only a generally available grievance
about government—claiming only harm to his and
every citizen’s interest in proper application of the
Constitution and laws, and seeking relief that no more
directly and tangibly benefits him than it does the
public at large—does not state an Article III case or
controversy.” Lujan, 504 U.S. at 573-74. Defendants
focus solely upon whether Plaintiffs’ “future risk of a
device search” is greater than that of the general
public, D. 15 at 19, but simply that a harm may be
“widely shared” does not eliminate a plaintiff’s
standing to sue. Massachusetts, 549 U.S. at 522.
Rather, plaintiffs lack standing under the generalized
grievance rule when the alleged injury is “not only
widely shared, but is also of an abstract and indefinite
nature.” FEC v. Akins, 524 U.S. 11, 23 (1998).
Plaintiffs may plausibly allege standing regardless of
“how many persons have been injured by the
challenged action” if they plausibly allege that their
individual rights have been or will be infringed in
some “concrete and personal way.” Massachusetts, 549
U.S. at 517, (quoting Lujan, 504 U.S. at 581 (Kennedy,
J., concurring)); see Akins, 524 U.S. at 24; Public
Citizen v. U.S. Dep’t of Justice, 491 U.S. 440, 449-50
(1989) (explaining that “[t]he fact that other citizens
or groups of citizens might make the same complaint
. . . does not lessen appellants’ asserted injury”). As
119a

the Court has explained, Plaintiffs have plausibly
alleged a concrete, personal injury in the form of
violation of their individual rights.
Plaintiffs also argue that their risk of search is
higher than that of the general public because they
have been searched before. D. 19 at 20-21. This
argument is supported by the multiple searches of
four Plaintiffs, despite the aforementioned low
probability of subjection of the general public to a
border search. Plaintiffs argue that Defendants’
policies “alert officers to the past searches and
confiscations, which may increase the likelihood of
repeated searches.” D. 19 at 20 (citing Tabbaa v.
Chertoff, No. 05-cv-582S, 2005 U.S. Dist. LEXIS
38189, 2005 WL 3531828, at *9 (W.D.N.Y. Dec. 22,
2005), aff’d, 509 F.3d 89 (2d Cir. 2007)), a contention
that may be borne out by discovery.
For all of these reasons, the Court DENIES
Defendants’ motion to dismiss on the basis that
Plaintiffs lack standing, as Plaintiffs have plausibly
alleged that they face a substantial risk of future
harm from Defendants’ ongoing enforcement of their
border electronics search policies.
2.

Standing to Seek Expungement

Plaintiffs also seek expungement of all data or
information “gathered from, or copies made of, the
contents of Plaintiffs’ electronic devices, and all of
Plaintiffs’ social media information and device
passwords.” D. 7 at 42. Retention of data illegally
obtained by law enforcement may constitute
continued harm sufficient to establish standing to
seek expungement. See Tabbaa, 509 F.3d at 96 n.2
(stating that defendants there “properly do not contest
120a

that plaintiffs possess Article III standing based upon
their demand for expungement” of data collected
during border searches); Hedgepath v. Wash. Metro.
Area Transit Auth., 386 F.3d 1148, 1152 (D.C. Cir.
2004) (holding plaintiff had standing to seek
expungement of arrest record). Defendants challenge
Plaintiffs’ standing to seek expungement here. D. 15
at 20-21.
Defendants argue that, as a factual matter,
standing to seek expungement has only been alleged
as to one Plaintiff, Wright, whose information was
allegedly extracted and not destroyed by CBP, as
demonstrated through documents he obtained
through a FOIA request. D. 15 at 20. Although
Defendants correctly point out that “[n]either
conclusory assertions nor unfounded speculation can
supply the necessary heft” to establish standing, D. 15
at 20 (quoting Hochendoner, 823 F.3d at 731),
Plaintiffs need not produce FOIA documentation to
allege plausibly that information contained on their
devices has been retained by CBP or ICE, especially
given—as explained above—that this is the motion to
dismiss stage of litigation.5 Three other Plaintiffs—
Defendants’ argument that the amended complaint
only alleges that “CBP retained the information it extracted from
Mr. Wright’s devices,” D. 7 ¶ 155, omitting any allegations of the
same for other Plaintiffs, ignores other allegations in the
pleading. D. 32 at 4 n.2. Plaintiffs explicitly allege that “[o]n
information and belief, Plaintiffs are suffering the ongoing harm
of CBP and ICE retaining (a) content copied from their devices or
records reflecting content observed during searches of their
devices, (b) content copied from their cloud-based accounts
accessed through their devices or records reflecting” such
content, “(c) their social media identifiers, and/or (d) their device
passwords.” D. 7 ¶ 157. Plaintiffs have not, therefore, failed to
5

121a

the Alasaads and Allababidi—also allege searches
involving retention of their electronic devices for at
least two weeks. D. 7 ¶¶ 70-72, 79-80. Six of the
remaining seven Plaintiffs allege that during their
“basic” or manual device searches, their devices were
searched outside of their presence for a period of time
between ten minutes and four hours.6 D. 7 ¶¶ 84, 90,
96, 102, 107, 112, 117, 135, 140, 146. Given that both
ICE and CBP policies in place at the time authorized
conducting advanced searches of electronic devices
without any individualized suspicion, D. 7 ¶ 58, it is
plausible to infer from these facts that advanced
searches may have occurred during this time, see D. 7
¶ 84 (alleging that agents stated they used
“algorithms” to search Bikkannavar’s phone outside of
his presence). These policies, including the 2018 CBP
Policy, also sanction creating copies of data contained
on the devices during—or to be used for—advanced
searches, ICE Pol. ¶ 8.1.4; D. 18-1 ¶¶ 5.1.4, 5.4.1, or to
retain the assistance of other agencies and third
parties, ICE Pol. ¶ 8.4.4; D. 18-1 ¶¶ 5.4.2.1-2. It is
plausible, therefore, to infer that data or information
from the devices may have been copied or otherwise
documented during these searches.
Defendants also argue that Plaintiffs do not have
standing to seek expungement because expungement
would not redress Plaintiffs’ alleged injury. D. 15 at
20-21. Redressability, the third standing requirement,
see Spokeo, 136 S. Ct. at 1547, requires that Plaintiffs
allege that information was retained by Defendants.
Maye alleges that an officer “seized” her unlocked
phone “for approximately two hours,” but the complaint does not
allege that such seizure removed her phone from her presence.
See D. 7 ¶ 124.
6

122a

demonstrate “a likelihood that prevailing in the action
will afford some redress for the injury.” City of Bangor
v. Citizens Commc’ns Co., 532 F.3d 70, 92 (1st Cir.
2008) (quoting Me. People’s All. V. Mallinckrodt, Inc.,
471 F.3d 277, 283 (1st Cir. 2006)). Plaintiffs’ burden
to demonstrate redressability, as with injury, is
“relatively modest” at the motion to dismiss stage.
Bennett v. Spear, 520 U.S. 154, 171 (1997). Plaintiffs’
injury “is redressable if the relief sought can
compensate the plaintiff for his losses or ‘eliminate
any effects’ caused by a defendant’s challenged
conduct.” Janfeshan v. U.S. Customs & Border Prot.,
No. 16-cv-6915, 2017 U.S. Dist. LEXIS 151058, 2017
WL 3972461, at *6 (E.D.N.Y. Aug. 21, 2017) (quoting
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 106
(1998)).
Plaintiffs have plausibly demonstrated that
expungement of their data would afford some redress
for their alleged injury here. Plaintiffs argue that
retention of their information “compounds the
violations of [their] Fourth Amendment rights,
because Defendants remain free to use and exploit it
or share it with other agencies that may do the same.”
D. 19 at 24; see Tabbaa, 509 F.3d at 96 n.2; Hedgepath,
386 F.3d at 1152. Defendants argue that
expungement “would not likely result from a favorable
resolution of [Plaintiffs’] claims” because “[t]he
government’s use of ‘evidence obtained in violation of
the Fourth Amendment does not itself violate the
Constitution.’” D. 15 at 20 (quoting Pa. Bd. of Prob. &
Parole v. Scott, 524 U.S. 357, 362 (1998)). First,
however, Defendants’ argument does not go to
redressability, but rather to the merits of the
constitutional claim and remedy sought. Defendants
123a

do not argue that expungement would insufficiently
redress Plaintiffs’ alleged injury—continued violation
of the Fourth Amendment through retention of
Plaintiffs’ data—but rather suggest that retention of
Plaintiffs’ data is not itself a violation of the Fourth
Amendment. D. 15 at 20-21. Indeed, to the extent
Plaintiffs’ information was copied or obtained,
subsequently retained and not destroyed by CBP or
ICE, the destruction of these copies or data could
redress such injury. See Janfeshan, 2017 WL 3972461,
at *7.
Second, where allegations of redressability are
stated plausibly, foreclosure of this remedy to
Plaintiffs at this early juncture is not warranted.
Expungement is a remedy that falls within the Court’s
equitable discretion. See United States v. Coloian, 480
F.3d 47, 50 (1st Cir. 2007); Reyes v. Supervisor of DEA,
834 F.2d 1093, 1098 (1st Cir. 1984); Chastain v. Kelley,
510 F.2d 1232, 1235 (D.C. Cir. 1975) (stating that
“federal courts are empowered to order the
expungement of Government records where necessary
to vindicate rights secured by the Constitution or by
statute”). The availability of the remedy, therefore,
depends upon the scope of the Defendants’ ultimate
liability here. See Janfeshan, 2017 WL 3972461, at
*13 (declining to dismiss the plaintiff’s “‘claims’ for
CBP’s expungement of certain records” before
determining the scope of the defendants’ liability);
Hassan v. City of N.Y., 804 F.3d 277, 293-94 (3d Cir.
2015) (explaining that “the potential avenues for
redress depend on how a particular plaintiff’s injury
shows itself” and may fall within a “range of available
remedies”).

124a

The Court thus DENIES Defendants’ motion to
dismiss on the basis that Plaintiffs lack standing to
seek expungement.
B.

Plaintiffs’ Fourth Amendment Claims

The Fourth Amendment establishes that “[t]he
right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.” U.S. Const. amend. IV. The
Fourth Amendment ensures that “the usual
inferences which reasonable men draw from evidence
. . . . be drawn by a neutral and detached magistrate
instead of being judged by the officer engaged in the
often competitive enterprise of ferreting out crime.”
Johnson v. United States, 333 U.S. 10, 14 (1948). “The
amendment grew out of American colonial opposition
to British search and seizure practices, most notably
the use of writs of assistance, which gave customs
officials broad latitude to search houses, shops,
cellars, warehouses, and other places for smuggled
goods.” United States v. Wurie, 728 F.3d 1, 3 (2013),
aff’d sub. nom., Riley v. California, ___ U.S. ___, 134
S. Ct. 2473 (2014).
“[T]he ultimate touchstone of the Fourth
Amendment is reasonableness,” Riley, 134 S. Ct. at
2482 (quoting Brigham City v. Stuart, 547 U.S. 398,
403 (2006)), and “reasonableness generally requires
the obtaining of a judicial warrant,” id. (quoting
Vernonia School Dist. 47J v. Acton, 515 U.S. 646, 653
(1995)). “[A] warrantless search is per se unreasonable
under the Fourth Amendment, unless one of ‘a few
125a

specifically
established
and
well-delineated
exceptions’ applies.” Wurie, 728 F.3d at 3 (quoting
Arizona v. Gant, 556 U.S. 332, 338 (2009)). The border
search exception, “grounded in the recognized right of
the sovereign to control, subject to substantive
limitations imposed by the Constitution, who and
what may enter the country,” is one such exception.
United States v. Ramsey, 431 U.S. 606, 620 (1977).
Although, as an exception to the warrant
requirement, border searches “have been considered
to be ‘reasonable’ by the single fact that the person or
item in question had entered into our country from
outside,” id. at 619, the exception is not limitless.
Border searches must still be “reasonable,” and the
Court must still—as with searches conducted in the
interior—balance “the sovereign’s interests” with the
privacy interests of the individual. United States v.
Montoya de Hernandez, 473 U.S. 531, 539 (1985).
Notably, however, the balance of interests is different
at the border: the state has “a paramount interest in
protecting[] its territorial integrity,” and an
individual’s “expectation of privacy is less at the
border than it is in the interior.” United States v.
Flores-Montano, 541 U.S. 149, 153-54 (2004). That is,
CBP and ICE argue that the ‘border is different’ from
any other search context and there is no Fourth
Amendment impediment to their policies.
By contrast, Plaintiffs argue that ‘digital is
different.’ See D. 25 at 8.7 They contend that the
An amicus brief filed by the Brennan Center for
Justice, the Center for Democracy & Technology, the R Street
Institute and TechFreedom details the extent to which digital
devices differ from containers at issue in prior border search
cases given that they “contain great quantities of extremely
7

126a

border searches at issue here run afoul of the Fourth
Amendment due to the unique characteristics of
electronic devices. D. 19 at 25-37. As to the border
searches themselves, Plaintiffs argue that there is no
meaningful distinction between basic and advanced
(or manual and forensic) searches articulated in the
CBP and ICE policies. D. 19 at 35. In light of the “the
great volume and detail of personal information that
electronic devices contain,” even manual searches,
they allege, are “extraordinarily invasive.” D. 7 ¶ 41.
See D. 7 ¶¶ 27-36. Plaintiffs allege (1) that the
warrantless searches of travelers’ electronic devices
conducted at the border or international ports of
entry, pursuant to the CBP and ICE policies, violate
the Fourth Amendment, and (2) that the confiscation
of devices absent probable cause violates the Fourth
Amendment. D. 7 ¶¶ 169, 173. The Court begins by
focusing on Plaintiffs’ first Fourth Amendment claim,
which applies to all Plaintiffs (Count I), and then
addressing Plaintiffs’ confiscation claim which applies
to certain of the Plaintiffs (Count III).
Six years ago, this Court was unpersuaded by the
argument
that,
under
Fourth
Amendment
jurisprudence, unique characteristics of cell phones
and other electronic devices justified requiring a
heightened level of suspicion for searches conducted
at the border. House v. Napolitano, No. 11-10852-DJC,
2012 U.S. Dist. LEXIS 42297, 2012 WL 1038816, at *8
(D. Mass. Mar. 28, 2012). In House, similar to
Plaintiffs here, House challenged the constitutionality
of officers’ search of his laptop and other electronic
devices at the border under the Fourth Amendment,
arguing that the search was “highly intrusive given
sensitive information.” D. 25 at 7.

127a

the personal nature and quality of information stored
on these devices.” Id. at *6. The Court explained that
in the Fourth Amendment context, “[i]t is the level of
intrusiveness of the search that determines whether
the search is routine, not the nature of the device or
container to be searched.” Id. at *8 (citing United
States v. Giberson, 527 F.3d 882, 888 (9th Cir. 2008)).
The Court rejected House’s argument, explaining that
a laptop and other electronic devices are “akin to the
search of a suitcase and other closed containers,”
which “require no particularized suspicion,” id. at *7,
but declined to dismiss House’s Fourth Amendment
claim because the prolonged detention of his electronic
devices for forty-nine days was not “reasonably related
in scope to the circumstances which justified it
initially.” Id. at *9 (quoting United States v.
Cotterman, 637 F.3d 1068, 1082 (9th Cir. 2011), rev’d
en banc, 709 F.3d 952 (9th Cir. 2013)).
Two years after this Court’s ruling in House, as
Plaintiffs point out, D. 19 at 25-31, the Supreme Court
issued Riley, in which the Court held that the searchincident-to-arrest exception does not extend to cell
phones, but rather the Fourth Amendment requires
police to obtain a warrant supported by probable cause
to search a phone seized during an arrest. Riley, 134
S. Ct. at 2494-95. Moreover, the Supreme Court in
Riley affirmed the First Circuit’s ruling in Wurie, 728
F.3d at 13, which also came after this Court’s ruling
in House.
1.

Riley, Wurie and the Search Incident to
Arrest Exception

In Riley, the Supreme Court addressed the
applicability of the search incident to arrest exception
to cell phones and established a categorical rule
128a

requiring that officers obtain search warrants prior to
searching cell phones. Riley, 134 S. Ct. at 2485.
Justice Roberts, writing for a unanimous Court,8
explained that “[a]bsent more precise guidance from
the founding era, we generally determine whether to
exempt a given type of search from the warrant
requirement ‘by assessing, on the one hand, the degree
to which it intrudes upon an individual’s privacy and,
on the other, the degree to which it is needed for the
promotion of legitimate government interests.’” Riley,
134 S. Ct. at 2484 (quoting Wyoming v. Houghton, 526
U.S. 295, 300 (1999)). The Court explained that the
balancing of interests did not support extending the
exception “to modern cell phones, which are now such
a pervasive and insistent part of daily life that the
proverbial visitor from Mars might conclude they were
an important feature of human anatomy.” Id.
The Court analyzed the rationales behind the
search incident to arrest exception to determine
whether application of the doctrine to “this particular
category of effects would ‘untether the rule from the
justifications underlying’” the exception. Id. at 2485
(quoting Gant, 556 U.S. at 343). Although the search
incident to arrest exception has been described as
“always recognized under English and American law,”
Weeks v. United States, 232 U.S. 383, 392 (1914), it
was not until 1969, in Chimel v. California, that the
Supreme Court articulated the rationales behind the
exception: removing weapons to ensure officer safety
and preventing the destruction of evidence. Chimel,
395 U.S. 752, 762-63 (1969). Neither justification, the
Riley Court explained, supported the application of
Justice Alito concurred in part and concurred in the
judgment. Riley, 134 S. Ct. at 2495
8

129a

the exception to cell phones. Riley, 134 S. Ct. at 248588. The Court rejected the government’s arguments
that cell phones are “vulnerable to two types of
evidence destruction unique to digital data—remote
wiping and data encryption” because “broader
concerns about the loss of evidence are distinct” from
the rationale supporting the exception, the Court
“ha[d] also been given little reason to believe that
either problem is prevalent,” and it was unclear that
the ability to conduct a cell phone search without a
warrant would “make much of a difference.” Id. at
2486-87.
As to the individual’s privacy interests
implicated, “[m]odern cell phones, as a category,
implicate privacy concerns far beyond those
implicated by the search of a cigarette pack, a wallet,
or a purse.” Id. at 2488-89. The Supreme Court
expounded at length upon the extent to which “[c]ell
phones differ in both a quantitative and a qualitative
sense from other objects that might be kept on an
arrestee’s person.” Id. at 2489. Quantitatively,
whereas “[m]ost people cannot lug around every piece
of mail they have received for the past several months,
every picture they have taken, or every book or article
they have read—nor would they have any reason to
attempt to do so,” cell phones have an “immense
storage capacity,” allowing people to carry an amount
of data no longer limited by physical practicability. Id.
“The sum of an individual’s private life can be
reconstructed through a thousand photographs
labeled with dates, locations, and descriptions” dating
back to the purchase of the phone, or earlier; “the
same cannot be said of a photograph or two of loved
ones tucked into a wallet.” Id. Qualitatively, a person’s
130a

internet
browsing
history,
historic
location
information, and mobile application software (or
“apps”) “can form a revealing montage of the user’s
life.” Id. at 2490. Indeed, the Court stated that “a cell
phone search would typically expose to the
government far more than the most exhaustive search
of a house.” Id. at 2491 (emphasis in original).
Moreover, the ease with which a cell phone may be
used to access remote files illustrates that a cell phone
search “might extend well beyond papers and effects
in the physical proximity of an arrestee,” providing
“yet another reason that the privacy interests here
dwarf those” in prior search incident to arrest cases.
Id.
The Riley court rejected the government’s
proposed alternative standards, including that “from
the vehicle context, allowing a warrantless search of
an arrestee’s cell phone whenever it is reasonable to
believe that the phone contains evidence of the crime
of arrest.” Id. at 2492. The Supreme Court explained
that the exception for warrantless searches of a
vehicle’s passenger compartment carved out in Gant,
556 U.S. at 343, was inapplicable to cell phone
searches for several reasons. Riley, 134 S. Ct. at 2492.
First, the circumstances of the vehicle search involved
further “reduced expectation[s] of privacy” and
“heightened law enforcement needs” absent with cell
phone searches. Id. (quoting Thornton v. United
States, 541 U.S. 615, 632 (2004) (Scalia, J.,
concurring)); see Gant, 556 U.S. at 345. Second,
crucially, the “Gant standard would prove no practical
limit at all when it comes to cell phone searches,”
given the physical and temporal limitations present in
a Gant scenario that are absent in a Riley scenario.
131a

Riley, 134 S. Ct. at 2492. The Court noted that “[i]t
would
be a
particularly
inexperienced
or
unimaginative law enforcement officer who could not
come up with several reasons to suppose evidence of
just about any crime could be found on a cell phone.”
Id. Given the Court’s “general preference to provide
clear guidance to law enforcement through categorical
rules,” and avoid “a difficult line-drawing expedition”
for officers and courts alike, the Court rejected the
government’s “fallback options” in favor of a warrant
requirement that would apply to all cell phone
searches conducted incident to arrest. Id. at 2491-93;
see id. at 2497 (Alito, J., concurring) (explaining that
although the Court’s holding might “lead[] to
anomalies,” he did “not see a workable alternative”
given that “[l]aw enforcement officers need clear rules
. . . and it would take many cases and many years for
the courts to develop more nuanced rules”).
It is also worth noting that one of the two cases
on appeal in Riley was Wurie, a 2013 First Circuit
opinion reversing the denial of a motion to suppress
and holding that cell phones are distinct from other
physical possessions that may be searched incident to
arrest without a warrant. Wurie, 728 F.3d at 13-14.
The First Circuit pointed to Seventh Circuit case law
acknowledging that “[a]t the touch of a button a cell
phone search becomes a house search, and that is not
a search of a ‘container’ in any normal sense of that
word, though a house contains data.” Id. at 8-9
(quoting United States v. Flores-Lopez, 670 F.3d 803,
806 (7th Cir. 2012)). Ultimately, however, the First
Circuit parted ways with the Seventh Circuit and a
“majority” of jurisdictions that had upheld
warrantless cell phone data searches. Id. at 5, 13. The
132a

First Circuit concluded instead that cell phone
searches incident to arrest are not justified by the
Chimel rationales, and that the nature and scope of
the search exceeded the purposes of the warrant
exception. Id. at 7-12. The court explained that cell
phones store “much more personal information . . .
than could ever fit in a wallet, address book, briefcase,
or any of the other traditional containers that the
government has invoked.” Id. at 9.
Adhering to “the Supreme Court’s insistence on
bright-line rules in the Fourth Amendment context,”
the First Circuit explained that while some searches
of cell phones might be less invasive than others, “it is
necessary for all warrantless cell phone data searches
to be governed by the same rule.” Id. at 12-13. In the
court’s view, the government’s desire for warrantless
cell phone searches was “a convenient way for the
police to obtain information related to a defendant’s
crime of arrest,” and the court found no Supreme
Court jurisprudence sanctioning “such a ‘general
evidence-gathering search.’” Id. at 13 (quoting
Thornton, 541 U.S. at 632 (Scalia, J., concurring)). The
First Circuit likened the government’s proposed
approach to “customs officers in the early colonies
[who] could use writs of assistance to rummage
through homes and warehouses, without any showing
of probable cause linked to a particular place or item
sought,” the very ill the Founders sought to eradicate
with the Fourth Amendment. Id. at 9. In Riley, the
Supreme Court affirmed the First Circuit’s ruling.
Riley, 134 S. Ct. at 2495.
2.

Riley and the Border Search Exception

Defendants argue that Riley does not apply to the
border search context. D. 15 at 25-27. Defendants
133a

state that “Riley itself noted that its holding was
limited to the search incident to arrest context” by
acknowledging that “‘other case-specific exceptions
may still justify a warrantless search of a particular
phone.’” D. 15 at 26 (quoting Riley, 134 S. Ct. at 2492).
On that basis, Defendants contend, the argument that
Riley “imposes a warrant requirement” in the border
search context “is without merit and has been
repeatedly rejected.” D. 15 at 25. Additionally, and
more substantively, Defendants contend that, unlike
the rationales behind the search incident to arrest
exception, the border search exception “serves
different and broader purposes” that “apply in full
force to searches of electronic media.” D. 15 at 26-27.
As an initial matter, the Court is not persuaded
that Riley’s reasoning is irrelevant here simply
because Riley’s holding was limited to the search
incident to arrest exception, see Riley, 134 S. Ct. at
2495. Judicially recognized exceptions to the warrant
requirement do not exist in isolation; rather, they are
all part of Fourth Amendment jurisprudence, justified
because, ordinarily, the circumstances surrounding
the search and the nature of the search have been
deemed “reasonable.” See id. at 2483; Ramsey, 431
U.S. at 617. In fact, the Supreme Court has referenced
search incident to arrest doctrine within its border
search jurisprudence in the past, characterizing the
two exceptions as “similar.” Ramsey, 431 U.S. at 621
(explaining that the border search is “a longstanding,
historically recognized exception to the Fourth
Amendment’s general principle that a warrant be
obtained, and in this respect is like the similar ‘search
incident to lawful arrest’ exception”). The reasoning in
Riley may, therefore, carry some persuasive weight in
134a

the border search context. See, e.g., United States v.
Kolsuz, 185 F. Supp. 3d 843, 856 (E.D. Va. 2016)
(considering scope of privacy interest at border in light
of Riley); United States v. Kim, 103 F. Supp. 3d 32, 5458 (D.D.C. 2015) (same); cf. United States v. Camou,
773 F.3d 932, 942-43 (9th Cir. 2014) (extending Riley
to the vehicle exception context); United States v.
Lara, 815 F.3d 605, 610-12 (9th Cir. 2016) (applying
Riley to probation search context); United States v.
Henry, 827 F.3d 16, 28 (1st Cir. 2016) (rejecting
defendant’s Riley argument in the “plain view” context
not because Riley was categorically irrelevant but
because the officers had obtained a warrant prior to
the smart phone search).
Additionally, the cases Defendants reference to
argue that Plaintiffs’ Fourth Amendment claim has
been “repeatedly rejected,” D. 15 at 26 n.8, carry
limited weight here. The majority of these cases arose
in district courts within the Ninth Circuit, where
Cotterman, 709 F.3d at 968, a Ninth Circuit en banc
decision predating Riley, still controls. See, e.g.,
United States v. Mendez, 240 F. Supp. 3d, 1005, 1008
(D. Ariz. 2017); United States v. Ramos, 190 F. Supp.
3d 992, 1002-03 (S.D. Cal. 2016); United States v.
Lopez, No. 13-CR-2092 WQH, 2016 U.S. Dist. LEXIS
176920, 2016 WL 7370030, at *5 (S.D. Cal. Dec. 20,
2016). In Cotterman, the Ninth Circuit held that a
forensic device search initiated at the border required
reasonable suspicion, explaining that “the uniquely
sensitive nature of data on electronic devices carries
with it a significant expectation of privacy and thus
renders an exhaustive exploratory search more
intrusive than with other forms of property.”
Cotterman, 709 F.3d at 966. Lower courts in the Ninth
135a

Circuit are bound by the Cotterman standard, unable
to apply Riley in the border context unless they find
the two cases “clearly irreconcilable,” which, as
several courts have explained, they are not. See
United States v. Caballero, 178 F. Supp. 3d 1008, 1018
(S.D. Cal. 2016) (explaining that “[a]lthough Riley
could be applied to a cell phone search at the border,
this Court is bound by Cotterman”); Lopez, 2016 WL
7370030, at * 5.9
Here, the First Circuit has not yet spoken on
what level of suspicion is required to justify a cell
phone or other electronic device search at the border.
The First Circuit has, however, acknowledged the
significant privacy interests implicated in a cell phone
search, explaining that the information on these
devices is “the kind of information one would
previously have stored in one’s home and that would
have been off-limits to officers performing a search
incident to arrest.” Wurie, 728 F.3d at 8. Searches of
cell phones are fundamentally different from “the
kinds of reasonable, self-limiting searches that do not
offend the Fourth Amendment, even when conducted
without a warrant.” Id. at 9-10. The court also
emphasized the necessity behind a bright-line rule
favoring a warrant requirement, explaining that “[a]
series of opinions allowing some cell phone data
searches but not others, based on the nature and
reasonableness of the intrusion, would create exactly
Likewise, district courts in the Fourth Circuit are
bound by pre-Riley precedent in United States v. Ickes, in which
the Fourth Circuit held that a manual digital search of an
electronic device is a routine border search, requiring no
individualized suspicion, Ickes, 393 F.3d 501, 505-06 (4th Cir.
2005). See Kolsuz, 185 F. Supp. 3d at 854-55; United States v.
Saboonchi, 990 F. Supp. 2d 536, 560 (D. Md. 2014).
9

136a

the ‘inherently subjective and highly fact specific’ set
of rules that the Court has warned against and would
be extremely difficult for officers in the field to apply.”
Id. at 12-13 (quoting Thornton, 541 U.S. at 623).
While it is correct that neither the Supreme
Court nor the First Circuit have yet held that a
warrant is required for a particular type of search
conducted at the border, the Court considers
Plaintiffs’ claim against the current legal backdrop
framed by Riley and Wurie and thus turns to the
merits to determine whether Plaintiffs have plausibly
alleged a Fourth Amendment violation for
warrantless border device searches.
The border search exception is widely considered
as old as the United States itself. See Ramsey, 431
U.S. at 616-17. “The Congress which proposed the Bill
of Rights, including the Fourth Amendment, to the
state legislatures on September 25, 1789, 1 Stat. 97,
had, some two months prior to that proposal, enacted
the first customs statute, Act of July 31, 1789, c. 5, 1
Stat. 29 . . . . grant[ing] customs officials ‘full power
and authority’ to enter and search ‘any ship or vessel,
in which they shall have reason to suspect any goods,
wares or merchandise subject to duty shall be
concealed.’” Id. at 616. The Supreme Court reiterated
in 1886 and 1925 that border searches are
“reasonable” and, therefore, not prohibited by the
Fourth Amendment. See Boyd v. United States, 116
U.S. 616, 623 (1886); Carroll v. United States, 267 U.S.
132, 147 (1925).
As with all Fourth Amendment exceptions, the
border search exception is “subject to substantive
limitations imposed by the Constitution.” Ramsey, 431
U.S. at 620. The Court determines “the permissibility
137a

of a particular law enforcement practice . . . by
‘balancing its intrusion on the individual’s Fourth
Amendment interest against its promotion of
legitimate governmental interests.’” Montoya de
Hernandez, 473 U.S. at 537 (quoting United States v.
Villamonte-Marquez, 462 U.S. 579, 588 (1983)). “[T]he
Fourth Amendment’s balance of reasonableness is
qualitatively different at the international border
than in the interior.” Id. at 538. Individuals have a
reduced expectation of privacy at the international
border, while the government’s “interest in preventing
the entry of unwanted persons and effects is at its
zenith” there. Flores-Montano, 541 U.S. at 154, 152.
The border search slate, however, is not unlike
the one on which the Supreme Court wrote in Riley.
Like the border search exception’s historical
foundation, the search incident to arrest exception, as
the Court detailed in Riley, was “always recognized
under English and American law,” Riley, 134 S. Ct. at
2482 (quoting Weeks, 232 U.S. at 392). Moreover, with
searches incident to arrest, the balance also tilts
favorably toward the government. See id. at 2488
(explaining that “[t]he search incident to arrest
exception rests not only on the heightened
government interests at stake in a volatile arrest
situation, but also on an arrestee’s reduced privacy
interests upon being taken into police custody”). The
Court nevertheless explained that an arrestee’s
“diminished privacy interests do[] not mean that the
Fourth Amendment falls out of the picture entirely.”
Id. Rather, the unique attributes of cell phones so
increased the privacy interests of individuals that the
balancing of interests that typically support the

138a

search incident to arrest exception no longer applied.
See id. at 2484-85, 2488; Wurie, 728 F.3d at 9.
The border search serves the nation’s
“paramount interest in protecting[] its territorial
integrity.” Flores-Montano, 541 U.S. at 153. The
rationales supporting the border search exception are
the sovereign’s interest in protecting the “integrity of
the border,” by “[r]egulat[ing] the collection of duties”
and “prevent[ing] the introduction of contraband into
this country.” Montoya de Hernandez, 473 U.S. at 538,
537; see Carroll, 267 U.S. at 154 (explaining that
“[t]ravellers may be so stopped . . . because of national
self protection reasonably requiring one entering the
country to identify himself as entitled to come in, and
his belongings as effects which may be lawfully
brought in”). The Supreme Court has characterized
customs officials’ role at the border as greater than
that of “investigative law enforcement,” explaining
that customs offers “are also charged . . . with
protecting this Nation from entrants who may bring
anything harmful into this country, whether that be
communicable diseases, narcotics, or explosives.”
Montoya de Hernandez, 473 U.S. at 544.
Plaintiffs argue that “warrantless searches of
electronic devices are not sufficiently tethered to the
narrow purposes justifying the border search
exception: immigration and customs enforcement.” D.
19 at 28-29. If the border exception seeks to enable
officers to prevent illicit “contraband” from entering
the country, see Montoya de Hernandez, 473 U.S. at
537, a search of digital data may not be necessary to
achieve that aim. See Kolsuz, 185 F. Supp. 3d at 858
(explaining that digital information “is merely
indirect evidence of things an individual seeks to
139a

export illegally—not the things themselves—and
therefore the government’s interest in obtaining this
information is less significant than the government’s
interest in directly discovering the items to be
exported illegally”); United States v. Molina-Isidoro,
267 F. Supp. 3d 900, 909 n.10 (W.D. Tex. 2016).
Defendants argue that devices “can contain
contraband (such as child pornography), information
regarding the inadmissibility of prohibited goods or
persons, or material (such as classified information,
malware, or export-controlled material) that, if
illicitly transferred beyond our borders, could pose a
direct threat to our national security.” D. 15 at 27. The
Court agrees with Plaintiffs that “information
regarding the inadmissibility of prohibited goods or
persons,” id., is distinct from contraband. D. 19 at 30
n.20; see Boyd, 116 U.S. at 623 (explaining that search
and seizure of “goods liable to duties and concealed to
avoid the payment thereof[] are totally different
things from a search for and seizure of a man’s private
books and papers for the purpose of obtaining
information therein contained, or of using them as
evidence against him”).
Digital contraband like child pornography,
however, falls within the ambit of the border search
exception’s rationales. Plaintiffs argue that unlike
physical contraband, digital contraband may also
cross borders digitally, through the internet, and need
not physically cross the border to enter the country. D.
19 at 30. Additionally, they argue that to the extent
such digital contraband is truly transported across the
border through these devices, the government cannot
demonstrate that such incidents are “prevalent”
enough to justify a categorical rule permitting
140a

warrantless device searches at the border. Id. (quoting
Riley, 134 S. Ct. at 2486). The U.S. Sentencing
Commission explained in 2012 that “[t]he vast
majority of child pornography offenders today use the
Internet or Internet-related technologies to access and
distribute child pornography.” U.S. Sent’g Comm’n,
2012 Report to the Congress: Federal Child
Pornography Offenses 41-42 (2012)10; see id. at 48-56
(describing peer-to-peer file sharing and other
platforms enabling file sharing on the internet). With
the limited record before the Court, the prevalence of
physical transfers of illicit digital contraband across
the U.S. borders (as opposed to through the internet)
is unclear.
Additionally, although the Court agrees with
Defendants that digital contraband is not
“untethered” from the rationales supporting the
border search exception, it is unclear at this juncture
the extent to which a warrant requirement would
impede customs officers’ ability to ferret out such
contraband.11 “[T]he mere fact that law enforcement
may be made more efficient can never by itself justify
Available
online
at
http://www.ussc.gov/sites/default/files/pdf/news/congressionaltestimony-and-reports/sex-offense-topics/201212-federal-childpornography-offenses/Full_Report_to_Congress.pdf.
10

One district court explained, prior to Riley, in holding
that forensic searches require reasonable suspicion, such a ruling
is not “likely meaningfully to change anything that actually
happens at the border,” because “[c]ustoms officials do not have
the time or resources—or, most likely, the inclination—to
perform random or suspicionless forensic searches.” Saboonchi,
990 F. Supp. 2d at 570. The court was unaware of “any case
where a forensic search was performed in the absence of
reasonable suspicion.” Id. (citing cases).
11

141a

disregard of the Fourth Amendment.” Wurie, 728 F.3d
at 11 (quoting Mincey v. Arizona, 437 U.S. 385, 393
(1978)). Indeed, as Justice Roberts pointed out in
Riley, “[r]ecent technological advances similar to those
discussed here have, in addition, made the process of
obtaining a warrant itself more efficient.” Riley, 134 S.
Ct. at 2493. Although a warrant might “have an
impact on the ability of law enforcement to combat
crime,” id., it is unclear—based on the record before
the Court at this time—the extent to which such
impediment justifies applying the border search
exception to electronic devices. This is particularly
true where the government’s interests—even if they
are not “untethered” to the exception’s rationales—
must be “[w]eighed against the significant privacy
implications inherent in cell phone data searches.”
Wurie, 728 F.3d at 11.
On the other side of the scale, where a traveler’s
privacy interests are ordinarily reduced, Riley
indicates that electronic devices implicate privacy
interests in a fundamentally different manner than
searches of typical containers or even searches of a
person. Riley, 134 S. Ct. at 2488-89, 2494-95; see
Wurie, 728 F.3d at 8. The Supreme Court has held
that detention of a traveler at the border “beyond the
scope of a routine customs search and inspection” may
be justified when supported by reasonable suspicion
that the traveler is smuggling contraband in their
“alimentary canal,” Montoya de Hernandez, 473 U.S.
at 541, and that no level of suspicion is required for a
border search in which officers “remove, disassemble,
and reassemble a vehicle’s fuel tank,” Flores-Montano,
541 U.S. at 155. The First Circuit, likewise, has held
that reasonable suspicion—not probable cause—is
142a

required to justify certain “nonroutine” border
examinations like strip and body cavity searches.
United States v. Braks, 842 F.2d 509, 512-14 (1st Cir.
1988). The First Circuit and other circuits have
adopted the “routine” and “nonroutine” border search
distinction first articulated in Montoya de Hernandez,
473 U.S. at 541 n.4, often distinguishing between the
two by the intrusiveness of the search. See United
States v. Molina-Gómez, 781 F.3d 13, 19 (1st Cir.
2015); United States v. Kelly, 302 F.3d 291, 294 (5th
Cir. 2002); United States v. Ramos-Saenz, 36 F.3d 59,
61 (9th Cir. 1994).12
Riley and Wurie indicate that electronic device
searches are, categorically, more intrusive than
searches of one’s person or effects. See Riley, 134 S. Ct.
2489 (explaining that “[b]efore cell phones, a search of
a person was limited by physical realities and tended
as a general matter to constitute only a narrow
intrusion on privacy”); Wurie, 728 F.3d at 8-9; United
States v. Whiteside, No. 13-cr-576, 2015 U.S. Dist.
LEXIS 84369, 2015 WL 3953477, at *4-5 (S.D.N.Y.
June 29, 2015) (suppressing contents of digital camera
searched incident to arrest based upon Riley). The
ability to review travelers’ cell phones allows officers
to view “nearly every aspect of their lives—from the
The Supreme Court’s dismissal of the “[c]omplex
balancing tests” to determine the “degree of intrusiveness” as
applied to border searches of vehicles, Flores-Montano, 541 U.S.
at 152, does not eliminate the intrusiveness inquiry here. There,
the Court explained that the “dignity and privacy interests of the
person being searched [] simply do not carry over to vehicles.” Id.;
see New York v. Class, 475 U.S. 106, 112-13 (1986) (explaining
that vehicles implicate a diminished expectation of privacy).
Under current Supreme Court jurisprudence, the opposite holds
true for cell phones. See Riley, 134 S. Ct. at 2489-90.
12

143a

mundane to the intimate.” Riley, 134 S. Ct. at 2490.
Indeed, certain facts alleged here—including Nadia
Alasaad’s and Merchant’s objections due to their
photos on their phones of themselves without
headscarves, D. 7 ¶¶ 67, 129—demonstrate the level
of intrusiveness a manual device search can entail.
The Constitutional Accountability Center, in its
amicus brief, likens digital device searches to searches
of personal papers, explaining that “personal papers
increasingly take the form of digital files” kept on cell
phones, laptops, and other electronic devices. D. 23 at
8. They argue personal papers require greater
protection under the Fourth Amendment because
these searches “‘go[] to the very core of the fourth
amendment right of privacy,’” given the Fourth
Amendment’s history and the “inherently ‘personal,
private nature of such papers.’” D. 23 at 18 (quoting
James A. McKenna, The Constitutional Protection of
Private Papers: The Role of a Hierarchical Fourth
Amendment, 53 Ind. L.J. 55, 68 (1977)); see Craig M.
Bradley, Constitutional Protection for Private Papers,
16 Harv. C.R.-C.L. L. Rev. 461, 483 (1981) (describing
the “psychological intrusion” implicated by searches of
personal papers “because the searcher is invading not
only the subject’s house but his or her thoughts as
well”); Ramsey, 431 U.S. at 623-24 (holding that
searches for contraband in international mail did not
violate the Fourth Amendment, repeatedly stressing
that statutes forbade reading correspondence in the
envelopes). Moreover, the potential intrusion into
individuals’ privacy is of “particular concern” in the
border search context because the permissible scope of
customs officers’ investigative search is so broad and
need not “be restrained by any limitations of exigency
or relevance to a specific crime.” Camou, 773 F.3d at
144a

943 (explaining that the broad “allowable scope” of a
search pursuant to the vehicle exception supported
extending Riley’s holding to cell phone searches in
that context).
Defendants argue that even if device searches
necessitate heightened suspicion, not higher standard
could apply here than the reasonable suspicion
standard.13 D. 15 at 25; see Molina-Gómez, 781 F.3d at
19 (explaining that non-routine searches “require
reasonable suspicion”). Plaintiffs argue, however, that
the Supreme Court has never suggested that
reasonable suspicion “is a ceiling for every border
search.” D. 19 at 33. Defendants emphasized at oral
argument that First Circuit precedent has never
required that strip searches in the border context
meet a standard higher than reasonable suspicion, see
Braks, 842 F.2d at 512-14, so holding digital searches
to a higher standard would be incongruous. See D. 32
at 6. Notably, however, reasonable suspicion generally
suffices to justify strip searches in the search incident
to arrest context, too. See United States v. Barnes, 506
F.3d 58, 62 (1st Cir. 2007); Swain v. Spinney, 117 F.3d
1, 7 (1st Cir. 1997).14 Nevertheless, the Supreme Court
Reasonable suspicion is generally defined as “a
particularized and objective basis for suspecting the particular
person stopped of criminal activity.” United States v. Cortez, 449
U.S. 411, 417-18 (1981); Terry v. Ohio, 392 U.S. 1, 21, 30 (1968)
(explaining that the standard is met when officers can point to
“specific and articulable facts” and rational inferences that can
be drawn therefrom indicating that criminal activity “may be
afoot”). It is typically viewed within the totality of the
circumstances. See Cortez, 449 U.S. at 417.
13

Notably, in Swain, the First Circuit again connected
the search incident to arrest exception with the border search
exception, explaining that the reasonable suspicion standard was
14

145a

rejected the reasonable suspicion standard when it
came to cell phones because it “would prove no
practical limit at all when it comes to cell phone
searches.” Riley, 134 S. Ct. at 2492. Digital device
searches at the border, perhaps even when supported
by reasonable suspicion, raise the same concerns.
In sum, the Court is not persuaded that Plaintiffs
have failed to state a plausible Fourth Amendment
claim here. Although Defendants may be correct that
the border is different, see D. 15 at 23-27, the Supreme
Court and First Circuit have acknowledged that
digital searches are different too since they “implicate
privacy concerns far beyond those implicated” in a
typical container search. Riley, 134 S. Ct. at 2488-89;
see Wurie, 728 F.3d at 11. In the absence of controlling
precedent to the contrary, this Court cannot rule that
this Fourth Amendment principle would not extend in
some capacity to the border. See Janfeshan, 2017 WL
3972461, at *12 (denying motion to dismiss Fourth
Amendment claim regarding forensic cell phone
search at border); Kim, 103 F. Supp. 3d at 59 (granting
motion to suppress where forensic laptop search “was
supported by so little suspicion of ongoing or imminent
criminal activity, and was so invasive of Kim’s privacy
. . . that it was unreasonable” under the Fourth
Amendment and Riley); United States v. Djibo, 151 F.
Supp. 3d 297, 310 (E.D.N.Y. 2015) (granting motion to
suppress documents obtained from warrantless
search of phone of outbound passenger under Riley).
The Court concludes, therefore, that Plaintiffs have
plausibly alleged a Fourth Amendment claim here.
appropriate for strip and visual body cavity searches in the
arrestee context because it was appropriate in other contexts,
including “non-routine border searches.” Swain, 117 F.3d at 7.

146a

Plaintiffs also argue that even if Riley does not
apply here, “border search precedent provides a
parallel justification for requiring a warrant based on
probable cause for border searches of electronic
devices.” D. 19 at 31. Given that the Court has
concluded that Riley has some weight in the border
search context and that, on that basis, Plaintiffs have
stated a plausible Fourth Amendment claim, the
Court need not reach this further argument.
Defendants’ motion to dismiss Plaintiffs’ Fourth
Amendment claim (Count I) is, therefore, DENIED.
3.

Plaintiffs’ Confiscation Claim

Defendants also seek dismissal of Plaintiffs’
claim that Defendants “violate the Fourth
Amendment by confiscating travelers’ electronic
devices, for the purpose of effectuating searches of
those devices after travelers leave the border, absent
probable cause” as they are “unreasonable at their
inception, and in scope and duration,” D. 7 ¶ 173. D.
14 at 2; D. 15 at 30-34. Defendants contend that “[t]he
same arguments made with respect to the first cause
of action . . . apply equally here,” arguing that “where
the government has authority to search an item at the
border, it has authority to detain that item as
necessary to accomplish the search.” D. 15 at 30-31.
To the extent this standard is correct—which the
Court does not grant—given this Court’s ruling on
Plaintiffs’ Fourth Amendment claim regarding border
device searches, and for many of the reasons detailed
above, the Court likewise holds that Plaintiffs have
plausibly alleged a Fourth Amendment claim based
upon
Defendants’
prolonged
detention—or
confiscation—of these devices.

147a

The Court notes, moreover, that Plaintiffs’ claim
pertaining to confiscations is not coterminous with
Plaintiffs’ border search claim. Unlike border
searches, prolonged detentions of devices—including
after travelers have left the border—resemble
seizures, and must, therefore, be reasonable not only
at their inception but also for their duration. United
States v. Place, 462 U.S. 696, 708-10 (1983) (holding
that the ninety-minute detention of luggage was a
“seizure” requiring probable cause); see United States
v. Jacobsen, 466 U.S. 109, 124-25 (1984). That is, a
device search that is justified at its inception may
nevertheless become unreasonable, giving rise to a
Fourth Amendment claim. See House, 2012 WL
1038816, at *10 (holding that a forty-nine day
detention of a locked laptop, flash drive and camera
raised a plausible Fourth Amendment claim, despite
dismissing claim regarding the search itself);
Cotterman, 709 F.3d at 966-67.
Plaintiffs argue that confiscations pursuant to
CBP and ICE policies are “excessive” in scope and
duration. D. 7 ¶¶ 56(b)-(c). As this Court has
previously explained, “the inquiry into the
reasonableness of the duration of a seizure is . . . an
appropriate consideration under the Fourth
Amendment analysis” even at the border. House, 2012
WL 1038816, at *9 (citing Place, 462 U.S. at 709-10);
see United States v. Mitchell, 565 F.3d 1347, 1351-52
(11th Cir. 2009) (holding that a twenty-one day delay
in securing a warrant for a laptop search was
unreasonable). Defendants argue that Plaintiffs’
claim is baseless given that the official policies limit
detentions to “a brief, reasonable period of time.” D.
15 at 34 (quoting D. 18-1 ¶ 5.3.1). The lengths of the
148a

detentions alleged here, however—including ten
months for Allababidi and fifty-six days for Wright—
suggest that the Fourth Amendment may require
clearer guidance than that. See Riley, 134 S. Ct. at
2492-93 (reiterating the necessity of “clear guidance”
in the Fourth Amendment context).
The Court thus DENIES Defendants’ motion to
dismiss Plaintiffs’ Fourth Amendment claim
regarding confiscation of electronic devices pursuant
to CBP and ICE policies (Count III).
C.

Plaintiffs’ First Amendment Claim

Finally, Defendants seek dismissal of Plaintiffs’
claim, Count II, that they “violate the First
Amendment by searching electronic devices that
contain expressive content and associational
information, absent a warrant supported by probable
cause,” D. 7 ¶ 171. D. 14 at 2. The First Amendment
provides that “Congress shall make no law . . .
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble.” U.S. Const.
amend. I. These rights “are protected not only against
heavy-handed frontal attack, but also from being
stifled by more subtle governmental interference.”
Bates v. City of Little Rock, 361 U.S. 516, 523 (1960).
As the Supreme Court has explained, “associational
rights . . . can be abridged even by government actions
that do not directly restrict individuals’ ability to
associate freely.” Lyng v. Int’l Union, UAW, 485 U.S.
360, 367 n.5 (1988); see AFL-CIO v. FEC, 333 F.3d
168, 175 (D.C. Cir. 2003) (explaining that compulsory
“disclosure of political affiliations and activities can
impose just as substantial a burden on First
Amendment rights as can direct regulation”); Baird v.
State Bar of Ariz., 401 U.S. 1, 6-7 (1971) (explaining
149a

that “[w]hen a State seeks to inquire about an
individual’s beliefs and associations a heavy burden
lies upon it to show that the inquiry is necessary to
protect a legitimate state interest”).
Plaintiffs argue that warrantless digital device
searches substantially burden travelers’ protected
rights of freedom of speech and association and chill
the exercise of these rights. D. 7 ¶ 46; D. 19 at 38-41;
see generally D. 26 (amicus brief filed by the Knight
First Amendment Institute at Columbia University
and the Reporters Committee for Freedom of the
Press). They explain that the First Amendment rights
implicated include the “right to associate with others
in pursuit of a wide variety of political, social,
economic, educational, religious, and cultural ends,”
Roberts v. U.S. Jaycees, 468 U.S. 609, 622 (1984); see
NAACP v. Alabama, 357 U.S. 449, 460 (1958), the
right to publish speech anonymously, see McIntyre v.
Ohio Elections Cmm’n, 514 U.S. 334, 351-43; McMann
v. Doe, 460 F. Supp. 2d 259, 266 (D. Mass. 2006), and
the right to communicate privately, see Lamont v.
Postmaster Gen., 381 U.S. 301, 305 (1965). D. 19 at 38.
Freedom of the press is also implicated here, as with
Plaintiffs Dupin and Kushkush. D. 19 at 39; D. 26 at
11-13; see Bruno & Stilman, Inc. v. Globe Newspaper
Co., 633 F.2d 583, 595-96 (1st Cir. 1980).
Plaintiffs argue that to justify digital device
searches, “[t]he government must have a compelling
interest in the information and use narrowly tailored
means that do not seek more information than
necessary.” D. 19 at 38. The Court is not convinced
that such strict scrutiny applies here, where CBP and
ICE policies are content-neutral, see Asociacion de
Educacion Privada de P.R., Inc. v. Garcia-Padilla, 490
150a

F.3d 1, 15-16 (1st Cir. 2007), and, although potentially
burdening speech, do not prevent anyone from
speaking, Sindicato Puertorriqueño de Trabajadores
v. Fortuño, 699 F.3d 1, 12 (1st Cir. 2012). In general,
however, compelled disclosure of First Amendment
protected activity “cannot be justified by a mere
showing of some legitimate governmental interest.”
Buckley v. Valeo, 424 U.S. 1, 64 (1976). Rather, “even
if any deterrent effect on the exercise of First
Amendment rights arises, not through direct
government action, but indirectly as an unintended
but inevitable result of the government’s conduct in
requiring disclosure,” there must be a “‘substantial
relation between the governmental interest and the
information required to be disclosed.” Id. at 64-65; see
Gibson v. Fla. Legislative Investigation Comm., 372
U.S. 539, 546 (1963). The Court must, therefore,
determine whether the complaint adequately alleges
an interference with First Amendment rights that is
“direct and substantial” or “significant.” House, 2012
WL 1038816, at *12 (quoting Fighting Finest v.
Bratton, 95 F.3d 224, 228 (2d Cir. 1996)). Plaintiffs
argue that given the technological capacities of
electronic devices, the government’s broad search
policies “impose[] a substantial burden on First
Amendment rights without justification.” D. 19 at 41.
Defendants do not argue that warrantless
searches would not be a significant or substantial
burden on travelers’ First Amendment rights, nor do
they explain their assertion that a heightened
standard is not “required by the First Amendment.”
D. 32 at 6 n.4. Rather, Defendants argue that “the
border search doctrine is not subject to a First
Amendment exception,” and that if it were, the
151a

consequences would be “staggering.” D. 15 at 29
(quoting Ickes, 393 F.3d at 507, 506). As a general
matter, “[t]hat the initial search and seizure occurred
at the border does not strip [Plaintiffs] of [their] First
Amendment rights.” House, 2012 WL 1038816, at *13;
Tabbaa, 509 F.3d at 102 n.4 (explaining that a routine
search may constitute a “significant or substantial
burden on plaintiffs’ First Amendment associational
rights”).
Moreover, the Court is not persuaded that Ickes,
393 F.3d at 506, upon which Defendants rely, provides
appropriate guidance here. This Court need not carve
out an exception for all expressive material to find a
plausible claim has been stated that digital device
searches unjustifiably burden travelers’ First
Amendment rights. See House, 2012 WL 1038816, at
*13 (holding that the plaintiff stated plausible First
Amendment claim for his cell phone search despite
failing to state plausible Fourth Amendment claim).
The Supreme Court’s distinction between cell phones
and other expressive materials in Riley, postdating
the Fourth Circuit’s ruling in Ickes, further illustrates
this point. See Riley, 135 S. Ct. at 2490. Additionally,
in Ickes, the Fourth Circuit was concerned with the
“headaches” such a First Amendment “exception”
would bring for customs officers. Ickes, 393 F.3d at
506. What Plaintiffs seek as a remedy here, however,
is “simple—get a warrant,” Riley, 134 S. Ct. at 2495.
D. 19 at 39. Finally, in Ickes, the Fourth Circuit
assured that the defendant’s warning that “any
person carrying a laptop computer . . . on an
international flight would be subject to a search of the
files on the computer hard drive” was “far-fetched,”
Ickes, 393 F.3d at 506-07. Plaintiffs point to the recent
152a

increase in border device searches and the expanding
storage and functioning capacities of electronic
devices to suggest otherwise. D. 7 ¶¶ 30, 38; D. 19 at
41.
Defendants also argue that this Court’s
reasoning in House does not apply here. D. 15 at 29.
They contend that “the facts of that case are easily
distinguished,” where, unlike here, House alleged he
was targeted for investigation because of his specific
expressive or associational activities. Id.; see House
2012 WL 1038816, at *10-11. First, certain Plaintiffs
allege facts prior to their device searches that are not
dissimilar to those in House: while Dupin’s phone was
being searched, he was questioned “about his work as
a journalist, including the names of the organizations
and specific individuals within those organizations for
whom he had worked”; Gach was questioned “about
his work as an artist” prior to searching his phone;
Kushkush was asked about “his reporting activities”;
and Merchant was questioned at secondary inspection
about her “religious affiliation” and her blog. D. 7 ¶¶
87, 93, 99, 109, 133. One amicus argues that
journalists “are particularly vulnerable to targeted
surveillance by means of suspicionless device
searches.” D. 26 at 13. As in House, such allegations
are “pertinent” to Plaintiffs’ First Amendment claim
because they suggest that the officers’ “motivation to
search and retain [Plaintiffs’] devices” was to examine
expressive or associational material. House, 2012 WL
1038816, at *10.
Second, the reasoning in House was not limited
to targeting allegations alone. The Court explained
there that the seizure of House’s laptop and other
devices gave the government possession of
153a

confidential lists of organizational members and
supporters, as well as emails and documents detailing
House’s organization’s inner workings. House, 2012
WL 1038816, at *12. Such “[c]ompulsory disclosure . .
. ‘can seriously infringe on privacy of association and
belief guaranteed by the first amendment,’ and can
‘have . . . a profound chilling effect.’” Id. (quoting
Buckley, 424 U.S. at 64; Perry v. Schwarzenegger, 591
F.3d 1126, 1135 (9th Cir. 2009)) (internal citations
omitted). Here, the CBP and ICE policies broadly
permit suspicionless searches in pursuit of
“information,” ICE Pol. ¶¶ 5.2, 6.1; D. 18-2 ¶ 5.1.3,
which could reasonably include such searches within
their ambit. In Ramsey, as Plaintiffs point out, D. 19
at 40, the Supreme Court held that the statutory
scheme permitting warrantless search of incoming
international mail did not violate the constitution
because it applied only when there was reason to
believe the envelopes contained physical items and
regulations
“flatly
prohibit[ed],
under
all
circumstances,” customs officials from reading
correspondence without a warrant. Ramsey, 431 U.S.
at 623. The Court did not “decide whether, in the
absence of the regulatory restrictions, speech would be
‘chilled,’ or, if it were, whether the appropriate
response would be to apply the full panoply of Fourth
Amendment requirements.” Id. at 624 n.18. Here,
there are no similar First Amendment safeguards in
the CBP and ICE electronic device policies.
In light of the particular concerns raised by
digital devices like cell phones detailed above, see
Riley, 134 S. Ct. at 2489-91, and the limitless search
authorizations in the CBP and ICE policies, Plaintiffs
have plausibly alleged that the government’s digital
154a

device search policies substantially burden travelers’
First Amendment rights.15
The Court, therefore, declines to dismiss
Plaintiffs’ First Amendment claim (Count II).
VI. Conclusion
For the foregoing reasons, the Court DENIES
Defendants’ motion to dismiss, D. 14.
So Ordered.
/s/ Denise J. Casper
United States District Judge

The Court also notes that Plaintiffs’ Fourth and First
Amendment claims are closely related. See Janfeshan, 2017 WL
3972461, at *12 (declining to dismiss plaintiff’s Fourth
Amendment claim after denying dismissal of his Fifth
Amendment claim because they were “integrally related,” and
discovery would “involve the same witnesses and w[ould] largely
overlap”).
15

155a

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD, et al.,
Plaintiffs,
v.
KEVIN McALEENAN, Secretary of the U.S.
Department of Homeland Security, in his official
capacity, et al.,
Defendants.
_____
Hon. DENISE J. CASPER

July 12, 2019

PLAINTIFFS’ SUPPLEMENTAL STATEMENT
OF UNDISPUTED MATERIAL FACTS
Plaintiffs hereby submit their Supplemental
Statement of Undisputed Material Facts in support of
their Motion for Summary Judgment, ECF No. 90,
and in opposition to Defendants’ motion for summary
judgment, ECF No. 96.

156a

PLAINTIFF’S SUPPLEMENTAL STATEMENT
OF UNDISPUTED MATERIAL FACTS
125.1.
On July 6, 2019, Suhaib Allababidi arrived
at the Toronto airport for a flight to Dallas. Exh. 52
(7/11/19 Allababidi Dec.) at ¶ 1. He traveled with a
smartphone and a laptop. Id. at ¶¶ 3-4, 7-8. At the
Toronto preclearance area, U.S. Customs and Border
Protection (“CBP”) searched both Allababidi’s phone
and laptop. See id. at ¶¶ 3-10.
Respectfully submitted:

Dated: July 12, 2019

/s/ Saira Hussain
Adam Schwartz *
Sophia Cope*
Saira Hussain*
ELECTRONIC
FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
(415) 436-9333 (phone)
(415) 436-9993 (fax)
adam@eff.org
sophia@eff.org
saira@eff.org

Esha Bhandari*
Hugh Handeyside*
Nathan Freed Wessler*
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION
125 Broad Street,
18th Floor
New York, NY 10004
(212) 549-2500 (phone)
(212) 549-2583 (fax)
ebhandari@aclu.org
hhandeyside@aclu.org
nwessler@aclu.org

157a

Jessie J. Rossman
BBO #670685
Matthew R. Segal
BBO #654489
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION OF
MASSACHUSETTS
211 Congress Street
Boston, MA 02110
(617) 482-3170 (phone)
(617) 451-0009 (fax)
jrossman@aclum.org
msegal@aclum.org
*Admitted pro hac vice
Counsel for Plaintiffs

CERTIFICATE OF SERVICE
I certify that on July 12, 2019, a copy of the
foregoing was filed electronically via the Court’s ECF
system, which effects service upon counsel of record.
/s/ Saira Hussain
Saira Hussain

158a

APPENDIX F
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD et al.,
Plaintiffs,
v.
KEVIN McALEENAN, Acting Secretary of the U.S.
Department of Homeland Security, in his official
capacity et al.,
Defendants.
_____
Hon. DENISE J. CASPER
July 3, 2019

PLAINTIFFS’ RESPONSE TO DEFENDANTS’
STATEMENT OF UNDISPUTED MATERIAL
FACTS AND REPLY IN SUPPORT OF
PLAINTIFFS’ STATEMENT OF UNDISPUTED
MATERIAL FACTS
Pursuant to Fed. R. Civ. P. 56(c) and Local Rule
56.1, Plaintiffs hereby submit their Response to
Defendants’ Statement of Undisputed Material Facts,
ECF No. 98 (“Def. SUMF”), and their Reply in support
of Plaintiffs’ Statement of Undisputed Material Facts,
ECF No. 90-2 (“Pl. SUMF”). Although Plaintiffs
dispute Defendants’ characterizations of certain
159a

evidence, or dispute that certain facts are material,
Plaintiffs do not contend that there are any issues of
material fact to be tried.
PLAINTIFFS’ RESPONSE TO DEFENDANTS’
STATEMENT OF UNDISPUTED MATERIAL
FACTS
FACTS RELATING TO PLAINTIFF’
CONSTITUTIONAL CLAIMS
Defendants’ Mission Responsibilities:
1.
Defendant, Department of Homeland
Security (“DHS”), through its components U.S.
Customs and Border Protection (“CBP”) and U.S.
Immigration and Customs Enforcement (“ICE”), has
broad powers to prevent the entry of terrorists, and
the instruments of terrorism into the United States
and to enforce numerous criminal and civil federal
laws at the border. See 6 U.S.C. § 202, § 211.
Plaintiffs’ Response: Defendants’ statement
is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs do not
dispute that Defendants have the authority to
enforce certain laws at the border. Plaintiffs
dispute the characterization of Defendants’
statutory authority and refer the Court to the
relevant statutes themselves. Plaintiffs clarify
that the scope of Defendants’ statutory
authority is circumscribed by the Constitution.
2.
CBP’s law enforcement mission is primarily
interdictive in nature – identifying and mitigating
threats to border security and stopping prohibited and
160a

restricted goods and persons from crossing the border,
while facilitating and expediting the flow of legitimate
travelers and trade. See Declaration of Randy J. Howe
(“Howe Decl.) ¶ 7 (Ex. A); 6 U.S.C. § 211.
Plaintiffs’ Response: Defendants’ statement
is a legal assertion and/or opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: Plaintiffs
do not dispute that CBP’s mandate includes
preventing prohibited goods and inadmissible
persons from entering the United States, while
facilitating the flow of legitimate travelers and
trade.
Plaintiffs
dispute
Defendants’
characterization of their statutory authority
and refer the Court to the relevant statutes
themselves. Plaintiffs clarify that the scope of
Defendants’
statutory
authority
is
circumscribed by the Constitution.
3.
CBP is responsible for enforcing criminal
and civil laws and administering comprehensive
regulatory schemes relating to immigration, custom,
international trade, child pornography, drug
smuggling, weapons trafficking, financial crimes as
well as national security and terrorism. Howe Decl. ¶
7. CBP also enforces a host of other laws at the border
on behalf of various federal agencies. Id. See, e.g., 31
U.S.C. § 5317; 19 CFR 161.2(a); 19 CFR Part 12.
Plaintiffs’ Response: Defendants’ statement
is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs do not
dispute that CBP is responsible for enforcing
161a

certain laws at the border. Plaintiffs dispute
the characterization of Defendants’ statutory
authority and refer the Court to the relevant
statutes themselves. Plaintiffs clarify that the
scope of Defendants’ statutory authority is
circumscribed by the Constitution.
4.
ICE’s Homeland Security Investigations
(HSI), is principal investigative arm of DHS and is
charged with securing the United States from
transnational criminal threats. HSI’s mission is to
investigate, disrupt, and dismantle terrorist,
transnational, and other criminal organizations that
threaten or seek to exploit the customs and
immigration laws of the United States. HSI enforces a
diverse portfolio of federal laws, including all types of
cross-border criminal activity. Declaration of David L.
Denton (“Denton Decl.”) ¶ 5 (Ex. B).
Plaintiffs’ Response: Defendants’ statement
is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs do not
dispute that HSI enforces certain laws at the
border. Plaintiffs dispute the characterization
of HSI’s authority, for which Defendants
identify no statutory basis. Plaintiffs clarify
that the scope of HSI’s authority is
circumscribed by the Constitution.
5.
To accomplish their mission responsibilities.
CBP officers and/or ICE Special Agents may conduct
an inspection of the traveler and his or her personal
belongings, including any electronic devices. Howe
Decl. ¶ 7, 17, 21–23; Denton Decl. ¶¶ 6–7, 11; see
generally PIA dated August 25, 2009 (“2009 PIA”) at
162a

Bates 221–22 (Ex. C.).
Plaintiffs’ Response: Plaintiffs do not dispute
that travelers are subject to inspection at the
border. Plaintiffs clarify that such inspection,
including any search of electronic devices, is
subject to statutory and constitutional limits.
Defendants’ Policies:
6.
In August 2009, CBP and ICE issued policies
on their longstanding authority to search and inspect
electronic devices at the international border. See
generally Border Searches of Electronic Devices, ICE
Directive 10044.1 (also known as ICE Directive No. 76.1) (Aug. 18, 2009) (Ex. D); Border Search of
Electronic Devices Containing Information, CBP
Directive No. 3340-049, (Aug. 20, 2009) (Ex. E);
Plaintiffs’ Response: Plaintiffs do not dispute
that CBP and ICE issued device-search policies
in 2009. Plaintiffs dispute Defendants’
characterization of their border search
authority as including warrantless or
suspicionless searches of electronic devices,
which is additionally a legal assertion for which
no response is required under Federal Rule of
Civil Procedure 56(c) and/or Local Rule 56.1.
7.
In January, 2018, CBP revised its Directive.
See Border Search of Electronic Devices, CBP
Directive No. 3340-049A, (Jan 4, 2018) (“2018 CBP
Directive”) (Ex. F). Specifically, 2018 CBP Directive,
among other things, (1) clarified the scope of CBP
border searches of electronic devices and explicitly
stated that measures would be taken to avoid
accessing information only stored remotely (e.g., on
the “cloud”); (2) distinguished between different types
163a

of searches (basic and advanced); and (3) applied a
heightened standard for advanced searches
(reasonable suspicion or national security concern).
See id. ¶ 5.1.
Plaintiffs’ Response: Defendants’ statement
with regard to “a heightened standard” lacks
support in the cited record materials per
Federal Rule of Civil Procedure 56(c) and/or
Local Rule 56.1. Plaintiffs dispute that the CBP
2018 Directive uses the word “heightened” and
further dispute, as a legal matter, that the
Directive’s “national security concern” standard
is a “heightened” standard. Otherwise, no
dispute.
8.
The updated CBP Directive defines an
“advanced search” as any search in which an officer
connects external equipment, through a wired or
wireless connection, to an electronic device, not
merely to gain access to the device, but to review, copy
and/or analyze its contents. Id. § 5.1.4. A basic search
is any border search that is not an advanced search.
Id. § 5.1.3. The updated Directive further clarified
that an advanced search should only be conducted
where there is reasonable suspicion of activity in
violation of the laws enforced or administered by CBP
and ICE or in which there is a national security
concern, and requires advance supervisory approval
Id. § 5.1.4.
Plaintiffs’ Response: Plaintiffs dispute that
the CBP 2018 Directive mentions laws enforced
or administered by ICE. Otherwise, no dispute.
9.
ICE uses the same definitions of basic and
advanced searches and only conducts advanced
164a

searches when there is reasonable suspicion.
Stipulated Facts ¶¶ 1, 14. (Ex. G); Denton Decl. ¶ 11;
HSI Legal Update – Border Search of Electronic
Devices, May 11, 2018 at Bates 1266-67.
Plaintiffs’ Response: Plaintiffs do not dispute
that ICE uses the same definitions of basic and
advanced searches as CBP, and that ICE policy
requires that advanced searches be based on
reasonable suspicion. To the extent Defendants
assert that all advanced searches are, in fact,
supported by reasonable suspicion, that
assertion lacks support in the cited record
materials per Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1; Plaintiffs dispute
that assertion and further dispute that it is
material.
10.
These policies have been carefully crafted to
provide the Government, through DHS and its
components, with the tools necessary to secure the
nation’s border, while simultaneously striving to
protect personal privacy. See PIA, January 4, 2018 at
Bates 0174-0195 (Ex. H).
Plaintiffs’ Response: Defendants’ statement
includes legal assertions and/or opinions for
which no response is required under Federal
Rule of Civil Procedure 56(c) and/or Local Rule
56.1. To the extent a response is deemed
required: Plaintiffs dispute that Defendants’
policies permitting warrantless, suspicionless
searches of electronic devices are necessary to
border security, see Pl. SUMF at ¶¶ 92–119, or
protective of personal privacy, see id. at ¶¶ 63–
80.

165a

11.
These policies permit CBP Officers and ICE
Special Agents to search information contained in
electronic devices subject to the guidelines set forth in
the policy directives and any other applicable laws.
See ICE Directive ¶ 6.1; CBP Directive ¶¶ 4, 5.
Plaintiffs’ Response: No dispute. Plaintiffs
clarify that the CBP and ICE policies, and “any
other applicable laws,” are subject to
constitutional limits.
12.
The policies recognize that it is not always
possible to complete the search of a traveler’s
electronic device while he or she waits at the border.
ICE Directive ¶ 6.1; CBP Directive ¶ 5.4. The policies
therefore require the searches of detained devices to
be completed, in a reasonable time given the facts and
circumstances of the particular search. ICE Directive
¶ 8.3(1); CBP Directive ¶ 5.4.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ characterization of what the
policies “recognize.” Plaintiffs refer the Court to
Pl. SUMF at ¶¶ 11, 12, and 21.
Border Searches:
13.
Border inspections are unique and unlike
any other law enforcement activity. CBP’s mission to
inspect all people and things that cross the border
must be balanced with its mission to facilitate the flow
of travelers and trade. Howe Decl. ¶ 8; 6 U.S.C. § 211.
Plaintiffs’ Response: Defendants’ statement
is a legal assertion and/or opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
166a

extent a response is deemed required: Plaintiffs
dispute, as a legal matter, that border
inspections are unlike any other law
enforcement activity. Plaintiffs further clarify
that the referenced statutory authority is
circumscribed by the Constitution.
14.
Over one million travelers per day go
through U.S. ports of entry, and CBP has limited to no
advance information about these travelers. The sheer
volume of people and merchandise passing through
the border each day means CBP has a limited amount
of time to determine the specific law enforcement
actions appropriate for each encounter. Howe Decl. ¶
8.
Plaintiffs’ Response: Plaintiffs do not dispute
Defendants’ assessment of the approximate
volume of travelers who transit U.S. ports of
entry. Plaintiffs dispute Defendants’ statement
that CBP “has limited to no advance
information” about travelers. See Exh. 49 (ICE
30(b)(6) depo.) at 159:23– 161:8 (ICE and CBP
have access to the Advance Passenger
Information System (“APIS”), which provides
information about passengers traveling by air
prior to their arrival); Exh. 23, ECF No. 91- 22
(Privacy Impact Assessment for the Automated
Targeting System (“ATS”)) at Bates 998 (ATS
ingests data from the APIS); Pl. SUMF at ¶¶
28, 36–44 (ATS generates “lookouts” that
prompt referrals of travelers to secondary
inspection). Plaintiffs do not dispute that CBP
has a limited amount of time to undertake any
law enforcement actions during encounters
with travelers at the border.
167a

15.
CBP officers evaluate the totality of the
circumstances for each encounter at the border and
will consider every piece of relevant information
available to determine if the person and goods are
admissible into the United States, if there is a
violation of any of the laws CBP enforces, or if there is
a threat to border security. Howe Decl. ¶¶ 10, 14-16.
The ability to engage in these actions and the
discretion to determine – based on the totality of the
circumstances – which actions are appropriate in a
given inspection is crucial to CBP’s ability to secure
the border and identify and interdict threats to
national security. Id. ¶ 16.
Plaintiffs’ Response: Plaintiffs do not dispute
that CBP’s policy is for officers to evaluate the
totality of the circumstances during encounters
at the border, and to consider all relevant
information available in determining whether a
person or goods are admissible into the United
States, if there is a violation of the any of the
laws CBP enforces, or if there is a threat to
border security. To the extent that Defendants
assert CBP officers evaluate the totality of the
circumstances in every instance, that assertion
lacks support in the record per Federal Rule of
Civil Procedure 56(c) and/or Local Rule 56.1;
Plaintiffs dispute that assertion and further
dispute that it is material. The second sentence
is a statement of opinion for which no response
is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required:
Defendants’ reference to “these actions” is
168a

vague and ambiguous. Plaintiffs do not dispute
that CBP officers exercise some discretion in
determining which actions to take during a
given inspection. To the extent the “actions”
include searches of electronic devices, Plaintiffs
dispute that such searches are “crucial to CBP’s
ability to secure the border and identify and
interdict threats to national security.” See Pl.
SUMF at ¶¶ 92–98 (non-prevalence of digital
contraband at the border); 99–102 (lack of
evidence that warrantless, suspicionless device
searches are effective); 103–119 (feasibility of
obtaining warrants and/or applying probable
cause and reasonable suspicion standards).
16.
TECS is CBP’s principal law enforcement
and anti-terrorism database system used at the
border to assist with inspections and determinations
regarding admissibility of arriving persons. Howe
Decl. ¶ 9. TECS includes law enforcement “lookouts”
and other records entered by CBP and other law
enforcement agencies regarding persons of interest.
Id. TECS also includes law enforcement records
documenting certain inspections conducted by CBP at
the border, including border searches of electronic
devices. Id.
Plaintiffs’ Response: No dispute.
17.
CBP’s documentation of its inspections are
official government records made by the agency to
evidence the decisions made and activities
undertaken by CBP during the course of the
encounter. Howe Decl. ¶ 9.
Plaintiffs’ Response: Defendants’ statement
is a legal assertion for which no response is
169a

required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: no dispute.
Plaintiffs clarify that such records, including
TECS records, may be subject to expungement
if collected in violation of the Constitution.
18.
Upon arrival at a port of entry, at the
primary point of inspection, CBP Officers inspect
travelers’ documentation (e.g., passport, customs
declaration), ask questions regarding their travel and
search CBP systems for relevant information. Howe
Decl. ¶12. At primary, a CBP Officer may conduct
limited queries of information maintained in TECS.
Id. The information available to an officer at primary
does not generally include information relating to past
border searches of electronic devices. Id.
Plaintiffs’ Response: No dispute.
19.
If CBP has advance information about
travelers or merchandise, CBP compares the advance
information against law enforcement and intelligence
information and conducts risk assessments to identify
travelers or merchandise that warrant additional
scrutiny, and a “lookout” can be placed in the TECs
system to advise officers to perform additional
scrutiny. Howe Decl. ¶ 11.
Plaintiffs’ Response: To the extent
Defendants
assert
that
travelers
or
merchandise that are the subjects of “lookouts”
actually warrant additional scrutiny in all
instances, that assertion lacks support in the
record per Federal Rule of Civil Procedure 56(c)
and/or Local Rule 56.1; Plaintiffs dispute that

170a

assertion and further dispute that it is
material. Otherwise, no dispute.
20.
CBP has little to no advance travel
information about individuals traveling across land
ports of entry. Howe Decl. ¶ 33.
Plaintiffs’ Response: No dispute.
21.
The vast majority of border searches of
electronic devices are basic searches that may be as
short as a matter of minutes and that may involve
briefly scrolling through the device. Howe Decl. ¶ 31.
In many instances, a brief, basic search is sufficient to
alleviate – or heighten – concerns presented during a
border inspection. Id.
Plaintiffs’ Response: Plaintiffs refer the
Court to Pl. SUMF at ¶¶ 53 and 54, which set
forth the precise numbers of basic and
advanced device searches CBP conducted in
fiscal years 2012 through 2017. Plaintiffs
clarify that ICE does not maintain records of
the number of basic searches it conducts, see Pl.
SUMF at ¶ 56, and therefore cannot identify
what percentage of the overall number of device
searches it conducts are basic searches.
Plaintiffs do not dispute that basic searches of
electronic devices may be as short as “a matter
of minutes” but Plaintiffs clarify that
Defendants place no limit on how long a basic
search may take. See Exh. 50 (CBP 30(b)(6)
depo.) at 140:16–18 (Q: “Are there limits on how
long a basic search can take?” A: “Not until
we’re satisfied.”). Defendants’ reference to
“many instances” is vague and ambiguous.
Plaintiffs do not dispute that a basic search
171a

could alleviate or heighten concerns during a
border inspection.
22.
Given the volume of travelers that CBP
processes, and in order to ensure efficiency, if based
on his or her extensive training and experience, a CBP
officer determines that additional scrutiny beyond the
brief initial encounter is warranted, the traveler will
be referred for a continuation of their inspection, often
referred to as “secondary” or “secondary inspection.”
Howe Decl. ¶ 13. A secondary inspection is a
continuation of the border inspection and an officer
may refer any traveler to secondary inspection. Id.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ characterization of “extensive
training and experience” as applying generally
to all CBP officers or in all circumstances.
Otherwise, no dispute.
23.
At secondary, the CBP officer may run law
enforcement queries through TECS and other CBP
systems. Howe Dec. ¶ 13. The information available to
officers at secondary includes the same types of
information available at primary, but may also
include additional records relating to prior encounters
between the traveler and CBP. Howe Decl. ¶13.
Plaintiffs’ Response: No dispute.
24.
CBP shares it border search authority with
ICE whose HSI Special Agents are also designated as
customs officers and immigration officers, in addition
to being criminal investigators. Where circumstances
warrant, CBP Officers may notify ICE HIS of a matter
encountered during the course of a border inspection
and ICE HSI agents may engage in additional followup investigation, particularly where the matter may
172a

be a candidate for criminal prosecution Howe Decl. ¶
18; Denton Decl. ¶ 12.
Plaintiffs’ Response: Defendants’ statement
regarding ICE’s border search authority is a
legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs do not
dispute that ICE designates HSI agents as
customs officers, immigration officers, and
“criminal investigators.” Plaintiffs also do not
dispute that CBP officers sometimes notify HSI
of a matter encountered during the course of a
border inspection, and that HSI agents then
engage in follow-up investigation. To the extent
Defendants
assert
that
“circumstances
warrant” such notification and/or follow-up
investigation in all instances, that assertion
lacks support in the record per Federal Rule of
Civil Procedure 56(c) and/or Local Rule 56.1;
Plaintiffs dispute that assertion and further
dispute that it is material.
25.
HSI does not undertake border searches to
uncover evidence of crimes that lack a nexus to the
border. Denton Decl. ¶ 10. However, during a border
search HSI Special Agents may encounter evidence of
crimes that have no border nexus and may share the
information with the agency responsible for enforcing
or administering the applicable law or, as federal law
enforcement officers generally empowered to enforce
federal criminal law, act on it themselves. Id.
Plaintiffs’ Response: Plaintiffs dispute that
“HSI does not undertake border searches to
uncover evidence of crimes that lack a nexus to
173a

the border.” See Def. Resp. to Pl. SUMF, ECF
No. 98 at ¶ 84 (ICE conducts warrantless or
suspicionless border searches of electronic
devices to find evidence of law violations
unrelated to the border when it is “also
investigating that individual for violation of a
cross-border crime within the jurisdiction of
ICE”). Plaintiffs do not dispute that HSI agents
sometimes share information with the agency
responsible for enforcing or administering the
applicable law, or that HSI agents sometimes
act on such information themselves. Plaintiffs
dispute Defendants’ characterization of HSI
agents as “officers generally empowered to
enforce federal criminal law.”
26.
Prior to conducting a border search, HSI
Special Agents can review information on a traveler
contained in various government systems, including
CBP’s record systems and in ICE’s Investigative Case
Management System (ICM). Denton Decl. ¶ 14.
Plaintiffs’ Response: No dispute.
27.
ICM is a system that enables ICE personnel
to create an electronic case file that organizes and
links all records and documents associated with an
investigation, so they are easily accessible from a
single location and enables personnel to link records
to multiple investigations. Denton Decl. ¶ 14.
Plaintiffs’ Response: No dispute.
28.
When a border search is conducted, HSI
Special Agents must record the occurrence of a search
in ICE’s Investigation Case Management System
(ICM). Denton Decl. ¶15. Special Agents can also

174a

record in ICM their impressions of the search or
notable observations. Id.
Plaintiffs’ Response: No dispute.
29.
ICM does not contain the forensic copies of
the data on any electronic device, which are stored
separately. Denton Decl. ¶ 15. ICM only contains the
descriptions that a Special Agent may make of what is
observed during a search. Id. These federal records
are maintained in accordance with section 8.5(1)(b) of
ICE Directive 10044.1. Id.
Plaintiffs’ Response: No dispute as to the
first and second sentences. The third sentence
is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: To the extent
Defendants assert that ICM records are
maintained in accordance with section 8.5(1)(b)
of ICE Directive 10044.1in all instances, that
assertion lacks support in the record per
Federal Rule of Civil Procedure 56(c) and/or
Local Rule 56.1; Plaintiffs dispute that
assertion and further dispute that it is
material. Plaintiffs further clarify that such
records may be subject to expungement if
collected in violation of the Constitution.
30.
In FY 2017, CBP conducted 30,524 border
searches of electronic devices and processed more than
397 million arriving international travelers; only
approximately 0.007% of arriving travelers had their
devices searched. Less than 3,500 of those searches
were advanced searches. See Stipulated Facts 13;
Response to Interrog. 6. (Ex. I). In that same year, ICE
175a

conducted only 681 advanced searches. Stipulated
Facts 15.
Plaintiffs’ Response: No dispute.
Warrantless Border Searches of Electronic Devices
Support Defendants’ Mission
31.
All persons, conveyances, cargo, baggage,
personal effects and merchandise of every description
may be subject to a border inspection, inbound or
outbound. Howe Decl. ¶ 21. This may include things
as varied as a shipping container, a mobile home, a
suitcase, or a purse, along with any items these things
might contain. Id.
Plaintiffs’ Response: No dispute. Plaintiffs
clarify that border inspections are subject to
statutory and constitutional limits.
32.
As international travelers carry more
electronic devices, there is a greater likelihood that
information that was previously maintained in hard
copy form, and easily accessible to CBP Officers, is
now maintained electronically. Howe Decl. ¶ 26.
Plaintiffs’ Response: Defendants’ statement
lacks foundation and is an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: Plaintiffs
do not dispute that some information
previously maintained in hard copy form is now
maintained electronically. Plaintiffs dispute
Defendants’ unsupported assertions regarding
the “likelihood” that information that was
previously maintained in hard copy form is now
maintained electronically, and the ease with
176a

which CBP officers previously accessed
information in hard copy form, which lack
support in the record per Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1.
Plaintiffs refer the Court to Pl. SUMF at ¶¶ 63–
64 (volume and range of information stored in
electronic devices).
33.
Electronic
devices
themselves
are
merchandise and can contain both merchandise and
evidence relating to merchandise. There is a myriad of
electronic devices, such as computers, phones, tablets,
flash drives, and SD Cards, which can all be
encountered at the border. Denton Decl. ¶ 7; Howe
Decl. ¶¶ 23, 25.
Plaintiffs’ Response: The first sentence is a
legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs dispute,
as a legal matter, that all electronic devices
themselves are merchandise, and further
dispute that this is a material fact. Defendants’
statement that electronic devices can contain
merchandise is vague and ambiguous.
Plaintiffs do not dispute that electronic devices
can contain evidence related to merchandise.
No dispute as to the second sentence.
34.
Electronic border device searches advance
the Defendants interest in stopping contraband
because electronic devices can contain illegal goods
just as easily as any other container. See Howe Decl.
¶¶ 23, 39; Denton Decl. ¶¶ 7-8, 16.
Plaintiffs’ Response: Defendants’ statement
177a

is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs do not
dispute that electronic devices can contain
illegal content in the form of digital data but do
dispute that such illegal content is the
equivalent of “illegal goods” stored in a physical
container. Plaintiffs dispute, as a legal matter,
that warrantless or suspicionless border
searches of electronic devices sufficiently
advance Defendants’ interests or outweigh the
extraordinary privacy interests travelers have
in their devices. See Pl. SUMF at ¶¶ 63–76
(sensitivity of content and invasiveness of
searches); 92–98 (non-prevalence of digital
contraband at the border); 99–102 (lack of
evidence that warrantless, suspicionless device
searches are effective); 103–119 (feasibility of
obtaining warrants and/or applying probable
cause and reasonable suspicion standards).
35.
Electronic devices can contain many types of
“digital contraband” such as child pornography,
classified information, and counterfeit media. See
Howe Decl. ¶ 23.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ assertion that electronic devices
can contain “many” types of digital contraband,
which lacks foundation and is not supported by
the record. Plaintiffs do not dispute that
electronic devices can contain more than one
type of digital contraband. Plaintiffs note that
Defendants’ declarant, when testifying as a
Rule 30(b)(6) witness on behalf of Defendant
178a

CBP, did not identify types of digital
contraband other than child pornography. Exh.
13, ECF No. 91-12 (CBP 30(b)(6) depo.) at 62:8–
66:15.
36.
Electronic devices can also contain evidence
of contraband, such as child pornography or items that
violate intellectual property rights; classified
information; export controlled material, drug
trafficking, firearm smuggling, and export control
violations. Howe Decl. ¶ 23-24, 28, 30; Denton Decl.
¶¶ 24-27.
Plaintiffs’ Response: Plaintiffs dispute that
Defendants’ statement accurately characterizes
the cited material. The Howe Declaration
states, “Electronic devices can also contain
records which constitute evidence of a crime or
other legal violation,” which Plaintiffs do not
dispute. Exh. A, ECF No. 98-1 (Howe Decl.) at
¶ 23.
37.
Defendants’ searches of electronic devices at
the border have successfully uncovered threats to
national security, information pertaining to terrorism,
illegal activities, contraband, and the inadmissibility
of people and things. Howe Decl. ¶¶ 27-30; Denton
Decl. ¶¶ 16, 24-27.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ statement because it lacks
foundation per Federal Rule of Civil Procedure
56(c)(2)/Local Rule 56.1. To the extent a
response is deemed required: Defendants’
reference to “threats to national security” and
“information pertaining to terrorism” are vague
and ambiguous. Plaintiffs do not dispute that
179a

border searches of electronic devices have
uncovered digital contraband. Plaintiffs refer
the Court to Pl. SUMF at ¶¶ 92–98 (nonprevalence of digital contraband at the border);
99–102 (lack of evidence that warrantless,
suspicionless device searches are effective).
38.
There have been numerous instances where
CBP conducted searches without any advance
information or suspicion and found evidence that
revealed threats to national and/or border security.
Howe Decl. ¶ 28.
Plaintiffs’ Response: Plaintiffs do not dispute
that the Howe Declaration provides this
assertion. Defendants’ reference to “numerous
instances” and “threats to national and/or
border security” are vague and ambiguous.
Defendants’ reference to “evidence” in the
context of “threats to national and/or border
security”—i.e., absent an indication that a
traveler was carrying contraband or engaged in
illegal activity—is vague and ambiguous.
Plaintiffs refer the Court to Pl. SUMF at ¶¶ 92–
98 (non-prevalence of digital contraband at the
border); 99–102 (lack of evidence that
warrantless, suspicionless device searches are
effective).
39.
There have been numerous instances where
CBP conducted searches without any advance
information or suspicion and found evidence that
contradicted an individual’s state purpose for travel to
the United States. Howe Decl. ¶ 29.
Plaintiffs’ Response: Defendants’ statement
lacks foundation. Defendants’ reference to
180a

“numerous instances” is vague and ambiguous.
Defendants’ reference to “evidence” in the
context of “an individual’s state [sic] purpose for
travel to the United States” is vague and
ambiguous. Plaintiffs dispute that Defendants’
statement accurately characterizes the cited
material. Paragraph 29 of the Howe
Declaration states, “I am also personally
familiar with situations in which CBP Officers
exercised their discretion to refer an individual
for additional scrutiny and the resulting search
of the subject’s electronic device revealed
information that clearly contradicted the
individual’s stated purpose for travel to the
United States,” which Plaintiffs do not dispute,
but Plaintiffs do dispute that this testimony
supports Defendants’ statement of fact that the
searches were done “without any advance
information or suspicion.” Exh. A, ECF No. 981 (Howe Decl.) at ¶ 29. Plaintiffs refer the Court
to Pl. SUMF at ¶¶ 2 (admissibility of U.S.
citizens and lawful permanent residents); 99–
102 (lack of evidence that warrantless,
suspicionless device searches are effective).
40.
There have been numerous instances where
CBP conducted searches without any advance
information or suspicion and found evidence that
could be used to support a criminal prosecution, such
as child pornography, narcotics. Howe Decl. ¶ 30.
Plaintiffs’ Response: Defendants’ statement
lacks foundation. Defendants’ reference to
“numerous instances” is vague and ambiguous.
Plaintiffs dispute that Defendants’ statement
accurately characterizes the cited material.
181a

Paragraph 30 of the Howe Declaration states,
“I am aware of instances where border searches
of electronic devices have revealed information
that was used to support a criminal
prosecution,” which Plaintiffs do not dispute,
but Plaintiffs do dispute that this testimony
supports Defendants’ statement of fact that the
searches were done “without any advance
information or suspicion.” Exh. A, ECF No. 981 (Howe Decl.) at ¶ 30.
41.
Electronic devices can also contain
information that facilitates the execution of the noncriminal aspects of CBP’s mission, which includes the
enforcement of civil and administrative legal
requirements. Howe Decl. ¶ 30.
Plaintiffs’ Response: Defendants’ reference
to “information that facilitates the execution of
the non-criminal aspects of CBP’s mission” is
vague and ambiguous. Plaintiffs do not dispute
that electronic device searches have, in some
instances, revealed information relevant to the
enforcement of civil and administrative legal
requirements.
42.
Border search authority is a crucial tool and
requiring a warrant for all border searches of
electronic devices would significantly impede CBP’s
and ICE’s missions. Howe Decl. ¶¶ 26, 32; Denton
Decl. ¶¶ 18, 23-27.
Plaintiffs’ Response: Defendants’ statement
lacks foundation and is an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: The
182a

phrase “significantly impede” is vague and
ambiguous. Plaintiffs dispute that warrantless
or suspicionless searches of electronic devices
are a “crucial tool” or that requiring a warrant
for such searches would “significantly impede
CBP’s and ICE’s missions.” See Pl. SUMF at ¶¶
92–98 (non-prevalence of digital contraband at
the border); 99–102 (lack of evidence that
warrantless, suspicionless device searches are
effective); 103–119 (feasibility of obtaining
warrants and/or applying probable cause and
reasonable suspicion standards).
43.
Due to the differences between a typical law
enforcement encounter and the border, it is highly
unlikely that probable cause exists in the border
context. First, a border search is generally not a
search where the places and things to be searched can
be particularly described in advance, as required in a
warrant, but is a search of the individual and her
belongings as she chooses to present them at the
border. Second, the things to be searched at the border
are not those identified, described, and targeted by the
government, but whatever the traveler chooses to
carry with her across the border between nations.
Denton Decl ¶ 22; Howe Decl. ¶¶ 33-34.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ statement because it lacks
foundation per Federal Rule of Civil Procedure
56(c)(2)/Local Rule 56.1 and is an opinion for
which no response is required under Federal
Rule of Civil Procedure 56(c)(1) and/or Local
Rule 56.1. To the extent a response is deemed
required: The phrase “highly unlikely” is vague
and ambiguous. Plaintiffs note that the CBP
183a

2018 Directive contemplates probable cause to
seize and retain an electronic device based on
“facts and circumstances” other than
information derived from the device itself. Exh.
19, ECF No. 91-18 (CBP 2018 Directive) at §
5.5.1.1, Bates 121. Finally, Defendants’
statement is immaterial, in that it assumes
that a warrant and/or probable cause must be
obtained prior to a traveler’s arrival at the
border. Plaintiffs’ claims entail no such
requirement. See Am. Compl., ECF No. 7 at ¶¶
169, 171, 173.
44.
A warrant necessarily requires advance
information to support the probable cause
determination, requires the time and deliberateness
associated with review by a neutral magistrate, and
requires the identification of a specific person or thing
to be searched and the particular crime that is
implicated. In a border environment, such advance
information necessary to support probable cause for
search is often minimal. Howe Decl. ¶ 34.
Plaintiffs’ Response: Plaintiffs dispute
Defendants’ statement that “a warrant
necessarily requires advance information;” that
statement lacks foundation and is immaterial,
in that it assumes that a warrant and/or
probable cause must be obtained prior to a
traveler’s arrival at the border. Plaintiffs’
claims entail no such requirement. See Am.
Compl., ECF No. 7 at ¶¶ 169, 171, 173. See also
Pl. SUMF at ¶¶ 103–119 (feasibility of
obtaining warrants and/or applying probable
cause and reasonable suspicion standards).

184a

45.
A warrant requirement is impractical, if not
impossible, for the government to obtain because the
what, where, how, and when she presents herself and
her possessions at the border is generally not
knowable to the government in advance. Denton Decl
¶ 22; Howe Decl. ¶¶ 34.
Plaintiffs’ Response: Defendants’ statement
lacks foundation and is an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: The
phrase “impractical, if not impossible” is vague
and ambiguous. Plaintiffs dispute Defendants’
statement and further dispute that it is
material, in that it assumes that the basis for a
warrant must be “knowable to the government
in advance.” Plaintiffs’ claims entail no such
requirement. See Am. Compl., ECF No. 7, at ¶¶
169, 171, 173. See also Pl. SUMF at ¶¶ 103–119
(feasibility of obtaining warrants and/or
applying probable cause and reasonable
suspicion standards).
46.
Requiring a warrant for electronic devices at
the border would have serious consequences for border
security by creating a category of, and a container for,
merchandise immune from border search. Such an
obvious loophole in the ability of the United States to
patrol its borders would create a safe-haven for
contraband and evidence and inevitably result in
exploitation
by
criminals,
terrorists,
and
transnational criminal organizations to smuggle
merchandise, contraband, and evidence of criminal
conspiracies into and out of the United States. Denton
Decl. ¶¶ 18, 23; Howe Decl. ¶ 32, 35.
185a

Plaintiffs’ Response: Defendants’ statement
is speculative and is an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: The
phrases “serious consequences,” “obvious
loophole,” and “safe-haven” are vague and
ambiguous. Plaintiffs dispute Defendants’
statement, which lacks foundation, in that it
wrongly assumes that digital contraband must
and will transit borders via travelers’ electronic
devices. See Pl. SUMF at ¶¶ 95–98
(transmission of digital contraband via the
internet).
47.
A warrant requirement would obviate the
deterrent effect of border searches when it comes to
electronic devices and incentivize criminals to store
contraband or other evidence of illegal goods on their
electronic devices. See Howe Decl. ¶¶ 38, 43; Denton
Decl. ¶¶ 18, 23.
Plaintiffs’ Response: Defendants’ statement
is speculative and an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: Plaintiffs
dispute Defendants’ statement, which lacks
foundation in assuming that Defendants’
current policies create a meaningful deterrent
effect, and that digital contraband must and
will transit borders via travelers’ electronic
devices. See Pl. SUMF at ¶¶ 95–98
(transmission of digital contraband via the
internet).

186a

48.
A warrant requirement would impose
entirely
unknown
logistical
and
resource
requirements on Defendants. Howe Decl. ¶¶ 34, 36;
Denton Decl. ¶¶ 19-22.
Plaintiffs’ Response: Defendants’ statement
is speculative and an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: Plaintiffs
dispute that Defendants’ statement accurately
characterizes the cited declarations. Plaintiffs
further dispute that a warrant requirement
would
impose
“entirely
unknown”
requirements. Plaintiffs refer the Court to Pl.
SUMF at ¶¶ 103–115 (feasibility of obtaining
warrants in similar contexts).
49.
A warrant requirement for border searches
of electronic devices would likely impede CBP’s ability
to expeditiously complete certain border inspections;
would likely prevent CBP from detecting electronic
contraband; and would deprive the federal
government of crucial information, including
terrorism related information, that informs
admissibility determinations relating to both people
and goods. Howe Decl. ¶¶ 32, 36-38.
Plaintiffs’ Response: Defendants’ statement
is speculative and is an opinion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: The
phrases “crucial information” and “terrorism
related information” are vague and ambiguous.
Plaintiffs dispute Defendants’ statement,
which lacks foundation. See Pl. SUMF ¶¶ 95–
187a

98 (transmission of digital contraband via the
internet); 99–102 (lack of evidence that
warrantless, suspicionless device searches are
effective); 103–119 (feasibility of obtaining
warrants and/or applying probable cause and
reasonable suspicion standards).
50.
A warrant requirement would threaten the
security of this country. Defendants have on
numerous occasions interdicted contraband and
criminals through use of device border searches, and
in most, if not all, of these instances the Government
did not have a warrant or probable cause to conduct
the search at issue. See Howe Decl. ¶ 27-30; Denton
Decl. ¶¶ 24-27.
Plaintiffs’ Response: Defendants’ first
sentence is speculative and is an opinion for
which no response is required under Federal
Rule of Civil Procedure 56(c) and/or Local Rule
56.1. To the extent a response is deemed
required: The phrase “threaten the security of
this country” is vague and ambiguous.
Defendants’ second sentence lacks foundation,
and Plaintiffs dispute that it accurately
characterizes the cited declarations, which
neither set forth “numerous occasions” in which
Defendants interdicted contraband nor identify
data indicating that the government lacked
probable cause in “most, if not all” such
instances. See Pl. SUMF at ¶¶ 92–98 (nonprevalence of digital contraband at the border);
99–102 (lack of evidence that warrantless,
suspicionless device searches are effective);
103–119 (feasibility of obtaining warrants

188a

and/or applying probable cause and reasonable
suspicion standards).
FACTS RELATING TO INDIVIDUAL
PLAINTIFFS:
51.
Out of the eleven Plaintiffs, seven have had
their electronic devices searched at the border only
once (Plaintiffs Ghassan Alasaad, Allababidi,
Bikkannavar, Gach, Shilby, Wright, and Zorri). See
Pls. SUMF ¶¶ 120-149 (ECF 90-2).
Plaintiffs’ Response: No dispute.
52.
Four have had their electronic devices
searched at the border more than once (Plaintiffs
Merchant, Nadia Alasaad, Dupin and Kushkush). See
Pls. SUMF ¶¶ 121, 123, 129, 130, 134, 135, 137, 140,
141, 142 (ECF 90-2).
Plaintiffs’ Response: No dispute.
53.
Except for Plaintiff Merchant, none of the
Plaintiffs have had their electronic devices searched
since August 2017. See Pls. SUMF ¶¶ 120-149. (ECF
90-2)
Plaintiffs’ Response: No dispute.
54.
Plaintiff Merchant did have her electronic
device manually searched in September, 2018 but she
has travelled internationally at least five times since
her most recent search and has not been searched
during any of those trips. See Ex. J, Merchant Resp. to
Interrogs. 1, 4; Merchant Suppl. Resp. to Interrogs. 1,
4, 7.
Plaintiffs’ Response: Plaintiffs do not dispute
that Plaintiff Merchant has not been subjected
to a search of her electronic devices by
189a

Defendants during her international trips
subsequent to September 2018. See Exh. J, ECF
No.
98-10
(Merchant
responses
to
Interrogatories
1,
4
and
Merchant
supplemental responses to Interrogatories 1, 4,
and 7).
55.
Defendants deleted all copies of Plaintiff
Wright’s data. Declaration of Jenny Tsang, (Ex. L).
Plaintiffs’ Response: No dispute.
PLAINTIFFS’ REPLY IN SUPPORT OF
PLAINTIFFS’ STATEMENT OF UNDISPUTED
MATERIAL FACTS
I.

Defendants’ Policies and Practices on
Border Searches and Confiscations of
Travelers’ Electronic Devices
A.

CBP Screening

1.
U.S. Customs and Border Protection (“CBP”)
officers conduct primary inspections of every person
who crosses the border into the United States at a port
of entry. Exh. 13 (CBP 30(b)(6) depo.) at 85:3–12.
Defendants’
Response:
Dispute
the
characterization as a “primary” inspection here,
but admit that CBP officers conduct inspections
of every person who crosses the border into the
United States at a port of entry. Id.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs’ reference to
“primary” refers to the first point of contact for
every traveler.
190a

2.
During primary inspections, CBP officers
must determine whether a traveler seeking entry is
admissible to the United States. U.S. citizens are by
definition admissible. Lawful permanent residents,
with some exceptions, are also by definition
admissible. Officers must also determine whether the
traveler is carrying goods subject to customs rules,
such as prohibited contraband. Exh. 13 (CBP 30(b)(6)
depo.) at 35:2–5, 80:4–8, 85:3–12 & errata pages.
Defendants’ Response: Dispute that this
determination only occurs during “primary”
inspection
and
also
dispute
their
characterization of the term “lawful permanent
resident.” Admit that U.S. citizens are by
definition admissible once they establish their
identity and citizenship to the satisfaction of
the inspecting officer. Id. at 35:4-5. Aliens
lawfully admitted for permanent residence in
the Unites States are also not regarded as
seeking admission for purposes of immigration
laws unless certain criteria apply. See 8 U.S.C.
§1101(a)(13)(C).
Further
dispute
the
characterization that Officers are determining
“whether the traveler is carrying goods subject
to customs rules, such as prohibited
contraband;” all goods crossing the border are
subject to inspection by customs officers. See 19
U.S.C. § 1401(c); see also Exh. 13 (CBP 30(b)(6)
depo.) at 35:15-36::17
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs do not dispute
Defendants’ characterizations of “primary”
inspection and “lawful permanent resident.”
Defendants’ statement that “all goods crossing
191a

the border are subject to inspection by customs
officers” is a legal assertion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent that a response is deemed required: no
dispute. Plaintiffs clarify that Defendants’
statutory authority is subject to constitutional
limits.
3.
If a CBP officer at primary inspection decides
that a traveler warrants further screening, the officer
will refer the traveler to secondary inspection. Exh. 13
(CBP 30(b)(6) depo.) at 87:6–18.
Defendant’s Response: Dispute that this
statement correctly characterizes the cited
deposition testimony. Admit that a CBP officer
at primary inspection may refer a traveler for
additional scrutiny if they require further time
for processing.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The CBP deposition testimony
states that if the primary inspection officer is
“unable to [make that quick and efficient
determination] in a reasonable amount of
time,” CBP has “secondary inspection.” Exh. 13,
ECF No. 91-12 (CBP 30(b)(6) depo.) at 87:9–18.
4.
Some travelers are randomly selected for
referral to secondary inspection. Exh. 18 (CBP
Briefing for Senate Committee) at Bates 282.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
5.
During secondary inspections, when
deciding whether to search a traveler’s device,
192a

CBP officers consider past border searches of
electronic devices. Exh. 13 (CBP 30(b)(6) depo.) at
122:4–13.
Defendants’ Response: Dispute that this
statement correctly characterizes the cited
deposition testimony which makes clear
that a CBP officer considers a number of
factors in deciding whether to search a
traveler’s device which may include past
searches. Id. at 122:4-20.
Plaintiffs’ Reply: Defendants do not raise
a genuine dispute. The CBP deposition
testimony states that “[t]he officer has to
rely on their training, experience, and the
totality of the circumstances they have
before them,” which also includes
information about past border searches of
electronic devices. See Exh. 13, ECF No. 9112 (CBP 30(b)(6) depo.) at 122:4–20.
B.

The CBP Policy

6.
CBP’s border searches and confiscations of
electronic devices are governed by CBP Directive No.
3340–049A, dated January 4, 2018 (the “CBP Policy”).
Exh. 19 (CBP 2018 Directive) at § 11, Bates 124.
Defendants’
Response:
Dispute
the
characterization of the cited policy. Admit that
CBP Directive No. 3340–049A, dated January
4, 2018 (the “CBP Policy”) provides guidance
and standard operating procedures for
searching, reviewing, retaining, and sharing
information contained in electronic devices.

193a

Plaintiffs’ Reply: Defendants do not raise a
genuine
dispute.
Plaintiffs
define
“confiscations” as seizures of travelers’
electronic devices after a traveler has left the
border.
7.
In an “advanced” or “forensic” search, an
officer connects external equipment to a traveler’s
electronic device, with a wired or wireless connection,
in order to access, review, copy, and/or analyze the
contents of the device. Exh. 46 (Stipulations) at ¶ 1;
Exh. 19 (CBP 2018 Directive) at § 5.1.4, Bates 117;
Exh. 20 (ICE Broadcast) at Bates 1266; Exh. 14 (ICE
30(b)(6) depo.) at 54:14–23.
Defendants’
Response:
Dispute
that
plaintiffs correctly characterized the referenced
Stipulation and refer the Court to the
Stipulation and CBP 2018 Directive for an
accurate statement. Do not dispute that an
advanced search is defined in both the
Stipulation and CBP 2018 Directive as “any
search in which an Officer connects external
equipment, through a wired or wireless
connection, to an electronic device not merely to
gain access to the device, but to review, copy,
and/or analyze its contents.”
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute.
8.
In a “basic” or “manual” search, an officer
reviews the content of a traveler’s electronic device
without using external equipment. Exh. 19 (CBP 2018
Directive) at § 5.1.3, Bates 116; Exh. 14 (ICE 30(b)(6)
depo.) at 54:14–55:3.
Defendants’ Response:-Dispute that the CBP
194a

2018 Directive uses the term “manual” to
describe a search. Exh 19 at § 5.1.3 (describing
a basic search). Do not dispute that the term
“manual” is sometimes used to describe a basic
search.Plaintiffs’ Reply: Defendants do not raise a
genuine dispute.
9.
The CBP Policy allows advanced searches of
electronic devices based on either “reasonable
suspicion of activity in violation of the laws enforced
or administered by CBP” or a “national security
concern.” Exh. 19 (CBP 2018 Directive) at § 5.1.4,
Bates 117.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
10.
The CBP Policy allows basic searches of
electronic devices without any suspicion. Exh. 19
(CBP 2018 Directive) at § 5.1.3, Bates 116.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
11.
The CBP Policy allows officers to retain
travelers’ electronic devices for on-site or off-site
searches, which “ordinarily” should not exceed five
days, but can be prolonged with supervisory approval
based on “extenuating circumstances.” Exh. 19 (CBP
2018 Directive) at §§ 5.4.1–5.4.1.1, Bates 119.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
12.
The CBP Policy places no ultimate limit on
how long a device can be kept for search. Exh. 13 (CBP
195a

30(b)(6) depo.) at 223:21–224:7.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
13.
The CBP Policy permits CBP to retain
information from a traveler’s device that is related to
“immigration, customs, and other enforcement
matters,” even if there is no probable cause to suspect
a violation of law. Exh. 19 (CBP 2018 Directive) at §
5.5.1.2, Bates 121.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
14.
The CBP Policy permits officers to share
information retained from electronic devices with
federal, state, local, and foreign law enforcement
agencies. Exh. 19 (CBP 2018 Directive) at § 5.5.1.3,
Bates 122.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
15.
CBP does not know how long other
government entities keep the information they receive
from CBP’s border searches of electronic devices. Exh.
13 (CBP 30(b)(6) depo.) at 200:2–12.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
16.
CBP does not monitor whether other
government entities impermissibly retain the
information CBP shares from border searches of
electronic devices. Exh. 13 (CBP 30(b)(6) depo.) at
203:7–204:3.

196a

Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
C.

The ICE Policy

17.
U.S.
Immigration
and
Customs
Enforcement’s
(“ICE”)
border
searches
and
confiscations of electronic devices are governed by ICE
Directive No. 7–6.1 (also known as ICE Policy
10044.1), dated August 18, 2009, as superseded in
part by an ICE/Homeland Security Investigations
(“HSI”) Broadcast, dated May 11, 2018 (collectively,
the “ICE Policy”). Exh. 21 (ICE 2009 Directive) at
Bates 260–69; Exh. 20 (ICE Broadcast) at Bates 1266–
67; Exh. 14 (ICE 30(b)(6) depo.) at 149:10–20,187:21–
188:2.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
18.
The ICE Policy allows advanced searches of
electronic devices with reasonable suspicion. Exh. 20
(ICE Broadcast) at Bates 1266–67.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
19.
The ICE Policy allows basic or manual
searches of electronic devices without any suspicion.
Exh. 21 (ICE 2009 Directive) at § 6.1, Bates 261.
Defendants’ Response: Dispute that the ICE
policy uses the term “manual” to describe a
search. The correct term is basic. Id.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute.
20.

When CBP turns an electronic device over to
197a

ICE for a search, ICE policy applies. Exh. 21 (ICE
2009 Directive) at § 6.2, Bates 261; Exh. 19 (CBP 2018
Directive) at § 2.7, Bates 114.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
21.
The ICE Policy allows agents to take and
retain travelers’ electronic devices for on-site or offsite searches. Exh. 21 (ICE 2009 Directive) at § 8.1(4),
Bates 263. The ICE Policy states that such searches
should “generally” be completed within 30 days, but
can be prolonged with supervisory approval. Id. at §
8.3(1), Bates 263–64.
Defendants’ Response: Dispute plaintiffs’
characterization of the ICE policy which
requires agents “to complete the search of
detained electronic devices, or copies of
information therefrom, in a reasonable time
give the facts and circumstances of the
particular search” and refer the Court to the
policy (Exh 21 §8.3) for an accurate statement.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The ICE 2009 Directive states:
“Special Agents are to complete the search of
detained electronic devices, or copies of
information therefrom, in a reasonable time
given the facts and circumstances of the
particular search. Searches are generally to be
completed within 30 calendar days of the date
of detention, unless circumstances exist that
warrant more time . . . Any detention exceeding
30 calendar days must be approved by a Group
Supervisor or equivalent . . .” Exh. 21, ECF No.
91-20 (ICE 2009 Directive) at § 8.3(1), Bates
198a

263–64 (emphases added).
22.
The ICE Policy permits ICE to retain
information from travelers’ devices that are “relevant
to immigration, customs, and other law enforcement
matters.” Exh. 21 (ICE 2009 Directive) at § 8.5(1)(b),
Bates 266.
Defendants’ Response: No dispute that the
ICE policy permits retention of information to
the extent authorized by law and if retention is
consistent with the privacy and data protection
policies of the system in which the information
is retained. Id.
Plaintiffs’ Reply: No dispute. The ICE 2009
Directive states: “To the extent authorized by
law, ICE may retain information relevant to
immigration, customs, and other law
enforcement matters in ICE systems if such
retention is consistent with the privacy and
data protection policies of the system in which
such information is retained.” Exh. 21, ECF No.
91-20 (ICE 2009 Directive) at § 8.5(1)(b), Bates
266.
23.
The ICE Policy states that copies of
information from travelers’ devices that are
“determined to be of no relevance to ICE” must be
destroyed, and the destruction must be documented.
Exh. 21 (ICE 2009 Directive) at § 8.5(1)(e), Bates 267.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
24.
The ICE Policy permits ICE to share
information retained from electronic devices with
federal, state, local, and foreign law enforcement
199a

agencies. Exh. 21 (ICE 2009 Directive) at § 8.5(1)(c),
Bates 266.
Defendants’ Response: No dispute that the
ICE policy allows sharing of information in
accordance with applicable law and policies.
Plaintiffs’ Reply: No dispute. The ICE 2009
Directive states: “Copies of information from
electronic devices, or portions thereof, which
are retained in accordance with this section,
may be shared by ICE with Federal, state, local,
or foreign law enforcement agencies in
accordance with applicable law and policy.”
Exh. 21, ECF No. 91-20 (ICE 2009 Directive) at
§ 8.5(1)(c), Bates 266.
A. Border Screening Databases
1. CBP’s TECS
25.
TECS is CBP’s main database. Exh. 13 (CBP
30(b)(6) depo.) at 46:9–11. It facilitates the
maintenance and sharing of law enforcement records.
Id. at 47:5– 15.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
26.
TECS includes information about prior
encounters between CBP officers and travelers at the
U.S. border. Exh. 13 (CBP 30(b)(6) depo.) at 119:7–17.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
27.
TECS includes “lookouts” created by CBP or
other government agencies. Exh. 13 (CBP 30(b)(6)
depo.) at 98:20–99:7; Exh. 14 (ICE 30(b)(6) depo.) at
200a

211:14–22.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
28.
A “lookout” is an alert about a traveler or
vehicle that is entered into a database by CBP, ICE,
or another law enforcement agency. Exh. 13 (CBP
30(b)(6) depo.) at 97:5–11; Exh. 14 (ICE 30(b)(6) depo.)
at 205:2–23; Exh. 22 (CBP 2018 PIA) at Bates 177.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
29.
At primary inspection, CBP officers query
TECS to identify “lookouts” and recent border
crossings. Exh. 13 (CBP 30(b)(6) depo.) at 85:14–
86:24, 93:12–19.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
30.
If a traveler has a “lookout,” the primary
inspection CBP officer will refer the traveler to
secondary inspection. Exh. 13 (CBP 30(b)(6) depo.) at
101:25–102:12; Exh. 14 (ICE 30(b)(6) depo.) at 206:19–
207:19. A CBP officer may also refer the traveler to
ICE. Exh. 14 (ICE 30(b)(6) depo.) at 205:2–23, 207:22–
208:3, 209:6–210:2.
Defendants’
Response:
Dispute
characterization that all travelers with a
“lookout” will be referred to secondary
inspection. Admit that a “lookout” may result in
a referral to secondary inspection.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The CBP deposition testimony
201a

states that a lookout “would” result in an
individual being referred to secondary
inspection. Exh. 13, ECF No. 91-12 (CBP
30(b)(6) depo.) at 101:25– 102:3, 102:8–12. The
ICE deposition testimony states that a lookout
“might” result in an individual being referred to
secondary inspection. Exh. 14, ECF No. 91-13
(ICE 30(b)(6) depo.) at 206:19–207:19.
31.
“Lookouts” can be a reason why some
travelers are subjected to border searches of their
electronic devices. Exh. 13 (CBP 30(b)(6) depo.) at
103:15–104:2, 208:5–10.
Defendants’ Response: Dispute plaintiff’s
characterization that “travelers are subjected
to border searches” but admit that “lookouts”
can be a reason why CBP conducts a border
search of an electronic device.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute.
32.
“Lookouts” last as long as CBP deems them
pertinent. Exh. 13 (CBP 30(b)(6) depo.) at 101:19–23.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
33.
CBP officers use TECS to document border
searches of electronic devices. Exh. 13 (CBP 30(b)(6)
depo.) at 90:15–21, 119:18–21. This includes the
officers’ reasons for search, id. at 125:19 –126:18,
151:5–11, and information the officers discover that
they deem of law enforcement benefit, id. at 169:19–
21. See also Exh. 22 (CBP 2018 PIA) at Bates 186.
Defendants’ Response: No dispute.
202a

Plaintiffs’ Reply: No dispute.
34.
During secondary inspections, CBP officers
consider information in TECS, including information
about prior border screenings. Exh. 13 (CBP 30(b)(6)
depo.) at 117:7– 119:21.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
35.
When ICE agents are deciding whether to
conduct a border search of an electronic device, they
have access to information in TECS. Exh. 14 (ICE
30(b)(6) depo.) at 90:24–92:5.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
2. CBP’s Automated Targeting System
36.
CBP’s Automated Targeting System (“ATS”)
uses “rules” to conduct risk assessments that “flag[]”
certain travelers for “additional inspection.” Exh. 13
(CBP 30(b)(6) depo.) at 107:7–25. See also id. at
104:11–14, 106:8–16; Exh. 23 (CBP 2017 ATS PIA) at
Bates 997, 999, 1003.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
37.
When assessing risk, ATS uses information
from TECS. Exh. 13 (CBP 30(b)(6) depo.) at 107:22–
25. See also Exh. 23 (CBP 2017 ATS PIA) at Bates
1000.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
38.

ATS provides CBP officers with access to
203a

dozens of other government databases. Exh. 23 (CBP
2017 ATS PIA) at Bates 997–99.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
39.
If ATS flags a traveler, then a CBP officer
conducting a primary inspection must refer the
traveler to secondary inspection. Exh. 13 (CBP
30(b)(6) depo.) at 109:4–13.
Defendants’
Response:
Dispute
characterization and state that a CBP officer’s
reason for referring a traveler to secondary
inspection may be based upon a review of the
results of an ATS risk assessment.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The CBP deposition testimony
states: “Q. So if ATS indicates that a traveler
should be referred to secondary inspection, does
the officer at primary have any discretion in
deciding whether to refer that person? A. No.
It’s a lookout that’s – that informs the primary
officer.” Exh. 13, ECF No. 91-12 (CBP 30(b)(6)
depo.) 109:8–13.
40.
If an advanced search of an electronic device
yields information that a CBP officer deems of law
enforcement benefit, then the officer will copy it into
ATS. Exh. 13 (CBP 30(b)(6) depo.) at 104:18–105:2;
Exh. 22 (CBP 2018 PIA) at Bates 184, 186; Exh. 23
(CBP 2017 ATS PIA) at Bates 1034; Exh. 27 (DHS OIG
2018 Report) at Bates 975.
Defendants’
Response:
Dispute
characterization and state that articulated in
the ATS PIA, Bates 0996, a CBP Officer is
204a

authorized to include information from the
border search of an electronic device in ATS if
the subject of the search is of significant law
enforcement, counterterrorism, or national
security concerns.
Plaintiffs’ Reply: No dispute.
41.
ATS stores copies of data from travelers’
devices, not officers’ narrative descriptions of that
data. Exh. 13 (CBP 30(b)(6) depo.) at 190:10–19.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
42.
ATS stores copies of data from travelers’
devices for 15 years or “the life of the law enforcement
matter,” whichever is longer. Exh. 23 (CBP 2017 ATS
PIA) at Bates 1037.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
43.
ATS may use the information copied from a
traveler’s device to flag the traveler for heightened
screening in the future. Exh. 13 (CBP 30(b)(6) depo.)
at 114:10– 18, 115:12–25; Exh. 22 (CBP 2018 PIA) at
Bates 184; Exh. 23 (CBP 2017 ATS PIA) at Bates
1034.
Defendants’ Response: No dispute that
Officers may flag a traveler for additional
scrutiny on the basis of information maintained
in ATS.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The CBP deposition testimony
states: “Q. Does information obtained from
border searches of electronic devices affect how
205a

ATS flags individuals for additional scrutiny at
the border? A. I think it could.” Exh. 13, ECF
No. 91-12 (CBP 30(b)(6) depo.) at 114:10–14.
44.
When ICE agents decide whether to conduct
a border search of an electronic device, they have
access to ATS. Exh. 14 (ICE 30(b)(6) depo.) at 99:4–10.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
3.

ICE’s Investigative Case Management

45.
ICE operates a database called Investigative
Case Management (“ICM”). Exh. 14 (ICE 30(b)(6)
depo.) at 163:20–164:4.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
46.
ICM contains (a) “reports of investigation,”
and (b) “subject records,” which identify people and
things that are connected to investigations. Exh. 14
(ICE 30(b)(6) depo.) at 164:13–165:8.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
47.
ICM contains nearly all of ICE’s case
information. Exh. 14 (ICE 30(b)(6) depo.) at 160:3–13.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
48.
When ICE agents decide whether to conduct
border searches of electronic devices, they have access
to ICM information. Exh. 14 (ICE 30(b)(6) depo.) at
164:5–12.
Defendants’ Response: No dispute.
206a

Plaintiffs’ Reply: No dispute.
49.
ICM information that can be relevant to
whether to conduct a border search of an electronic
device includes prior encounters between ICE and
travelers at the border, including whether travelers
were subjected to device searches. Exh. 14 (ICE
30(b)(6) depo.) at 166:13– 168:14.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
50.
If an ICE agent conducts a border search of
an electronic device, they may use an ICM report of
investigation to store information about what they
found. Exh. 14 (ICE 30(b)(6) depo.) at 169:10–22. ICM
contains an agent’s descriptions of data in a traveler’s
device, but not the data itself. Id. at 172:5–14. This
may include, for example, a “verbatim transcript of a
conversation,” or a “summary” of a conversation or a
photograph. Id. at 172:15–174:11.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
51.
ICM information about the contents of
travelers’ devices can be relevant to whether to
conduct a future border search of an electronic device.
Exh. 14 (ICE 30(b)(6) depo.) at 174:12–24.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
II. The Frequency of Border Searches and
Confiscations of Electronic Devices
A.

Defendants’ Statistical Data
207a

52.
CBP conducted the following total number of
border searches of electronic devices during each fiscal
year (“FY”) from 2012 through 2018:
•

FY 2012: 5,085

•

FY 2013: 5,709

•

FY 2014: 6,029

•

FY 2015: 8,503

•

FY 2016: 19,051

•

FY 2017: 30,524

•

FY 2018: 33,295

Exh. 46 (Stipulations) at ¶ 13.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
53.
CBP conducted the following number of basic
searches of electronic devices at the border during
each fiscal year from 2012 through 2018:
•

FY 2012: 3,182

•

FY 2013: 3,561

•

FY 2014: 4,314

•

FY 2015: 6,618

•

FY 2016: 16,914

•

FY 2017: 27,701

•

FY 2018 (through September 15, 2018):
28,4291

Exh. 26 (Defs. Interrog. Responses) at #6.
Defendants’ Response: No dispute.
208a

Plaintiffs’ Reply: No dispute.
54.
CBP conducted the following number of
advanced searches of electronic devices at the border
during each fiscal year from 2012 through 2018:
•

FY 2012: 2,285

•

FY 2013: 2,444

•

FY 2014: 1,921

•

FY 2015: 2,090

•

FY 2016: 2,394

•

FY 2017: 2,685

•

FY 2018 (through September 15, 2018):
3,485

Exh. 26 (Defs. Interrog. Responses) at #6.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
55.
CBP conducted the following number of
confiscations of travelers’ electronic devices after they
left ports of entry during each fiscal year from 2012
through 2018.
•

FY 2012: 8

•

FY 2013: 36

•

FY 2014: 32

•

FY 2015: 21

•

FY 2016: 131

•

FY 2017: 200

•

FY 2018 (through September 15, 2018): 172

209a

Exh. 26 (Defs. Interrog. Responses) at #6.
Defendants’
Response:
Dispute
the
characterization of the fact because the wording
differs from the wording used in Defendants’
Response to Interrogatory 6. Defendants do not
dispute that that CPB estimated that it
“detained the [above] number of electronic
devices after a traveler departed the port of
entry or other location of inspection in each of
the identified fiscal years.”
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. For clarification, Defendants
say “detained” devices and Plaintiffs say
“confiscated” devices after a traveler has left
the border.
B.

Defendants’ Statistics Do Not Reflect
All Border Searches and Confiscations
of Electronic Devices

56.
ICE does not maintain records of the number
of basic searches of electronic devices that it conducts.
Exh. 46 (Stipulations) at ¶ 14.
Defendants’ Response: Dispute that this is a
material fact as the number of basic searches
conducted by ICE or whether ICE records those
numbers is not material to the constitutionality
of border searches of electronic devices.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The number of basic searches
that ICE conducts is material to Plaintiffs’
standing. See Pls.’ Mem. in Support of their
Mot. for Sum. Judgment, ECF No. 90-1 (“Pl.
Br.”) at Part IV.B. To the extent that
210a

Defendants rely on a baseline probability of a
device search based on the number of device
searches they have recorded, undercounting or
a failure to record basic searches affects the
likelihood of a risk of future device search.
Defendants do not dispute the accuracy of the
fact itself.
57.
ICE agents may conduct basic searches of
electronic devices. Exh. 29 (DHS 2009 PIA) at Bates
224.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
58.
ICE does not maintain records of the number
of times it detains electronic devices after travelers
leave ports of entry. Exh. 14 (ICE 30(b)(6) depo.) at
330:2–10.
Defendants’ Response: Dispute plaintiffs’
characterization of the cited testimony. ICE
records every instance that an electronic device
is detained for a border search; it does not
record those occurrences in a manner that
permits for aggregable statistics. Id. at 331:6 –
332:6. Further dispute this is a material fact as
the number of basic searches conducted by ICE
or whether ICE records those numbers is not
material to the constitutionality of border
searches of electronic devices.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Defendants’ assertion that
ICE does not record device detentions “in a
manner that permits for aggregable statistics”
is effectively the same as not maintaining
211a

records at all. This is a material fact that goes
to Plaintiffs’ standing because it relates to the
likelihood of risk of future device detention or
confiscation after a traveler has left the border.
See Pl. Br. at Part IV.B.
59.
CBP determines the number of border
searches of electronic devices in a given period by
calculating the number of closed or completed
Electronic Media Reports (“EMRs”). Exh. 26 (Defs.
Interrog. Responses) at #11. EMRs are sometimes
called “IOEMs.” Exh. 13 (CBP 30(b)(6) depo.) at 201:7–
9.
Defendants’ Response: No dispute, except to
dispute this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact that
goes to Plaintiffs’ standing because it relates to
the likelihood of risk of future device search.
See Pl. Br. at Part IV.B.
60.
CBP officers sometimes do not complete
EMRs after conducting border searches of electronic
devices. Exh. 27 (DHS OIG 2018 Report) at Bates 973,
978; Exh. 13 (CBP 30(b)(6) depo.) at 248:18–249:9.
Defendants’ Response: Do not dispute that
the 2018 DHS OIG report found, in the period
of examination, that CBP officers sometimes
did not complete EMRs. Further dispute that
this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact that
goes to Plaintiffs’ standing because it relates to
the likelihood of risk of future device search.
212a

See Pl. Br. at Part IV.B.
61.
For example, on August 28, 2017, CBP
officers searched the smartphone they seized from
Plaintiff Nadia Alasaad’s bag. Exhs. 15 & 16 (Answer
and Complaint) at ¶¶ 73–74, Defendants have no
records, including EMRs, documenting that search.
Exh. 26 (Defs. Doc. Responses) at #17.
Defendants’ Response: Dispute the inference
being drawn by the fact that CBP does not have
any records documenting that alleged search
and further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs do not know what
inference Defendants are referring to as being
drawn; Plaintiffs cited to Defendants’ discovery
response. This fact presents one example of
undercounting as to one Plaintiff. This is a
material fact that goes to Plaintiffs’ standing to
the extent that standing considers the number
of device searches as an indication of likelihood
of risk of future device search. See Pl. Br. at
Part IV.B.
62.
When CBP officers do not fill out EMRs for
border searches of electronic devices, those searches
are not included in CBP’s calculation of the total
number of searches for that period. Exh. 26 (Defs.
Interrog. Responses) at #11; Exh. 13 (CBP 30(b)(6)
depo.) at 251:3– 15.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact that
213a

goes to Plaintiffs’ standing because it relates to
the likelihood of risk of future device search.
See Pl. Br. at Part IV.B.

III. Privacy Implications of Device Searches
A.

The Sensitivity of Content in Travelers’
Devices

63.
Electronic devices carried by travelers, such
as smartphones or laptops, can contain a very large
volume of information. Exh. 13 (CBP 30(b)(6) depo.) at
161:25–162:3; Exh. 14 (ICE 30(b)(6) depo.) at 212:21–
213:3.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
64.
Travelers carry electronic devices that
contain many different kinds of information, such as
photos, contacts, emails, and text messages, and the
devices may reveal such things as prescription
information, information regarding employment,
travel history, and browsing history. Exh. 13 (CBP
30(b)(6) depo.) at 161:21–24, 164:3–13, 167:12–17,
191:10–14; Exh. 14 (ICE 30(b)(6) depo.) at 213:5–8.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
65.
A CBP training document describes border
searches of electronic devices as “very sensitive.” Exh.
31 (Pilot Program for CBP 2018 Directive) at Bates
143.
Defendants’ Response: No dispute.
214a

Plaintiffs’ Reply: No dispute.
66.
ICE recognizes that electronic devices have
the capacity to “store sensitive information.” Exh. 29
(DHS 2009 PIA) at Bates 231.
Defendants’ Response: No dispute
Plaintiffs’ Reply: No dispute.
B.

The Invasiveness of Manual
Forensic Device Searches

and

67.
Basic searches can access content from
allocated space physically resident on an electronic
device that is accessible using the native operating
system of the device, including but not limited to its
native graphical user interface and/or touchscreen.
Exh. 46 (Stipulations) at ¶ 2.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
68.
Basic searches can extend to any allocated
file or information that is resident on the device and
accessible using the device’s native operating system.
Exh. 46 (Stipulations) at ¶ 4.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
69.
Separate from the primary content stored on
them, some electronic devices may also store data
related to that content, such as the date and time
associated with the content, usage history, sender and
receiver information, or location data. That content
may be revealed during a basic search, depending on
the type of device, the operating system, the relevant
settings, and the applications used to create and/or
215a

maintain the data. Exh. 46 (Stipulations) at ¶ 5.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
70.
When conducting a basic search, officials are
able to use the native search functions in the native
operating system of the device, such as a key word
search tool, if there is one. Exh. 46 (Stipulations) at ¶
3.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
71.
A device’s internal search tools can be used
to search for particular words and images. Exh. 14
(ICE 30(b)(6) depo.) at 214:24–216:10, 216:25–217:4,
218:9–20, 219:16– 221:11.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
72.
Depending on the equipment, procedures,
and techniques used, advanced searches of electronic
devices are generally capable of revealing everything
a basic search may reveal. Exh. 46 (Stipulations) at ¶
6.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants raise no
genuine dispute. This is a material fact because
it relates to travelers’ privacy interests under
the Fourth Amendment balancing test. See Pl.
Br. at Part I.A.1.
73.
An advanced search of an electronic device,
depending on the equipment, procedures, and
216a

techniques used, may be capable of revealing deleted
or other data in unallocated storage space and
password-protected or encrypted data. Exh. 46
(Stipulations) at ¶ 8. See also Exh. 13 (CBP 30(b)(6)
depo.) at 298:3–17.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
74.
An advanced search of an electronic device
may be able to copy all information physically resident
on the device or may be limited to only certain files,
depending on the search equipment, procedures, and
techniques used. Exh. 46 (Stipulations) at ¶ 12. See
also Exh. 13 (CBP 30(b)(6) depo.) at 205:13–23.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
75.
If information from the internet is cached on
a device, such as web-based email, and the device is
disconnected from the internet, border officers can
still search the cached information. Exh. 14 (ICE
30(b)(6) depo.) at 222:9–223:15; Exh. 13 (CBP 30(b)(6)
depo.) at 186:2–24.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
76.
Some CBP officers may have accessed cloudbased content during searches of electronic devices,
even after issuance of an April 2017 memorandum
requiring that officers disable network connectivity
prior to search, because more than one-third of EMRs
lacked a statement confirming that the device’s data
connection had been disabled. Exh. 27 (DHS OIG 2018
Report) at Bates 979–980.
217a

Defendants’ Response: Do not dispute that
the 2018 DHS OIG report concluded that based
on EMRs reviewed in the stated time period
that some CBP officers did not document that
they had disabled network connectivity prior to
a search during the time period examined,
which was after issuance of an April 2017
memorandum requiring that officers disable
network connectivity prior to search. Dispute
that this is a material fact.
Plaintiffs’ Reply: Defendants raise no
genuine dispute. Plaintiffs refer the Court to
the cited materials. This is a material fact
because it relates to travelers’ privacy interests
under the Fourth Amendment balancing test.
See Pl. Br. at Part I.A.1.
C.

Privacy Risks
Information

From

Retention

of

77.
To the extent consistent with applicable
system of records notices, ICE and CBP can retain
information from a device in any of their record
keeping systems when an electronic device search
reveals information officers deem relevant to
immigration, customs, or other laws enforced by the
Department of Homeland Security. Exh. 46
(Stipulations) at ¶ 10.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
78.
ICE generally stores information from
travelers’ devices in ICE’s Investigative Case
Management System, and the rules for that database
do not limit storage of this information, beyond the
218a

requirement of relevance to immigration, customs, or
other law enforcement matters. Exh. 14 (ICE 30(b)(6)
depo.) at 323:16– 324:4, 326:18–327:4.
Defendants’ Response: Dispute to the extent
this statement suggests that exact or complete
electronic copies of an electronic device’s data
are stored in ICM. Do not dispute that an ICE
Special Agent can manually record a narrative
description of information observed during a
search of an electronic device in ICM. Id. at
324:16-325:2; 326:15-327:4.
Plaintiffs’ Reply: No dispute.
79.
After a border search of an electronic device,
the information contained on the device may be
shared with other federal agencies for law
enforcement and intelligence purposes. Exh. 13 (CBP
30(b)(6) depo.) at 44:18–45:12, 198:20–199:5; Exh. 30
(ICE 2007 Memorandum) at Bates 1265.
Defendants’ Response: Dispute plaintiffs’
characterization of this fact and refer Court to
cited exhibits which make clear that the
information sharing is permitted only if the
information is related to immigration, customs,
and other enforcement matters and if the
sharing is consistent with applicable system of
record notices. See Ex. 19 at 5.5.1.3 and 5.5.1.4;
see also DHS/CBP/PIA-008(a) Border Searches
of Electronic Devices at Bates 0174 (Ex. G);
DHS/CBP/PIA-006(e) ATS at Bates 0996 (Ex.
K).
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. In Defendants’ citations to
Exh. 19, ECF No. 91-18 (CBP 2018 Directive) at
219a

§§ 5.5.1.3 and 5.5.1.4, Bates 122, neither section
has a clause stating that information sharing
must be “related to immigration, customs, and
other enforcement matters” or that sharing
must be “consistent with applicable system of
record notices.” However, Plaintiffs do not
dispute that these limitations appear in §
5.5.1.2 as they pertain to retention. See id. at
Bates 121–22. To clarify, Defendants do not
dispute that subject to these limitations,
information contained on an electronic device
may be shared with other federal agencies for
law enforcement and intelligence purposes.
80.
After a border search of an electronic device,
information retained in the TECS database may be
shared with other agencies outside of DHS, including
local, state, and foreign governments. Exh. 13 (CBP
30(b)(6) depo.) at 83:18–84:17; 198:11–19.
Defendants’ Response: Dispute plaintiffs’
characterization of this fact and refer Court to
cited exhibits which make clear that the
information sharing is permitted only if the
information is related to immigration, customs,
and other enforcement matters and if the
sharing is consistent with applicable system of
record notices.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Defendants have provided no
support for their assertion. However, Plaintiffs
do not dispute that these limitations appear in
§ 5.5.1.2 as they pertain to retention. See Exh.
19, ECF No. 91-18 (CBP 2018 Directive) at §
5.5.1.2, at Bates 121–22. To clarify, Defendants
do not dispute that subject to these limitations,
220a

information contained on an electronic device
may be shared with other agencies outside of
DHS, including local, state, and foreign
governments. See also Exh. 13, ECF No. 91-12
(CBP 30(b)(6) depo.) at 198:11–19 (“Q. So this
policy permits the sharing of information from
electronic devices searched at the border with
state, local, foreign governments; is that
correct? A. That’s what it says. Q. And, in fact,
CBP does share information from electronic
devices with those other Government entities at
times; is that right? A. We do.”).
IV. Government Interests
A.

Defendants’ Asserted Purposes

81.
CBP and ICE assert authority to conduct
warrantless or suspicionless border searches of
electronic devices to enforce hundreds of federal laws.
Exh. 19 (CBP 2018 Directive) at Bates 115; Exh. 22
(CBP 2018 PIA) at Bates 189; Exh. 14 (ICE 30(b)(6)
depo.) at 28:4–6.
Defendants’ Response: This is a conclusion of
law and not a material fact. If deemed a
material fact, no dispute.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. That Defendants assert
authority
to
conduct
warrantless
or
suspicionless border searches of electronic
devices to enforce hundreds of federal laws is
not a legal conclusion but rather a fact. This is
a material fact because the government’s
asserted authority to conduct warrantless,
suspicionless border searches of electronic
devices is at the heart of the dispute in this
221a

lawsuit.
82.
CBP’s asserted purposes in conducting
warrantless or suspicionless border searches of
electronic devices include general law enforcement,
i.e., finding potential evidence of illegal activity
beyond violations of immigration and customs laws.
Exh. 26 (Defs. Interrog. Responses) at #1 (“[B]order
searches of electronic devices are conducted in
furtherance of . . . law enforcement[] and homeland
security responsibilities and to ensure compliance
with … other laws that Defendants are authorized to
enforce and administer. . . . They are a crucial tool for
detecting evidence relating to terrorism and other
national security matters . . . They can also reveal
information about financial and commercial crimes. .
. .”). See also Exh. 19 (CBP 2018 Directive) at § 1,
Bates 113; Exh. 13 (CBP 30(b)(6) depo.) at 20:19–21:9,
32:23–33:6; Exh. 33 (CBP “Tear Sheet”) at Bates 163
(“domestic law enforcement”); Exh. 23 (CBP 2017 ATS
PIA) at Bates 1034 (“other enforcement matters”) &
1035 (“other laws enforced by CBP”); Exh. 27 (DHS
OIG 2018 Report) at Bates 975 (“any violation of
laws”), 981 (“law enforcement-related information”),
982 (use of “new technologies to commit crimes”); Exh.
34 (CBP Written Statement for the Record for Senate
Homeland Security Committee, July 11, 2018) at
Bates 277 (use of “new technologies to commit
crimes”); Exh. 35 (CBP Instructor Guide—P180C) at
Bates 1279.
Defendants’ Response: Dispute plaintiffs’
characterization that CBP’s asserted purpose
for conducting border searches include general
law
enforcement.
The
cited
exhibits
demonstrate that CBP officers’ searches are
222a

related to the agency’s broad law enforcement
and national security responsibilities. See also
6 U.S.C. § 211.
Plaintiffs’ Reply: Defendants do not raise a
genuine
dispute.
The
cited
evidence
demonstrates the number and various types of
situations in which CBP asserts that
warrantless,
suspicionless
searches
of
electronic devices advance law enforcement
purposes.
83.
ICE’s asserted purposes for warrantless or
suspicionless border searches of electronic devices
include general law enforcement, i.e., finding
potential evidence of illegal activity beyond violations
of immigration and customs laws. Exh. 26 (Defs.
Interrog. Responses) at #1; Exh. 21 (ICE 2009
Directive) at § 4, Bates 261 (“other Federal laws at the
border”); Exh. 30 (ICE 2007 Memorandum) at Bates
1264 (“anything that may be evidence of a crime”);
Exh. 14 (ICE 30(b)(6) depo.) at 35:15–17, 36:23–37:5,
40:10–20.
Defendants’ Response: Dispute plaintiffs’
characterization that ICE’s asserted purpose
for conducting border searches include general
law enforcement and for finding illegal activity
beyond violations of immigration and customs
laws. The cited exhibits demonstrate that ICE
agents’ searches are related to the agency’s
broad law enforcement and national security
responsibilities. See also 6 U.S.C. §§ 202, 25152.
Plaintiffs’ Reply: Defendants do not raise a
genuine
dispute.
The
cited
evidence
223a

demonstrates the number and various types of
situations in which ICE asserts that
warrantless,
suspicionless
searches
of
electronic devices advance law enforcement
purposes.
84.
ICE asserts that agents may conduct a
warrantless or suspicionless border search of the
electronic device of a traveler:
a. Who is suspected of violating tax laws, to
find emails reflecting the tax law violations.
Exh. 14 (ICE 30(b)(6) depo.) at 29:4–8, 31:5–
12.
b. Who is suspected of hiding assets in
bankruptcy, to find emails reflecting the
hiding of assets. Id. at 33:4–22.
c. Who is an executive of a company suspected
of criminally dumping toxins into a river, to
find emails reflecting the illegal dumping.
Id. at 31:14–23, 32:2–8.
d. Who is suspected of violating consumer
protection laws, to find evidence reflecting
the consumer protection law violations. Id.
at 32:10–33:2.
e. Who is suspected of money laundering, to
find emails or other evidence reflecting
money laundering, including the creation of
corporations and accounts and the
structuring of deposits. Id. at 41:3–42:13.
Defendants’
Response:
Dispute
the
characterizations of the deposition testimony
which make clear that border searches of an
individual
under
any
of
the
above
224a

circumstances would only be conducted if ICE
was also investigating that individual for
violation of a cross-border crime within the
jurisdiction of ICE. Id. at 52:4–14.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs refer the Court to
the cited materials.
85.
CBP and ICE’s asserted purposes in
conducting warrantless or suspicionless border
searches of electronic devices include finding potential
evidence of customs violations, including evidence of
importing or exporting contraband, in contrast to
finding contraband itself. Exh. 26 (Defs. Interrog.
Responses) at #1 (“detecting evidence relating to . . .
human and bulk cash smuggling, contraband, and
child pornography”); Exh. 13 (CBP 30(b)(6) depo.) at
62:19– 21; Exh. 35 (CBP Instructor Guide—P180C) at
Bates 1279 (“evidence related to . . . [h]uman/cash
smuggling” and “[n]arcotics and contraband”); Exh. 36
(ICE/HSI Priority Requests) at Bates 93 (“. . . if an
individual
is
encountered
smuggling
methamphetamine . . . a border search would be
conducted on his devices for co-conspirators”).
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
86.
CBP and ICE’s asserted purposes in
conducting warrantless or suspicionless border
searches of electronic devices include intelligence
gathering. Exh. 13 (CBP 30(b)(6) depo.) at 46:24–47:3,
47:16–48:7; Exh. 23 (CBP 2017 ATS PIA) at Bates
1003, 1034; Exh. 30 (ICE 2007 Memorandum) at Bates
1265 (“intelligence interest[s]”).

225a

Defendants’ Response: Dispute that the cited
references support plaintiffs’ characterization
of Defendants’ purposes for conducting border
searches. Defendants refer the Court to the
referenced documents which, for the most part,
discuss the agencies’ record keeping systems. In
addition, Exh 30 does not state that intelligence
gathering is a purpose of border searches. Id. at
1264 (stating that the two general objectives of
a border search is “to inspect for merchandise
imported contrary to law” and “to obtain
information or evidence relating to an
individual’s admissibility.”); See also Defs.’
Response to Pls.’ First Set of Interrog, Interrog.
No.1 (Ex. I).
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Exh. 26, ECF No. 91-25 (Def.
Interrog. Responses) at #1 states that
warrantless, suspicionless border searches of
electronic devices “are a crucial tool for
detecting evidence related to … national
security matters.” Moreover, the CBP
deposition testimony and ATS PIA together
show that device data is uploaded to ATS, and
ATS is used for intelligence purposes. Exh. 13
(CBP 30(b)(6) depo.) at 46:24–47:3, 47:16–48:7;
Exh. 23 (CBP 2017 ATS PIA) at Bates 1003,
1034. Additionally, Exh. 33, ECF No. 91-32
(CBP “Tear Sheet”) at Bates 163 lists
“ROUTINE USES” including “border security
and intelligence activities.”
87.
CBP’s decisions to conduct warrantless or
suspicionless border searches of electronic devices are
informed by information or requests from other
226a

government agencies. Exh. 26 (Defs. Interrog.
Responses) at #17 (“CBP decisions to perform border
searches of electronic devices benefit from information
provided by other law enforcement agencies”); Exh. 13
(CBP 30(b)(6) depo.) at 75:8–76:5, 76:11–25, 77:13–14,
83:18–84:12; Exh. 37 (CBP Briefing for Senate
Committee) at Bates 288 (“CBP coordinates with
FBI”).
Defendants’ Response: No dispute, except to
dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
88.
ICE’s decisions to conduct warrantless or
suspicionless border searches of electronic devices are
informed by information or requests from other
government agencies. Exh. 26 (Defs. Interrog.
Responses) at #17. See also Exh. 14 (ICE 30(b)(6)
depo.) at 189.9—190:21, 191:18–192:3. These agencies
include the Bureau of Alcohol, Tobacco, Firearms and
Explosives, Internal Revenue Service, Secret Service,
Federal Bureau of Investigation, State Department,
state and local police departments and county sheriffs,
and foreign law enforcement agencies. Exh. 14 (ICE
30(b)(6) depo.) at 194:13–201:25.
Defendants’ Response: Dispute plaintiffs’
characterization of the cited evidence but do not
dispute that the cited evidence shows that ICE
makes independent determinations on the
necessity for every border search they
undertake and that information provided by
227a

other law enforcement agencies may inform the
agency’s decision to conduct a border search of
an electronic device. See also Exh. 26. at No. 17.
Further dispute that this is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
89.
CBP asserts it may conduct warrantless or
suspicionless border searches of electronic devices
when the subject is someone other than the traveler.
Exh. 13 (CBP 30(b)(6) depo.) at 57:3–17 (another
person’s crime), 58:6–59:9 (same), 59:11–60:10
(another person’s admissibility).
Defendants’ Response: No dispute except to
clarify that CBP has authority to search any
traveler at the border and CBP policies permit
a basic search of an electronic device with or
without suspicion.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Defendants’ statement that
“CBP has authority to search any traveler at
the border” is a legal assertion for which no
response is required under Federal Rule of Civil
Procedure 56(c) and/or Local Rule 56.1. To the
extent a response is deemed required: no
dispute. Plaintiffs clarify that Defendants’
border search authority is subject to statutory
and constitutional limits.
90.
ICE
asserts
that
warrantless
or
suspicionless border searches of electronic devices
may be conducted when the subject of interest is
228a

someone other than the traveler. This includes:
a. When the traveler is a U.S. citizen and ICE
is seeking information about a suspected
undocumented immigrant. Exh. 14 (ICE
30(b)(6) depo.) at 64:18–65:19.
b. When the traveler is a reporter who is
known to have had contact with a suspected
terrorist, where there is no suspicion that
the reporter engaged in wrongdoing. Exh. 14
(ICE 30(b)(6) depo.) at 56:25–58:14. See also
id. at 74:14–75:6.
c. When the traveler is a journalist or a scholar
with foreign sources who are of interest to
the U.S. government. Exh. 14 (ICE 30(b)(6)
depo.) at 75:14–25.
d. When the traveler is business partners with
someone who is under investigation for tax
fraud. Exh. 14 (ICE 30(b)(6) depo.) at 50:15–
51:4.
e. When the traveler is a family member of a
person under investigation, in conjunction
with other factors. Exh. 14 (ICE 30(b)(6)
depo.) at 130:16– 131:3.
Defendants’ Response: Dispute plaintiffs’
characterization of the cited evidence and
clarify that ICE has the authority to search an
electronic device of any traveler at the border in
furtherance of its mission.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Defendants’ statement that
“ICE has the authority to search an electronic
device of any traveler at the border in
229a

furtherance of its mission” is a legal assertion
for which no response is required under Federal
Rule of Civil Procedure 56(c) and/or Local Rule
56.1. To the extent a response is deemed
required: no dispute that ICE claims such
authority,
but
Plaintiffs
clarify
that
Defendants’ border search authority is subject
to statutory and constitutional limits.
91.
CBP and ICE conduct warrantless or
suspicionless border searches of electronic devices to
advance pre-existing investigations. Exh. 35 (CBP
Instructor Guide— P180C) at Bates 1281 (“ongoing
INVESTIGATIONS”); Exh. 26 (Defs. Interrog.
Responses) at #16 (“the potential for that search to
further a particular investigation”); Exh. 14 (ICE
30(b)(6) depo.) at 193:2–15; Exh. 29 (DHS 2009 PIA)
at Bates 222.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
B.

Digital Contraband at the Border

92.
Child pornography is primarily transferred
into the United States via the internet. Exh. 14 (ICE
30(b)(6) depo.) at 297:9–12.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
93.

ICE considers few things to be digital
230a

contraband: child pornography, malware, information
that cannot lawfully be exported, and unreported
digital currency. Exh. 14 (ICE 30(b)(6) depo.) at 37:25–
38:24, 39:3–19.
Defendants’ Response: Dispute that this is
an exhaustive list of digital contraband and
further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The ICE deposition testimony
states: “Q. Okay, So other than the three
examples you’ve given now — the child
pornography, … the export control violation
and the malware exploit — are you aware of
any other examples of digital information on a
traveler’s of digital information on a traveler’s
device that, of itself, would be illegal
contraband? A. That’s all I can think of right
now.” Exh. 14 (ICE 30(b)(6) depo.) at 40:2–9.
This is a material fact because it is relevant to
evaluating the government’s interest under the
Fourth Amendment balancing test. See Pl. Br.
at Part I.A.2.
94.
CBP cannot identify any type of digital
contraband beyond child pornography. Exh. 13 (CBP
30(b)(6) depo.) at 62:8–66:15.
Defendants’ Response: Dispute plaintiffs’
characterization of the deposition testimony.
Howe Declaration (Ex. A) ¶-_.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs refer the Court to
the pages listed in the CBP deposition
testimony, in which after repeated questioning,
the deponent was only able to identify child
231a

pornography as the sole example of digital
contraband. See Exh. 13, ECF No. 91-12 (CBP
30(b)(6) depo.) at 62:8–66:15.
95.
Digital data can be posted, shared, or
transmitted via the internet and stored on an
electronic device. Exh. 46 (Stipulations) at ¶ 9.
Defendants’ Response: No dispute, except
dispute that it is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
96.
Defendants are aware that digital
contraband may in certain circumstances be
accessible from the United States via the internet.
Exh. 26 (Defs. Interrog. Responses) at #5.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
97.
ICE acknowledges that child pornography
can enter or be viewed in the United States via the
internet in many ways:
a. By viewing content on servers located
outside the United States.
b. Exh. 14 (ICE 30(b)(6) depo.) at 286:5–13.
c. As email attachments. Id. at 286:15–19.
232a

d. As text messages. Id. at 286:20–25.
e. Via live streaming. Id. at 288:20–289:7.
f. Via a listserv or chat group. Id. at 289:20–
24.
g. Via the Dark Web. Id. at 290:7–9.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
98.
When
Defendants
confiscate
digital
contraband at the border, they either (a) cannot
determine whether that digital contraband is already
present in the United States, or (b) can determine,
through a method known as “hashing,” that the digital
contraband is already present in the United States.
Exh. 14 (ICE 30(b)(6) depo.) at 299:5– 24.
Defendants’
Response:
Dispute
that
defendants “confiscate” digital contraband and
that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
C.

Lack of Evidence That Defendants’
Policies and Practices Are Effective

99.
CBP and ICE do not know how many
warrantless or suspicionless border searches of
233a

electronic devices uncover digital contraband. Exh. 26
(Defs. Interrog. Responses) at #13; Exh. 13 (CBP
30(b)(6) depo.) at 68:10–14; Exh. 14 (ICE 30(b)(6)
depo.) at 44:25–45:7.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
100.
CBP and ICE do not know how many
warrantless or suspicionless border searches of
electronic devices uncover potential evidence of
criminal activity. Exh. 13 (CBP 30(b)(6) depo.) at
68:15–20; Exh. 14 (ICE 30(b)(6) depo.) at 338:18–24.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
101.
CBP does not know how many warrantless or
suspicionless border searches of electronic devices
result in prosecution or conviction. Exh. 27 (DHS OIG
2018 Report) at Bates 982.
Defendants’ Response: Dispute that this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
234a

it is relevant to evaluating the government’s
interest under the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.
102.
ICE does not know how many warrantless or
suspicionless border device searches result in criminal
arrests or indictments, or referrals to other law
enforcement agencies. Exh. 36 (ICE/HSI Priority
Requests) at Bates 93.
Defendants’ Response: Dispute plaintiffs’
characterization of the cited evidence because
the referenced exhibit provides statistics for
arrests, indictments, seizures, search warrants,
and administrative arrests resulting from
investigations that included a border search of
an electronic device. Bates 0094. Also dispute
that this is a material fact.
Plaintiffs’ Reply: Dispute Defendants’
characterization of the evidence. The
referenced exhibit states: “[Q.] By year, please
identify the number of criminal arrests,
indictments by nearly [sic], search warrants,
and/or seizures occurred based upon, in part,
the screening of an individual’s electronic
device. [A.] There is no feasible way to produce
meaningful statistics for this request. While a
number could be produced that identified cases
where a border search of an electronic device
was conducted, that may not be indicative that
the search supported any particular arrest,
indictment, search warrant, or seizure. HSI
Investigations involve a myriad of factors that
would justify an arrest, indictment, or search
warrant of which a border search would be only
one factor of many.” Exh. 36, ECF No. 91-35
235a

(ICE/HSI Priority Requests) at Bates 93
(emphasis added). There is a difference
between (1) a border search of an electronic
device search resulting in criminal arrests or
indictments and (2) criminal arrests or
indictments “resulting from investigations that
included a border search of an electronic device”
(emphasis added), because in the latter
situation, the border search of an electronic
device may not have contributed at all to the
ultimate arrest or indictment. The statistics
that Defendants cite to involve the latter
situation. See Exh. 51 at Bates 94. This is a
material fact because it is relevant to
evaluating the government’s interest under the
Fourth Amendment balancing test. See Pl. Br.
at Part I.A.2.
D. CBP and ICE Obtain Warrants and
Apply
a
Reasonable
Suspicion
Standard
1.

CBP Obtains Warrants

103.
CBP sometimes conducts searches of
electronic devices pursuant to warrants. Exh. 38
(Border Patrol 2018 Digital Forensics Program PIA)
at Bates 1130–31.
Defendants’ Response: Dispute plaintiffs’
characterization of cited document which
applies only when agency employees in a
separate operational office within CBP are not
operating pursuant to border search authority.
Further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. It is irrelevant that this fact
236a

pertains to when CBP is not operating pursuant
to border search authority. This fact merely
states that there are situations in which CBP is
familiar with obtaining warrants for searches
of electronic devices. This is a material fact
because it is relevant to the application of the
Fourth Amendment balancing test. See Pl. Br.
at Part I.A.2.c.
104.
CBP sometimes applies a probable cause
standard for the seizure of an electronic device. Exh.
13 (CBP 30(b)(6) depo.) at 260:11–15.
Defendants’ Response: Dispute plaintiffs’
characterization of the fact and refer to the CBP
Directive which specifies that Officers may
seize and retain an electronic device or copies of
information from the device, when, based on a
review of the electronic device encountered or
on other facts and circumstances, they
determine there is probable cause to believe the
device, or copy of the contents of the device,
contains evidence of a violation of a law that
CBP is authorized to enforce or administer. See
Exh. 19 at 5.5.1.1. Further dispute that this is
a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The CBP 2018 Directive
contemplates probable cause based “on other
facts and circumstances.” Exh. 19, ECF No. 9118 (CBP 2018 Directive) at § 5.5.1.1, Bates 121.
This is a material fact because it is relevant to
the application of the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.c.
105.

CBP provides officers written guidance and
237a

training on what constitutes probable cause. Exh. 13
(CBP 30(b)(6) depo.) at 260:16–261:16. CBP also
provides training on how to obtain warrants. Id. at
279:25–280:4.
Defendants’ Response: Dispute plaintiffs’
characterization of the fact. Although officers
are provided guidance and training on probable
cause and warrants, it is only for specific
situations and as it relates to certain distinct
legal authorities (other than border search
authority) under which CBP officers may
operate. Further, dispute that this is a material
fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. It is irrelevant that this fact
pertains to when CBP is not operating pursuant
to border search authority. This fact merely
states that there are situations in which CBP
demonstrates familiarity with the probable
cause standard and how to obtain warrants.
This is a material fact because it is relevant to
the application of the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.c.
106.
CBP sometimes obtains warrants for
searches of international mail. Exh. 13 (CBP 30(b)(6)
depo.) at 267:3–5. Specifically, if the officer has
reasonable suspicion that a sealed parcel contains
contraband, they may open it, but still need a warrant
to read any correspondence. Id. at 268:12–25, 270:20–
271:7; Exh. 39 (2001 International Mail Handbook) at
Bates 1269. Without reasonable suspicion of
contraband, CBP needs a warrant to open the mail.
Exh. 13 (CBP 30(b)(6) depo.) at 268:12–25; 270:20–
271:7; see also Exh. 39 (2001 International Mail
238a

Handbook) at Bates 1269.
Defendants’ Response: Dispute plaintiffs’
characterization of the deposition testimony
and cited exhibits. Admit that CBP sometimes
works with other agencies to obtain warrants
for searches of international mail and that in
limited situations, officers need a warrant to
read correspondence contained in sealed letter
class mail that is transmitted within the
international postal system and not letters
carried by individuals or private carriers.
Further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The 2001 International Mail
Operations and Enforcement Handbook states:
“[A] search warrant shall be obtained before
any correspondence is read, seized, or referred
to another agency . . . Customs would need to
get a search warrant based on coherent facts
before the correspondence could be read and
used as evidence in the case.” Exh. 39, ECF No.
91-38 (2001 International Mail Handbook) at
Bates 1269. This is a material fact because it is
relevant to the application of the Fourth
Amendment balancing test. See Pl. Br. at Part
I.A.2.c.
107.
Although CBP must obtain a warrant to read
correspondence in international mail, CBP asserts it
may read correspondence on an electronic device
without any suspicion. Exh. 13 (CBP 30(b)(6) depo.) at
278:14–20.
Defendants’ Response: Dispute plaintiffs’
characterization of the testimony and refer to
239a

the International Mail handbook (Exh. 39) for
an accurate interpretation of the policy. The
policy applies only when sealed international
letter-class mail is in the custody of the postal
service. It does not apply to border searches.
Further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs do not assert that
the 2001 International Mail Operations and
Enforcement Handbook applies to ports of
entry, but rather that international mail
inspection occurs in a customs setting, where a
warrant is required to read correspondence.
This is a material fact because it is relevant to
the application of the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.c.
108.
CBP officers sometimes obtain warrants at
the border to conduct:
a. Involuntary x-ray searches. Exh. 13 (CBP
30(b)(6) depo.) at 262:13–17; Exh. 40 (CBP
2004 Personal Search Handbook) at § 6.h.,
Bates 1095.
b. Involuntary body cavity searches. Exh. 13
(CBP 30(b)(6) depo.) at 263:13–15; Exh. 40
(CBP 2004 Personal Search Handbook) at §
8.I.d., Bates 1101.
c. Prolonged
detentions
for
medical
examinations. Exh. 40 (CBP 2004 Personal
Search Handbook) at § 2.p., Bates 1076.
Defendants’
Response:
Dispute
characterization of the Handbook and refer
court to the document for an accurate
240a

statement of its contents. Further, dispute that
this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to the application of the Fourth
Amendment balancing test. See Pl. Br. at Part
I.A.2.c.
109.
CBP’s Air and Marine Operations is required
to get a warrant before searching an electronic device
whenever it is operating outside the border
environment. Exh. 13 (CBP 30(b)(6) depo.) at 286:25–
287:3, 287:7–12; Exh. 41 (CBP AMO Guidance) at
Bates 1169; Exh. 42 (CBP 2017 AMCIT
Memorandum) at Bates 1153.
Defendants’ Response: Dispute plaintiffs’
characterization of the deposition testimony
and cited guidance. Further dispute that this is
a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs refer the Court to
the cited material. This is a material fact
because it is relevant to the application of the
Fourth Amendment balancing test. See Pl. Br.
at Part I.A.2.c.
2.

ICE Obtains Warrants

110.
ICE advises its agents to obtain a warrant “if
time permits” and if agents have “any doubt”
concerning whether a warrant is required. Exh. 43
(HSI 2012 Search and Seizure Handbook) at § 6.3,
Bates 1187, § 7.11.4, Bates 1201.
Defendants’
Response:
Dispute
this
characterization. ICE advises that its agents
241a

“operating in a non-border environment should
make every effort to obtain a warrant prior to
searching, even if an exception to the warrant
requirement appears to exist.” Id. at § 8, Bates
1203. Do not dispute this statement in a nonborder environment.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs do not assert that
this policy applies to the border environment.
111.
ICE trains agents on how to seek a warrant.
Exh. 14 (ICE 30(b)(6) depo.) at 251:4–7, 261:2–10. This
training occurs at the ICE academy, on the job, from
supervisors and senior officers, from the local U.S.
Attorney’s office, and from the Office of the Principal
Legal Advisor. Id. at 261:15–25, 262:9–16, 263:5–14,
263:24–264:15, 264:21– 265:8.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
112.
ICE’s written training materials provide
details on how to prepare an affidavit to establish
probable cause for a warrant. Exh. 43 (HSI 2012
Search and Seizure Handbook) at § 7.11.4, Bates
1201–02, § 8.2, 1204–05.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
113.

ICE policy on international mail requires:
a. A warrant to search inbound international
mail that is sealed and appears to contain
only correspondence. Exh. 44 (MOU
Between ICE/HSI and USPS) at § 4.A.3,
Bates 1272; Exh. 14 (ICE 30(b)(6) depo.) at
242a

248:5–9.
b. A warrant to search outbound international
mail that is sealed and weighs less than 16
ounces. Exh. 44 (MOU Between ICE/HSI
and USPS) at § 4.B.3, Bates 1273.
c. A warrant to read correspondence contained
in other types of inbound and outbound
international mail. Id. at § 4.A.2, § 4.B.2.,
Bates 1272–73.
d. Reasonable suspicion of contraband to open
a parcel, and a warrant to read
correspondence in that parcel. Id. See also
Exh. 14 (ICE 30(b)(6) depo.) at 248:10–15.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
114.
If an ICE agent opens sealed mail on
reasonable suspicion, and it contains correspondence
on digital storage media, ICE policy requires a
warrant to read that digital correspondence. Exh. 14
(ICE 30(b)(6) depo.) at 249:6–250:10.
Defendants’
Response:
Dispute
this
characterization of ICE policy. An electronic
device in the mail would not be treated as solely
correspondence for purposes of a border search
of mail because the electronic device is
merchandise itself, regardless of the data on the
device. Accordingly, the laws, regulations, and
policy regarding searching sealed mail
containing solely correspondence do not apply.
See Exh. 44 at §§ 4.A.2, Bates 1272.
Plaintiffs’ Reply: Defendants’ statement that
243a

electronic devices in the mail are merchandise
is a legal assertion for which no response is
required under Federal Rule of Civil Procedure
56(c) and/or Local Rule 56.1. To the extent a
response is deemed required: Plaintiffs dispute,
as a legal matter, Defendants’ statement that
all electronic devices in the mail are
merchandise, and further dispute this is a
material fact. However, even if the device were
considered merchandise, if the device had
correspondence on it, agents would stop reading
and have to get a warrant to continue reading.
See Exh. 14, ECF No. 91-13 (ICE 30(b)(6) depo.)
at 249:6–250:10. Moreover, Defendants’ cited
evidence does not support their assertions, as
the cited material is silent on the issue of
whether an electronic device could both be
merchandise and contain correspondence. See
Exh. 44, ECF No. 91-43 (MOU Between
ICE/HSI and USPS) at §§ 4.A.2, Bates 1272
(“Customs officers, may, without a search
warrant, search inbound international mail
that is sealed against inspection if a customs
officer has a reasonable suspicion that the mail
contains merchandise or contraband. No one
acting under the authority of this section shall
read or authorize any other person to read any
correspondence contained in mail sealed
against inspection without a search warrant”).
115.
ICE agents sometimes obtain warrants at
the border to conduct:
a. X-ray searches. Exh. 14 (ICE 30(b)(6) depo.)
at 259:11–16.
b. Involuntary body cavity searches. Id. at
244a

260:14–25.
c. Detentions that last longer than eight
hours. Id. at 254:19–255:6, 255:13– 21,
256:7–258:3.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
3.

CBP and ICE Apply the Reasonable
Suspicion Standard

116.
Since at least 2015, CBP has had procedures
for conducting advanced device searches based on
reasonable suspicion. Exh. 13 (CBP 30(b)(6) depo.) at
254:7– 14; 256:9–19; Exh. 45 (CBP 2015
Memorandum on Cotterman) at Bates 129–30.
Defendants’ Response: No dispute that CBP
has procedures for conducting advanced device
searches based on reasonable suspicion of laws
it enforces or administers. Dispute that this is
a material fact since the Amended Complaint
does not contain a claim for relief involving
reasonable suspicion.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to the application of the Fourth
Amendment balancing test. See Pl. Br. at Part
I.A.2.c. This is also a material fact because,
should the Court determine that a warrant is
not required, it may require reasonable
suspicion. See Pl. Br. at Part I.C.
117.
CBP officers are accustomed to applying the
reasonable suspicion standard for advanced device
searches. Exh. 13 (CBP 30(b)(6) depo.) at 259:8–15.
245a

Defendants’ Response: No dispute, except to
dispute that this is a material fact since the
Amended Complaint does not contain a claim
for relief involving reasonable suspicion.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to the application of the Fourth
Amendment balancing test. See Pl. Br. at Part
I.A.2.c. This is also a material fact because,
should the Court determine that a warrant is
not required, it may require reasonable
suspicion. See Pl. Br. at Part I.C.
118.
CBP has written guidance and training on
reasonable suspicion. Exh. 13 (CBP 30(b)(6) depo.) at
257:11–259:7. ICE provides training to its agents on
reasonable suspicion. Exh. 14 (ICE 30(b)(6) depo.) at
279:22–280:8.
Defendants’ Response: No dispute, except to
dispute that this is a material fact since the
Amended Complaint does not contain a claim
for relief involving reasonable suspicion.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is relevant to the application of the Fourth
Amendment balancing test. See Pl. Br. at Part
I.A.2.c. This is also a material fact because,
should the Court determine that a warrant is
not required, it may require reasonable
suspicion. See Pl. Br. at Part I.C.
119.
ICE policy requires agents at the border to
have reasonable suspicion for:
a. Strip searches. Exh. 14 (ICE 30(b)(6) depo.)
246a

at 278:8–15. See also Exh. 43 (HSI 2012
Search and Seizure Handbook) at § 11.1,
Bates 1224 (requiring reasonable suspicion
for “partial body search[es]”).
b. X-ray or body cavity searches. Exh. 14 (ICE
30(b)(6) depo.) at 278:18– 279:11, 279:13–
20; Exh. 43 (HSI 2012 Search and Seizure
Handbook) at §10.9, Bates 1219. A
destructive search of a vehicle or other
object. Exh. 43 (HSI 2012 Search and
Seizure Handbook) at §11.1, Bates 1224.
Defendants’ Response: No dispute, except to
dispute that this is a material fact since the
Amended Complaint does not contain a claim
for relief involving reasonable suspicion.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact because
it is the application of the Fourth Amendment
balancing test. See Pl. Br. at Part I.A.2.c. This
is also a material fact because, should the Court
determine that a warrant is not required, it
may require reasonable suspicion. See Pl. Br. at
Part I.C.
V. Plaintiffs’ Experiences at the Border
Defendants’ General Response: Defendants
dispute that any of the facts below relating to
Plaintiffs’ experiences at the border are
material to the Plaintiffs’ First and Fourth
Amendment facial challenges. To the extent
these facts are material it would only be to their
standing to bring this lawsuit.
Plaintiffs’ General Reply: The facts below
247a

relating to Plaintiffs’ experiences at the border
are material to Plaintiffs’ standing, and as
noted are also material to Plaintiffs’ First and
Fourth Amendment claims.
A.

Past Border Searches of Devices
1.

Ghassan and Nadia Alasaad

120.
Plaintiffs Ghassan and Nadia Alasaad are
U.S. citizens who reside in Massachusetts and are
married to each other. Exh. 1 (G. Alasaad Dec.) at ¶¶
2–4; Exh. 2 (N. Alasaad Dec.) at ¶¶ 2–4. He works as
a limousine driver, and she is a nursing student. Exh.
1 (G. Alasaad Dec.) at ¶ 1; Exh. 2 (N. Alasaad Dec.) at
¶ 1.
Defendants’ Response: No dispute that
Plaintiffs Ghassan and Nadia Alasaad made
these statements, but dispute they are material
facts.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
121.
On January 12, 2017, they returned by car to
the United States at Highgate Springs, Vermont. Exh.
1 (G. Alasaad Dec.) at ¶ 5; Exh. 2 (N. Alasaad Dec.) at
¶ 5. Ghassan Alasaad was traveling with an unlocked
Samsung Note smartphone. Exh. 1 (G. Alasaad Dec.)
at ¶ 5. Nadia Alasaad was traveling with a locked
iPhone 7 smartphone. Exh. 2 (N. Alasaad Dec.) at ¶ 5.
CBP officers conducted a manual search of Mr.
Alasaad’s phone. Exh. 2 (N. Alasaad Dec.) at ¶ 8; Exh.
1 (G. Alasaad Dec.) at ¶ 7; Exhs. 15 & 16 (Answer and
Complaint) at ¶ 65. CBP officers later searched Ms.
248a

Alasaad’s phone. Exh. 47 (EMR) at Bates 337–38, 340.
Defendants’ Response: The referenced
exhibits indicate that encounter occurred on
July 12, 2017, not January. Further dispute
that these facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs admit that the
encounter occurred on July 12, 2017. This is a
material fact to the extent that it supports
Plaintiffs’
standing,
and
the
Fourth
Amendment device search and confiscation
claims. See Pl. Br. Part IV and at pp. 11, 23.
122.
Nadia Alasaad objected to the search of her
phone on the ground that she wears a headscarf in
public in accordance with her religious beliefs, and she
had photos in her phone of herself without a headscarf
on and of her daughters that she did not want any
CBP officers, especially male officers, to view. Exh. 2
(N. Alasaad Dec.) at ¶¶ 10, 13.
Defendants’ Response: No dispute, except
dispute that this fact is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing,
their First Amendment claim, and their Fourth
Amendment device search claim. See Pl. Br. at
Parts III & IV and at p. 11.
123.
On August 28, 2017, Nadia Alasaad arrived
at John F. Kennedy International Airport with her 11year-old daughter. Id. at ¶ 19. Her daughter was
traveling with a locked iPhone 6+ smartphone. Id.
CBP officers searched Nadia Alasaad’s handbag,
249a

where they found the smartphone that her daughter
was using. Id. at ¶ 20; Exhs. 15 & 16 (Answer and
Complaint) at ¶ 74. CBP officers searched the phone.
Exhs. 15 & 16 (Answer and Complaint) at ¶ 76.
Defendants’ Response: No dispute, except
dispute that this fact is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
2.

Suhaib Allababidi

124.
Plaintiff Suhaib Allababidi is a U.S. citizen
who resides in Texas. Exh. 3 (Allababidi Dec.) at ¶¶ 2–
3. He owns and operates a business that sells security
technology. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Allababidi made these statements in
his declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
125.
On January 24, 2017, Allababidi returned to
Dallas, Texas, after an international trip. Id. at ¶ 4;
Exhs. 15 & 16 (Answer and Complaint) at ¶ 77. He
was traveling with a locked Samsung S7 Edge
smartphone and an unlocked iPhone smartphone.
Exh. 3 (Allababidi Dec.) at ¶ 4. A CBP officer seized
and manually searched Allababidi’s unlocked iPhone
for at least 20 minutes. Id. at ¶ 5. After Allababidi
declined to provide the password to his locked
250a

Samsung phone, CBP officers confiscated both phones
in order to conduct an “examination.” Id. at ¶ 6; Exhs.
15 & 16 (Answer and Complaint) at ¶¶ 79–80; Exh. 17
(Detention Notice and Custody Receipt) at Pls. Bates
62; see also Exh. 47 (Detention Notice and Custody
Receipt) at Bates 107.
Defendants’ Response: Do not dispute that
Plaintiff Allababidi’s phones were initially
searched by CBP and then detained for further
examination by an ICE Special Agent as
indicated by the signature and organization
listed on the cited Detention and Custody
Receipt (Ex. 17). Further dispute this is a
material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
3. Sidd Bikkannavar
126.
Sidd Bikkannavar is a U.S. citizen and a
resident of California. Exh. 4 (Bikkannavar Dec.) at
¶¶ 2–3. He is an optical engineer at NASA’s Jet
Propulsion Laboratory. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Bikkannavar made these statements
in his declaration, but dispute they are
material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
251a

127.
On January 31, 2017, Bikkannavar flew into
Houston, Texas, after an international trip. Id. at ¶ 4.
He was traveling with a locked Samsung Galaxy Note
5
smartphone.
Id.
CBP
officers
searched
Bikkannavar’s phone for 19 minutes. Exh. 47 (EMR)
at Bates 621. Afterwards, a CBP officer stated they
had used “algorithms” to search the phone. Exh. 4
(Bikkannavar Dec.) at ¶ 12.
Defendants’ Response: No dispute that
Plaintiff Bikkannavar made these statements
in his declaration, but dispute that this
correctly characterizes paragraph 12 of the
declaration. Further dispute that these facts
are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Bikkannavar’s declaration at
paragraph 12 states in full: “After about 30
minutes, the officer returned the phone to me
and informed me that officers had used
‘algorithms’ to search the contents of the phone,
which I understood to mean that they used one
or more forensic tools.” Exh. 4, ECF No. 91-3
(Bikkannavar Dec.) at ¶ 12. While Defendants’
Electronic Media Report (“EMR”) states that
the device search itself took 19 minutes, Exh.
47 (filed under seal) (EMR) at Bates 621,
Bikkannavar testified that the phone was
returned to him after about 30 minutes. This is
a material fact to the extent that it supports
Plaintiffs’ standing
and their Fourth
Amendment device search claim. See Pl. Br. at
Part IV and at p. 11.
4.

Jérémie Dupin

252a

128.
Jérémie Dupin is a lawful permanent
resident who resides in Massachusetts. Exh. 5 (Dupin
Dec.) at ¶ 2–3. He is a journalist. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Dupin made these statements in his
declaration but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their First Amendment claim. See Pl. Br. at
Part III & IV.
129.
On December 22, 2016, Dupin flew to Miami,
Florida after an international trip. Id. at ¶ 4. He was
traveling with a locked iPhone 5 smartphone, which
he used for his journalism work. Id. A CBP Officer
conducted a basic search of Dupin’s phone for about 15
minutes. Exhs. 15 & 16 (Answer and Complaint) at ¶
90. See also Exh. 47 (EMR) at Bates 689; Exh. 5
(Dupin Dec.) at ¶ 8.
Defendants’ Response: No dispute that
Plaintiff Dupin made these statements in his
declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing,
their First Amendment claim, and their Fourth
Amendment device search claim. See Pl. Br. at
Part III & IV and at p. 11.
130.
On December 23, 2016, Dupin traveled by
bus with his seven-year-old daughter from Montreal
to New York City. He carried the same locked iPhone.
Exh. 5 (Dupin Dec.) at ¶ 11. At the U.S. border
253a

customs checkpoint, a CBP officer took the phone into
another room for approximately four hours. Id. at ¶¶
12–15. CBP searched it. Exhs. 15 & 16 (Answer and
Complaint) at ¶¶ 94, 96; see also Exh. 47 (EMR) at
Bates 690–91. An officer periodically returned to ask
Dupin questions about the contents of his phone.
Dupin. Exh. 5 (Dupin Dec.) at ¶ 15; Exhs. 15 & 16
(Answer and Complaint) at ¶ 96.
Defendants’ Response: No dispute that
Plaintiff Dupin made these statements in his
declaration, but dispute they are material, but
dispute that the records show that his phone
was taken out of the room. See Ex.47 at Bates
711. Further dispute that these facts are
material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The records are silent as to
whether Dupin’s phone was taken out of the
room. Exh. 47 (filed under seal) at Bates 691,
711. However, Dupin testified to this fact in his
sworn declaration. Exh. 5, ECF No. 91-4 (Dupin
Dec.) at ¶ 8. This is a material fact to the extent
that it supports Plaintiffs’ standing and their
First Amendment claim. See Pl. Br. at Part III
& IV.
5.

Aaron Gach

131.
Aaron Gach is a U.S. citizen who resides in
California. Exh. 6 (Gach Dec.) at ¶¶ 2–3. He is an
artist. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Gach made these statements in his
declaration but dispute they are material.

254a

Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
132.
On February 23, 2017, Gach arrived at San
Francisco International Airport after an international
trip. Id. at ¶ 4. Gach traveled with a locked iPhone SE
smartphone. Id. CBP searched it. Exhs. 15 & 16
(Answer and Complaint) at ¶¶ 102–03; Exh. 47 (EMR)
at Bates 714– 15.
Defendants’ Response: No dispute that
Plaintiff Gach made these statements in his
declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. Part IV and at p. at 11.
6.

Ismail Abdel-Rasoul
Kushkush

aka

Isma’il

133.
Isma’il Kushkush is a U.S. citizen who
resides in Virginia. Exh. 7 (Kushkush Dec.) at ¶¶ 2–3.
He is a freelance journalist. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Kushkush made these statements in
his declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their First Amendment claim. See Pl. Br. at
255a

Part III & IV.
134.
On March 18, 2013, Kushkush arrived at
Washington Dulles International Airport after an
international trip. Exh. 47 (EMR) at Bates 913. At
Washington
Dulles,
CBP
officers
searched
Kushkush’s Blackberry Bold cell phone, two electronic
storage media, and two SIM cards. Id. at Bates 913–
14.
Defendants’ Response: No dispute that
Plaintiff KushKush made these statements in
his declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. Part IV and at p. at 11.
135.
On July 30, 2017, Kushkush entered the
United States at Highgate Springs, Vermont, via bus
from Canada. Exh. 7 (Kushkush Dec.) at ¶ 14. He was
carrying a locked iPhone 7 smartphone. Id. CBP
officers conducted a manual search of Kushkush’s
phone for about one hour. Exhs. 15 & 16 (Answer and
Complaint) at ¶ 117. See also Exh. 47 (TECS records)
at Bates 304, 332–33; Exh. 47 (HSI Report of
Investigation) at Bates 105.
Defendants’ Response: No dispute that
Plaintiff KushKush made these statements in
his declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
256a

See Pl. Br. at Part IV and at p. 11.
7.

Zainab Merchant

136.
Zainab Merchant is a U.S. citizen who
resides in Toronto, Canada. Exh. 8 (Merchant Dec.) at
¶¶ 2–3. She is a writer, graduate student, and the
founder and editor of a media website. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Merchant made these statements in
her declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
137.
On March 5, 2017, Merchant arrived at the
Toronto airport for a flight to Orlando. Id. at ¶ 4. She
traveled with a locked Samsung smartphone. Id. CBP
searched Merchant’s phone. Exhs. 15 & 16 (Answer
and Complaint) at ¶ 135. See also Exh. 47 (EMR) at
Bates 754. The search lasted 25 minutes. Exh. 47
(EMR) at Bates 754.
Defendants’ Response: No dispute that
Plaintiff Merchant made these statements in
her declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
138.
CBP officers questioned her about her
religious affiliation and her blog, including asking her
about an article she had written on the blog that
257a

described a previous border crossing experience. Exh.
8 (Merchant Dec.) at ¶ 11.
Defendants’ Response: No dispute that
Plaintiff Merchant made this statement in her
declaration, but dispute it accurately
characterizes the encounter and refer the Court
to Ex. 47, Bates 766. Further dispute this fact
is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The records Defendants cite
are silent as to whether CBP officers questioned
Merchant about her religious affiliation and her
blog. Exh. 47 (filed under seal) at Bates 766.
However, Merchant has testified to these facts
in her sworn declaration. Exh. 8, ECF No. 91-7
(Merchant Dec.) at ¶ 11. This is a material fact
to the extent that it supports Plaintiffs’
standing. See Pl. Br. at Part IV.
139.
Merchant was concerned about CBP officers
searching her phone because she wears a headscarf in
public in accordance with her religious beliefs, and the
phone contained pictures of her without her headscarf
that she did not want officers to see. Id. at ¶ 6.
Defendants’ Response: No dispute that
Plaintiff Merchant expressed this concern in
her declaration but dispute that the statement
accurately characterize the encounter and refer
the Court to Ex. 47, Bates 766. This concern
appears to have been expressed in the search
conducted on July 7, 2018. See Ex. 47. Bates
757. Further dispute this fact is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The fact discusses why
258a

Merchant did not want her phone searched
rather than if she communicated this
information to CBP officers. Exh. 8, ECF No.
91-7 (Merchant Dec.) at ¶ 11. This is a material
fact to the extent that it supports Plaintiffs’
standing, their First Amendment claim, and
their Fourth Amendment device search claim.
See Pl. Br. at Part III & IV and at p. 11.
140.
On April 5, 2018, Merchant arrived in
Orlando, Florida, after an international trip. Exh. 8
(Merchant Dec.) at ¶ 14. She carried a locked Samsung
Note 8 smartphone. Id. CBP officers searched it. Exh.
47 (EMR) at Bates 908.
Defendants’ Response: No dispute, except
dispute that these facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
141.
On July 7, 2018, Merchant arrived in Fort
Lauderdale, Florida, after an international trip. Exh.
8 (Merchant Dec.) at ¶ 22. She carried a locked
Samsung Note 8 smartphone. Id. A CBP officer
searched Merchant’s phone for about 15 minutes. Exh.
47 (EMR) at Bates 755, 758.
Defendants’ Response: No dispute, except
dispute that these facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
259a

See Pl. Br. at Part IV and at p. 11.
142.
On September 9, 2018, Merchant traveled
from Toronto, Ontario, to Orlando, Florida. Exh. 8
(Merchant Dec.) at ¶ 27. She carried a locked Samsung
Note 8 smartphone. Id. A CBP officer directed
Merchant to turn over her smartphone. Merchant told
the officer that she did not consent to the search and
that her device contained attorney-client privileged
communications. Id. at ¶ 28. Nonetheless, “CBP
conducted a basic search of Ms. Merchant’s cell
phone,” which lasted about ten minutes. Exh. 24
(Email from Marsha Edney, Sept. 20, 2018). See also
Exh. 47 (EMR) at Bates 759–60. Merchant saw the
officer viewing emails and text messages between
herself and her lawyer. Exh. 8 (Merchant Dec.) at ¶
31.
Defendants’ Response: No dispute except to
dispute that the third and last sentences
accurately characterize the encounter and refer
the Court to Ex. 47, Bates 757-58 for an
accurate description. Further dispute these
facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Defendants’ citation to Exh.
47 (filed under seal) at Bates 757–58, relates to
the July 7, 2018 border device search, and not
the September 9, 2018 border device search.
This is a material fact to the extent that it
supports Plaintiffs’ standing, their First
Amendment
claim,
and
their
Fourth
Amendment device search claim. See Pl. Br. at
Part III & IV and at p. 11.
8.

Akram Shibly
260a

143.
Mohammed Akram Shibly is a U.S. citizen
who currently lives in Los Angeles. Exh. 9 (Shibly
Dec.) at ¶¶ 2–3. He is a filmmaker and a graduate
student. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Shibly made these statements in his
declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
144.
On January 1, 2017, Shibly entered the
United States at the Lewiston- Queenston Bridge in
New York. Id. at ¶ 4. He was carrying a locked iPhone
6+ smartphone. Id. A CBP officer searched it. Exhs. 15
& 16 (Answer and Complaint) at ¶ 140. See also Exh.
47 (EMR) at Bates 847, 849. The search lasted 37
minutes. Exh. 47 (EMR) at Bates 847.
Defendants’ Response: No dispute, except
dispute that the facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
9.

Matthew Wright

145.
Matthew Wright is a U.S. citizen who resides
in Colorado. Exh. 10 (Wright Dec.) at ¶¶ 2–3. He is a
computer programmer. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Wright made these statements in his
261a

declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
146.
On April 21, 2016, Wright arrived in Denver,
Colorado, after an international trip. Id. at ¶ 5. Wright
was traveling with a locked iPhone 6 smartphone, a
locked MacBook Pro laptop, and an unlocked GoPro
camera. Id. Wright declined a CBP officer’s demand to
unlock his laptop. As a result, CBP officers confiscated
his laptop, phone, and camera. Id. at ¶ 6.
Defendants’ Response: No dispute, except
dispute that they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device search claim.
See Pl. Br. at Part IV and at p. 11.
147.
“CBP extracted and obtained information
from Plaintiff Wright’s devices.” Exhs. 15 & 16
(Answer and Complaint) at ¶ 155. Specifically, an ICE
agent “attempted to image Mr. Wright’s laptop with
MacQuisition software, and a CBP forensic scientist
extracted data from the SIM card in Wright’s phone
and from his camera.” Exhs. 15 & 16 (Answer and
Complaint) at ¶ 44. See also Exh. 25 (June 6, 2016
CBP email) at Pls. Bates 953; Exh. 47 (HSI Digital
Forensic Report) Bates 98.
Defendants’ Response: No dispute, except
dispute that they are material.
262a

Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.

10. Diane Maye Zorri
148.
Diane Maye Zorri is a U.S. citizen who
resides in Florida. Exh. 11 (Zorri Dec.) at ¶¶ 2–3. She
is a university professor and a former United States
Air Force captain. Id. at ¶ 1.
Defendants’ Response: No dispute that
Plaintiff Zorri made these statements in her
declaration, but dispute they are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
149.
On June 25, 2017, Zorri arrived in Miami,
Florida, after an international trip. Id. at ¶ 4. Zorri
was traveling with a MacBook Pro laptop and an
iPhone 7 smartphone, both locked. Id. CBP searched
Zorri’s phone for about 45 minutes. Exhs. 15 & 16
(Answer and Complaint) at ¶¶ 121, 124. See also Exh.
47 (EMR) at Bates 729, 731.
Defendants’ Response: No dispute that
Plaintiff Zorri made these statements in her
declaration but Defendants note that the
referenced EMR pages (729-731) only mention
an iPhone. Further dispute these facts are
material.
263a

Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. The Electronic Media Report
specifically mentions Maye Zorri’s “Apple cell
phone.” Exh. 47 (filed under seal) (TECS
records) at 729. Maye Zorri also testified to both
her cell phone and laptop being searched. Exh.
11, ECF No. 91-10 (Maye Zorri Decl.) at ¶¶ 5–
8. Additionally, the EMR states that “All of the
electronic devices were returned to the
traveler.” Exh. 47 (filed under seal) (TECS
records) at Bates 731 (emphasis added). This is
a material fact to the extent that it supports
Plaintiffs’ standing
and their Fourth
Amendment device search claim. See Pl. Br. at
Part IV and at p. 11.
B.

Ongoing Retention of Information
From Past Device Searches

150.
Defendants have retained in TECS
information its officers observed during the search of
the contents of seven Plaintiffs’ phones: Ghassan
Alasaad, Nadia Alasaad, Bikkannavar, Dupin,
Merchant, Shibly, and Zorri. Exh. 26 (Defs. Interrog.
Responses) at #10 (Nadia Alasaad, Bikkannavar,
Dupin, Merchant, and Zorri); Exh. 47 (TECS records)
at Bates 340, 351, 355, 359 (Ghassan Alasaad); Exh.
47 (TECS records) at Bates 340, 351, 355, 359 (Nadia
Alasaad); Exh 47 (TECS records) at Bates 691, 711
(Dupin); Exh 47 (TECS records) at Bates 849, 873, 878
(Shibly).
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
151.
Defendants also have retained information
copied from Wright’s electronic devices.
264a

a. The data extracted from Wright’s devices
was stored on three thumb drives. Exh. 25
(EMR) at Pls. Bates 938.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
b. Two months after CBP returned Wright’s
devices to him, CBP continued to retain the
thumb drives. Exh. 47 (EMR) at Bates 888;
Exh. 47 (log of items received by CBP
laboratory) at Bates 909; Exh. 28 (Def.
Privilege Log of 12/7/18) (describing Bates
909 as “[l]og of items received by CBP
laboratory”); Exh. 24 (Email from Marsha
Edney, Nov. 21, 2018) (describing Bates 909
as “a log of items received by a law
enforcement laboratory, and includes a
notation of receipt of thumb drives relating
to the inspection of Plaintiff Wright’s
electronic devices”).
Defendants’ Response: Dispute that these
facts are material and the inference being
drawn by the absence of a document showing
destruction. Defendants aver that all copies of
Wright’s data have been deleted. See
Declaration of Jenny Tsang (Ex. L.). There is
no material dispute because this information
is uniquely with in Defendants’ knowledge and
does not matter as a matter of law.
Plaintiffs’ Reply: No dispute.
c. DHS policy requires that “a record of the
destruction [of information from a traveler’s
device] is documented in the TECS Report of
265a

Investigation (ROI).” Exh. 29 (DHS 2009
PIA), at Bates 228. In both civil discovery in
this case and in response to a FOIA request
from Wright, CBP and ICE produced no
records showing that the data retained on
the thumb drives was destroyed. Exh. 12
(Cope Dec.) at ¶¶ 4–5.
Defendants’ Response: No dispute.
Plaintiffs’ Reply: No dispute.
C.
1.

Past Device Confiscations1
Ghassan and Nadia Alasaad

152.
CBP officers retained Ghassan and Nadia
Alasaad’s phones after the Alasaads left the border
area on July 12, 2017. Exh. 1 (G. Alasaad Dec.) at ¶
15; Exh. 47 (EMR) at Bates 340.
Defendants’ Response: Dispute only to the
extent that that the undefined term “retained”
is used. Admit that the phones were detained.
Ex. 47 at Bates 340.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs use the term
“retained” as a synonym for detained or
confiscated.
153.
Ghassan and Nadia Alasaad had to spend
approximately $1,000 to purchase two new phones.
Exh. 1 (G. Alasaad Dec.) at ¶ 17; Exh. 2 (N. Alasaad

Defendants disagree with the use of the term
“confiscations” but admit that they do sometimes
detain and/or seize electronic devices.
1

266a

Dec.) at ¶ 17.
Defendants’ Response: No dispute that
Plaintiffs Ghassan and Nadia Alasaad made
this statement in their declarations, but
dispute that the fact is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
154.
Twelve days after Ghassan and Nadia
Alasaad crossed the border, CBP officials sent their
phones back to them. Exhs. 15 & 16 (Answer and
Complaint) at ¶ 72.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device confiscation
claim. See Pl. Br. at Part IV and at p. 23.
155.
Soon after receiving his phone from CBP,
Ghassan Alasaad attempted to access certain media
files in his WhatsApp application, including videos of
his daughter’s graduation. The phone displayed the
message, “Sorry, this media file doesn’t exist on your
internal storage.” This did not occur prior to CBP’s
confiscation of the phone. Exh. 1 (G. Alasaad Dec.) at
¶ 19.
Defendants’ Response: No dispute that
Plaintiff Alassad made these statements in his
declaration, but Defendants lack knowledge or
information to determine if they are true or not.
267a

Further, dispute that the facts are material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
2.

Suhaib Allababidi

156.
On January 24, 2017, CBP officers detained
Allababidi’s unlocked iPhone and locked Samsung
smartphone after he had been permitted to leave the
border area. Exhs. 15 & 16 (Answer and Complaint)
at ¶¶ 79–80; Exh. 3 (Allababidi Dec.) at ¶ 6.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
157.
CBP
officers
confiscated
Allababidi’s
unlocked phone even though an officer had already
manually searched the phone and returned it to
Allababidi. Exhs. 15 & 16 (Answer and Complaint) at
¶¶ 79–80; Exh. 3 (Allababidi Dec.) at ¶¶ 5–6.
Defendants’ Response: Dispute only to the
extent that the undefined term confiscate is
used. Further dispute that this is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
158.

Allababidi had to spend more than $1,000 on
268a

replacement phones. Exh. 3 (Allababidi Dec.) at ¶ 9.
Defendants’ Response: No dispute that
Plaintiff Allababidi made this statement in his
declaration, but dispute that the fact is
material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
159.
Allababidi’s phones were sent to the
“Regional Computer Forensic Lab” on February 15,
2017, and then sent to another location on March 3,
2017. Exh. 47 (Detention Notice and Custody Receipt)
at Bates 107.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
160.
The unlocked iPhone was returned to
Allababidi more than two months after confiscation.
Exh. 3 (Allababidi Dec.) at ¶ 7. See also Exh. 47
(Detention Notice and Custody Receipt) at Bates 107.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device confiscation
claim. See Pl. Br. at Part IV and at p. 23.
269a

161.
The locked Samsung smartphone was
returned to Allababidi on December 13, 2017, more
than ten months after confiscation, and just two days
before Defendants moved to dismiss in this case. Exh.
3 (Allababidi Dec.) at ¶ 8; Exh. 32 (Defs. Motion to
Dismiss) at p. 9.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device confiscation
claim. See Pl. Br. at Part IV and at p. 23.
3.

Matthew Wright

162.
CBP officers seized Wright’s smartphone,
laptop, and GoPro camera on April 21, 2016. Exh. 25
(Detention Notice and Custody Receipt) at Pls. Bates
945.
Defendants’ Response: Dispute only to the
extent that that the term “seized” is used.
Admit that the devices were detained. Ex. 25 at
Bates 945.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. Plaintiffs use the term
“seized” as a synonym for detained or
confiscated.
163.
An officer informed Wright that it might take
CBP as long as a year to return his devices to him.
Exh. 10 (Wright Dec.) at ¶ 7.
Defendants’ Response: No dispute that
Plaintiff Wright states this in his declaration,
270a

but dispute that his is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
164.
Wright spent $2,419.97 for a new laptop and
phone. Exh. 10 (Wright Dec.) at ¶ 8. As a computer
programmer, Wright’s livelihood depends on these
tools. Id.
Defendants’ Response: No dispute that
Plaintiff Wright states this in his declaration,
but Defendants lack any knowledge of these
facts. Further dispute these are material facts.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
165.
Wright’s electronic devices were transferred
between CBP and ICE facilities multiple times. Exh.
25 (EMR) at Pls. Bates 936–38.
Defendants’ Response: No dispute, except
dispute that it is material.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
166.
CBP returned Wright’s electronic devices to
him after 56 days, on June 16, 2016. Exh. 25 (EMR) at
Pls. Bates 938; Exh. 10 (Wright Dec.) at ¶ 9.
Defendants’ Response: No dispute, except
dispute that it is material.
271a

Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. This is a material fact to the
extent that it supports Plaintiffs’ standing and
their Fourth Amendment device confiscation
claim. See Pl. Br. at Part IV and at p. 23.
D.

Other Recurring Border Scrutiny

167.
Eight Plaintiffs have been subjected to
recurring secondary inspections during border
crossings. Exh. 47 (TECS records) at Bates 338, 348,
350–51, 362–367 (six of Ghassan Alasaad); Exh. 47
(TECS records) at Bates 338, 350, 363–64 (three of
Nadia Alasaad); Exh. 47 (TECS records) at Bates 586–
88, 590, 592–95, 600, 602–04, 606, 608–620 (nine of
Allababidi); Exh. 47 (TECS records) at Bates 678,
680–82, 684–85, 688 (seven of Bikkannavar); Exh. 47
(TECS records) at Bates 704–05, 707–13 (six of
Dupin); Exh. 47 (TECS records) at Bates 319-322,
324–25, 327, 329–30, 332–35, 913–15 (eight of
Kushkush); Exh. 47 (TECS records) at Bates 817,
819–22, 824–26, 828–30, 832, 834, 836–39, 841–45
(eight of Merchant); Exh. 47 (TECS records) at Bates
868, 870, 880, 884–85 (four of Shibly).
Defendants’ Response: Do not dispute that
these Plaintiffs have been referred to secondary
inspections on multiple occasions but dispute
that the cited TECS records for Nadia Alasaad
and Bikkannavar indicate that they were
searched 3 or 7 times, respectively. Further
dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
genuine dispute. TECS records indicate that
Nadia Alasaad was subject to three secondary
272a

inspections. See Exh. 47 (filed under seal) at
Bates 338, 350 (July 13, 2017); Bates 363–64
(Feb. 27, 2014); Exh. 48 (filed under seal) at
Bates 360 (Aug. 17, 2015). TECS records
indicate that Bikkannavar was subject to seven
secondary inspections. Exh. 48 (filed under
seal) at Bates 668, 670 (Aug. 27, 2014); Bates
672 (Aug. 4, 2015); Bates 674, 676 (Jan. 2,
2016); Bates 686 (Jan. 4, 2004); Bates 687 (July
22, 2005); Exh. 47 (filed under seal) at Bates
678, 680–82, 684–85 (Jan. 31, 2017); Bates 688
(Oct. 10, 2008). This is a material fact to the
extent that it supports Plaintiffs’ standing. See
Pl. Br. at Part IV.
168.
Seven Plaintiffs are subjected to recurring
bag searches at the border. Exh. 47 (TECS records) at
Bates 348, 365–66 (three of Ghassan Alasaad); Exh.
47 (TECS records) at Bates 348, 910–11 (two of Nadia
Alasaad); Exh. 47 (TECS records) at Bates 395–96,
593, 602– 03 (three of Allababidi in 2017 alone); Exh.
47 (TECS records) at Bates 709–10, 713 (three of
Dupin); Exh. 47 (TECS records) at Bates 299, 306, 915
(three of Kushkush); Exh. 47 (TECS records) at Bates
766, 824–26, 828, 830, 832, 838–39, 843, 845 (six of
Merchant); Exh. 47 (TECS records) at Bates 868, 875,
880 (three of Shibly).
Defendants’ Response: Do not dispute that
these Plaintiffs have been subject to at least one
bag search at the border but dispute that the
cited TECS records for Ghassan Alasaad, Nadia
Alasaad and Dupin indicate that their bags
were searched 3, 2 and 3 times respectively.
Further dispute that this is a material fact.
Plaintiffs’ Reply: Defendants do not raise a
273a

genuine dispute. TECS records indicate that
Ghassan Alasaad was subject to three bag
searches. See Exh. 47 (filed under seal) at Bates
348 (July, 12, 2017); Bates 365 (Sept. 7, 2006);
Bates 366 (Dec. 12, 2005). TECS records
indicate that Nadia Alasaad was subject to at
least one bag search. See id. at Bates 910–11
(Aug. 28, 2017). TECS records indicate that
Dupin was subject to three bag searches. See id.
at Bates 709 (Dec. 22, 2016); Bates 710 (Dec. 23,
2016); Bates 713 (March 6, 2017). This is a
material fact to the extent that it supports
Plaintiffs’ standing. See Pl. Br. at Part IV.
E.
1.

Regular International Travel, Past and
Future
Ghassan and Nadia Alasaad

169.
Ghassan Alasaad has returned to the United
States from an international trip at least 13 times
since January 1, 2013. Exh. 1 (G. Alasaad Dec.) at ¶
22. Nadia Alasaad has done so at least 15 times during
this period. Exh. 2 (N. Alasaad Dec.) at ¶ 27.
Defendants’ Response: No dispute that
Plaintiffs Ghassan and Nadia Alasaad made
these statements in their declarations.
Plaintiffs’ Reply: No dispute.
170.
Ghassan and Nadia Alasaad intend to
continue traveling internationally for personal
reasons, and will carry electronic devices with them
when they do so. Exh. 2 (N. Alasaad Dec.) at ¶¶ 26, 28;
Exh. 1 (G. Alasaad Dec.) at ¶¶ 21, 23. For example, in
the summer of 2019, they intend to travel to Egypt,
Jordan, and/or Turkey. Exh. 1 (G. Alasaad Dec.) at ¶
24; Exh. 2 (N. Alasaad Dec.) at ¶ 29. Likewise, during
274a

the summer of 2019, Nadia Alasaad may travel to
Canada. Exh. 2 (N. Alasaad Dec.) at ¶ 30.
Defendants’ Response: No dispute that
Plaintiffs Ghassan and Nadia Alasaad made
these statements in their declarations but
Defendants lack knowledge of their future
travel plans.
Plaintiffs’ Reply: No dispute.
2.

Suhaib Allababidi

171.
Allababidi has returned to the United States
from an international trip at least seven times since
January 1, 2013. Exh. 3 (Allababidi Dec.) at ¶ 12.
Defendants’ Response: No dispute that
Plaintiff Allababidi made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
172.
Allababidi intends to continue traveling
internationally for business and personal reasons, and
will carry electronic devices with him when he does so.
Id. at ¶¶ 11, 13. For example, he has reserved flights
to Turkey in May and home in July of this year, and
he may visit China later this year. Id. at ¶¶ 14–15.
Defendants’ Response: No dispute that
Plaintiff Allababidi made this statement in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
3.

Sidd Bikkannavar

173.
Bikkannavar has returned to the United
States from an international trip at least 36 times
275a

since January 1, 2013. Exh. 4 (Bikkannavar Dec.) at ¶
17.
Defendants’ Response: No dispute that
Plaintiff Allababidi made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
174.
Bikkannavar intends to continue traveling
internationally for personal reasons, and will carry
electronic devices with him when he does so. Exh. 4
(Bikkannavar Dec.) at ¶¶ 16, 18. For example, he
plans to take eight international trips by September
2020 to participate in solar car races and related
activities. Id. at ¶ 19.
Defendants’ Response: No dispute that
Plaintiff BIkkannavar made this statement in
his declaration but Defendants lack knowledge
of his future travel plans.
Plaintiffs’ Reply: No dispute.
4.

Jérémie Dupin

175.
Dupin has returned to the United States
from an international trip at least 21 times since
January 1, 2013. Exh. 5 (Dupin Dec.) at ¶ 19.
Defendants’ Response: No dispute that
Plaintiff Dupin made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
176.
Dupin intends to continue traveling
internationally for business and personal reasons, and
will carry electronic devices with him when he does so.
Id. at ¶¶ 18, 20. For example, he intends to visit his
daughter in Canada. Id. at ¶ 21. Also, as a journalist,
276a

he intends to travel to Haiti in May or June of 2019,
and he may travel to Venezuela later this year. Id. at
¶ 22.
Defendants’ Response: No dispute that
Plaintiff Dupin made this statement in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
5.

Aaron Gach

177.
Gach has returned to the United States from
an international trip at least seven times since
January 1, 2013. Exh. 6 (Gach Dec.) at ¶ 14.
Defendants’ Response: No dispute that
Plaintiff Gach made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
178.
Gach intends to continue traveling
internationally for business and personal reasons, and
will carry electronic devices with him when he does so.
Id. at ¶¶ 13, 15. For example, he has purchased airline
tickets to Germany in June and home in July. Id. at ¶
16.
Defendants’ Response: No dispute that
Plaintiff Gach made this statement in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
6. Isma’il Kushkush
179.
Kushkush has returned to the United States
from an international trip at least eight times since
277a

January 1, 2013. Exh. 7 (Kushkush Dec.) at ¶ 22.
Defendants’ Response: No dispute that
Plaintiff KushKush made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
180.
Kushkush intends to continue traveling
internationally for his journalism and for personal
reasons, and will carry electronic devices with him
when he does so. Id. at ¶¶ 21, 23.
Defendants’ Response: No dispute that
Plaintiff KushKush made this statement in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
7. Zainab Merchant
181.
Merchant has returned to the United States
from an international trip at least 12 times since
January 1, 2013. Exh. 8 (Merchant Dec.) at ¶ 35.
Defendants’ Response: No dispute that
Plaintiff Merchant made this statement in her
declaration.
Plaintiffs’ Reply: No dispute.
182.
Merchant intends to continue traveling
internationally for professional and personal reasons,
and will carry electronic devices with her when she
does so. Id. at ¶¶ 34, 36. For example, from now
through May 2020, she plans to periodically travel
from her current residence in Canada to her
university in Boston in order to complete graduate
studies. Id. at ¶ 37.

278a

Defendants’ Response: No dispute that
Plaintiff Merchant made this statement in her
declaration but Defendants lack knowledge of
her future travel plans.
Plaintiffs’ Reply: No dispute.
8.

Akram Shibly

183.
Shibly has returned to the United States
from an international trip at least 18 times since
January 1, 2013. Exh. 9 (Shibly Dec.) at ¶ 18.
Defendants’ Response: No dispute that
Plaintiff Shibly made this statement in his
declaration.
Plaintiffs’ Reply: No dispute.
184.
Shibly
plans to
continue
traveling
internationally for business and personal reasons, and
will carry electronic devices with him when he does so.
Id. at ¶¶ 17, 19.
Defendants’ Response: No dispute that
Plaintiff Shibly made this statement in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
9.

Matthew Wright

185.
Wright has returned to the United States
from an international trip at least 22 times since
January 1, 2013. Exh. 10 (Wright Dec.) at ¶ 16.
Defendants’ Response: No dispute that Plaintiff
Wright made this statement in his declaration.

279a

Plaintiffs’ Reply: No dispute.
186.
Wright plans to continue traveling
internationally for personal reasons, and will carry
electronic devices with him when he does so. Id. at ¶¶
15, 17.
Defendants’ Response: No dispute that
Plaintiff Wright made these statements in his
declaration, but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
187.
Wright
attends
ultimate
Frisbee
tournaments outside the United States regularly, and
has attended a tournament in Portugal in June or July
each year for the past five years. Wright’s brother lives
in Scotland, and it is common for him to take at least
one trip a year to visit him there or elsewhere in
Europe. Wright also has a group of friends who enjoy
travel and Wright typically plans a trip or two abroad
each year. Id. at ¶ 17. Wright has booked plane tickets
for one international trip from June 24, 2019 through
July 1, 2019. Id. at ¶ 18.
Defendants’ Response: No dispute that
Plaintiff Wright made these statements in his
declaration but Defendants lack knowledge of
his future travel plans.
Plaintiffs’ Reply: No dispute.
10. Diane Maye Zorri
188.
Zorri has returned to the United States from
an international trip at least 10 times since January
1, 2013. Exh. 11 (Zorri Dec.) at ¶ 11.
Defendants’ Response: No dispute that
280a

Plaintiff Zorri makes this statement in her
declaration.
Plaintiffs’ Reply: No dispute.
189.
Zorri
plans
to
continue
traveling
internationally for professional and personal reasons,
and will carry electronic devices with her when she
does so. Id. at ¶¶ 10, 12. For example, it is
significantly possible that Zorri will travel to Italy in
June or July 2019, and Zorri has tentative plans to
attend conferences in Europe in June and November
2019. Id. at ¶¶ 13–14.
Defendants’ Response: No dispute that
Plaintiff Zorri makes this statement in her
declaration but Defendants lack knowledge of
her future travel plans.
Plaintiffs’ Reply: No dispute.
Respectfully submitted:

Dated: July 3, 2019

281a

Adam Schwartz *
Sophia Cope*
Saira Hussain*
ELECTRONIC
FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109
(415) 436-9333 (phone)
(415) 436-9993 (fax)
adam@eff.org
sophia@eff.org
saira@eff.org
Jessie J. Rossman
BBO #670685
Matthew R. Segal
BBO #654489
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION OF
MASSACHUSETTS
211 Congress Street
Boston, MA 02110
(617) 482-3170 (phone)
(617) 451-0009 (fax)
jrossman@aclum.org
msegal@aclum.org

/s/ Esha Bhandari
Esha Bhandari*
Hugh Handeyside*
Nathan Freed Wessler*
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th
Floor
New York, NY 10004
(212) 549-2500 (phone)
(212) 549-2583 (fax)
ebhandari@aclu.org
hhandeyside@aclu.org
nwessler@aclu.org

*Admitted pro hac vice
Counsel for Plaintiffs

282a

CERTIFICATE OF SERVICE
I certify that on July 3, 2019, a copy of the
foregoing was filed electronically via the Court’s ECF
system, which effects service upon counsel of record.
/s/ Esha Bhandari
Esha Bhandari

283a

APPENDIX G
HOMELAND SECURITY INVESTIGATIONS
Message from the AD of Domestic Operations
May 11, 2018
Legal Update Border Search of Electronic Devices
On May 9, 2018, in United States v. Kolsuz, the U.S.
Court of Appeals for the Fourth Circuit held that the
“forensic” examination of a cell phone is a nonroutine
border search, requiring some measure of
individualized suspicion. — F.3d —, 2018 WL 2122085
(4th Cir. 2018). The court, however, determined that
it need not resolve whether the proper standard
should be reasonable suspicion or probable cause and
a warrant.
Although the Office of the Principal Legal Advisor
(OPLA) advises Homeland Security Investigations
(HSI) nationwide that it should have reasonable
suspicion before performing an advanced search of an
electronic device (any border search of an electronic
device in which external equipment, through a wired
or wireless connection, is connected to an electronic
device not merely to gain access to the device or its
contents but to review, copy, and/or analyze its
contents),
this
decision
creates
binding
precedent in the jurisdiction of the U.S. Court of
Appeals for the Fourth Circuit that at least some
level of individualized suspicion is required for
such searches: the only other circuit to have
284a

required this standard is the Ninth Circuit Court of
Appeals. See U.S. v. Cotterman, 709 F.3d 952 (9th Cir.
2013 (en banc).
Formal policy guidance with regard to border searches
of electronic devices is forthcoming. In the interim, in
order to limit litigation risk, HSI Special Agents and
others authorized by HSI to perform border searches,
even outside of the Fourth and Ninth Circuits, should
no longer perform advanced border searches of
electronic devices without reasonable suspicion. All
factors supporting such a standard should be
documented in reports of investigation.
If you have any questions on this matter, please
contact OPLA imbed counsel.
Limitation on the Applicability of this
Guidance. This message is intended to provide
internal guidance to the operational components of
U.S. Immigration and Customs Enforcement. It does
not, is not intended to, shall not be construed to, and
may not be relied upon to create any rights,
substantive or procedural, enforceable at law by any
person in any matter, civil or criminal.

Thanks,

Tatum King
Assistant Director, Domestic Operations
Homeland Security Investigations
285a

APPENDIX H
U.S. CUSTOMS AND BORDER PROTECTION
CBP
Directive No.
3340-049A

DATE: January 4, 2018
ORIGINATING OFFICE: FO:TO
SUPERSEDES: Directive 3340-049
REVIEW DATE: January 2021

SUBJECT:
BORDER
ELECTRONIC DEVICES

SEARCH

OF

1.
PURPOSE. To provide guidance and
standard operating procedures for searching,
reviewing, retaining, and sharing information
contained in computers, tablets, removable media,
disks, drives, tapes, mobile phones, cameras, music
and other media players, and any other
communication, electronic, or digital devices subject to
inbound and outbound border searches by U.S.
Customs and Border Protection (CBP). These searches
are conducted in furtherance of CBP's customs,
immigration, law enforcement, and homeland security
responsibilities and to ensure compliance with
customs, immigration, and other laws that CBP is
authorized to enforce and administer.
These searches are part of CBP's longstanding
practice and are essential to enforcing the law at the
U.S. border and to protecting border security. They
help detect evidence relating to terrorism and other
national security matters, human and bulk cash
smuggling, contraband, and child pornography. They
can also reveal information about financial and
commercial crimes, such as those relating to
copyright, trademark, and export control violations.
286a

They can be vital to risk assessments that otherwise
may be predicated on limited or no advance
information about a given traveler or item, and they
can enhance critical information sharing with, and
feedback from, elements of the federal government
responsible for analyzing terrorist threat information.
Finally, searches at the border are often integral to a
determination of an individual's intentions upon entry
and provide additional information relevant to
admissibility under the immigration laws.
2

POLICY

2.1
CBP will protect the rights of individuals
against unreasonable search and seizure and ensure
privacy
protections while accomplishing its
enforcement mission.
2.2
All CBP Officers, Border Patrol Agents, Air
and Marine Agents, Office of Professional
Responsibility Agents, and other officials authorized
by CBP to perform border searches shall adhere to the
policy described in this Directive and any
implementing policy memoranda or musters.
2.3
This Directive governs border searches of
electronic devices — including any inbound or
outbound search pursuant to longstanding border
search authority and conducted at the physical border,
the functional equivalent of the border, or the
extended border, consistent with law and agency
policy. For purposes of this Directive, this excludes
actions taken to determine if a device functions (e.g.,
turning a device on and off); or actions taken to
determine if physical contraband is concealed within
287a

the device itself; or the review of information
voluntarily provided by an individual in an electronic
format (e.g., when an individual shows an e-ticket on
an electronic device to an Officer, or when an alien
proffers information to establish admissibility). This
Directive does not limit CBP's authority to conduct
other lawful searches of electronic devices, such as
those performed pursuant to a warrant, consent, or
abandonment,
or
in
response
to
exigent
circumstances; it does not limit CBP's ability to record
impressions relating to border encounters; it does not
restrict the dissemination of information as required
by applicable statutes and Executive Orders.
2.4
This Directive does not govern searches of
shipments containing commercial quantities of
electronic devices (e.g., an importation of hundreds of
laptop computers transiting from the factory to the
distributor).
2.5
This
Directive
does
not
supersede
Restrictions on Importation of Seditious Matter,
Directive 2210-00lA Seditious materials encountered
through a border search should continue to be handled
pursuant to Directive 2210-001A or any successor
thereto.
2.6
This Directive does not supersede Processing
Foreign Diplomatic and Consular Officials, Directive
3340-032. Diplomatic and consular officials
encountered at the border, the functional equivalent
of the border (FEB), or extended border should
continue to be processed pursuant to Directive 3340032 or any successor thereto.

288a

2.7
This Directive applies to searches performed
by or at the request of CBP. With respect to searches
performed by U.S. Immigration and Customs
Enforcement
(ICE),
Homeland
Security
Investigations (HSI) Special Agents exercise
concurrently-held border search authority that is
covered by ICE's own policy and procedures. When
CBP detains, seizes, or retains electronic devices, or
copies of information therefrom, and conveys such to
ICE for analysis, investigation, and disposition (with
appropriate documentation), the conveyance to ICE is
not limited by the terms of this Directive, and ICE
policy will apply upon receipt by ICE.
3.

DEFINITIONS

3.1
Officer. A Customs and Border Protection
Officer, Border Patrol Agent, Air and Marine Agent,
Office of Professional Responsibility Special Agent, or
any other official of CBP authorized to conduct border
searches.
3.2
Electronic Device. Any device that may
contain information in an electronic or digital form,
such as computers, tablets, disks, drives, tapes, mobile
phones and other communication devices, cameras,
music and other media players.
3.3
Destruction.
For
electronic
records,
destruction is deleting, overwriting, or degaussing in
compliance with CBP Information Systems Security
Policies and Procedures Handbook, CIS HB 1400-0SC.
4
AUTHORITY/REFERENCES. 6 U.S.C. §§
122, 202, 211; 8 U.S.C. §§ 1225, 1357, and other
pertinent provisions of the immigration laws and
289a

regulations; 19 U.S.C. §§ 482,507, 1461, 1496, 1581,
1582, 1589a, 1595a(d), and other pertinent provisions
of customs laws and regulations; 31 U.S.C. § 5317 and
other pertinent provisions relating to monetary
instruments; 22 U.S.C. § 401 and other laws relating
to exports; Guidelines for Detention and Seizures of
Pornographic
Materials,
Directive
4410-00lB;
Disclosure of Business Confidential Information to
Third Parties, Directive 1450-015; Accountability and
Control of Custody Receipt for Detained and Seized
Property (CF6051), Directive 5240-005.
The plenary authority of the Federal Government to
conduct searches and inspections of persons and
merchandise crossing our nation's borders is wellestablished and extensive; control of the border is a
fundamental principle of sovereignty. "[T]he United
States, as sovereign, has the inherent authority to
protect, and a paramount interest in protecting, its
territorial integrity." United States v. Flores-Montano,
541 U.S. 149, 153 (2004). "The Government's interest
in preventing the entry of unwanted persons and
effects is at its zenith at the international border.
Time and again, [the Supreme Court has] stated that
'searches made at the border, pursuant to the
longstanding right of the sovereign to protect itself by
stopping and examining persons and property
crossing into this country, are reasonable simply by
virtue of the fact that they occur at the border."' Id. at
152-53 (quoting United States v. Ramsey, 431 U.S.
606,616 (1977)). "Routine searches of the persons and
effects of entrants [into the United States] are not
subject to any requirement of reasonable suspicion,
probable cause, or warrant." United States v. Montoya
de Hernandez, 473 U.S. 531, 538 (1985). Additionally,
290a

the authority to conduct border searches extends not
only to persons and merchandise entering the United
States, but applies equally to those departing the
country. See, e.g., United States v. Boumelhem, 339
F.3d 414, 422-23 (6th Cir. 2003); United States v.
Odutayo, 406 F.3d 386, 391-92 (5th Cir. 2005); United
States v. Oriakhi, 57 F.3d 1290, 1296-97 (4th Cir.
1995); United States v. Ezeiruaku, 936 F.2d 136, 143
(3d Cir. 1991); United States v. Cardona, 769 F.2d
625,629 (9th Cir. 1985); United States v. Udofot, 711
F.2d 831, 839-40 (8th Cir. 1983).
As a constitutional matter, border search authority is
premised in part on a reduced expectation of privacy
associated with international travel. See FloresMontano, 541 U.S. at 154 (noting that ''the
expectation of privacy is less at the border than it is in
the interior"). Persons and merchandise encountered
by CBP at the international border are not only
subject to inspection under U.S. law, they also have
been or will be abroad and generally subject to the
legal authorities of at least one other sovereign. See
Boumelhem, 339 F.3d at 423.
In addition to longstanding federal court precedent
recognizing the constitutional authority of the U.S.
government to conduct border searches, numerous
federal statutes and regulations also authorize CBP to
inspect and examine all individuals and merchandise
entering or departing the United States, including all
types of personal property, such as electronic devices.
See, e.g., 8 U.S.C. §§ 1225, 1357; 19 U.S.C. §§ 482, 507,
1461, 1496, 1581, 1582, 1589a, 1595a; see also 19
C.F.R. § 162.6 ("All persons, baggage, and
merchandise arriving in the Customs territory of the
291a

United States from places outside thereof are liable to
inspection and search by a Customs officer."). These
authorities support CBP's enforcement and
administration of federal law at the border and
facilitate the inspection of merchandise and people to
fulfill the immigration, customs, agriculture, and
counterterrorism missions of the Department. This
includes, among other things, the responsibility to
"ensure the interdiction of persons and goods illegally
entering or exiting the United States"; "detect,
respond to, and interdict terrorists, drug smugglers
and traffickers, human smugglers and traffickers, and
other persons who may undermine the security of the
United States"; "safeguard the borders of the United
States to protect against the entry of dangerous
goods"; "enforce and administer all immigration laws";
"deter and prevent the illegal entry of terrorists,
terrorist weapons, persons, and contraband"; and
"conduct inspections at[] ports of entry to safeguard
the United States from terrorism and illegal entry of
persons." 6 U.S.C. § 211.
CBP must conduct border searches of electronic
devices in accordance with statutory and regulatory
authorities and applicable judicial precedent. CBP's
broad authority to conduct border searches is wellestablished, and courts have rejected a categorical
exception to the border search doctrine for electronic
devices. Nevertheless, as a policy matter, this
Directive imposes certain requirements, above and
beyond
prevailing
constitutional
and
legal
requirements, to ensure that the authority for border
search of electronic devices is exercised judiciously,
responsibly, and consistent with the public trust.

292a

5

PROCEDURES

5.1

Border Searches

5.1.1
Border searches may be performed by an
Officer or other individual authorized to perform or
assist in such searches (e.g., under 19 U.S.C. § 507).
5.1.2
Border searches of electronic devices may
include searches of the information stored on the
device when it is presented for inspection or during its
detention by CBP for an inbound or outbound border
inspection. The border search will include an
examination of only the information that is resident
upon the device and accessible through the device's
operating system or through other software, tools, or
applications. Officers may not intentionally use the
device to access information that is solely stored
remotely. To avoid retrieving or accessing information
stored remotely and not otherwise present on the
device, Officers will either request that the traveler
disable connectivity to any network (e.g., by placing
the device in airplane mode), or, where warranted by
national security, law enforcement, officer safety, or
other operational considerations, Officers will
themselves disable network connectivity. Officers
should also take care to ensure, throughout the course
of a border search, that they do not take actions that
would make any changes to the contents of the device.
5.1.3
Basic Search. Any border search of an
electronic device that is not an advanced search, as
described below, may be referred to as a basic search.
In the course of a basic search, with or without
suspicion, an Officer may examine an electronic device
293a

and may review and analyze information encountered
at the border, subject to the requirements and
limitations provided herein and applicable law.
5.1.4
Advanced Search. An advanced search is any
search in which an Officer connects external
equipment, through a wired or wireless connection, to
an electronic device not merely to gain access to the
device, but to review, copy, and/or analyze its
contents. In instances in which there is reasonable
suspicion of activity in violation of the laws enforced
or administered by CBP, or in which there is a
national security concern, and with supervisory
approval at the Grade 14 level or higher (or a manager
with comparable responsibilities), an Officer may
perform an advanced search of an electronic device.
Many factors may create reasonable suspicion or
constitute a national security concern; examples
include the existence of a relevant national securityrelated lookout in combination with other articulable
factors as appropriate, or the presence of an individual
on a government-operated and government-vetted
terrorist watch list.
5.1.5
Searches of electronic devices will be
documented in appropriate CBP systems, and
advanced searches should be conducted in the
presence of a supervisor. In circumstances where
operational considerations prevent a supervisor from
remaining present for the entire advanced search, or
where supervisory presence is not practicable, the
examining Officer shall, as soon as possible, notify the
appropriate supervisor about the search and any
results thereof.

294a

5.1.6
Searches of electronic devices should be
conducted in the presence of the individual whose
information is being examined unless there are
national security, law enforcement, officer safety, or
other operational considerations that make it
inappropriate to permit the individual to remain
present. Permitting an individual to remain present
during a search does not necessarily mean that the
individual shall observe the search itself. If permitting
an individual to observe the search could reveal law
enforcement techniques or potentially compromise
other operational considerations, the individual will
not be permitted to observe the search itself.
5.2
Review and Handling of Privileged or
Other Sensitive Material
5.2.1
Officers encountering information they
identify as, or that is asserted to be, protected by the
attorney-client privilege or attorney work product
doctrine shall adhere to the following procedures.
5.2.1.1 The Officer shall seek clarification, if
practicable in writing, from the individual asserting
this privilege as to specific files, file types, folders,
categories of files, attorney or client names, email
addresses, phone numbers, or other particulars that
may assist CBP in identifying privileged information.
5.2.1.2 Prior to any border search of files or other
materials over which a privilege has been asserted,
the Officer will contact the CBP Associate/Assistant
Chief Counsel office. In coordination with the CBP
Associate/Assistant Chief Counsel office, which will
coordinate with the U.S. Attorney's Office as needed,
295a

Officers will ensure the segregation of any privileged
material from other information examined during a
border search to ensure that any privileged material
is handled appropriately while also ensuring that CBP
accomplishes its critical border security mission. This
segregation process will occur through the
establishment and employment of a Filter Team
composed of legal and operational representatives, or
through another appropriate measure with written
concurrence of the CBP Associate/Assistant Chief
Counsel office.
5.2.1.3 At the completion of the CBP review, unless
any materials are identified that indicate an
imminent threat to homeland security, copies of
materials maintained by CBP and determined to be
privileged will be destroyed, except for any copy
maintained in coordination with the CBP
Associate/Assistant Chief Counsel office solely for
purposes of complying with a litigation hold or other
requirement of law.
5.2.2
Other possibly sensitive information, such as
medical records and work-related information carried
by journalists, shall be handled in accordance with
any applicable federal law and CBP policy. Questions
regarding the review of these materials shall be
directed to the CBP Associate/Assistant Chief Counsel
office, and this consultation shall be noted in
appropriate CBP systems.
5.2.3
Officers
encountering
business
or
commercial information in electronic devices shall
treat such information as business confidential
information and shall protect that information from
296a

unauthorized disclosure. Depending on the nature of
the information presented, the Trade Secrets Act, the
Privacy Act, and other laws, as well as CBP policies,
may govern or restrict the handling of the
information. Any questions regarding the handling of
business or commercial information may be directed
to the CBP Associate/Assistant Chief Counsel office or
the CBP Privacy Officer, as appropriate.
5.2.4
Information that is determined to be
protected by law as privileged or sensitive will only be
shared with agencies or entities that have
mechanisms in place to protect appropriately such
information, and such information will only be shared
in accordance with this Directive.
5.3
Review and Handling of PasscodeProtected or Encrypted Information
5.3.1
Travelers are obligated to present electronic
devices and the information contained therein in a
condition that allows inspection of the device and its
contents. If presented with an electronic device
containing information that is protected by a passcode
or encryption or other security mechanism, an Officer
may request the individual's assistance in presenting
the electronic device and the information contained
therein in a condition that allows inspection of the
device and its contents. Passcodes or other means of
access may be requested and retained as needed to
facilitate the examination of an electronic device or
information contained on an electronic device,
including information on the device that is accessible
through software applications present on the device
that is being inspected or has been detained, seized, or
297a

retained in accordance with this Directive.
5.3.2
Passcodes and other means of access
obtained during the course of a border inspection will
only be utilized to facilitate the inspection of devices
and information subject to border search, will be
deleted or destroyed when no longer needed to
facilitate the search of a given device, and may not be
utilized to access information that is only stored
remotely.
5.3.3
If an Officer is unable to complete an
inspection of an electronic device because it is
protected by a passcode or encryption, the Officer may,
in accordance with section 5.4 below, detain the device
pending a determination as to its admissibility,
exclusion, or other disposition.
5.3.4
Nothing in this Directive limits CBP's
ability, with respect to any device presented in a
manner that is not readily accessible for inspection, to
seek technical assistance, or to use external
equipment or take other reasonable measures, or in
consultation with the CBP Associate/Assistant Chief
Counsel office to pursue available legal remedies, to
render a device in a condition that allows for
inspection of the device and its contents.
5.4
Detention and Review in Continuation
of Border Search of Information
5.4.1

Detention and Review by CBP

An Officer may detain electronic devices, or copies of
information contained therein, for a brief, reasonable
period of time to perform a thorough border search.
298a

The search may take place on-site or at an off-site
location, and is to be completed as expeditiously as
possible. Unless extenuating circumstances exist, the
detention of devices ordinarily should not exceed five
(5) days. Devices must be presented in a manner that
allows CBP to inspect their contents. Any device not
presented in such a manner may be subject to
exclusion, detention, seizure, or other appropriate
action or disposition.
5.4.1.1 Approval of and Time Frames for Detention.
Supervisory approval is required for detaining
electronic devices, or copies of information contained
therein, for continuation of a border search after an
individual's departure from the port or other location
of detention. Port Director; Patrol Agent in Charge;
Director,
Air
Operations;
Director,
Marine
Operations; Special Agent in Charge; or other
equivalent level manager approval is required to
extend any such detention beyond five (5) days.
Extensions of detentions exceeding fifteen (15) days
must be approved by the Director, Field Operations;
Chief Patrol Agent; Director, Air Operations; Director,
Marine Operations; Special Agent in Charge; or other
equivalent manager, and may be approved and reapproved in increments of no more than seven (7)
days. Approvals for detention and any extension
thereof shall be noted in appropriate CBP systems.
5.4.1.2 Destruction. Except as noted in section 5.5 or
elsewhere in this Directive, if after reviewing the
information pursuant to the time frames discussed in
section 5.4, there is no probable cause to seize the
device or the information contained therein, any
copies of the information held by CBP must be
299a

destroyed, and any electronic device must be returned.
Upon this determination, the copy of the information
will be destroyed as expeditiously as possible, but no
later than seven (7) days after such determination
unless circumstances require additional time, which
must be approved by a supervisor and documented in
an appropriate CBP system and which must be no
later than twenty-one (21) days after such
determination. The destruction shall be noted in
appropriate CBP systems.
5.4.1.3 Notification of Border Search. When a border
search of information is conducted on an electronic
device, the individual subject to search will be notified
of the purpose and authority for such search, how the
individual may obtain more information on reporting
concerns about their search, and how the individual
may seek redress from the agency if he or she feels
aggrieved by a search. If the Officer or other
appropriate CBP official determines that the fact of
conducting this search cannot be disclosed to the
individual transporting the device without impairing
national security, law enforcement, officer safety, or
other operational interests, notification may be
withheld.
5.4.1.4 Custody Receipt. If CBP determines it is
necessary to detain temporarily an electronic device to
continue the search, the Officer detaining the device
shall issue a completed Form 6051D to the individual
prior to the individual's departure.
5.4.2

Assistance

Officers may request assistance that may be needed to
300a

access and search an electronic device and the
information stored therein. Except with respect to
assistance sought within CBP or from ICE, the
following subsections of 5.4.2 govern requests for
assistance.
5.4.2.1 Technical
Assistance.
Officers
may
sometimes need technical assistance to render a
device and its contents in a condition that allows for
inspection. For example, Officers may encounter a
device or information that is not readily accessible for
inspection due to encryption or password protection.
Officers may also require translation assistance to
inspect information that is in a foreign language. In
such situations, Officers may convey electronic
devices or copies of information contained therein to
seek technical assistance.
5.4.2.2 Subject Matter Assistance — With
Reasonable Suspicion or National Security Concern.
Officers may encounter information that requires
referral to subject matter experts to determine the
meaning, context, or value of information contained
therein as it relates to the laws enforced or
administered by CBP. Therefore, Officers may convey
electronic devices or copies of information contained
therein for the purpose of obtaining subject matter
assistance when there is a national security concern
or they have reasonable suspicion of activities in
violation of the laws enforced or administered by CBP.
5.4.2.3 Approvals for Seeking Assistance. Requests
for assistance require supervisory approval and shall
be properly documented and recorded in CBP systems.
If an electronic device is to be detained after the
301a

individual's departure, the Officer detaining the
device shall execute a Form 6051D and provide a copy
to the individual prior to the individual's departure.
All transfers of the custody of the electronic device will
be recorded on the Form 6051D.
5.4.2.4 Electronic devices should be transferred only
when necessary to render the requested assistance.
Otherwise, a copy of data from the device should be
conveyed in lieu of the device in accordance with this
Directive.
5.4.2.5 When an electronic device or information
contained therein is conveyed for assistance, the
individual subject to search will be notified of the
conveyance unless the Officer or other appropriate
CBP official determines, in consultation with the
receiving agency or other entity as appropriate, that
notification would impair national security, law
enforcement, officer safety, or other operational
interests.
If
CBP
seeks
assistance
for
counterterrorism purposes, if a relevant national
security-related lookout applies, or if the individual is
on a government-operated and government-vetted
terrorist watch list, the individual will not be notified
of the conveyance, the existence of a relevant national
security-related lookout, or his or her presence on a
watch list. When notification is made to the
individual, the Officer will annotate the notification in
CBP systems and on the Form 605 lD.
5.4.3

Responses and Time for Assistance

5.4.3.1 Responses Required. Agencies or entities
receiving a request for assistance in conducting a
302a

border search are expected to provide such assistance
as expeditiously as possible. Where subject matter
assistance is requested, responses should include all
appropriate findings, observations, and conclusions
relating to the laws enforced or administered by CBP.
5.4.3.2 Time for Assistance. Responses from
assisting agencies or entities are expected in an
expeditious manner so that CBP may complete the
border search in a reasonable period of time. Unless
otherwise approved by the Director Field Operations;
Chief Patrol Agent; Director, Air Operations; Director,
Marine Operations; Special Agent in Charge; or
equivalent level manager, responses should be
received within fifteen (15) days. If the assisting
agency or entity is unable to respond in that period of
time, the Director Field Operations; Chief Patrol
Agent; Director, Air Operations; Director, Marine
Operations; Special Agent in Charge; or equivalent
level manager may permit extensions in increments of
seven (7) days.
5.4.3.3 Revocation of a Request for Assistance. If at
any time a CBP supervisor involved in a request for
assistance is not satisfied with the assistance
provided, the timeliness of assistance, or any other
articulable reason, the request for assistance may be
revoked, and the CBP supervisor may require the
assisting agency or entity to return to CBP all
electronic devices provided, and any copies thereof, as
expeditiously as possible, except as noted in 5.5.2.3.
Any such revocation shall be documented in
appropriate CBP systems. When CBP has revoked a
request for assistance because of the lack of a timely
response, CBP may initiate the request with another
303a

agency or entity pursuant to the procedures outlined
in this Directive.
5.4.3.4 Destruction. Except as noted in section 5.5.1
below or elsewhere in this Directive, if after reviewing
information, probable cause to seize the device or the
information from the device does not exist, CBP will
retain no copies of the information.
5.5
Retention and Sharing of Information
Found in Border Searches
5.5.1
Retention and Sharing of Information Found
in Border Searches
5.5.1.1 Retention with Probable Cause. Officers may
seize and retain an electronic device, or copies of
information from the device, when, based on a review
of the electronic device encountered or on other facts
and circumstances, they determine there is probable
cause to believe that the device, or copy of the contents
from the device, contains evidence of a violation of law
that CBP is authorized to enforce or administer.
5.5.1.2 Retention of Information in CBP Privacy
Act-Compliant Systems. Without probable cause to
seize an electronic device or a copy of information
contained therein, CBP may retain only information
relating to immigration, customs, and other
enforcement matters if such retention is consistent
with the applicable system of records notice. For
example, information collected in the course of
immigration processing for the purposes of present
and future admissibility of an alien may be retained
in the A-file, Central Index System, TECS, and/or E3

304a

or other systems as may be appropriate and consistent
with the policies governing such systems.
5.5.1.3 Sharing Generally. Nothing in this Directive
limits the authority of CBP to share copies of
information contained in electronic devices (or
portions thereof), which are retained in accordance
with this Directive, with federal, state, local, and
foreign law enforcement agencies to the extent
consistent with applicable law and policy.
5.5.1.4 Sharing of Terrorism Information. Nothing
in this Directive is intended to limit the sharing of
terrorism-related information to the extent the
sharing of such information is authorized by statute,
Presidential Directive, or DHS policy. Consistent with
6 U.S.C. § 122(d)(2) and other applicable law and
policy, CBP, as a component of DHS, will promptly
share any terrorism information encountered in the
course of a border search with entities of the federal
government responsible for analyzing terrorist threat
information. In the case of such terrorism information
sharing, the entity receiving the information will be
responsible for providing CBP with all appropriate
findings, observations, and conclusions relating to the
laws enforced by CBP. The receiving entity will be
responsible for managing retention and disposition of
information it receives in accordance with its own
legal authorities and responsibilities.
5.5.1.5 Safeguarding Data During Storage and
Conveyance. CBP will appropriately safeguard
information retained, copied, or seized under this
Directive and during conveyance. Appropriate
safeguards include keeping materials in locked
305a

cabinets or rooms, documenting and tracking copies to
ensure appropriate disposition, and other safeguards
during conveyance such as password protection or
physical protections. Any suspected loss or
compromise of information that contains personal
data retained, copied, or seized under this Directive
must be immediately reported to the CBP Office of
Professional Responsibility and to the Port Director;
Patrol Agent in Charge; Director, Air Operations;
Director, Marine Operations; Special Agent in
Charge; or equivalent level manager.
5.5.1.6 Destruction. Except as noted in this section
or elsewhere in this Directive, if after reviewing
information, there exists no probable cause to seize
the information, CBP will retain no copies of the
information.
5.5.2
Retention by Agencies or Entities Providing
Technical or Subject Matter Assistance
5.5.2.1 During Assistance. All electronic devices, or
copies of information contained therein, provided to an
assisting agency or entity may be retained for the
period of time needed to provide the requested
assistance to CBP or in accordance with section 5.5.2.3
below.
5.5.2.2 Return or Destruction. CBP will request
that at the conclusion of the requested assistance, all
information be returned to CBP as expeditiously as
possible, and that the assisting agency or entity advise
CBP in accordance with section 5.4.3 above. In
addition, the assisting agency or entity should destroy
all copies of the information conveyed unless section
306a

5.5.2.3 below applies. In the event that any electronic
devices are conveyed, they must not be destroyed; they
are to be returned to CBP unless seized by an assisting
agency based on probable cause or retained per
5.5.2.3.
5.5.2.3 Retention with Independent Authority. If
an assisting federal agency elects to continue to retain
or seize an electronic device or information contained
therein, that agency assumes responsibility for
processing the retention or seizure. Copies may be
retained by an assisting federal agency only if and to
the extent that it has the independent legal authority
to do so — for example, when the information relates
to terrorism or national security and the assisting
agency is authorized by law to receive and analyze
such information. In such cases, the retaining agency
should advise CBP of its decision to retain information
under its own authority.
5.6

Reporting Requirements

5.6.1
The Officer performing the border search of
information shall be responsible for completing all
after-action
reporting
requirements.
This
responsibility includes ensuring the completion of all
applicable documentation such as the Form 6051D
when appropriate, and creation and/or updating
records in CBP systems. Reports are to be created and
updated in an accurate, thorough, and timely manner.
Reports must include all information related to the
search through the final disposition including
supervisory approvals and extensions when
appropriate.

307a

5.6.2
In instances where an electronic device or
copy of information contained therein is forwarded
within CBP as noted in section 5.4.1, the receiving
Officer is responsible for recording all information
related to the search from the point of receipt forward
through the final disposition.
5.6.3
Reporting requirements for this Directive
are in addition to, and do not replace, any other
applicable reporting requirements.
5.7

Management Requirements

5.7.1
The duty supervisor shall ensure that the
Officer completes a thorough inspection and that all
notification,
documentation,
and
reporting
requirements are accomplished.
5.7.2
The appropriate CBP second-line supervisor
shall approve and monitor the status of the detention
of all electronic devices or copies of information
contained therein.
5.7.3
The appropriate CBP second-line supervisor
shall approve and monitor the status of the transfer of
any electronic device or copies of information
contained therein for translation, decryption, or
subject matter assistance from another agency or
entity.
5.7.4
The Director, Field Operations; Chief Patrol
Agent; Director, Air Operations; Director, Marine
Operations; Special Agent in Charge; or equivalent
level manager shall establish protocols to monitor the
proper documentation and recording of searches
conducted pursuant to this Directive and the
308a

detention, transfer, and final disposition of electronic
devices or copies of information contained therein in
order to ensure compliance with the procedures
outlined in this Directive.
5.7.5
Officers will ensure, in coordination with
field management as appropriate, that upon receipt of
any subpoena or other request for testimony or
information regarding the border search of an
e1ectromc device in any litigation or proceeding,
notification is made to the appropriate CBP
Associate/Assistant Chief Counsel office.
6
MEASUREMENT. CBP Headquarters will
continue to develop and maintain appropriate
mechanisms to ensure that statistics regarding border
searches of electronic devices, and the results thereof,
can be generated from CBP systems using data
elements entered by Officers pursuant to this
Directive.
7
AUDIT. CBP Management Inspection will
develop and periodically administer an auditing
mechanism to review whether border searches of
electronic devices are being conducted in conformity
with this Directive.
8
NO PRIVATE RIGHT CREATED. This
Directive is an internal policy statement of U.S.
Customs and Border Protection and does not create or
confer any rights, privileges, or benefits on any person
or party.
9
REVIEW. This Directive shall be reviewed
and updated, as necessary, at least every three years.

309a

10
DISCLOSURE. This Directive may be
shared with the public.
11
SUPERSEDES. Procedures for Border
Search/Examination of Documents, Paper, and
Electronic Information (July 5, 2007) and Policy
Regarding Border Search of Information (July 16,
2008), to the extent they pertain to electronic devices;
CBP Directive No. 3340-049, Border Searches of
Electronic Devices Containing Information (August
20, 2009).

Acting Commissioner

310a

APPENDIX I
U.S. IMMIGRATION AND CUSTOMS
ENFORCEMENT ICE POLICY SYSTEM
DISTRIBUTION:
DIRECTIVE NO.:
ISSUE DATE:
EFFECTIVE DATE:
REVIEW DATE:
SUPERSEDES:
DIRECTIVE TITLE:
1.

ICE
7-6.1
August 18, 2009
August 18, 2009
August 18, 2012
See Section 3 Below.
BORDER SEARCHES OF
ELECTRONIC DEVICES

PURPOSE and SCOPE.

1.1. This Directive provides legal guidance and
establishes policy and procedures within U.S.
Immigration and Customs Enforcement (ICE)
with regard to border search authority to search,
detain, seize, retain, and share information
contained in electronic devices possessed by
individuals at the border, the functional
equivalent of the border, and the extended border
to ensure compliance with customs, immigration,
and other laws enforced by ICE. This Directive
applies to searches of electronic devices of all
persons arriving in, departing from, or transiting
through the United States, unless specified
otherwise.
1.2. This Directive applies to border search authority
only. Nothing in this Directive limits the
authority of ICE Special Agents to act pursuant
to other authorities such as a warrant, a search
311a

incident to arrest, or a routine inspection of an
applicant for admission.
2.

AUTHORITIES/REFERENCES. 8 U.S.C. §
1357 and other pertinent provisions of the
immigration laws and regulations; 19 U.S.C. §§
482,507, 1461, 1496, 1581, 1582, 1589a, 1595a(d),
and other pertinent provisions of customs laws
and regulations; 31 U.S.C. § 5317 and other
pertinent provisions relating to monetary
instruments; 22 U.S.C. § 401 and other laws
relating to exports; and the December 12, 2008,
ICE Office of Investigations (OI) guidance
entitled "Recordkeeping Procedures Regarding
Detentions of Documents and Electronic
Devices."

3.

SUPERSEDED/CANCELLED
POLICY/SUMMARY OF CHANGES. ICE
Directive No. 7-6.0 entitled "Border Searches of
Documents and Electronic Media" is hereby
superseded as it relates to electronic devices.
Additionally, all other issuances on this subject
issued by ICE prior to the date of this Directive
are hereby superseded as they relate to searches
of electronic devices, with the exception of the
March 5, 2007, OI guidance entitled "Field
Guidance on Handling Detained or Seized
Electronic Media from Persons of National
Security Interest at Ports of Entry" and the
December 12, 2008, OI guidance entitled
"Recordkeeping
Procedures
Regarding
Detentions of Documents and Electronic Media.”

4.

BACKGROUND.

ICE
312a

is

responsible

for

ensuring compliance with customs, immigration,
and other Federal laws at the border. To that
end, Special Agents may review and analyze
computers, disks, hard drives, and other
electronic or digital storage devices. These
searches are part of ICE's long-standing practice
and are essential to enforcing the law at the
United States border. Searches of electronic
devices are a crucial tool for detecting
information concerning terrorism, narcotics
smuggling, and other national security matters;
alien admissibility; contraband including child
pornography; laundering monetary instruments;
violations of copyright or trademark laws; and
evidence of embargo violations or other import or
export control laws.
5.

DEFINITIONS. The following definitions are
provided for the purposes of this Directive:

5.1. Assistance. The use of third party analytic
resources such as language processing,
decryption, and subject matter expertise, to
assist ICE in viewing the information contained
in electronic devices or in determining the
meaning, context, or value of information
contained therein.
5.2. Electronic Devices. Any item that may contain
information, such as computers, disks, drives,
tapes, mobile phones and other communication
devices, cameras, music players, and any other
electronic or digital devices.

313a

6.

POLICY.

6.1. ICE Special Agents acting under border search
authority may search, detain, seize, retain, and
share electronic devices, or information
contained therein, with or without individualized
suspicion, consistent with the guidelines and
applicable laws set forth herein. Assistance to
complete a border search may be sought from
other Federal agencies and non-Federal entities,
on a case by case basis, as appropriate.
6.2. When U.S. Customs and Border Protection (CBP)
detains, seizes, or retains electronic devices, or
copies of information therefrom, and turns such
over to ICE for analysis and investigation (with
appropriate documentation), ICE policy will
apply once it is received by ICE.
6.3. Nothing in this policy limits the authority of
Special Agents to make written notes or reports
or to document impressions relating to a border
encounter in ICE's paper or electronic
recordkeeping systems.
7.

RESPONSIBILITIES.

7.1. The Directors of OI, the Office of Professional
Responsibility (OPR), and the Office of
International Affairs (OIA) have oversight over
the implementation of the provisions of this
Directive.
7.2. Special Agents in Charge (SACs) and Attachés
are responsible for:

314a

1)

Implementing the provisions of this
Directive and ensuring that Special Agents
in their area of responsibility (AOR) receive
a copy of this Directive and are familiar with
its contents;

2)

Ensuring that Special Agents in their AOR
have completed any training programs
relevant to border searches of electronic
devices, including constitutional, privacy,
civil rights, and civil liberties training
related to such searches, as may be required
by ICE Headquarters; and

3)

Maintaining appropriate mechanisms for
internal audit and review of compliance
with the procedures outlined in this
Directive. (See "Recordkeeping Procedures
Regarding Detentions of Documents and
Electronic Devices" memo dated December
12, 2008.)

7.3. Attachés
are
responsible
for
ensuring
coordination with their host countries, as
appropriate, before conducting any such border
search outside of the United States.
7.4. When ICE receives electronic devices, or copies of
information therefrom, from CBP for analysis
and investigation, ICE Special Agents are
responsible for advising CBP of the status of any
such analysis within 10 calendar days, and
periodically thereafter, so that CBP records may
be updated as appropriate. For example, “search
ongoing”; “completed with negative results”;
315a

“returned to traveler”; or "seized as evidence of a
crime."
7.5. Special Agents are responsible for complying
with the provisions of this Directive, knowing the
limits of ICE authority, using this authority
judiciously, and ensuring comprehension and
completion of any training programs relevant to
border searches of electronic devices as may be
required by ICE.
8.

PROCEDURES.

8.1. Border Searches by ICE Special Agents.
1)

Authorization to Conduct Border Search.
Border searches of electronic devices must
be performed by an ICE Special Agent who
meets the definition of "customs officer"
under 19 U.S.C. § 1401(i), or another
properly authorized officer with border
search authority, such as a CBP Officer or
Border Patrol Agent, persons cross
designated by ICE as customs officers, and
persons whose assistance to ICE is
demanded under 19 U.S.C. § 507.

2)

Knowledge and Presence of the Traveler. To
the extent practicable, border searches
should be conducted in the presence of, or
with the knowledge of, the traveler. When
not practicable due to law enforcement,
national security, or other operational
concerns, such circumstances are to be noted
by the Special Agent in appropriate ICE
systems. Permitting an individual to be
316a

present in the room during a search does not
necessarily mean that the individual will be
permitted to witness the search itself. If
permitting an individual to witness the
search itself could reveal law enforcement
techniques or potentially compromise other
operational concerns, the individual will not
be permitted to observe the search.
3)

Consent Not Needed. At no point during a
border search of electronic devices is it
necessary to ask the traveler for consent to
search.

4)

Continuation of the Border Search. At any
point during a border search, electronic
devices, or copies of information therefrom,
may be detained for further review either
on-site at the place of detention or at an offsite location, including a location associated
with a demand for assistance from an
outside agency or entity (see Section 8.4).

5)

Originals. In the event electronic devices are
detained, the Special Agent should consider
whether it is appropriate to copy the
information therefrom and return the
device. When appropriate, given the facts
and circumstances of the matter, any such
device should be returned to the traveler as
soon as practicable. Consultation with the
Office of the Chief Counsel is recommended
when determining whether to retain a
device in an administrative immigration
proceeding. Devices will be returned to the
317a

traveler as expeditiously as possible at the
conclusion of a negative border search.
8.2. Chain of Custody.
1)

Detentions of electronic devices. Whenever
ICE detains electronic devices, or copies of
information therefrom, the Special Agent
will initiate the correct chain of custody
form or other appropriate documentation.

2)

Seizures of electronic devices for criminal
purposes. Whenever ICE seizes electronic
devices, or copies of information therefrom,
the Special Agent is to enter the seizure into
the appropriate ICE systems. Additionally,
the seizing agent must complete the correct
chain of custody form or other appropriate
documentation.

3)

Retention of electronic devices for
administrative
immigration
purposes.
Whenever ICE retains electronic devices, or
copies of information therefrom, or portions
thereof, for administrative immigration
purposes pursuant to 8 U.S.C. § 1357, the
Special Agent is to record such retention in
appropriate ICE systems and is to include
the location of the retained files, a summary
thereof, and the purpose for retention.

4)

Notice to traveler. Whenever ICE detains,
seizes, or retains original electronic devices,
the Special Agent is to provide the traveler
with a copy of the applicable chain of

318a

custody form
documentation.
8.3.

or

other

appropriate

Duration of Border Search.

1)

Special Agents are to complete the search of
detained electronic devices, or copies of
information therefrom, in a reasonable time
given the facts and circumstances of the
particular search. Searches are generally to
be completed within 30 calendar days of the
date of detention, unless circumstances
exist that warrant more time. Such
circumstances must be documented in the
appropriate ICE systems. Any detention
exceeding 30 calendar days must be
approved by a Group Supervisor or
equivalent, and approved again every 15
calendar days thereafter, and the specific
justification for additional time documented
in the appropriate ICE systems.

2)

Special Agents seeking assistance from
other Federal agencies or non-Federal
entities are responsible for ensuring that
the results of the assistance are received in
a reasonable time (see Section 8.4(5)).

3)

In determining "reasonable time," courts
have reviewed the elapsed time between the
detention and the completion of the border
search, taking into account any additional
facts and circumstances unique to the case.
As such, ICE Special Agents are to
document the progress of their searches, for
319a

devices and copies of information therefrom,
and should consider the following factors:

8.4.
1)

a)

The amount of information needing
review;

b)

Whether the traveler was deprived of
his or her property and, if so, whether
the traveler was given the option of
continuing his or her journey with the
understanding that ICE would return
the property once its border search was
complete or a copy could be made;

c)

Whether assistance was sought and the
type of such assistance;

d)

Whether and when ICE followed up
with the agency or entity providing
assistance to ensure a timely review;

e)

Whether the traveler has taken
affirmative steps to prevent the search
of his or her property in a timely
fashion; and

f)

Any unanticipated exigency that may
arise.

Assistance by Other Federal Agencies
and Non-Federal Entities.
Translation,
Decryption,
Technical Assistance.
a)

and

Other

During a border search, Special Agents
320a

may
encounter
information
in
electronic devices that presents
technical difficulties, is in a foreign
language, and/or encrypted. To assist
ICE in conducting a border search or in
determining the meaning of such
information, Special Agents may
demand translation, decryption, and/or
technical assistance from other Federal
agencies or non-Federal entities.
b)

Special Agents may demand such
assistance
absent
individualized
suspicion.

c)

Special Agents shall document such
demands in appropriate ICE systems.

2) Subject Matter Assistance.
a)

During a border search, Special Agents
may
encounter
information
in
electronic devices that are not in a
foreign language or encrypted, or that
do not require other technical
assistance, in accordance with Section
8.4(1), but that nevertheless requires
referral to subject matter experts to
determine whether the information is
relevant to the laws enforced and
administered by ICE. For the purpose
of obtaining such subject matter
expertise, Special Agents may create
and transmit a copy of such

321a

information to other Federal agencies
or non-Federal entities.
b)

Special Agents may demand such
assistance when they have reasonable
suspicion of activities in violation of the
laws enforced by ICE.

c)

Special Agents shall document such
demands in appropriate ICE systems.

3) Demand
Letter.
Unless
otherwise
governed
by
a
Memorandum
of
Understanding or similar mechanism, each
demand for assistance is to be in writing
(e.g., letter or email), approved by a
supervisor, and documented in the
appropriate ICE systems. Demands are to
detail the context of the search requested,
ICE's legal parameters regarding the
search, retention, and sharing of any
information found during the assistance,
and relevant timeframes, including those
described in this Directive.
4) Originals. For the purpose of obtaining
subject matter assistance, Special Agents
may create and transmit copies of
information to other Federal agencies or
non-Federal entities. Original electronic
devices should be transmitted only when
necessary to render the demanded
assistance.
5) Time for
Required.

Assistance

322a

and

Responses

a)

Assistance is to be accomplished
within a reasonable period of time in
order to preserve the status of the
electronic devices and the integrity of
the border search.

b)

It is the responsibility of the Special
Agent demanding the assistance to
ensure
timely
responses
from
assisting agencies or entities and to
act in accord with section 8.3 of this
Directive. In addition, Special Agents
shall:
i) Inform assisting agencies or entities
that they are to provide results of
assistance as expeditiously as
possible;
ii) Ensure that assisting agencies and
entities are aware that responses to
ICE must include any findings,
observations,
and
conclusions
drawn from their review that may
relate to the laws enforced by ICE;
iii) Contact the assisting agency or
entity to get a status report on the
demand within the first 30 calendar
days;
iv) Remain in communication with the
assisting agency or entity until
results are received;
v) Document all communications and

323a

actions in appropriate ICE systems;
and
vi) Consult with a supervisor to
determine appropriate action if the
timeliness of results is a concern. If
a demand for assistance is revoked,
the Special Agent is to ensure all
electronic devices are returned to
ICE as expeditiously as possible.

8.5.
1)

Retention, Sharing, Safeguarding, And
Destruction.
By ICE
a)

Seizure and Retention with Probable
Cause. When Special Agents determine
there is probable cause of unlawful
activity-based on a
review of
information in electronic devices or on
other facts and circumstances-they
may seize and retain the electronic
device or copies of information
therefrom, or relevant portions thereof,
as authorized by law.

b)

Retention of Information in ICE
Systems. To the extent authorized by
law, ICE may retain information
relevant to immigration, customs, and
other law enforcement matters in ICE
systems if such retention is consistent
with the privacy and data protection
policies of the system in which such
information is retained. For example,
324a

information entered into TECS during
the course of an investigation will be
retained consistent with the policies
governing TECS.
c)

Sharing. Copies of information from
electronic devices, or portions thereof,
which are retained in accordance with
this section, may be shared by ICE with
Federal, state, local, and foreign law
enforcement agencies in accordance
with applicable law and policy. Sharing
must be in compliance with the Privacy
Act and applicable ICE privacy policies,
such as the ICE Search, Arrest, and
Seizure System of Records Notice.

d)

Safeguarding Data During Storage and
Transmission. ICE will appropriately
safeguard
information
detained,
copied, retained, or seized under this
directive while in ICE custody and
during transmission to an outside
entity. Appropriate safeguards include
keeping materials in locked cabinets or
rooms, documenting and tracking
originals and copies to ensure
appropriate
disposition,
and
appropriate
safeguards
during
transmission such as encryption of
electronic data or physical protections
(e.g., locked containers). Any suspected
loss or compromise of information that
contains personal data detained,
copied, or seized under this directive
325a

must be reported immediately to the
ICE Service Desk.
e)

2)

Destruction. Copies of information
from electronic devices, or portions
thereof, determined to be of no
relevance to ICE will be destroyed in
accordance with ICE policy governing
the particular form of information.
Such destruction must be accomplished
by the responsible Special Agent within
seven business days after conclusion of
the border search unless circumstances
require additional time, which must be
approved by a supervisor and
documented in appropriate ICE
systems. All destructions must be
accomplished no later than 21 calendar
days after conclusion of the border
search.

By Assisting Agencies
a)

Retention during Assistance. All
electronic devices, whether originals or
copies of information therefrom,
provided to an assisting Federal agency
may be retained by that agency for the
period of time needed to provide the
requested assistance to ICE.

b)

Return or Destruction. At the
conclusion of the requested assistance,
all electronic devices and data must be
returned to ICE as expeditiously as
326a

possible. In the alternative, the
assisting Federal agency may certify to
ICE that any copies in its possession
have been destroyed or it may advise
ICE in accordance with Section
8.5(2)(c). In the event that any original
electronic devices were transmitted,
they must not be destroyed; they are to
be returned to ICE.
c)

3)

Retention with Independent Authority.
Copies may be retained by an assisting
Federal agency only if and to the extent
that it has the independent legal
authority to do so - for example, when
the information is of national security
or intelligence value. In such cases, the
retaining agency must advise ICE of its
decision to retain certain information
on its own authority. In the event that
any original electronic devices were
transmitted, the assisting Federal
agency may make a copy of information
therefrom for its retention; however,
any originals must be returned to ICE.

By Non-Federal Entities
a)

ICE may provide copies of information
from electronic devices to an assisting
non-Federal entity, such as a private
language
translation
or
data
decryption service, only for the period
of time needed by that entity to render
the requested assistance.
327a

b)

Upon the completion of assistance, all
copies of the information in the
possession of the entity must be
returned to ICE as expeditiously as
possible. Any latent copies of the
electronic data on the systems of the
non-Federal entity must also be
destroyed so that recovery of the data
is impractical.

8.6. Review, Handling, and Sharing of Certain
Types of Information.
1)

Border Search. All electronic devices
crossing U.S. borders are subject to border
search; a claim of privilege or personal
information does not prevent the search of a
traveler's information at the border.
However, the nature of certain types of
information are subject to special handling
by Special Agents, whether through policy
or laws such as the Privacy Act and the
Trade Secrets Act.

2)

Types of Information
a)

Business or Commercial Information.
If, in the course of a border search,
Special Agents encounter business or
commercial
information,
such
information is to be treated as business
confidential information. Depending on
the nature of the information
presented, the Trade Secrets Act, the
Privacy Act, and other laws may
328a

specifically govern or restrict handling
of the information, including criminal
penalties for unauthorized disclosure.
b)

Legal Information. Special Agents may
encounter information that appears to
be legal in nature, or an individual may
assert that certain information is
protected by the attorney-client or
attorney work product privilege. If
Special Agents suspect that the content
of such a document may constitute
evidence of a crime or otherwise
pertain to a determination within the
jurisdiction of ICE, the ICE Office of
the Chief Counsel or the appropriate
U.S. Attorney's Office must be
contacted
before
beginning
or
continuing a search of the document
and this consultation shall be noted in
appropriate ICE systems.

c)

Other Sensitive Information. Other
possibly sensitive information, such as
medical records and work-related
information carried by journalists shall
be handled in accordance with all
applicable federal law and ICE policy.
Although there is no Federal legal
privilege pertaining to the doctorpatient relationship, the inherent
nature
of
medical
information
warrants special care for such records.
Questions regarding the review of
these materials shall be directed to the
329a

ICE Office of the Chief Counsel and
this consultation shall be noted in
appropriate ICE systems.
3)

Sharing. Information that is determined to
be protected by law as privileged or sensitive
is to be handled consistent with the laws and
policies governing such information.

8.7 Measurement. ICE Headquarters will develop
appropriate mechanisms to ensure that statistics
regarding border searches of electronic devices,
and the results thereof, can be generated from
ICE systems using data elements entered by
Special Agents pursuant to this Directive.
8.8 Audit. ICE Headquarters will develop and
periodically administer an auditing mechanism
to review whether border searches of electronic
devices are being conducted in conformity with
this Directive.
9.

ATTACHMENTS. None.

10. NO PRIVATE RIGHT STATEMENT. This
Directive is an internal policy statement of ICE.
It is not intended to, and does not create any
rights, privileges, or benefits, substantive or
procedural, enforceable by any party against the
United States, its departments, agencies, or
other entities, its officers or employees; or any
other person.

330a

Approved
John Morton
Assistant Secretary
U.S. Immigration and Customs Enforcement

331a

APPENDIX J
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
No. 17-cv-11730-DJC
____
GHASSAN ALASAAD, et al.,
Plaintiffs,
v.
ALEJANDRO N. MAYORKAS, Secretary of the U.S.
Department of Homeland Security, in his official
capacity, TROY MILLER, Senior Official Performing
the Duties of the Commissioner of U.S. Customs and
Border Protection, in his official capacity, and TAE
D. JOHNSON, Acting Director, U.S. Immigration
and Customs Enforcement, in his official capacity.
Defendants.
_____
Hon. DENISE J. CASPER
April 21, 2021

FINAL JUDGMENT
Pursuant to Federal Rule of Civil Procedure 58, the
Opinion of the Court of Appeals for the First Circuit,
ECF No. 123, the Judgment of the Court of Appeals
for the First Circuit, ECF No. 124, and the Mandate
of the Court of Appeals for the First Circuit, ECF No.
125,
IT IS HEREBY ORDERED, ADJUDGED, AND
332a

DECREED that,
1. Judgment is entered for Defendants;
2. All Declaratory and Injunctive relief previously
ordered by the Court, ECF No. 112, is vacated.
SO ORDERED.

Denise J. Casper
United States District Court Judge

333a

